<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2013</title>
<body><pre>[Senate Hearing 113-]
[From the U.S. Government Publishing Office]



 
    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2013

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's note.--The subcommittee was unable to hold 
hearings on nondepartmental witnesses. The statements and 
letters of those submitting written testimony are as follows:]

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

     Prepared Statement of the American Society of Civil Engineers
    Madam Chair and members of the subcommittee: The American Society 
of Civil Engineers (ASCE) is pleased to provide this statement for the 
record on the proposed budgets of the U.S. Army Corps of Engineers 
(USACE) and the Bureau of Reclamation (BOR) for fiscal year 2013.
                      u.s. army corps of engineers
    The fiscal year 2013 budget provides $4.7 billion, a decrease of 
more than 5 percent from the fiscal year 2012 enacted level of $5 
billion. The President's budget for fiscal year 2013 is inadequate to 
meet the needs of an aging waterways infrastructure and must be 
increased. The Congress must expand funding for fiscal year 2013.
    The fiscal year 2013 budget plan released by the House Budget 
Committee last week would further erode the Nation's ability to rebuild 
its aging water resources infrastructure by reducing total outlays in 
fiscal year 2013 by $94 billion.
    Under the Budget Control Act of 2011, the Congress has $1.047 
trillion in new discretionary budget authority for fiscal year 2013, 
with $686 billion set aside for security programs (defense, 
intelligence, and homeland security) and $361 billion for all domestic 
discretionary spending.
    ASCE recommends a minimum appropriation of $5.2 billion for USACE 
in fiscal year 2013 to account for inflation and to halt the decline in 
budget authority to ensure safe infrastructure and a sound economy.
    The administration proposal for fiscal year 2013 would reduce 
construction funding from $1.694 billion to $1.471 billion, a reduction 
of 13 percent. Operations and maintenance funding would be down 
slightly from $2.412 billion to $2.398 billion. The Mississippi River 
and Tributaries account would decline from $252 million to $234 million 
or 7 percent. Investigations--the money used to complete project 
feasibility studies--would go from $125 million to $102 million, a 
decline of 18 percent. In all, the Civil Works program budget for 
fiscal year 2013 would be cut from $5.002 billion in fiscal year 2012 
to $4.731 billion in fiscal year 2013, an overall reduction of 5.4 
percent.
    In 2005, Hurricane Katrina vividly demonstrated the perils of 
relying upon poorly funded infrastructure to protect lives and 
property. An ASCE investigation (conducted on behalf of USACE) reported 
in 2007 that chronic under funding was one of the principal causes of 
the levee failures after Katrina.

    ``Because of the congressional budgeting process, the stream of 
funding for the New Orleans hurricane protection system was irregular 
at best. If a project was not sufficiently funded, the USACE was often 
required to delay implementation or to scale back the project.
    This push-pull mechanism for the funding of critical life-safety 
structures such as the New Orleans hurricane protection system is 
essentially flawed. The process creates a disconnect between those 
responsible for design and construction decisions and those responsible 
for managing the purse-strings. Inevitably, the pressure for tradeoffs 
and low-cost solutions compromised quality, safety, and reliability.
    The project-by-project approach--in which projects are built over 
time based on the availability of funding--resulted in the hurricane 
protection system being constructed piecemeal with an overall lack of 
attention to `system' issues. The project-by-project approach appears 
to be associated with congressional limitations. The USACE was forced 
into a `reductionist's' way of thinking: reduce the problem into one 
that can be solved within the given authority and budget. Focus only on 
the primary problem to be solved, inevitably making the issues of risk, 
redundancy, and resilience a lower priority.''

American Society of Civil Engineers, The New Orleans Hurricane 
Protection System 71-72 (2007).

    With this proposed budget, USACE would continue to suffer from 
under investment in essential infrastructure systems. If allowed to 
continue, this trend likely will result in ever greater system failures 
and the consequent expenditure of tens of billions of dollars to 
rebuild what could have been built more economically in the first 
instance.
    In the face of USACE's aging infrastructure needs, the President's 
budget for the Civil Works program in fiscal year 2013 reduces Federal 
investments in vital national civil works systems. Moreover, the 
negative budgeting trend is not likely to improve in future years. 
USACE estimates that its budget proposals will continue to decline 
through fiscal year 2015. USACE expects that inflation will reduce 
actual spending on key infrastructure programs by a further $3 billion 
over the next 5 years. ASCE believes that these levels of spending are 
inadequate to meet the Nation's security, economic, and environmental 
demands in the 21st century.
                   the harbor maintenance trust fund
    The Harbor Maintenance Revenue Act authorizes expenditures from the 
Harbor Maintenance Trust Fund (HMTF) to finance up to 100 percent of 
eligible USACE harbor operation and maintenance costs, including the 
operation and maintenance of Great Lakes navigation projects.
    The fund fully finances eligible operation and maintenance costs of 
the Saint Lawrence Seaway Development Corporation. The Water Resources 
Development Act of 1996 authorizes the fund to pay the Federal share of 
the costs for the construction of dredged material disposal facilities 
that are necessary for the operation and maintenance of coastal or 
inland harbors, the dredging and disposal of contaminated sediments 
that are in or affect the operation and maintenance of Federal 
navigation channels, the mitigation of impacts resulting from Federal 
navigation operation and maintenance activities, and the operation and 
maintenance of dredged material disposal facilities.
    The dredging of the Nation's ports and harbors has suffered from 
years of under investment in a system that is critical to America's 
ability to compete in the global marketplace. For fiscal year 2013 the 
administration has requested $839 million be appropriated from the 
HMTF--only 50 percent of total estimated revenues. Total revenues are 
now estimated at $1.659 billion for fiscal year 2013. The busiest U.S. 
harbors are presently under maintained. USACE estimates that full 
channel dimensions at the Nation's busiest 59 ports are available less 
than 35 percent of the time. This situation can increase the cost of 
shipping as vessels carry less cargo in order to reduce their draft or 
wait for high tide before transiting a harbor. It could also increase 
the risk of a ship grounding or collision.
    The fiscal year 2013 budget request does not come close to meeting 
the requirements of the Nation's ports and harbors, which have an 
annual need for maintenance dredging of between $1.3 and $1.6 billion, 
according to USACE.
    This trend toward reduced investments in our ports and harbors has 
led to ever greater balances in the HMTF, and the unexpended balance in 
the Trust Fund is growing with a bookkeeping balance of more than $8 
billion by September 30, 2013, according to the Office of Management 
and Budget.\1\
---------------------------------------------------------------------------
    \1\ We recognize that none of the U.S. Army Corps of Engineers' 
funding for ports and harbors is appropriated directly from the HMTF. 
The money is appropriated from the General Fund of the Treasury. The 
HMTF then reimburses the General Treasury for the actual dollars 
expended on projects that are eligible to receive funding through the 
HMTF.
---------------------------------------------------------------------------
    As a result, the great majority of our Nation's harbors--including 
8 of the top 10 largest ports--are not being maintained to their fully 
authorized width and depth. Ships carrying U.S. goods must ``light-
load'', thus increasing the costs of the goods and decreasing American 
competitiveness in the global economy.
    This subcommittee should appropriate $1.6 billion from the HMTF in 
fiscal year 2013.
                         bureau of reclamation
    The fiscal year 2013 budget request for BOR is $994 million. The 
Water and Related Resources, BOR's principal operating account, is 
budgeted at $818.6 million, a decrease of 8 percent.
    The request includes a total of for water and energy, land, and 
fish and wildlife resource management and development activities. 
Funding in these activities provides for planning, construction, water 
conservation activities, management of BOR lands, including recreation, 
and actions to address the impacts of BOR projects on fish and 
wildlife.
    The Congress needs to maintain appropriate and vital levels of 
funding for the BOR's Water and Related Resources account to support 
construction and rehabilitation of critical western water projects.
    Population growth, climate change, drought, under financing and 
environmental protection needs have tightened water supplies in the 
West, and made BOR's infrastructure more important than ever for 
providing essential water supplies to rural and urban communities as 
well as agriculture economies throughout the West.
    While we recognize the urgent need to address the national deficit, 
we ask for your support for maintaining at least $1 billion in fiscal 
year 2013 for BOR. In particular, maintaining this level of funding 
will help address BOR's unfunded project backlog and create beneficial 
construction jobs throughout the West. Most significantly, the back log 
for congressionally authorized BOR water projects now stands at several 
billion dollars.
    We strongly encourage you to recognize through the appropriations 
process that the infrastructure built and maintained by the Bureau and 
local governments help power the economic productivity--and tax 
revenue--on which the U.S. Government depends. Job creation, efficient 
agricultural production, and reliable drinking water supplies are just 
a few of the benefits of these investments to the national economy.
    ASCE recommends an appropriation of $1 billion for BOR in fiscal 
year 2013.
                                 ______
                                 
 Prepared Statement of the Board of Levee Commissioners for the Yazoo-
                           Mississippi Delta
    There are investments, and then there are investments, just as 
there are priorities, and then there are priorities.
    Since its inception, the United States Congress has allocated 
approximately $14 billion to the Mississippi River and Tributaries 
(MR&T) project. According to the U.S. Army Corps of Engineers (COE), 
last year alone, throughout the Great Flood of 2011, the largest this 
Nation has ever known, the MR&T prevented $110 billion in flood damages 
to the Nation's heartland.
    That's a good investment.
    But such Acts of God as was that flood invariably produce 
consequences for man. More water than any living human being has ever 
witnessed was contained--in some instances, barely contained--by one of 
the greatest engineering and construction feats ever, the mainline 
Mississippi levee system. But that much water inflicts damages; that 
much water takes a toll.
    COE says that it will take approximately $2 billion to repair and 
strengthen the levee system that just saved the country $110 billion 
worth of damage. That's a benefit to cost ratio of 54-1. While less 
than one-half of an emergency allocation did go to the MR&T, not only 
is that inadequate, it is a dangerous gamble. Surely, we can adequately 
restore the levees that just saved us.
    That should be a high priority.
    We ask that the Congress provide $375 million in fiscal 2013 
funding for the MR&T--so that we might at least begin the process of 
getting ready for the next great flood that as always is a matter of 
when, not if.
    All of us, of course, are aware of the Congress's self-imposed 
moratorium on earmarks. And we can certainly understand such from a 
fiscal responsibility standpoint. But that said, we also think there is 
a fundamental flaw in that reasoning, a serious misunderstanding 
inherent in the very definition of the word, ``earmark''.
    When the men and women of this country think of earmarks, they 
think of pork-laden legislation which specifically benefits large 
political campaign contributors. They think of unnecessary public works 
projects that never seem to end or stay within budgets. They think of 
bridges that lead to nowhere.
    And ladies and gentlemen, that is not what we are talking about 
here today. Flood control is not a boondoggle. Flood control is a 
necessity for life as we know it within the greater Mississippi Valley. 
Public dollars for flood control projects are investments in the 
national infrastructure. Tax dollars for flood control can literally be 
thought of as premiums for flood insurance--not for flood damage, but 
for flood prevention.
    Beneath the umbrella of the MR&T, of course, are many component 
projects, and we would be remiss in our obligation to the citizens of 
our levee district not to point out the injustice related to one of 
them. The Upper Yazoo Projects (UYP) represents the virtual ideal of 
what any flood control project should be. It works--where it has been 
completed, that is--and absolutely no one, including the environmental 
community, in any way opposes it.
    The UYP has provided documented localized flooding relief to 
thousands at its southern stretches, while thousands more at the 
projects' northern end still suffer due only to a lack of funding. In 
last year's event, the town of Sledge and a heavily traveled State 
highway were under water, while those to the south of the same 
tributary were dry. And that is simply wrong.
    COE says it has the capability to do $16.5 million toward 
completion of the projects in 2013. Please give them at least some of 
the funding needed to continue.
    As always, we ask that the Congress also provide needed maintenance 
funding for Mississippi's four flood control reservoirs and also for 
the Delta Headwater Project which helps alleviate the stress on those 
structures and our interior steams by slowing runoffs from the hills to 
our east. COE's capabilities for those needed efforts are attached.
    But most critically, we feel, is that the Congress rejects the 
demonstrably false and potentially disastrous notion that flood control 
is optional or some luxury that can be discarded when money gets tight. 
Not only would lives and livelihoods be lost, but the Nation's economy 
would be wrecked should America's heartland be inundated by 
floodwaters.
    Flood control is literally a pay me now or pay me later 
proposition. We can pay to prevent the kind of disasters that last 
year's epic flood very nearly represented, or we can pay much, much 
more to try to restore that which is left in the wake of such an event.
    Thank you very much for allowing us the opportunity to testify on 
this matter that is so critical to the future of our Nation.
                                 ______
                                 
   Prepared Statement of the Board of Mississippi Levee Commissioners
    Madam Chair and members of the subcommittee: This statement is 
prepared by Peter Nimrod, Chief Engineer for the Board of Mississippi 
Levee Commissioners, Greenville, Mississippi, and submitted on behalf 
of the Board and the citizens of the Mississippi Levee District. The 
Board of Mississippi Levee Commissioners is comprised of seven elected 
commissioners representing the counties of Bolivar, Issaquena, Sharkey, 
Washington, and parts of Humphreys and Warren counties in the Lower 
Yazoo Basin in Mississippi. The Board of Mississippi Levee 
Commissioners is charged with the responsibility of providing 
protection to the Mississippi Delta from flooding of the Mississippi 
River and maintaining major drainage outlets for removing the flood 
waters from the area. These responsibilities are carried out by 
providing the local sponsor requirements for the congressionally 
authorized projects in the Mississippi Levee District. The Mississippi 
Levee Board and the Mississippi Valley Flood Control Association 
support an appropriation of $375 million for fiscal year 2013 for the 
Mississippi River and Tributaries (MR&T) project. This is the minimum 
amount that we consider necessary to allow for an orderly completion of 
the remaining work in the Valley and to provide for the operation and 
maintenance, as required, to prevent further deterioration of the 
completed flood control and navigation work.
    It is apparent that the administration loses sight of the fact that 
the MR&T project provides protection to the Lower Mississippi Valley 
from waters generated across 41 percent of the continental United 
States. These waters flow from 31 States and 2 provinces of Canada and 
must pass through the Lower Mississippi Valley on its way to the Gulf 
of Mexico. We will remind you that the MR&T project is one of, if not 
the most cost-effective project ever undertaken by the United States 
Government. The foresight of the Congress in their authorization of the 
many features of this project is exemplary.
    The many projects that are part of the MR&T project not only 
provide protection from flooding in the area, but the award of 
construction contracts throughout the Valley provides assistance to the 
overall economy of this area. The employment of the local workforce and 
purchases from local vendors by the contractors help stabilize the 
economy in one of the most impoverished areas of our country.
    In 2011, the MR&T project successfully passed the greatest flood on 
the Mississippi River. Every feature of the MR&T project including 
levees, floodways, and reservoirs were utilized. Not one acre of land 
was flooded that was not designed to flood. Not one life was lost. The 
MR&T system prevented $108 billion in damages in 2011 alone. All 
together since 1928, the Congress has invested $13.9 billion in the 
MR&T project, and it has prevented $478.3 billion in damages. This is a 
34:1 benefit to cost ratio. The flow carried by the Mississippi River 
in 1927 was 66 percent of a Project Design Flood. The flow carried by 
the Mississippi River in 2011 was 85 percent of a Project Design Flood. 
There is a larger flood on the horizon. In fact, stages will be 8-foot 
higher when we have the Project Design Flood than we just experienced 
in 2011. The MR&T project is only 89-percent complete. The Congress 
must be proactive and fully fund the MR&T project until it is 
completed. If not, the MR&T project will not pass the Project Design 
Flood.
    Even though the MR&T project worked, it suffered a lot of damage 
and many weaknesses were discovered during the 2011 Epic Flood. The 
Mississippi Levee Board would like to commend the Congress for 
appropriating $802 million for repairing the MR&T system following the 
historic 2011 Flood. This money will help reset and rebuild the MR&T 
system so that we can pass the next major flood event. Money spent on 
the MR&T project is money well spent that returns much more money in 
prevented damages.
    We are concerned about the ``earmark moratorium'' that the Congress 
has adopted. The Congress has essentially given up their right to 
appropriate money. They have relinquished this right to the Office of 
Management and Budget (OMB). OMB always provides a budget that 
undercuts our projects in the MR&T project because they know that the 
Congress will provide ``congressional adds''. Unfortunately people 
think that the ``congressional adds'' for the MR&T project are 
``earmarks''. ``Earmarks'' account for less than 1 percent of the 
entire Federal budget, but it is these ``earmarks'' that provide money 
for much needed and essential projects and provide jobs for the 
economy. The stimulus money spent the past few years created jobs, 
built projects, and stimulated the economy. This ban on ``earmarks'' 
will cause many projects to be stopped and jobs will be lost. The 
Congress needs to define what an ``earmark'' is and they need to be 
able to do ``congressional adds'' for our projects.
    Thanks to the additional funding provided by the Congress over the 
last several years over and above the administration's budget, work on 
the Mainline Mississippi River Levee Enlargement Project is continuing. 
Of the original 69 miles of deficient levees in the Mississippi Levee 
District, 32 miles of work have been completed and 8.1 miles are 
currently under contract. We are requesting $58.687 million for 
construction on the Mainline Mississippi River Levees in the Lower 
Mississippi Valley Division which will allow the Vicksburg and Memphis 
districts to keep existing contracts on schedule and award contracts to 
avoid any future unnecessary delays in completing this vital project.
    The President's fiscal year 2013 budget did not include funding for 
any construction projects within the Yazoo Basin. This action is 
especially difficult to understand during a time when our Nation needs 
an economic boost. These are all projects authorized and funded so 
wisely by the Congress. All of these projects are encompassed in the 
footprint of the Delta Regional Authority, an area recognized by the 
Congress as requiring special economic assistance to keep pace with the 
rest of our great Nation. We can not lose sight of the fact that all of 
these projects are required to return more than a $1 in benefits for 
each $1 spent.
    The recommended plan for the Yazoo Backwater Project included a 
pump that will lower the 100-year flood event by 4.5 feet thereby 
reducing urban and rural structural damages, providing benefits to the 
remaining agricultural lands, and reducing the frequency and duration 
of floods. The plan also includes reforestation easements to be 
purchased on up to 55,600 of existing agricultural land which will 
provide benefits in every environmental category--wetlands, 
terrestrial, aquatics, and waterfowl resources as well as vastly 
improving water quality. This was a model project that should be the 
standard for future public works projects in the United States. However 
on August 31, 2008, the Environmental Protection Agency (EPA) used it's 
authority under section 404(c) of the Clean Water Act (CWA) to veto the 
Yazoo Backwater Project even though it is exempt by section 404(r) of 
the CWA. The Mississippi Levee Board sued EPA in a lawsuit against EPA 
asking the Federal Court to determine if this project is indeed exempt 
from an EPA 404(c) veto by the exemption in section 404(r) of the CWA. 
The Federal court has ruled in favor of EPA. Unfortunately this model 
project is now completely stopped. If the Yazoo Backwater Project were 
in place in 2008, 2009, and 2011, the $220 million project would have 
prevented $257.5 million in damages. The Congress promised flood 
protection for the Mississippi South Delta back in 1941 when the Eudora 
Floodway was removed from the MR&T project. Arkansas and Louisiana have 
both benefitted from this floodway removal while Mississippi continues 
to be flooded. We urge the Congress to take up this backwater flooding 
problem again and find a solution for the Mississippi South Delta.
    We are requesting $4.575 million for the Yazoo Backwater less Rocky 
Bayou Project. This money will be used to start the Environmental 
Impact Statement for the Yazoo Backwater Levee Enlargement Project. 
This levee is designed to overtop during a project design flood, but it 
needs to be raised 5.8 feet to get to the required elevation. This 
backwater levee is supposed to overtop when we are within 2 feet of a 
Project Design Flood. In 2011 the Mississippi River was 8 feet below a 
Project Design Flood and the Yazoo Backwater Levee came within 4 inches 
of overtopping. We need this backwater levee raised immediately.
    Work on the Big Sunflower (Upper Steele Bayou) project has proved 
to be very beneficial. The Steele Bayou Sedimentation Reduction project 
has installed drop-pipe structures at headcut locations all along 
Steele Bayou. These control structures stop the movement of sediment 
into Steele Bayou. Sediment is bad for flood control and water quality. 
We are requesting $1.7 million to keep this project moving forward.
    Work on the Delta Headwaters project has proven effective in 
reducing sediments to downstream channels. To discontinue this project 
will only diminish water quality by increasing sediment, reducing the 
level of flood protection to the citizens of the Delta and increasing 
required maintenance. We are requesting $13 million to continue this 
project.
    Maintenance of completed works can not be overlooked. The four 
flood control reservoirs overlooking the Delta have been in place for 
50 years and have functioned as designed. Required maintenance must be 
performed to avoid any possibility of failure during a flood event. We 
are asking for $7.7 million for Arkabutla Lake, $7.245 million for Enid 
Lake, $7.346 million for Grenada Lake, and $11.397 million for Sardis 
Lake.
    We are requesting $12.754 million for Maintenance of the Mainline 
Mississippi River Levees in the Lower Mississippi Valley Division which 
will provide for repair of levee slides, slope repair, and repair of 
the gravel maintenance roadway which is so vital to access during high 
water.
    The Mississippi River and our Ports and Harbors need money for 
maintenance dredging. The Mississippi River carries tons of sediment 
every second. This sediment falls out in slack water areas such as 
entrances to our ports and harbors. The Greenville Port needs $1 
million and the Vicksburg Port needs $750,000 to perform annual 
maintenance dredging. This dredging is vital to keep these ports open 
during the low-water season when much of the farm harvest is ready to 
be transported.
    We are requesting $2.58 million for the Lower Mississippi Valley 
Division for Collection of Basic Data under General Investigations. 
This money is used to monitor and collect water-quality samples at 
gaging stations located throughout the Mississippi Delta. With the 
emphasis on water quality, water quantity, and total maximum daily 
loads (TMDLs), we must be able to continue to collect good data on 
water quality so we can get a baseline established to be able to 
monitor and improve water quality in the Mississippi Delta. 
Improvements in water quality in the Mississippi Delta will translate 
into improved water quality in the Gulf of Mexico and help the Gulf 
Hypoxia issue.
    EPA has been given too much power under section 404(c) of CWA which 
allows EPA to veto congressionally authorized projects. During the 
early 1990s, due to abuse of the 404(c) power by EPA, the Congress 
considered removing this authority from EPA. EPA has again invoked this 
veto power on the Yazoo Backwater Project. EPA is saying that you can't 
lower the water level with a flood control project. By killing this 
project with 404(c) veto authority, EPA is drawing a line in the sand 
over the future of flood control in our great Nation. EPA has vetoed 
the Yazoo Backwater Project even though it was approved, authorized, 
and funded by the Congress and exempt from a 404(c) veto by 404(r). It 
is now time to again take up this issue and remove the 404(c) veto 
power from EPA before they kill another flood control project that has 
been authorized by the Congress.
    The Council of Environmental Quality (CEQ) draft proposal of 
changes to the Principals and Guidelines (P&G) for Federal agencies 
fails to establish a clear, concise, and workable framework to guide 
development of water resources projects. It elevates environment 
considerations over economic benefits, social well-being, and public 
safety. Because of these critical and extensive failings, we recommend 
that this effort be put aside and restarted from the beginning.
    As Members of the Congress representing the citizens of our Nation 
who live with the Mississippi River everyday, you clearly understand 
both the benefits provided by this resource and the destructive force 
that must be controlled during a flood. On behalf of the Mississippi 
Levee Board, I can not express enough our appreciation for your efforts 
in providing adequate funding over the last several years that has 
allowed construction to continue on our much needed projects and thank 
you in advance for your kind consideration of our requests for fiscal 
year 2013.
                                 ______
                                 
        Prepared Statement of the Fifth Louisiana Levee District
    The Board of Commissioners for the Fifth Louisiana Levee District 
respectfully requests that construction funding for Mississippi River 
levees be increased from the $45,187,000 contained in the proposed 
budget for fiscal year 2013, to the U.S. Army Corp of Engineers' (COE) 
capability of $58,687,000.
    Reduced funding, combined with the inability to let construction 
contracts under a continuing contract clause, has left thousands of 
people in Louisiana vulnerable to the adverse effects of a deficient 
levee system. Construction of levee enlargements is essential if the 
levee is to contain the ``Project Flood'' which is estimated to be 20 
percent greater than the record Flood of 1927.
    The effect of fully funded contracts for levee construction, now 
required under Public Law 109-103, (sections 106 and 108), adopted by 
the 109th Congress in 2005, as opposed to the previous system of 
continuing contract clauses, has virtually halted enlargement of the 
Mississippi River levee system in Louisiana. Year after year, as the 
cost of projects and maintenance has increased, funding for levee 
systems and flood control has been reduced. The current proposed budget 
is no exception, with only $234 million allocated for the entire 
Mississippi River and Tributaries (MR&T) project. We request that be 
increased to COE's capabilities of $375 million.
    Since the MR&T project was established, $13 billion has been 
invested and more than 475 billion of flood damages have been 
prevented. This investment provides benefits far beyond their actual 
cost to the taxpayer by offering protection to more than 4 million 
citizens and allows people to live and work throughout a 35,000 square 
mile area in seven States.
    With the help of the Congress, great progress has been made in the 
Mississippi River Valley over the years, but there is still much to be 
done, and because of that, we urge the Congress to increase funding to 
COE in fiscal year 2013, to insure that COE is not forced to halt or 
delay contracts for levee construction essential to the well-being of 
this Nation. It is vital that the MR&T project(s) be completed at the 
earliest possible date.
                                 ______
                                 
        Prepared Statement of the Izaak Walton League of America
    I am Scott Kovarovics and the Conservation Director of the Izaak 
Walton League of America. The Izaak Walton League of America 
appreciates the opportunity to submit testimony concerning 
appropriations for fiscal year 2013 for programs under the jurisdiction 
of the subcommittee. The League is a national, nonprofit organization 
founded in 1922 with more than 39,000 members and 250 local chapters 
nationwide. Our members are committed to advancing common sense 
policies that safeguard wildlife and habitat, support community-based 
conservation, and address pressing environmental issues. The following 
pertains to programs administered by the U.S. Army Corps of Engineers 
(COE).
     corps of engineers, operations and maintenance, missouri river
    The League joins other groups in urging the subcommittee to 
appropriate $90 million in fiscal year 2013, as requested by the 
President, for the Missouri River Recovery Program. With this funding, 
COE, U.S. Fish and Wildlife Service (FWS), States, and other partners 
can continue important ecosystem restoration efforts that are producing 
long-term ecological and economic benefits.
    The Missouri River basin encompasses land in 10 States covering 
one-sixth of the continental United States. The Missouri is one of the 
most altered ecosystems on Earth. Although recovery and restoration 
efforts are on-going, they need to continue and expand.
    COE, FWS, and many State agencies have been restoring habitat for 
fish and wildlife along the river. This work is critical for the 
Interior Least Tern and Pallid Sturgeon, listed as endangered, and the 
Piping Plover, listed as threatened, under the Endangered Species Act. 
The restoration efforts also benefit many other species of fish and 
wildlife throughout the region. These habitat restoration projects are 
working with the river--not against it.
    These projects also generate additional economic activity in 
communities along the river. Anglers, hunters, boaters, birdwatchers, 
and others have been using these areas proving the old adage ``if you 
build it, they will come.'' The Missouri Department of Conservation and 
the Nebraska Game and Parks Commission found recreational spending 
provides $68 million in annual economic impact to communities along the 
Missouri River from Yankton, South Dakota to St. Louis, Missouri. A 
South Dakota Game, Fish, and Parks study shows that recreational 
benefits from angling on the Missouri River account for more than $107 
million in annual economic activity in the Dakotas and Montana. These 
projects are bringing more people to the river throughout the Missouri 
basin.
    In addition to the economic boost from tourism, restoration 
projects support job creation throughout the entire region. COE 
contracts with local construction companies, creating jobs, and 
injecting dollars into local economies through purchases of materials, 
fuel, food, and lodging. With the funding requested, COE could readily 
implement more of these important economic and river restoration 
projects.
    Missouri River Ecosystem Restoration Plan.--The League urges the 
subcommittee not to include any provision in its fiscal year 2013 bill 
limiting funding for the Missouri River Ecosystem Restoration Plan 
(MRERP). This long-term ecosystem study will lead to a comprehensive 
plan that Federal agencies, States, tribes, and communities along the 
river will be able to implement for a healthier Missouri River. A great 
deal of time and effort has already gone into development of MRERP. 
Funding must be allowed for this important effort to get back on track 
before the information already gathered loses relevance and will cost 
U.S. taxpayers more to gather again.
    Missouri River Authorized Purposes Study.--The League urges the 
subcommittee to provide funds to complete the Missouri River Authorized 
Purposes Study (MRAPS). The League strongly opposes the funding 
prohibition contained in the Consolidated Appropriations Act of 2012. 
It does not provide taxpayers with meaningful savings in the near-term 
and jeopardizes real-future savings. Delaying this analysis deprives 
the country of Missouri River management geared toward future needs 
rather than those identified during World War II.
    MRAPS for the first time will review the eight authorized Missouri 
River purposes established by the Flood Control Act of 1944. This 
thorough analysis of the purposes will determine the best management 
for the American taxpayer, all the residents of the basin, and fish and 
wildlife, taking in account today's economic values and priorities, 
rather than those imagined nearly 70 years ago.
    Full funding of MRAPS is a wise investment. A comprehensive review 
and accompanying changes will streamline future COE operational 
expenses saving tax dollars and bringing Missouri River management into 
the 21st century. MRAPS needs to be re-started in fiscal year 2013.
corps of engineers, operations and maintenance, upper mississippi river
    The League is an active and long-time proponent of restoring the 
Upper Mississippi River (UMR) ecosystem. We have supported the Upper 
Mississippi River Restoration (UMRR) program (also known as the 
Environmental Management Program) since its inception and continue to 
support this vital restoration initiative. We urge the subcommittee to 
provide $33.2 million for UMRR in fiscal year 2013 as authorized by the 
Water Resources Development Act (WRDA). Although we are encouraged by 
the President's request for fiscal year 2013, pressing restoration 
needs on-the-ground require the full amount authorized for UMRR.
    The League has also strongly expressed its opinion that the large-
scale navigation modifications included in the Recommended Plan for the 
Upper Mississippi Navigation and Ecosystem Sustainability Program 
(NESP), as authorized by the Water Resources Development Act of 2007, 
have not been justified by COE and should not be pursued. Previous 
reviews by the National Academy of Sciences and the Assistant Secretary 
of the Army, Civil Works found that the navigation construction 
component of NESP was not economically justifiable. A report released 
in 2010 by the Nicollet Island Coalition, of which the League is a 
member, provides additional evidence that proposed locks and dams in 
this region are not a good investment for American taxpayers. With this 
in mind, the League supports the administration's decision not to 
request funding for NESP in fiscal year 2013.
    While the lock and dam expansion authorized by NESP is not a good 
investment, the League recognizes the need for the Congress to invest 
in inland navigation to maintain the transportation infrastructure on 
the rivers. The Inland Waterway Trust Fund (IWTF) provides 50-percent 
cost-share for construction and rehabilitation on navigation 
infrastructure. The League agrees with the administration that the IWTF 
needs to be reformed because not enough revenue is generated by the 
$0.20 per gallon fuel tax on navigation to fund the multibillion dollar 
backlog of projects. The League supports the President's proposal to 
implement a user fee at the locks, while maintaining the 50-percent 
cost-share model on all inland waterway construction and navigation 
projects. The League strongly opposes including any provision in the 
subcommittee's fiscal year 2013 bill that increases the cost-share 
portion from the taxpayer funded general appropriation, as proposed by 
the Inland Marine Transportation System Capital Investment Strategy 
Team. Such a proposal will increase the national deficit and allow 
environmentally damaging and economically questionable projects to move 
forward.
    The UMR is one of the most complex ecosystems on Earth. It provides 
habitat for 50 species of mammals, 45 species of reptiles and 
amphibians, 37 species of mussels, and 241 species of fish. The need 
for ecosystem restoration is unquestionable. As COE correctly stated in 
its study of navigation expansion, this ecosystem is ``significantly 
altered, is currently degraded, and is expected to get worse.'' 
Researchers from the National Academy of Sciences have determined that 
river habitat is disappearing faster than it can be replaced through 
existing programs such as UMRR, which was authorized at $33.2 million 
annually by the Congress in 1999, but has never received full 
appropriations. As habitat vanishes, scientists warn that many species 
will decline and some will disappear.
    Our Nation relies on a healthy Mississippi River for commerce, 
recreation, drinking water, food, and power. More than 12 million 
people annually recreate on and along the UMR spending $1.2 billion and 
supporting 18,000 jobs. More people recreate on the Upper Mississippi 
than visit Yellowstone National Park while barge traffic has remained 
static on the river for more than 2 decades.
    In assembling the UMR-IWW navigation study, COE recognized the 
critical need for ecosystem restoration and encouraged the Congress to 
invest approximately $130 million annually in UMR habitat restoration 
efforts. With this need in mind, the League strongly encourages the 
subcommittee to prioritize investment in ecosystem restoration by 
appropriating $33.2 million for the UMRR in fiscal year 2013. 
Additional funding for restoration will support economic development 
and job creation in communities along the UMR and provide long-term 
conservation and economic benefits for the region and the Nation.
                clean water act guidance and rulemaking
    This year, the American people will be celebrating the 40th 
anniversary of passage of the Clean Water Act. With this in mind, the 
League strongly urges the subcommittee not to include or accept any 
provision in its fiscal year 2013 bill barring COE from finalizing and 
implementing Clean Water Act guidance or proceeding with the formal 
rulemaking process to revise its clean water regulations. We appreciate 
the subcommittee's leadership last year on this critical issue.
    Since proposing draft guidance last spring, COE has conducted a 
nearly unprecedented public engagement process for agency guidance. 
During this process, COE and the Environmental Protection Agency (EPA) 
held a 90-day public comment period. The agencies received nearly 
230,000 comments and have publicly described the overwhelming majority 
as supporting the proposal. In mid-February 2012, COE and EPA submitted 
revised guidance to the Office of Management and Budget (OMB) for 
another round of inter-agency review. This process also allows 
nongovernmental organizations to meet with OMB to share their 
perspectives on the policy.
    Guidance proposed by COE is based on sound science and clearly 
complies with the Supreme Court decisions in SWANCC and Rapanos. 
Allowing COE to proceed with guidance will partially restore 
protections for streams flowing to public drinking water supplies for 
117 million Americans. It will also begin--but only begin--to restore 
protections for some wetlands. Healthy wetlands are essential to 
waterfowl, fish, and other wildlife, provide cost-effective flood 
protection, and improve water quality. They also support hunting, 
angling, and wildlife watching, which together inject $122 billion 
annually into our economy. Finalizing the guidance will also provide 
more clarity and certainty about Clean Water Act implementation to 
landowners, developers, agency personnel, and State and local 
governments.
    Once again, we urge the subcommittee not to include or accept any 
provision in its fiscal year 2013 bill limiting COE's ability to 
finalize and implement Clean Water Act guidance or initiate formal 
rulemaking concerning clean water regulations.
    We appreciate the opportunity to submit this testimony.
                                 ______
                                 
        Prepared Statement of The Little River Drainage District
    My name is Sam M. Hunter, DVM. I am a veterinarian, landowner, and 
farmer, and I reside in Sikeston, in southeast Missouri.
    I am the president of the Board of Supervisors of The Little River 
Drainage District, the largest such entity in the Nation. Our district 
serves as a drainage outlet and provides flood control to parts of 
seven counties in southeast Missouri. We also provide flood protection 
to a sizable portion of northeast Arkansas. Our district is funded 
solely by the annual assessment of benefits of more than 3,500 
landowners.
    My remarks will address the Mississippi River and Tributaries 
(MR&T) project and specifically the St. Francis River Basin line item 
of the MR&T. These funds are investments yielding a return of 
substantial benefit to the Nation. They provide funding for flood 
control that protects numerous cities, farms, and industries. Funding 
through the MR&T also provides needed repairs and upgrades to locks and 
dams, modernization of hydroelectric plants, and environmental 
restoration. This project was authorized by the Congress in 1928 and 
remains incomplete, yet yields a return of $34 in damage reduction for 
every $1 spent. I know of no better investment of taxpayer dollars.
    We fully understand the financial constraints on our Government and 
the need to do more with less in order to reduce the national debt, 
balance the budget, and create jobs. Programs and projects have been 
eliminated or downsized; however, the MR&T is so critical to the Nation 
that it cannot withstand deep cuts without jeopardizing the safety of 
our citizens and our economy. The Mississippi River flood of 2011 would 
have been catastrophic without the MR&T. It is estimated that more than 
$112 billion in flood damages were prevented by the project. The system 
did suffer damage as a result of the flooding and the Congress did 
respond to that and appropriated additional emergency funds to restore 
and repair the system, and for that we are grateful. But the work to 
maintain and complete the project must continue.
    In the fiscal year 2013 budget submitted by the President the MR&T 
appropriation was $210 million. That amount is identical to the fiscal 
year 2012 request. It appears that the Office of Management and Budget 
(OMB) has again chosen to ignore the infrastructure needs of the 
Mississippi Valley. That amount will possibly keep the lights on, but 
does not allow for much needed maintenance. To allow the project to 
crumble away is inexcusable. The navigation element alone, which 
includes the necessary maintenance of locks, dams, and harbors, is 
vital to this Nation's economy. Moving products on the Mississippi 
River is the most economical and environmentally friendly method of 
transportation. It is dramatically more fuel efficient than truck or 
rail. It allows our commodity producers to compete in a global market. 
Continued underfunding of the MR&T is a dangerous course of action. The 
failure of just one lock and/or dam could have an impact on the entire 
Nation's economy, yet this fact appears to have been left to chance by 
OMB.
    Fortunately the power of the purse remains with the Congress. Even 
with an earmark moratorium, the Congress still retains the power to 
increase the President's budget request, as it has done annually since 
the administration of President Jimmy Carter. We believe that a minimum 
of $375 million is necessary to continue to keep the MR&T viable. The 
Corps of Engineers' (COE) stated capability for the MR&T is $375 
million due to the supplemental appropriations for flood repairs.
    Within the MR&T budget request is a line item for the St. Francis 
River and Tributaries that directly impacts our District. The 
President's budget request for fiscal year 2013 is slightly more than 
$5.9 million for maintenance, but COE's stated capabilities for the St. 
Francis Basin is $18.4 million. We maintain that a minimum of $15 
million is necessary for maintenance of the St. Francis Basin. This is 
not for new project construction but for maintenance at a minimum level 
of functionality.
    I can tell you that the 2012 Disaster Relief Act will assist our 
District by funding the cleanout of our floodway ditches, for which COE 
is responsible, at a cost of $7.9 million, and the Diversion Channel 
Stabilization at a cost of $3.5 million. We appreciate this help in 
recovering from the infamous Flood of 2011.
    Another program providing help for flood recovery is the Emergency 
Watershed Protection Program which is administered through the Natural 
Resource Conservation Service of the U.S. Department of Agriculture. 
This program is designed to assist districts such as ours restore 
drainage facilities that are non-Federal through a local cost share 
agreement, of which we provide 25 percent. Past experience with this 
program has been impressive. It allows local control of the project, 
offers quick approval of projects, and addresses our needs immediately. 
This year's program is laid out on a very short-completion deadline for 
the extraordinary amount of recovery work that needs to be done. We 
intend to request that the completion dates be extended past the 
current deadline of end of fiscal year 2012 and ask this committee to 
join in that request.
    In closing, I would like to thank each member of the subcommittee, 
their staff, and the Committee staff for taking the time to review the 
above-written testimony. We are appreciative of anything the Energy and 
Water Development Subcommittee can do to improve our environment and 
our livelihoods, and to ensure the safety of our communities. Your work 
is very important to our country and we feel it is important for us to 
thank you for your service, and for giving us the opportunity to share 
our viewpoints.
                                 ______
                                 
 Prepared Statement of the Mississippi Valley Flood Control Association
    The Mississippi Valley Flood Control Association respectfully 
requests that the sum of $375,000,000 be appropriated in fiscal year 
2013 for the Mississippi River and Tributaries (MR&T) project.
    The Flood Control Association was first organized in 1922 by a 
group of interested citizens from the States of Arkansas, Mississippi, 
and Louisiana. From that first meeting, held in Memphis, Tennessee, a 
delegation was selected to come to Washington in an attempt to convince 
both the Congress and the executive branch that the prevention of 
catastrophic floods in the lower Mississippi River Valley was beyond 
the capabilities of the local people and was in fact too large for any 
group other than the Federal Government. This group of dedicated 
citizens was without success until the record flood of 1927 swept 
through the Mississippi River Valley with the fury of devastation not 
seen before. An unknown number of people perished along with thousands 
of head of livestock and large numbers of many species of wildlife. 
Some 7 percent of all the productive land on this planet was under 
water for a period of almost one-half a year. The Congress, after 
extensive hearings, passed the Flood Control Act of May 15, 1928, that 
was signed into law by then President Calvin Coolidge.
    The Flood Control Association then disbanded, acting under the 
erroneous assumption that the United States Government would provide 
whatever was needed to prevent flooding in the valley. In 1935, it 
became apparent that additional legislation was required and the 
Association, under the leadership of Senator John Overton from 
Louisiana, was re-organized. It has been in continuous and active 
existence since for some 77 years.
    We have been fortunate since 1935 to have as our president and two 
vice presidents Members of the United States Congress with Senator 
Roger Wicker from the State of Mississippi serving as our president, 
Congressman Blaine Luetkemeyer from Missouri and Congressman Rodney 
Alexander from Louisiana serving as our vice presidents.
    We are a nonprofit agency made up of levee boards, drainage 
districts, harbor and port commissions, States, cities, and towns, 
including many other agencies and individuals that have an interest in 
the protection and betterment of the people and property in the 
Mississippi River Watershed, the third largest in the world. But we 
feel it is the greatest, because of its size coupled with its essential 
usefulness to the Nation. In a few words we are an agency through which 
the local people may speak and act jointly on all flood control, bank 
stabilization, navigation, and major drainage problems.
    Never before have we seen our Nation faced with such huge public 
debts and budget deficits as we do today. In our daily life we are made 
aware of the gut-wrenching sadness of seeing homes foreclosed and jobs 
disappear. We know all those things, but we also know that the country 
that is and has been for generations the bright light of freedom and 
prosperity, must not and cannot let its infrastructure deteriorate and 
fall into ruin; neither can we allow one of our vital forms of 
transportation become underutilized or useless due to the lack of 
proper and necessary maintenance.
    Unfortunately, today as usual you are considering a budget request 
from the executive department that has insufficient funding to prevent 
either of the cases just outlined. The only recourse we have is to 
request the Congress do, as you have always done, add the necessary 
supplemental funds to protect the lives, property, and livelihoods of 
the citizens of the river basin.
    Earlier in this statement, it was said that the Mississippi River 
Watershed that provides drainage for 41 percent of the Nation, moves 
almost 1 billion tons of commodities--60 percent of our grain, 25 
percent of our petroleum products, 20 percent of the coal to fire our 
power plants--was the greatest watershed on the planet because of size 
coupled with its usefulness. Useful because the river has been 
controlled and improved beginning with the first levee for flood 
protection built in New Orleans, Louisiana in 1717. Levees came early 
because ``without flood control, nothing else matters''. Over the 
years, the Congress, the Corps of Engineers (COE), and the local people 
have worked together to make the Mississippi River Watershed, 
stretching from New York on the east to Montana on the west and from 
the Canadian border to the Gulf of Mexico, the greatest and the envy of 
the developed world.
    Our great country has always been a maritime Nation, almost totally 
dependent during the earliest years on the oceans and unimproved 
waterways to move our commerce including, at that time in history, our 
people. Westward expansion used the rivers whenever possible and many 
of the earliest construction projects in the new country were the 
building of canals connecting commercial waterways. Our national 
security and economic well-being has always, now more than ever, 
depended on the seas, lakes, and inland waterways that give us 
accessibility to every corner of our great Nation.
    All improvements, great or small, sooner or later, require 
maintenance. We have been too lax in this great country with 
maintaining and improving our basic forms of transportation. We have 
not built new airports to keep up with the demand of a growing 
population nor have we improved and properly maintained those that we 
have. Our system of railroads is in such bad shape that we no longer 
even attempt to move human cargo by train except for a very few small, 
densely populated areas of the country. The interstate highway system 
that we constructed more than 50 years ago was a great source of pride, 
but we failed again to properly maintain it. Now we are paying a 
tremendous price to keep it functioning. A great majority of our 
waterway improvements, including our locks and dams and our flood 
control facilities, are well past their design life. Soon we will find 
ourselves in emergency mode of repairing and replacing failures. This 
will be very expensive, an economic disaster. Farmers will be 
especially hard hit with no efficient and economical way to transport 
their crops to the international market.
    Our principal, but certainly not our only concern, is with the 
funding of the MR&T project. This is a very unique project that was 
conceived and developed with consideration for the functional relation 
between all its parts and the whole. It is a project that covers all 
the aspects of development in the Mississippi River Valley below the 
vicinity of Cape Girardeau, Missouri, from flood control to navigation 
to environmental protection and enhancement. The MR&T project is well-
planned, well-organized, well-engineered, well-constructed and until 
recently, well-maintained. Unfortunately, it is not yet completed and 
adequate funding from the Congress is imperative if it is to be 
completed and properly maintained. If, because of inadequate funding 
and uncalled for delays due to countless and repetitive studies and 
misguided lawsuits by the misnamed and misled environmentalists, the 
lower reaches of the Mississippi River are not usable by commercial 
boats and barges and sea-going ships, then no amount of improvement on 
the upper reaches of the Mississippi River can have any favorable 
effect. ``Without flood control nothing else matters.''
    One of the major opportunities that we have to increase the wealth 
of our Nation is to continue the improvement and development of our 
major river systems. As noted the major system is the Mississippi River 
Watershed. For that reason, we request that the Congress do what it has 
done since 1928. That is, to appropriate sufficient supplemental funds, 
allowing COE to continue what the Congress has directed them to do. We 
are not talking about ``earmarks'' or pork barrel politics. We are 
talking about funds to keep our navigation channels open and to provide 
necessary dredging in order that our smaller but no less critical ports 
may continue to function; funds to continue the on-going work to bring 
some miles of levee sections that are deficient in either grade or 
section up to the design required to protect our citizens against the 
``greatest possible flood''; funds to bring our bank stabilization 
program to completion in the most efficient manner, both economically 
and environmentally.
    The Executive Committee of the Mississippi Valley Flood Control 
Association has carefully examined the President's budget request for 
fiscal year 2013. We have arrived at the unanimous conclusion that the 
required appropriation for the MR&T project is $375 million, just to be 
reasonably assured that the goals of navigation, flood control, levee 
improvement and bank stabilization are met; nothing more, nothing less.
    In a special message to the Congress on flood control in the 
Mississippi Basin, dated July 16, 1947, President Harry S Truman began 
with the following in his opening sentence: ``the major opportunity of 
our generation to increase the wealth of the nation lies in the 
development of our great river systems''. Later on in his message 
President Truman used these words: ``we must never forget that the 
conservation of our natural resources and their wise use are essential 
to our very existence as a nation. The choice is ours. We can sit idly 
by, or almost as bad, resort to the false economy of feeble and 
inadequate measures, while these precious assets waste away. On the 
other hand, we can, if we act in time put into effect a realistic and 
practical plan which will preserve these basic essentials of our 
national economy and make this a better and a richer land''. Mr. Truman 
was speaking about the MR&T project in this last quote. These words are 
still true today. On July 31, 1947, President Truman approved 
appropriations bills, including supplemental provisions for flood 
control on the MR&T project in fiscal year 1948 of $250 million. And 
that was in 1948 dollars.
    We have attached a breakdown of the requested funds of $375 million 
for the Mississippi River and Tributaries Project for fiscal year 2013.

              MISSISSIPPI VALLEY FLOOD CONTROL ASSOCIATION
              FISCAL YEAR 2013 CIVIL WORKS REQUESTED BUDGET
            MISSISSIPPI RIVER AND TRIBUTARIES APPROPRIATIONS
                        [In thousands of dollars]
------------------------------------------------------------------------
                       Project/Study
------------------------------------------------------------------------
Fiscal year 2013 request...................................      375,000
                                                            ============
      MISSISSIPPI RIVER AND TRIBUTARIES INVESTIGATIONS
Collection and study of basic data.........................          500
Memphis Metro Storm Water Management, Tennessee (FEAS).....          100
                                                            ------------
      Total investigations.................................          600
                                                            ============
       MISSISSIPPI RIVER AND TRIBUTARIES CONSTRUCTION
Atchafalaya Basin, Louisiana...............................        9,000
Atchafalaya Basin Floodway System, Louisiana...............        4,000
Channel Improvement, Arkansas, Illinois, Kentucky,                71,000
 Louisiana, Mississippi, Missouri, and Tennessee...........
Mississippi River Levees, Arkansas, Illinois, Kentucky,           69,490
 Louisiana, Mississippi, Missouri, and Tennessee...........
Yazoo Basin, Upper Yazoo Projects..........................        5,000
                                                            ------------
      Total construction...................................      158,490
                                                            ============
       MISSISSIPPI RIVER AND TRIBUTARIES MAINTENANCE
Atchafalaya Basin, Louisiana...............................       12,865
Atchafalaya Basin Floodway System, Louisiana...............        2,295
Baton Rouge Harbor, Devils Swamp, Louisiana................           80
Bayou Cocodrie and Tributaries, Louisiana..................           50
Bonnet Carre, Louisiana....................................       55,029
Channel improvement, Arkansas, Illinois, Kentucky,                62,615
 Louisiana, Mississippi, Missouri, and Tennessee--TOT......
Channel improvement--dredging..............................       18,785
Channel improvement--revetments and dikes..................       43,830
Greenville Harbor, Mississippi.............................           30
Helena Harbor, Arkansas....................................          210
Inspection of completed works..............................        1,918
Lower Arkansas River, North Bank, Arkansas.................          375
Lower Arkansas River, South Bank, Arkansas.................          255
Lower Red River--South Bank Levees.........................          565
Mapping....................................................        1,063
Memphis Harbor McKellar Lake, Tennessee....................        1,935
Mississippi Delta Region--Caernarvon, Louisiana............          625
Mississippi River Levees, Arkansas, Illinois, Kentucky,            8,645
 Louisiana, Mississippi, Missouri, and Tennessee...........
Old River Control Structure, Louisiana.....................       10,625
St. Francis River and Tributaries, Arkansas and Missouri...        7,800
Tensas Basin, Boeuf and Tensas Rivers, Arkansas and                2,450
 Louisiana.................................................
Tensas Basin, Red River Backwater, Louisiana...............        3,185
Vicksburg Harbor, Mississippi..............................           55
Wappapello Lake, Missouri..................................        5,360
White River Backwater, Arkansas............................        1,510
Yazoo Basin, Arkabutla Lake, Mississippi...................        7,200
Yazoo Basin, Big Sunflower (Bogue Phalia), Mississippi.....          300
Yazoo Basin, Enid Lake, Mississippi........................        6,795
Yazoo Basin, Greenwood, Mississippi........................        1,000
Yazoo Basin, Grenada Lake, Mississippi.....................        7,200
Yazoo Basin, Main Stem, Missouri...........................        2,275
Yazoo Basin, Sardis Lake, Mississippi......................        8,500
Yazoo Basin, Tributaries, Mississippi......................        1,000
Yazoo Basin, Will M. Whittington Auxiliary Channel,                  575
 Mississippi...............................................
Yazoo Basin, Yazoo Backwater, Mississippi..................          700
Yazoo Basin, Yazoo City, Mississippi.......................        1,000
                                                            ------------
      Total maintenance....................................      215,910
                                                            ------------
      Total Mississippi River and Tributaries..............      375,000
------------------------------------------------------------------------

                                 ______
                                 
              Prepared Statement of The Nature Conservancy
    Madam Chair and members of the subcommittee: Thank you for the 
opportunity to present The Nature Conservancy's testimony on the fiscal 
year 2013 appropriations for the U.S. Army Corps of Engineers (COE) and 
Bureau of Reclamation. The Nature Conservancy is dedicated to saving 
the lands and waters on which all life depends. Our on-the-ground 
conservation work is carried out in all 50 States and more than 30 
foreign countries and is supported by approximately 1 million members.
    We recognize the challenges of working in a constrained fiscal 
environment. But we also recognize the critical importance of our water 
resources and the benefits these resources provide to virtually every 
sector of the economy, the quality of life in our communities, and the 
health of our people. Our focus is on supporting the programs and 
investments needed to ensure these benefits are enhanced today and made 
sustainable for tomorrow.
    The Nature Conservancy supports building sustainability into the 
management of our Nation's water infrastructure, including the 
ecosystem restoration projects essential to ensuring that 
sustainability. These ecosystem restoration projects pay dividends 
through natural flood control, higher quality water, sustaining 
commercial fisheries, and supporting recreation and tourism. With 
impacts stretching out for decades to come, the projects and proposals 
that follow reap high returns on investment.
                       sustainable rivers project
    The Sustainable Rivers Project (SRP) is an initiative launched by 
COE in partnership with the Conservancy to update decades-old water 
management practices to meet society's needs today and in the coming 
decades. By managing dams in coordination with downstream flood-prone 
lands, the SRP is developing and demonstrating innovative approaches to 
maintain and enhance water supply, flood protection, hydropower 
generation, and recreation while restoring critical ecosystems and the 
economically valuable services they provide.
    This approach was recently studied by COE, The Nature Conservancy, 
and University of California--Davis in two river basins--Georgia's and 
South Carolina's Savannah and California's Mokelumne. The Savannah 
River study found that small changes in floodplain management enable 
the use of up to 50 percent of the existing flood storage capacity for 
hydropower and recreation, producing a net benefit of more than $12 
million per year, without increasing flood risk and with additional 
benefits for water supply and the environment. The Mokelumne River 
study found similarly modest shifts in floodplain management frees up 
25 percent to 50 percent of flood storage for public water supply--
enough additional water for nearly 450,000 people--while maintaining 
flood protection and increasing hydropower generation and improving 
habitat for declining salmon. COE's budget includes three specific 
initiatives that support SRP efforts; the Conservancy supports all 
three at the levels provided by COE:
    Reducing Civil Works Vulnerability.--The Conservancy supports $8 
million.
    Response to Climate Change.--The Conservancy supports $5 million.
    National Portfolio Assessment for Reallocations.--The Conservancy 
supports $571,000.
          u.s. army corps of engineers construction priorities
    Hamilton City Flood Damage Reduction and Ecosystem Restoration.--
The fact that COE again selected Hamilton City for its construction 
budget in fiscal year 2013 is a testament to the innovative dual nature 
of the project: increasing flood protection for Hamilton City while 
restoring approximately 1,500 acres of riparian habitat. Appropriations 
for the first phase will initiate construction of approximately 2 miles 
of levee, removal of one-half of the existing levee, and completion of 
roughly one-third of the habitat restoration. The Conservancy strongly 
supports the $7.5 million proposed in fiscal year 2013 to complete the 
first phase of construction.
    Chesapeake Bay Oyster Recovery.--This project will build on recent 
progress and continue to increase the scale of oyster restoration in 
the Chesapeake Bay. Scientists in Maryland have estimated that oysters 
in just one Chesapeake tributary--the Choptank River--remove pollution 
that would otherwise cost waste water treatment systems $300,000/year 
to remove. The $5 million proposed for the fiscal year 2013 budget and 
supported by the Conservancy will allow COE to conduct additional 
habitat restoration in the Choptank River, as well as new restoration/
enhancement work in the Great Wicomico, Lynnhaven and Piankatank Rivers 
in Virginia.
    South Florida Ecosystem Restoration Program.--In recent years, the 
Federal Government has made substantial progress on Everglades 
projects, and we encourage continued funding for the three authorized 
Comprehensive Everglades Restoration Plan (CERP) projects. We also 
support inclusion of language to allow COE to carry over credit between 
studies and projects for which cost-share agreements have been executed 
with the South Florida Water Management District; such language would 
enable COE to more efficiently manage projects like the Kissimmee River 
Restoration Project (KRRP), a high priority for the restoration of the 
Everglades. The project is currently projected to be complete by 2015. 
The Conservancy supports the $153,324,000 proposed for the South 
Florida Ecosystem Restoration Program in fiscal year 2013.
    Upper Mississippi River Environmental Management Program.--
Authorized in 1986, this program supports coordinated habitat 
rehabilitation and enhancement projects in the Upper Mississippi River 
system. Over the 25 years of the program, COE has completed more than 
54 projects, benefiting more than 100,000 acres of aquatic and 
floodplain habitat. Currently, 35 projects in the program are in 
planning, design, or under construction. Completion of these projects 
will benefit an additional 75,000 acres of aquatic and floodplain 
habitat. The Conservancy supports the $17,880,000 proposed for 
Environmental Management Program in fiscal year 2013.
    Missouri River Fish and Wildlife Recovery Program.--Record upper 
basin precipitation in 2011 brought historic flooding to the Missouri 
River. The Recovery Program is expending funds to compile information 
on the impacts of the floods to native species and various Recovery 
projects while conducting a study on how Recovery Program actions could 
reduce impacts from future floods. The Conservancy supports restoration 
of funding for the Missouri River Ecosystem Restoration Plan (MRERP) as 
part of the $90 million proposed for Missouri River Recovery Program 
(MRRP) in fiscal year 2013.
    Chicago Sanitary and Ship Canal Dispersal Barrier.--Invasive 
plants, invertebrates, and fish pose serious threats to the 
biodiversity and fisheries of the Great Lakes and Mississippi River 
basins, which are home to nearly 50 percent of our Nation's freshwater 
fish species and support sport and commercial fisheries worth billions 
of dollars. This project seeks to prevent the immediate invasion of the 
Great Lakes by Asian carp by completing three electronic barriers in 
the Construction phase. The Nature Conservancy supports the budget 
request of $24.5 million.
                    general investigation priorities
    Puget Sound Nearshore Marine Habitat Restoration.--This study, when 
completed, will identify restoration and protection needs and 
opportunities in the nearshore regions of Puget Sound. The Sound 
supports the second largest U.S. port (combined Ports of Seattle and 
Tacoma) for container traffic that has accounted for more than $70 
billion in foreign trade; it is an economic priority to ensure that 
Puget Sound maintains the ecological resiliency to sustain vital 
services for both people and nature. The Conservancy supports the 
proposed $850,000 in fiscal year 2013 to carry out this investigation.
    Great Lakes and Mississippi River Interbasin Study.--The 
Conservancy encourages the Congress to instruct COE to deliver 
recommendations in a much shorter timeframe--2 years--to address the 
urgent problem of invasive species in the Chicago Area Waterway System 
(CAWS), and to focus their attention and resources on the CAWS alone, 
as it is the most urgent and significant invasion threat, the only 
continuous connection, and only pathway with a proven invasion history. 
The Conservancy requests no less than $3 million for Great Lakes and 
Mississippi River Interbasin Study.
    Illinois River Basin Restoration Program.--This Federal-State 
partnership sustains the health of the entire Illinois River Basin 
through projects that restore habitats, species, and the natural 
processes that sustain them. It complements other Federal programs such 
as the Illinois Conservation Reserve Enhancement Program and 
Environmental Management Program of the Upper Mississippi, yet is 
unique in its basin-wide approach to restoration. The Conservancy 
supports the $400,000 funding proposed for this program in fiscal year 
2013.
    Lower Mississippi River Resource Assessment.--Flood control and 
drainage systems have accelerated erosion and habitat loss along the 
Lower Mississippi River and its tributaries. Working with the 
Department of the Interior, COE will evaluate river management, 
habitat, and public access to recommend actions for addressing current 
and future needs. The Conservancy supports the $571,000 included for 
this program in fiscal year 2013.
    Willamette River Floodplain Restoration Study.--COE and the 
Conservancy are working together to identify ecological flow 
requirements downstream of Corps dams on the Willamette River and 
incorporate those flows into dam operations to improve fish and 
wildlife habitat and community flood protection. Additionally, this 
study will assess the potential for floodplain restoration in the 
Middle Fork and Coast Fork tributaries of the Willamette River to 
reduce flood damage while restoring natural wetlands and promoting 
ecosystem restoration. The Conservancy supports the $380,000 proposed 
in fiscal year 2013 to continue this study.
    Yellowstone River Corridor Comprehensive Study.--Funding these 
ongoing economic, fisheries, and wetlands studies will help ensure that 
the longest free-flowing river in the lower 48 States maintains its 
natural functions while supporting irrigation and other uses of its 
waters. The study will help determine the significance of the 
cumulative effects of water use on aquatic species and riparian 
hardwood forests, while guiding the establishment of beneficial 
management practices. The Conservancy supports the proposed $200,000 
for fiscal year 2013.
                     continuing authorities program
    Section 1135, Project Modifications for Improvement of the 
Environment and Section 206, Aquatic Ecosystem Restoration.--Adequate 
funding for the Continuing Authorities Programs (CAPs) will ensure 
support for a section 1135 project at Spunky Bottoms and a section 206 
project at Emiquon East, both located in Illinois and both serving as 
model floodplain restoration and reconnection projects. Demand for 
these valuable programs continues to outstrip funding, which is why the 
Conservancy urges the subcommittee to match the fiscal year 2012 
funding level of $7,909,000 each for the 1135 and 206 CAPs in fiscal 
year 2013.
                         bureau of reclamation
    Upper Colorado River Endangered Fish Recovery and San Juan River 
Basin Recovery Programs.--These programs take a balanced approach to 
restore four endangered fish species by implementing a range of basin-
wide strategies, including improved management of Federal dams, river 
and floodplain habitat improvement, stocking of endangered fish, and 
management of non-native fish species. The Conservancy supports the 
proposed $8,387,000 in fiscal year 2013 for the two programs and the 
extension of their full base funding through 2019.
    Platte River Recovery Implementation Program.--The program helps 
restore the four endangered or threatened species in the basin--
whooping crane, interior least tern, piping plover, and pallid 
sturgeon--while enabling existing water projects in the basin to 
continue operations. Specifically, the program is working to increase 
stream flows in the central Platte River at ecologically and 
economically important times; enhance, restore and protect lands for 
target bird species; and offset post-1997 depletions. The Conservancy 
supports the proposed $8 million for this recovery effort in fiscal 
year 2013.
    Basin Studies and WaterSMART.--We support the request for the basin 
study programs and WaterSMART grant programs. These programs support 
sustainable water use and management by focusing on water conservation, 
reuse and recycling, and on environmental protection and restoration. 
We also support the proposed funding for the Bureau's environmental 
restoration work, including the programs in the California Bay Delta 
and Colorado River.
                          discretionary funds
    We support the approach that the Congress took in the fiscal year 
2012 budget to provide additional funds so that many important on-going 
projects could continue toward completion. Our Connecticut River 
Planning Study will be finalized in fiscal year 2013 and would benefit 
from such flexibility.
    Connecticut River Watershed Study.--This project will restore 410 
miles of river flow and thousands of acres of natural habitat in the 
Connecticut River Basin. The study identifies dam management 
modifications for environmental benefits while maintaining beneficial 
human uses. After more than $1 million in investments by the Federal 
Government, this study is entering its final year, ahead of schedule 
and under budget. We respectfully request $300,000 to complete the 
critical final phase of this study, enabling the use of study products 
in a Federal Energy Regulatory Commission relicensing of five dams what 
influence flow on a 175-mile reach of the river.
    The Conservancy would like to thank the subcommittee for supporting 
the restoration of large scale restoration programs over the last 
decade. These programs have been essential to restoring and maintaining 
some of America's most precious and imperiled ecosystems. We are also 
appreciative of past support for smaller-scale projects that provide 
cumulative benefits and serve as powerful demonstrations of effective 
restoration.
                                 ______
                                 
         Prepared Statement of The Red River Valley Association
    Madam Chair and members of the subcommittee: I am Dan York, Red 
River Valley Association (RRVA) President, and pleased to represent the 
Red River Valley Association, 629 Spring Street, Shreveport, Louisiana. 
Our organization was founded in 1925 with the express purpose of 
uniting the citizens of Arkansas, Louisiana, Oklahoma, and Texas to 
develop the land and water resources of the Red River Basin.
    The resolutions contained herein were adopted by the Association 
during its 87th Annual Meeting in Shreveport, Louisiana, on February 
23, 2012, and represent the combined concerns of the citizens of the 
Red River Basin area as they pertain to the goals of the Association. A 
summary of the Civil Works projects and requested funding is included 
in this testimony.
    The President's fiscal year 2013 budget included $4.731 billion for 
the Civil Works programs. This is $269 million less than what the 
Congress appropriated in fiscal year 2012. The administration fails to 
recognize Corps of Engineers' (COE) critical role as stewards of our 
Nation's water resources, and the vital importance of our water 
resources infrastructure to our economic and environmental well-being. 
The problem is also how the administration distributes funds. A few 
projects received the full ``Corps Capability'' to the detriment of 
many projects that receive no funding. The $4.731 billion level does 
not come close to the real needs of our Nation. A more realistic 
funding level to meet the existing needs of the Civil Works program is 
$6 billion for fiscal year 2013. The traditional Civil Works programs 
remain at the low, unacceptable level as in past years. These projects 
are the backbone to our Nation's infrastructure for waterways, flood 
prevention, water supply, recreation, and ecosystem restoration. We 
remind you that Civil Works projects are a true ``jobs program'' in 
that up to 85 percent of project construction funding is contracted to 
the private sector; 100 percent of the construction, as well as much of 
the architect and engineering work. Not only do these projects provide 
jobs, but provide economic development opportunities for our 
communities to grow and prosper, creating permanent jobs.
    We want to point out that we appreciate the funding the Congress 
enacted in the fiscal year 2012 Consolidated Appropriation Act and 
fiscal year 2012 supplemental. We encourage the Congress to increase 
the ``water'' share of the total Energy and Water Bill closer to the $6 
billion Corps capability.
    We have great concerns over the issue of ``earmarks''. Civil Works 
projects are not earmarks. Civil Works projects go through a process; 
reconnaissance study, feasibility study, benefit to cost ratio test, 
EIS, peer review, review by agencies, public review and comment, final 
Chief of Engineer approval, authorization by all of the Congress in a 
Water Resources Development Act (WRDA) bill and signed by the 
President. WRDA 2007 added an independent review of major projects. No 
other Federal program goes through such a rigorous approval process. 
Each justified project ``stands alone'', are proven to be of national 
interest and should be funded by project. For most projects there is 
local sponsor cost sharing during the feasibility study, construction, 
and for operations and maintenance (O&M). Those who have contributed, 
in most cases--millions of dollars--to the process, must have the 
ability to have a say for their projects to get funded. That voice is 
through their congressional delegation. We believe that earmarks are 
not in the national interest, but it does not pertain to the Civil 
Works program. For civil works it is an issue of priority of projects 
to be funded and who will determine that, Office of Management and 
Budget or the Congress. We hope the Congress takes back their 
responsibility to set civil works priorities and to determine how its 
citizens' tax dollars are spent.
    The Inland Waterways Trust Fund (IWTF) is inadequately funded by 
the existing fuel tax rate. There is no doubt that something must be 
done to increase the revenue in the fund. The needs of the IWTF should 
be analyzed and determine what increase to the existing fuel tax would 
maintain the necessary income flow to keep projects funded from the 
IWTF. The final proposal must be fair to tributary waterways and be 
applied equally to all industries using the waterways.
    I would now like to comment on some of our specific requests for 
the future economic well being of the citizens residing in the four 
State Red River Basin regions.
    Navigation.--The J. Bennett Johnston Waterway is living up to the 
expectations of the benefits projected. We are extremely proud of our 
public ports, municipalities, and State agencies that have created this 
success. This upward ``trend'' in usage will continue as new industries 
commence operations. A major power company, CLECO, has invested $1 
billion in its Rodemacher Plant near Boyce, Louisiana, on the lower Red 
River and has started moving more than 2.5 million tons of ``petroleum 
coke'' and limestone, by barge. This project is a reality and there are 
many more industries considering using our waterway and locating at the 
ports.
    We have a serious issue for the J. Bennett Johnston Waterway O&M in 
the President's budget. The administration allocated $8,434,000 for 
fiscal year 2013, $2,566,000 less than what is required for 24/7 lock 
operations and dredging. This drastic reduction will directly impact 
the ability to conduct maintenance dredging and the authorized 9-foot 
channel will not be maintained. It is difficult to understand why the 
administration would fund O&M at the $11 million range for 5 years and 
suddenly make a drastic reduction that will have such a negative impact 
on a waterway that has yearly increased its tonnage. If the required 
funding level of at least $11 million is not appropriated the waterway 
may actually shut down to all traffic and industry will see the 
waterway as unreliable and choose alternative modes of transportation, 
impacting ports, and jobs.
    The administration is introducing a new metric to determine lock 
operations. The hours of operations for each lock would be determined 
by the number of commercial lockages per year. Reducing the hours of 
operations will discourage industry from using the Waterway; therefore, 
further reducing the number of lockages sending the Waterway into a 
lower-use status. Instead of finding ways to close down waterways the 
administration should be promoting initiatives to increase waterborne 
transportation. The Congress must stop these destructive actions.
    Red River Navigation Into Southwest Arkansas Feasibility Study.--
This region of Southwest Arkansas and Northeast Texas continues to 
suffer major unemployment and this navigation project, although not the 
total solution will help revitalize the economy. Due to the time lapsed 
in the study the ``freight rates'' calculated a number of years ago 
they must be re-evaluated. To date the local sponsor, Arkansas Red 
River Commission, has invested more than $4 million to cost share in 
this study. Since no funding has been appropriated for this study the 
Commission will fully fund a private company to conduct a full 
investigation to insure all benefits have been identified. This 
feasibility study has been ongoing for more than 10 years and the 
Commission is making every effort to bring it to a successful 
conclusion. The administration and the Congress needs to make the 
Federal contribution and the same commitment the local sponsor and 
State of Arkansas has made.
    Flood Prevention.--What will happen when we ignore our levee 
systems? We know the Red River levees in Arkansas do not meet Federal 
standards, which is why we have the authorized project line item, ``Red 
River Below Denison Dam, TX, AR & LA''. Now is the time to bring these 
levees up to standards, before a major flood event.
    We continue to consider flood control a major objective and request 
you continue funding the levee rehabilitation projects ongoing in 
Arkansas. Out of 11 levee sections, 5 have been completed and brought 
to Federal standards. The Red River Levee District (AR) is prepared to 
provide lands, easements, and rights of way for the next major 
rehabilitation of the Lafayette County levees.
    The levees in Louisiana have been incorporated into the Federal 
system; however, they do not meet current safety standards. These 
levees do not have a gravel surface roadway, threatening their 
integrity during times of flooding. It is essential for personnel to 
traverse the levees during a flood to inspect them for problems. 
Without the gravel surface the vehicles will cause rutting, which can 
create conditions for the levees to fail. A gravel surface will insure 
inspection personnel can check the levees during the saturated 
conditions of a flood.
    Bank Stabilization.--One of the most important, continuing 
programs, on the Red River is bank stabilization in Southwest Arkansas 
and North Louisiana under the authorized project; Red River Emergency 
Bank Protection. We must stop the loss of valuable farmland that erodes 
down the river and interferes with the navigation channel. In addition 
to the loss of farmland is the threat to public utilities such as 
levees, roads, electric power lines and bridges; as well as increased 
dredging cost in the navigable waterway in Louisiana. These bank 
stabilization projects are compatible with subsequent navigation into 
Arkansas, and we urge that they be continued in those locations 
designated by COE to be the areas of highest priority.
    Water Quality.--The Assistant Secretary of the Army (Civil Works), 
in October 1998, agreed to support a re-evaluation of the Wichita River 
Basin tributary of the Chloride Control Project. The re-evaluation 
report was completed and the Director of Civil Works signed the 
Environmental Record of Decision. The plan was found to be economically 
justified. Then the ASA (CW) directed that construction would not 
proceed until a local sponsor was found to assume 100 percent of the 
O&M for the project. The 2007 WRDA bill included language that 
clarified that all aspects of this project will be at full Federal 
expense, to include O&M. Over the past years, there has been a renewed 
interest by the Lugart-Altus Irrigation District to evaluate 
construction of Area VI, of the Chloride Control Project, in Oklahoma. 
They have obtained the support of many State and Federal legislators, 
as well as the Oklahoma Governor in support of a re-evaluation report. 
The western areas of Texas and Oklahoma are water deprived and sorely 
need the Chloride Control Project. The need for water quality and 
quantity will increase over time and this project will address those 
needs, as long as Federal funding is appropriated to keep the project 
moving ahead.
    Project Funding Requests.--Included in this testimony are tables 
displaying the Civil Works projects in the Red River Valley and the 
appropriation needs for fiscal year 2013.
    Thank you for the opportunity to present this testimony and project 
details of the Red River Valley Association on behalf of the 
industries, organizations, municipalities and citizens we represent 
throughout the four State Red River Valley region. The Civil Works 
program directly relates to national security by investing in economic 
infrastructure. If waterways are closed companies will not relocate to 
other parts of the country--they will move over seas. If we do not 
invest now there will be a negative impact on our ability to compete in 
the world market threatening our national security.
    Grant Disclosure.--The Red River Valley Association has not 
received any Federal grant, sub-grant or contract during the current 
fiscal year or either of the 2 previous fiscal years.

                         RED RIVER VALLEY ASSOCIATION OPERATION AND MAINTENANCE PROJECTS
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                   Red River
                                                                                     Valley        President's
                           Project                            Fiscal year 2012    Association      fiscal year
                                                                appropriations    fiscal year      2013 budget
                                                                                  2013 request
----------------------------------------------------------------------------------------------------------------
DE Queen Lake, Arkansas.....................................            1,654             3,393            1,870
Dierks Lake, Arkansas.......................................            1,393             2,213            1,567
Gillham Lake, Arkansas......................................            1,319             1,437            1,463
Millwood Lake, Arkansas.....................................            2,507             6,690            2,680
Bayou Bodcau Reservoir, Louisiana...........................            2,016             1,891            1,041
Bayou Pierre, Louisiana.....................................               23                36               24
Caddo Lake, Louisiana.......................................              215               522              216
Wallace Lake, Louisiana.....................................              234               997              232
J. Bennett Johnston Waterway, Louisiana.....................           11,165            25,633            8,434
    Basic Annual Operation and Maintenance..................            7,565            12,230  ...............
                                                               (w/Suppl 3,600)
    Backlog Maintenance.....................................  ................           13,403  ...............
Old River, Louisiana (MR&T).................................  ................           21,647            8,050
Broken Bow Lake, Oklahoma...................................            2,017             7,025            2,425
Hugo Lake, Oklahoma.........................................            1,519             1,716            1,716
Pine Creek Lake, Oklahoma...................................            1,229             1,053            1,053
Sardis Lake, Oklahoma.......................................              982             3,801            3,801
Waurika Lake, Oklahoma......................................            1,507             1,616            1,616
Chloride Control, Area VIII, Texas..........................            1,562             1,529            1,529
Denison Dam and Lake Texoma, Texas..........................            6,803            13,837            7,137
    Basic Annual Operation and Maintenance..................  ................            6,393  ...............
    Backlog Maintenance.....................................  ................            7,444  ...............
Estelline Springs, Texas....................................               43                42               42
Lake Kemp, Texas--Total Need................................              179               241              241
    Basic Annual Operation and Maintenance..................  ................              214  ...............
    Reallocation Study......................................  ................               27  ...............
Pat Mayse Lake, Texas.......................................            1,187             2,421            1,148
Jim Chapman Lake, Texas.....................................            1,555             4,553            1,736
Lake of the Pines, Texas....................................            3,393             8,848            3,529
Wright Patman Dam and Lake, Texas...........................            3,771            12,888            3,513
----------------------------------------------------------------------------------------------------------------


                        RED RIVER GENERAL INVESTIGATION AND CONSTRUCTION GENERAL PROJECTS
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                   Red River
                                                                                     Valley        President's
                                                              Fiscal year 2012    Association      fiscal year
                                                                appropriations    fiscal year      2013 budget
                                                                                  2013 request
----------------------------------------------------------------------------------------------------------------
                        Studies (GI)Navigation into Southwest Arkansas: Feasibility.............  ................              302  ...............
Red River Waterway, Louisiana--12' Channel, Recon...........  ................              100  ...............
Bossier Parish, Louisiana...................................  ................              270  ...............
Cross Lake, Louisiana Water Supply Supplement...............  ................  ...............  ...............
Southeast Oklahoma Water Resource Study: Feasibility........  ................              500  ...............
Washita River Basin, Oklahoma...............................  ................              500  ...............
Southwest Arkansas Ecosystem Restoration: Recon Study.......  ................               47  ...............
Cypress Valley Watershed, Texas.............................  ................              175  ...............
Sulphur River Basin, Texas..................................  ................            1,000  ...............
Wichita River Basin above Lake Kemp, Texas: Recon...........  ................              100  ...............
Red River Above Denison Dam, Texas and Oklahoma: Recon......  ................              100  ...............
Red River Waterway, Index, Arkansas to Denison Dam..........  ................              100  ...............
 Mountain Fork River Watershed, Oklahoma and Arkansas, Recon  ................  ...............  ...............
 Walnut Bayou, Little River, Arkansas.......................  ................              100  ...............
Little River County/Ogden Levee, Arkansas, Recon............  ................              100  ...............
Red River Waterway, Index to Denison, Bendway...............  ................  ...............  ...............                  Construction General (CG)Red River Waterway: J.B. Johnston Waterway, Louisiana.......            1,000            22,000            2,000
Chloride Control Project, Texas and Oklahoma................  ................            8,500  ...............
    Texas--7,500/Oklahoma--800..............................        \1\ 7,200         \2\ 1,300  ...............
Red River Below Denison Dam; Arkansas and Louisiana.........               90            18,000  ...............
    Bowie County Levee, Texas...............................  ................  ...............  ...............
Red River Emergency Bank Protection.........................  ................           20,000  ...............
McKinney Bayou, Arkansas, PED...............................  ................  ...............  ...............             Continuing Authority Program (CAP)Big Cypress Valley Watershed, Texas: Section 1135...........  ................  ...............  ...............
Palo Duro Creek, Canyon, Texas: Section 205.................  ................              100  ...............
Millwood, Grassy Lake, Arkansas: Section 1135...............  ................              100  ...............
Miller County Levee, Arkansas: Section 1135.................  ................  ...............  ...............
Oklahoma Comprehensive Water Planning: Section 22...........  ................              500  ...............
----------------------------------------------------------------------------------------------------------------
\1\ Texas
\2\ Oklahoma

                                 ______
                                 

                       DEPARTMENT OF THE INTERIOR

                         Bureau of Reclamation

Prepared Statement of the Assiniboine and Sioux Tribes of the Fort Peck 
                Reservation and Dry Prairie Rural Water
                    fiscal year 2013 budget request
    The Assiniboine and Sioux Tribes of the Fort Peck Reservation and 
Dry Prairie Rural Water greatly appreciate $7.5 million that is 
included in the Bureau of Reclamation's (BOR) fiscal year 2013 budget 
request to continue construction of the Fort Peck Reservation Rural 
Water System. However, this level of funding is far below the need and 
project capacity for fiscal year 2013. Thus, we respectfully request 
$29 million within BOR fiscal year 2013 rural water program for this 
project, which will enable us to complete this project within the 
authorization time.
    Fiscal year 2013 funds will be used to construct critical elements 
of the Fort Peck Reservation Rural Water System, Montana, (Public Law 
106-382, October 27, 2000). The amount requested is based on need to 
complete transmission pipelines across the Fort Peck Indian Reservation 
and deliver regional water to the Reservation and Dry Prairie. The 
request is within capability to spend funds in fiscal year 2013 as set 
out in Table 1.
    Good construction progress has been made on the Reservation and 
will continue into 2013. By the end of fiscal year 2012, the project 
will:
  --complete the main transmission pipelines from the water treatment 
        plant (WTP) to Wolf Point;
  --complete the main transmission system from Wolf Point to Frazer;
  --complete the main transmission system from Poplar to Brockton;
  --nearly complete the main transmission system from Brockton to the 
        Big Muddy River, the first interconnection point with Dry 
        Prairie;
  --serve rural homes of tribal members and others between Brockton and 
        Frazer, that, when complete, will serve 75 percent of the 
        Reservation design population with safe and adequate water; and
  --complete the Fort Kipp interim water project, poorest water quality 
        in the region.
    Dry Prairie has continued to extend distributions projects in 
Valley County on the west side of the project and in Roosevelt and 
Sheridan Counties on the east side and has added several hundred new 
users.

               TABLE 1.--FISCAL YEAR 2013 FUNDING REQUEST,
      FORT PECK RESERVATION RURAL WATER SYSTEM (PUBLIC LAW 106-382)
                        [In thousands of dollars]
------------------------------------------------------------------------
     Sponsor/Project Feature         Federal    Non-Federal     Total
------------------------------------------------------------------------
      FORT PECK TRIBES (MAIN
     TRANSMISSION PIPELINES)Brockton to Big Muddy Mainline...          725  ...........          725
    Brockton to Big Muddy Zone 1           750  ...........          750
     Branches....................
    Wolf Point to Poplar Zone 1          1,425  ...........        1,425
     Branches....................
    Wolf Point to Frazer Zone 1          3,905  ...........        3,905
     Branches....................
Frazer to Porcupine Creek........        8,346  ...........        8,346
FP Electrical, Meters, SCADA.....        2,114  ...........        2,114
                                  --------------------------------------
      Subtotal...................       17,265  ...........       17,265  DRY PRAIRIE (MAIN TRANSMISSION
     PIPELINES AND BRANCHES)E Medicine Lake..................        1,883          595        2,478
ML to Plentywood.................        2,333          737        3,070
Big Muddy to Culbertson..........          108           34          142
FP Boundary to Scobey............        7,499        2,368        9,867
DP Electrical, Meters, Easements.          752          238          990
                                  --------------------------------------
      Subtotal...................       11,823        3,734       15,557
                                  --------------------------------------
      Total......................       29,088        3,734       32,822
------------------------------------------------------------------------

                        funding status and needs
    As shown in Table 2, the project will be 44-percent complete at the 
end of fiscal year 2012 this includes the completion of the regional 
WTP. The construction contract for the final phase will be completed in 
mid-year 2012. The Project has also completed:
  --the extension of the raw water pipeline from the regional intake to 
        the new WTP;
  --the pipeline between the new WTP and the tribal headquarter 
        community of Poplar;
  --the pipeline between the WTP and the community of Wolf Point; and
  --part of the project from Wolf Point to Frazer.

                   TABLE 2.--FUNDING STATUS AND NEEDS
                         [Dollars in thousands]
------------------------------------------------------------------------------------------------------------------------------------------------
Total Federal funding authority (October 2011)..........        $295,719
                                                         ===============Federal funds appropriated through fiscal year 2012:
    Energy and Water Appropriations.....................         $83,532
    ARRA Allocation.....................................         $46,249
                                                         ---------------
      Total.............................................        $129,781
                                                         ===============
Percent complete........................................           43.89
                                                         ===============
Amount remaining after fiscal year 2012:
    Total authorized (October 2010).....................        $165,938
    Overhead adjustment for extension to fiscal year            $215,579
     2020...............................................
    Adjusted for inflation to fiscal year 2020 at 4.54%         $261,903
     annually...........................................Years to complete.......................................               8Average annual required to end in fiscal year 2020,              $32,738
 requires amendment to extend...........................
Fiscal year 2013 amount requested.......................         $29,088
------------------------------------------------------------------------

    While the project has made great strides and efficiently used every 
$1 made available to get to where we are, we are still less than 50-
percent complete, which translates into approximately $166 million (in 
2010 dollars) of construction that must be completed. Currently, the 
project is $13 million underbudget and can be completed within the 
authorized construction ceiling if appropriations are adequate to 
complete on the statutory schedule of 2015, which we recognize as not 
realistic. However, the cost of extending the project construction to 
fiscal year 2020, for example, 5 years beyond the authorized ceiling, 
is an additional $50 million. We urge the Congress to address the 
problem of inadequate budgeting of projects that are well advanced in 
construction.
                          proposed activities
    The fiscal year 2013 request ($29.088 million) is needed to 
properly utilize the WTP and distribute water to all communities along 
the main transmission line within the Fort Peck Indian Reservation and 
is within the capability of the project. The fiscal year 2013 funds 
will:
    Fort Peck Indian Reservation
  --complete the main transmission pipelines along the southern 
        boundary of the project;
  --serve the Reservation communities and all rural homes within the 
        first pressure zone along the main transmission throughout the 
        Reservation; and
  --permit delivery of water outside the Reservation to improve water 
        quality and operation within the reservation by:
    --reducing flushing needs and costs;
    --reducing disinfection needs and costs; and
    --reducing potential for formation of disinfectant by-products.
    Dry Prairie
  --initiate construction of pipeline from northern boundary of 
        Reservation to Scobey; and
  --complete the main transmission pipeline and branches from Medicine 
        Lake to Plentywood.
    Jobs
  --create an estimated 233 full-time equivalent (FTE) construction 
        jobs in an area of Montana with low per capita income, high 
        unemployment, and high underemployment (based on 8 FTEs per $1 
        million).
                        administration's support
    The project has reached 44-percent completion over a period of 12 
years and needs greater funding support to complete the project between 
2015 and 2020. Congressional support is needed for the authorized BOR 
rural program to complete projects in a more timely manner.
    The tribes and Dry Prairie have worked extremely well and closely 
with BOR since the authorization of the project in fiscal year 2000. 
The Commissioner, Regional and Area Office of BOR have been 
consistently in full agreement with the need, scope, total costs, and 
the ability to pay analysis that supported the Federal and non-Federal 
cost shares. There have been no areas of disagreement or controversy in 
the formulation or implementation of the project. As stated above, the 
project is under budget currently by more than $13 million.
    Cooperative agreements have been developed and executed between BOR 
and the tribes and between BOR and Dry Prairie. Those cooperative 
agreements carefully set out goals, standards, and responsibilities of 
the parties for planning, design, and construction. All plans and 
specifications are subject to review by BOR pursuant to the cooperative 
agreements. The sponsors collaborate to undertake activities that 
assure proper oversight and approval by BOR. Each year the tribes and 
Dry Prairie, in accordance with the cooperative agreements, develop a 
work plan setting out the planning, design, and construction 
activities, and the allocation of funding to be utilized on each 
project feature.
    Clearly, the Fort Peck Reservation Rural Water System is well-
supported by BOR. The Congress authorized the project based on the 
Final Engineering Report that was formulated in full cooperation and 
collaboration with BOR, and major project features are successfully 
under construction with excellent oversight by the Agency.
                                 ______
                                 
                   Prepared Statement of Aurora Water
    Dear Chairwoman Feinstein and Senator Alexander: I request your 
support for an appropriation for fiscal year 2013 of $8,387,000 to the 
Bureau of Reclamation within the budget line item entitled ``Endangered 
Species Recovery Implementation Program'' for the Upper Colorado 
Region, consistent with the President's recommended budget. Substantial 
non-Federal cost-sharing funding is occurring pursuant to Public Law 
106-392, as amended. This appropriation will allow continued funding in 
fiscal year 2013 for the Upper Colorado River Endangered Fish Recovery 
Program and the San Juan River Basin Recovery Implementation Program as 
authorized by Public Law 106-392. These two successful ongoing 
cooperative partnership programs involve the States of Colorado, New 
Mexico, Utah, and Wyoming; Indian tribes; Federal agencies; and water, 
power, and environmental interests.
    The requested Federal appropriations are critically important to 
these efforts moving forward. The past support of your subcommittee has 
greatly facilitated the success of these multistate, multiagency 
programs. I thank you for the subcommittee's past support and request 
the subcommittee's assistance for fiscal year 2013 funding to ensure 
the Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
     Prepared Statement of Board of Water Works of Pueblo, Colorado
    Dear Chairwoman Feinstein and Senator Alexander: I request your 
support for an appropriation for fiscal year 2013 of $8,387,000 to the 
Bureau of Reclamation within the budget line item entitled ``Endangered 
Species Recovery Implementation Program'' for the Upper Colorado 
Region, consistent with the President's recommended budget. Substantial 
non-Federal cost-sharing funding is occurring pursuant to Public Law 
106-392, as amended. This appropriation will allow continued funding in 
fiscal year 2013 for the Upper Colorado River Endangered Fish Recovery 
Program and the San Juan River Basin Recovery Implementation Program as 
authorized by Public Law 106-392. These two successful ongoing 
cooperative partnership programs involve the States of Colorado, New 
Mexico, Utah, and Wyoming; Indian tribes; Federal agencies; and water, 
power, and environmental interests.
    The requested Federal appropriations are critically important to 
these efforts moving forward. The past support of your subcommittee has 
greatly facilitated the success of these multistate, multiagency 
programs. I thank you for the subcommittee's past support and request 
the subcommittee's assistance for fiscal year 2013 funding to ensure 
the Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
     Prepared Statement of Central Utah Water Conservancy District
    Dear Chairwoman Feinstein and Senator Alexander: I request your 
support for an appropriation for fiscal year 2013 of $8,387,000 to the 
Bureau of Reclamation within the budget line item entitled ``Endangered 
Species Recovery Implementation Program'' for the Upper Colorado 
Region, consistent with the President's recommended budget. Substantial 
non-Federal cost-sharing funding is occurring pursuant to Public Law 
106-392, as amended. This appropriation will allow continued funding in 
fiscal year 2013 for the Upper Colorado River Endangered Fish Recovery 
Program and the San Juan River Basin Recovery Implementation Program as 
authorized by Public Law 106-392. These two successful ongoing 
cooperative partnership programs involve the States of Colorado, New 
Mexico, Utah, and Wyoming; Indian tribes; Federal agencies; and water, 
power, and environmental interests.
    The requested Federal appropriations are critically important to 
these efforts moving forward. The past support of your subcommittee has 
greatly facilitated the success of these multistate, multiagency 
programs. I thank you for the subcommittee's past support and request 
the subcommittee's assistance for fiscal year 2013 funding to ensure 
the Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
                Prepared Statement of City of Farmington
    Dear Chairwoman Feinstein and Senator Alexander: I request your 
support for an appropriation for fiscal year 2013 of $8,387,000 to the 
Bureau of Reclamation within the budget line item entitled ``Endangered 
Species Recovery Implementation Program'' for the Upper Colorado 
Region, consistent with the President's recommended budget. Substantial 
non-Federal cost-sharing funding is occurring pursuant to Public Law 
106-392, as amended. This appropriation will allow continued funding in 
fiscal year 2013 for the Upper Colorado River Endangered Fish Recovery 
Program and the San Juan River Basin Recovery Implementation Program as 
authorized by Public Law 106-392. These two successful ongoing 
cooperative partnership programs involve the States of Colorado, New 
Mexico, Utah, and Wyoming; Indian tribes; Federal agencies; and water, 
power, and environmental interests.
    The requested Federal appropriations are critically important to 
these efforts moving forward. The past support of your subcommittee has 
greatly facilitated the success of these multistate, multiagency 
programs. I thank you for the subcommittee's past support and request 
the subcommittee's assistance for fiscal year 2013 funding to ensure 
the Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
   Prepared Statement of Colorado River Basin Salinity Control Forum
    Waters from the Colorado River are used by approximately 35 million 
people for municipal and industrial purposes and used to irrigate 
approximately 4 million acres in the United States. Natural and man-
induced salt loading to the Colorado River creates environmental and 
economic damages. The Bureau of Reclamation (BOR) has estimated the 
current quantifiable damages at about $300 million per year. The 
Congress authorized the Colorado River Basin Salinity Control Program 
(Program) in 1974 to offset increased damages caused by continued 
development and use of the waters of the Colorado River. Modeling by 
BOR indicates that the quantifiable damages would rise to more than 
$500 million by the year 2030 without continuation of the Program. The 
Congress has directed the Secretary of the Interior to implement a 
comprehensive program for minimizing salt contributions to the Colorado 
River. BOR serves as the lead Federal agency in implementing the 
program. BOR primarily institutes salinity control through its 
Basinwide Program. Funding levels have fallen behind in recent years, 
and a funding level of $14.5 million is required in fiscal year 2013 to 
prevent further degradation of the quality of the Colorado River and 
increased downstream economic damages.
    Environmental Protection Agency (EPA) has identified that more than 
60 percent of the salt load of the Colorado River comes from natural 
sources. The majority of land within the Colorado River Basin is 
administered by Bureau of Land Management (BLM). In implementing the 
Colorado River Basin Salinity Control Act (Act) in 1974, the Congress 
recognized that most of the salts in the Colorado River originate from 
federally owned lands. Title I of the Salinity Control Act deals with 
the United States commitment to the quality of waters being delivered 
to Mexico. Title II of the Act deals with improving the quality of the 
water delivered to U.S. users. This testimony deals specific with title 
II efforts. In the early years of the program, BOR implemented salinity 
control in large projects which were funded with specific line item 
amounts. In 1995, the Congress amended the act and created BOR's 
Basinwide Program. Under this program, BOR funds proposals which will 
decrease the salt load to the Colorado River. Most of the received 
proposals target off-farm irrigation distribution systems such as 
canals and laterals. It is generally more efficient for BOR to perform 
the off-farm distribution system improvements prior to Natural 
Resources Conservation Service (NRCS) treating the on-farm acres with 
salinity control practices (i.e., BOR pipe a canal or lateral prior to 
NRCS putting a pressurized sprinkler system on farm). Shortfalls in 
recent basinwide funding have led to inefficiencies in the 
implementation of the overall program. The funding amount identified 
above and in the graph below are required to get the Basinwide Program 
back on pace with the overall program implementation.
    Concentrations of salt in the Colorado River cause approximately 
$300 million in quantified damages and significantly more in 
unquantified damages in the United States and result in poor water 
quality for United States users. Damages occur from:
  --a reduction in the yield of salt-sensitive crops and increased 
        water use for leaching in the agricultural sector;
  --a reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector;
  --an increase in the cost of cooling operations and the cost of water 
        softening and a decrease in equipment service life in the 
        commercial sector;
  --an increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector;
  --a decrease in the life of treatment facilities and pipelines in the 
        utility sector;
  --difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions and an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins; and
  --increased use of imported water for leaching and cost of 
        desalination and brine disposal for recycled water.
    The Colorado River Basin Salinity Control Forum (Forum) is composed 
of gubernatorial appointees from Arizona, California, Colorado, Nevada, 
New Mexico, Utah, and Wyoming. The Forum is charged with reviewing the 
Colorado River's water quality standards for salinity every 3 years. In 
so doing, it adopts a Plan of Implementation consistent with these 
standards. The Plan of Implementation, as adopted by the States and 
approved by EPA, calls for 368,000 tons of additional salinity control 
measures to be implemented by BOR by 2030, or approximately 20,000 tons 
of new control each year. Based on current cost levels, BOR's funding 
under its Basinwide Program needs to be $14.5 million. The level of 
appropriation requested in this testimony is in keeping with the 
adopted Plan of Implementation. If adequate funds are not appropriated, 
significant damages from the higher salt concentrations in the water 
will be more widespread in the United States and Mexico.
 basinwide program: funding based on controlling 19,763 t/yr beginning 
                          in fiscal year 2013



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    In summary, implementation of salinity control practices through 
BOR's Basinwide Program has proven to be a very cost-effective method 
of controlling the salinity of the Colorado River and is an essential 
component to the overall Colorado River Basin Salinity Control Program. 
Continuation of adequate funding levels for salinity within this 
program will prevent the water quality of the Colorado River from 
further degradation and significant increases in economic damages to 
municipal, industrial, and irrigation users.
                                 ______
                                 
      Prepared Statement of the Colorado River Board of California
    This testimony is in support of fiscal year 2013 funding for the 
Department of the Interior for the title II Colorado River Basin 
Salinity Control Act of 1974 (Public Law 93-320). In the Act, the 
Congress designated the Department of the Interior, Bureau of 
Reclamation (BOR) to be the lead agency for salinity control in the 
Colorado River Basin. For nearly 28 years this very successful and 
cost-effective program has been carried out pursuant to the Colorado 
River Basin Salinity Control Act and the Clean Water Act (Public Law 
92-500). California's Colorado River water users are presently 
suffering economic damages in the hundreds of millions of dollars per 
year due to the River's salinity.
    The Colorado River Board of California (Board) is the State agency 
charged with protecting California's interests and rights in the water 
and power resources of the Colorado River system. In this capacity, 
California participates along with the other six Colorado River Basin 
states through the Colorado River Basin Salinity Control Forum (Forum), 
the interstate organization responsible for coordinating the Basin 
States' salinity control efforts. In close cooperation with the U.S. 
Environmental Protection Agency (EPA) and pursuant to requirements of 
the Clean Water Act, the Forum is charged with reviewing the Colorado 
River's water quality standards every 3 years. The Forum adopts a Plan 
of Implementation consistent with these water-quality standards. The 
level of appropriation being supported by this testimony is consistent 
with the Forum's ``2011 Plan of Implementation'' for continued salinity 
control efforts within the Colorado River Basin. If adequate funds are 
not appropriated to BOR's Basinwide Program, significant damages 
associated with increasing salinity concentrations of Colorado River 
water will become more widespread in the United States and Mexico.
    The Plan of Implementation, as adopted by the States and approved 
by EPA, calls for 368,000 tons of additional salinity control measures 
to be implemented by BOR by 2030, or approximately 20,000 tons of 
additional salinity control measures each year. Based on current 
program cost levels, BOR's funding under its Basinwide Program needs to 
be at least $14.5 million. This level of appropriation requested in 
this testimony is in keeping with the adopted ``2011 Plan of 
Implementation''.
    Waters from the Colorado River are used by approximately 35 million 
people for municipal and industrial purposes and used to irrigate 
approximately 4 million acres of agricultural lands in the United 
States. Currently, the salinity concentration of Colorado River water 
causes about $300 million in quantifiable damages in the United States 
annually. Economic and hydrologic modeling by BOR indicates that the 
quantifiable damages could rise to more than $500 million by the year 
2030 without the continuation of Basinwide salinity control measures as 
identified in the ``2011 Plan of Implementation''. Significant 
unquantified damages also occur. For example, damages occur from:
  --a reduction in the yield of salt-sensitive crops and increased 
        water use for leaching in the agricultural sector;
  --a reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector;
  --an increase in the use of water for cooling, and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector;
  --an increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector;
  --a decrease in the life of treatment facilities and pipelines in the 
        utility sector;
  --difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins, and fewer opportunities for recycling and reuse of the 
        water due to groundwater quality deterioration; and
  --increased use of imported water for leaching and the cost of 
        desalination and brine disposal for recycled water.
    Some of the most cost-effective salinity control opportunities 
occur when BOR can improve irrigation delivery systems in a coordinated 
fashion with the activities of the U.S. Department of Agriculture's 
(USDA) programs working with landowners to improve on-farm irrigation 
systems. With the USDA's Environmental Quality Incentive Program, more 
on-farm funds are available and it continues to be important to ensure 
that there are adequate BOR funds available to maximize BOR's 
effectiveness in addressing water delivery system improvements. 
Shortfalls in recent Basinwide Program funding have led to 
inefficiencies in the implementation of the overall salinity control 
program. The funding amount identified above, and in the following 
graph, are required to get the Basinwide Program back on pace with the 
implementation schedule identified in the ``2011 Plan of 
Implementation''.
 basinwide program: funding based on controlling 19,763 t/yr beginning 
                          in fiscal year 2013



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    In addition, the Colorado River Board recognizes that the Federal 
Government has made significant commitments to the Republic of Mexico 
and to the seven Colorado River Basin States with regard to the 
delivery of quality water pursuant to the 1944 Water Treaty with 
Mexico. In order for those commitments to be honored, it is essential 
that in fiscal year 2013, and in future fiscal years, that the Congress 
provide funds to the BOR for the continued operation of current 
projects.
    The Colorado River is, and will continue to be, a major and vital 
water resource to the nearly 20 million residents of southern 
California, including municipal, industrial, and agricultural water 
users in Ventura, Los Angeles, San Bernardino, Orange, Riverside, San 
Diego, and Imperial counties. The protection and improvement of 
Colorado River water quality through an effective salinity control 
program will avoid the additional economic damages to users in 
California and the other States that rely on the Colorado River.
                                 ______
                                 
     Prepared Statement of the Colorado River Energy Distributors 
                              Association
    Dear Chairwoman Feinstein and Senator Alexander: We request your 
support for an appropriation for fiscal year 2013 of $8,387,000 to the 
Bureau of Reclamation within the budget line item entitled ``Endangered 
Species Recovery Implementation Program'' for the Upper Colorado 
Region, consistent with the President's recommended budget. Substantial 
non-Federal cost-sharing funding is occurring pursuant to Public Law 
106-392, as amended. This appropriation will allow continued funding in 
fiscal year 2013 for the Upper Colorado River Endangered Fish Recovery 
Program and the San Juan River Basin Recovery Implementation Program as 
authorized by Public Law 106-392. These two successful ongoing 
cooperative partnership programs involve the States of Colorado, New 
Mexico, Utah, and Wyoming; Indian tribes; Federal agencies; and water, 
power, and environmental interests.
    The requested Federal appropriations are critically important to 
these efforts moving forward. The past support of your subcommittee has 
greatly facilitated the success of these multistate, multiagency 
programs. We thank you for the subcommittee's past support and request 
the subcommittee's assistance for fiscal year 2013 funding to ensure 
the Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
     Prepared Statement of the Colorado River Energy Distributors 
                              Association
    Dear Chairwoman Feinstein and Ranking Member Alexander: On behalf 
of the Colorado River Energy Distributors Association (CREDA), I 
respectfully request that the subcommittee appropriate $11,387,000 to 
maintain capital projects and base funding activities for the Upper 
Colorado River and San Juan River Recovery Implementation Programs 
(RIP).
    CREDA is a nonprofit organization representing consumer-owned 
utilities, political subdivisions, State agencies, tribes and rural 
electric cooperative utilities in Arizona, Colorado, Nevada, New 
Mexico, Utah, and Wyoming, serving more than 4 million electric 
consumers. CREDA's member utilities purchase more than 85 percent of 
the power produced by the Glen Canyon, Flaming Gorge, Aspinall Unit 
Dams, and other features of the Colorado River Storage Project (CRSP).
    As purchasers of the power generated at CRSP facilities, CREDA's 
members pay more than 95 percent of the costs of these multipurpose 
projects. Changes in the operation of these facilities to provide for 
the recovery of the endangered fish have resulted in significant costs 
to the power users.
    CREDA members are willing participants in the recovery programs, 
which have been a model of Federal/non-Federal collaboration and 
participation. However, the most recent authorization (Public Law 106-
392) to use CRSP power revenues to provide annual base funding for the 
RIP expired at the end of fiscal year 2011. There is currently no 
legislative authorization to use CRSP power revenues for other than 
those activities authorized by Public Law 106-392. However, 
stakeholders continue to seek legislation to extend the use of CRSP 
power revenues for base funding from fiscal year 2012-2019.
    CREDA is extremely troubled by the administration's fiscal year 
2013 Bureau of Reclamation (BOR) budget which says, ``In the absence of 
legislation to extend this specific authority, BOR may rely on existing 
authority to continue the use of CRSP power revenues or use 
appropriated funds to ensure full base funding.'' It is inappropriate 
for the administration to continue use of power revenues without a 
specific authorization, and despite repeated inquiries CREDA has not 
been informed by BOR what ``existing authority'' is being referred to 
in the budget request language.
    To maintain uninterrupted annual/base funding for the RIP, CREDA 
supports Federal appropriations in the amount of $11,387,000 to fund 
not only the administration's request for capital projects, but an 
additional nonreimbursable $3 million for base funding activities. 
CREDA requests that, in the absence of a specific authorization, the 
subcommittee expressly prohibit the use of CRSP power revenues for 
activities beyond those authorized by Public Law 106-392.
    We request your support for an appropriation for fiscal year 2013 
of $8,387,000 to the BOR within the budget line item entitled 
``Endangered Species Recovery Implementation Program'' for the Upper 
Colorado Region, consistent with the President's recommended budget. 
Substantial non-Federal cost-sharing funding is occurring pursuant to 
Public Law 106-392, as amended. This appropriation will allow continued 
funding in fiscal year 2013 for the Upper Colorado River Endangered 
Fish Recovery Program and the San Juan River Basin Recovery 
Implementation Program as authorized by Public Law 106-392. These two 
successful ongoing cooperative partnership programs involve the States 
of Colorado, New Mexico, Utah, and Wyoming; Indian tribes; Federal 
agencies; and water, power, and environmental interests.
    The requested Federal appropriations are critically important to 
these efforts moving forward. The past support of your subcommittee has 
greatly facilitated the success of these multistate, multiagency 
programs. We thank you for the subcommittee's past support and request 
the subcommittee's assistance for fiscal year 2013 funding to ensure 
the BOR's continuing financial participation in these vitally important 
programs.
                                 ______
                                 
            Prepared Statement of Colorado Springs Utilities
    Dear Chairwoman Feinstein and Senator Alexander: I request your 
support for an appropriation for fiscal year 2013 of $8,387,000 to the 
Bureau of Reclamation within the budget line item entitled ``Endangered 
Species Recovery Implementation Program'' for the Upper Colorado 
Region, consistent with the President's recommended budget. Substantial 
non-Federal cost-sharing funding is occurring pursuant to Public Law 
106-392, as amended. This appropriation will allow continued funding in 
fiscal year 2013 for the Upper Colorado River Endangered Fish Recovery 
Program and the San Juan River Basin Recovery Implementation Program as 
authorized by Public Law 106-392. These two successful ongoing 
cooperative partnership programs involve the States of Colorado, New 
Mexico, Utah, and Wyoming; Indian tribes; Federal agencies; and water, 
power, and environmental interests.
    The requested Federal appropriations are critically important to 
these efforts moving forward. The past support of your subcommittee has 
greatly facilitated the success of these multistate, multiagency 
programs. I thank you for the subcommittee's past support and request 
the subcommittee's assistance for fiscal year 2013 funding to ensure 
the Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
           Prepared Statement of the Colorado Water Congress
    Dear Chairwoman Feinstein and Senator Alexander: I request your 
support for an appropriation for fiscal year 2013 of $8,387,000 to the 
Bureau of Reclamation within the budget line item entitled ``Endangered 
Species Recovery Implementation Program'' for the Upper Colorado 
Region, consistent with the President's recommended budget. Substantial 
non-Federal cost-sharing funding is occurring pursuant to Public Law 
106-392, as amended. This appropriation will allow continued funding in 
fiscal year 2013 for the Upper Colorado River Endangered Fish Recovery 
Program and the San Juan River Basin Recovery Implementation Program as 
authorized by Public Law 106-392. These two successful ongoing 
cooperative partnership programs involve the States of Colorado, New 
Mexico, Utah, and Wyoming; Indian tribes; Federal agencies; and water, 
power, and environmental interests.
    The requested Federal appropriations are critically important to 
these efforts moving forward. The past support of your subcommittee has 
greatly facilitated the success of these multistate, multiagency 
programs. I thank you for the subcommittee's past support and request 
the subcommittee's assistance for fiscal year 2013 funding to ensure 
the Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
                   Prepared Statement of Denver Water
    Dear Chairwoman Feinstein and Senator Alexander: On behalf of 
Denver Water, I request your support for an appropriation for fiscal 
year 2013 of $8,387,000 to the Bureau of Reclamation within the budget 
line item entitled ``Endangered Species Recovery Implementation 
Program'' for the Upper Colorado Region, consistent with the 
President's recommended budget. Substantial non-Federal cost-sharing 
funding is occurring pursuant to Public Law 106-392, as amended. This 
appropriation will allow continued funding in fiscal year 2013 for the 
Upper Colorado River Endangered Fish Recovery Program and the San Juan 
River Basin Recovery Implementation Program as authorized by Public Law 
106-392. These two successful ongoing cooperative partnership programs 
involve the States of Colorado, New Mexico, Utah, and Wyoming; Indian 
tribes; Federal agencies; and water, power, and environmental 
interests.
    The requested Federal appropriations are critically important to 
these efforts moving forward. The past support of your subcommittee has 
greatly facilitated the success of these multistate, multiagency 
programs. I thank you for the subcommittee's past support and request 
the subcommittee's assistance for fiscal year 2013 funding to ensure 
the Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
      Prepared Statement of Grand Valley Water Users' Association
    Dear Chairwoman Feinstein and Senator Alexander: I request your 
support for an appropriation for fiscal year 2013 of $8,387,000 to the 
Bureau of Reclamation within the budget line item entitled ``Endangered 
Species Recovery Implementation Program'' for the Upper Colorado 
Region, consistent with the President's recommended budget. Substantial 
non-Federal cost-sharing funding is occurring pursuant to Public Law 
106-392, as amended. This appropriation will allow continued funding in 
fiscal year 2013 for the Upper Colorado River Endangered Fish Recovery 
Program and the San Juan River Basin Recovery Implementation Program as 
authorized by Public Law 106-392. These two successful ongoing 
cooperative partnership programs involve the States of Colorado, New 
Mexico, Utah, and Wyoming; Indian tribes; Federal agencies; and water, 
power, and environmental interests.
    The requested Federal appropriations are critically important to 
these efforts moving forward. The past support of your subcommittee has 
greatly facilitated the success of these multistate, multiagency 
programs. I thank you for the subcommittee's past support and request 
the subcommittee's assistance for fiscal year 2013 funding to ensure 
the Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
 Prepared Statement of Irrigation and Electrical Districts Association 
                               of Arizona
    The Irrigation and Electrical Districts Association of Arizona 
(IEDA) is pleased to present written testimony regarding the fiscal 
year 2013 proposed budgets for the Bureau of Reclamation (BOR) and the 
Western Area Power Administration (WAPA).
    IEDA is an Arizona nonprofit association whose 25 members and 
associate members receive water from the Colorado River directly or 
through the facilities of the Central Arizona Project (CAP) and 
purchase hydropower from Federal facilities on the Colorado River 
either directly from WAPA or, in the case of the Boulder Canyon 
Project, from the Arizona Power Authority, the State agency that 
markets Arizona's share of power from Hoover Dam. IEDA was founded in 
1962 and continues in its 50th year to represent water and power 
interests of Arizona political subdivisions and other public power 
providers and their consumers.
                         bureau of reclamation
    IEDA has reviewed the BOR budget and found, not unexpectedly, that 
it does not address the enormous backlog of needs of the agency's aging 
infrastructure. We support the important projects and programs that are 
included in the proposed budget. We are especially mindful that the 
Yuma Desalting Plant is an essential element of the problem solving 
mechanisms being put in place for the Colorado River and especially the 
Lower Colorado River. Problem solving on the Lower Colorado River will 
be substantially improved by using the plant as a management element.
    We also wish to call to the subcommittee's attention to several 
other issues of concern to us and Arizona water and power customers.
    First, we are concerned that the Congress has not extended the 
Upper Colorado River Recovery Implementation Plan. That Plan focuses on 
recovering three endangered fish in the Colorado River and its 
tributaries above Lake Powell. It is a three-party agreement:
  --Federal agencies with appropriations;
  --monies from the four Upper Colorado River Basin States (Colorado, 
        New Mexico, Utah, and Wyoming); and
  --power revenues from our members and other Colorado River Storage 
        Project customers.
Without the extension there are no Federal appropriation dollars to 
continue the program. This breaks the ``deal'' that we cut to keep the 
Endangered Species Act (ESA) from being used to attack our water and 
hydropower. No money, no plan. BOR appropriations should be provided 
but, if not, the subcommittee should recognize that the Plan is 
suspended and neither the power users nor the States have any 
obligation to continue it. BOR shouldn't try to backdoor money for this 
use. The subcommittee should hold them accountable.
    Second, we continue to be concerned about BOR's spending on post-9/
11 security costs. The Congress gave BOR specific directions on this 
subject several years ago. That included adjustments for declines in 
the Consumer Price Index and non-reimbursability of certain costs. 
However, the Congress did not instruct BOR with regard to how this 
program should be implemented. Like many reaction programs, this 
program experienced some overreaction. We believe a close review of the 
ongoing levels of staffing and other expenses is in order.
                   western area power administration
    IEDA has reviewed the proposed budget for the WAPA. We wish to call 
the subcommittee's attention to the limited appropriation for 
construction funding proposed for fiscal year 2013. We believe this 
shortfall is irresponsible. WAPA has more than 17,000 miles of 
transmission line for which it is responsible. It has on the order of 
14,000 megawatts of generation being considered for construction that 
would depend on that Federal network. The existing transmission 
facilities cannot handle all of these proposals. Moreover, the region 
is projected, by all utilities operating in the region, to be short of 
available generation in the 10-year planning window that utilities and 
Western use.
    The appropriation proposed in this category cannot come even close 
to keeping existing transmission construction going. Repairs and 
replacements will have to be postponed and considerable hardships to 
local utilities that depend on the Federal network are bound to occur. 
In WAPA's Desert Southwest Region, our region, work necessary just to 
maintain system reliability will have to be postponed.
    The President's budget, once again, assumes that unmet capital 
formation needs will be made up by WAPA's customers. We would be the 
first to support additional customer financing of Federal facilities 
and expenses through the Contributed Funds Act authority under BOR law 
that is available to WAPA. However, programs utilizing non-Federal 
capital formation require years to develop. One such program that was 
proposed by the Arizona Power Authority in a partnership with Western 
died because it was enmeshed in bureaucratic red tape at the Department 
of Energy. There is no way that WAPA customers can develop contracts, 
have them reviewed, gain approval of these contracts from WAPA and 
their own governing bodies, find financing on Wall Street and have 
monies available for the next fiscal year. It is just impossible, 
especially in this economy. Moreover, scoring and ``cut/go'' rules are 
providing major disincentives for WAPA's customers and others in this 
regard.
    There also are impediments to using existing Federal laws in 
facilitating non-Federal financing of Federal facilities and repairs to 
Federal facilities and the Congress should examine them. Artificially 
designating customer funding for construction, in lieu of real 
solutions, is bad public policy and should not be countenanced. We urge 
the subcommittee to restore a reasonable amount of additional 
construction funding to WAPA so it can continue to do its job in 
keeping its transmission systems functioning and completing the tasks 
that it has in the pipeline that are critical to its customers 
throughout the West.
    However, there is one subject about which we urge you not to 
provide funding. On March 16, 2012, Secretary of Energy Steven Chu 
announced that WAPA would be participating in a gigantic Energy 
Imbalance Market (EIM) in the Western United States. This is an 
untested, unanalyzed, unproven boondoggle being promoted to force 
utilities in the West to add layer upon layer of bureaucracy over their 
existing operations, when doing so elsewhere has only escalated 
electricity costs and hampered economic recovery. We urge you to 
expressly prohibit WAPA from funding this attack on the West's economy 
and require peer-reviewed scientific and economic analysis before any 
money is spent to facilitate WAPA's participation in an EIM.
                               conclusion
    Thank you for the opportunity to submit this written testimony. If 
we can provide any additional information or be of any other service to 
the subcommittee, please do not hesitate to get in touch with us.
                                 ______
                                 
           Prepared Statement of The Jicarilla Apache Nation
    Dear Chairwoman Feinstein and Senator Alexander: On behalf of the 
Jicarilla Apache Nation, I request your support for an appropriation 
for fiscal year 2013 of $8,387,000 to the Bureau of Reclamation within 
the budget line item entitled ``Endangered Species Recovery 
Implementation Program'' for the Upper Colorado Region, consistent with 
the President's recommended budget. Substantial non-Federal cost-
sharing funding is occurring pursuant to Public Law 106-392, as 
amended. This appropriation will allow continued funding in fiscal year 
2013 for the Upper Colorado River Endangered Fish Recovery Program and 
the San Juan River Basin Recovery Implementation Program as authorized 
by Public Law 106-392. These two successful ongoing cooperative 
partnership programs involve the States of Colorado, New Mexico, Utah, 
and Wyoming; Indian tribes; Federal agencies; and water, power, and 
environmental interests.
    Jicarilla has been an active participant in these programs since 
1992 and the requested Federal appropriations are critically important 
to these efforts moving forward. The past support of your subcommittee 
has greatly facilitated the success of these multistate, multiagency 
programs. I thank you for the subcommittee's past support and request 
the subcommittee's assistance for fiscal year 2013 funding to ensure 
the Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
Prepared Statement of the Oglala Sioux Rural Water Supply System; West 
 River/Lyman Jones Rural Water System; Rosebud Rural Water System; and 
                   the Lower Brule Rural Water System
                        fiscal year 2013 request
    The Mni Wiconi Project beneficiaries respectfully request $23.137 
million in appropriations for construction and $12.224 million for 
operation, maintenance, and replacement (OMR) activities for fiscal 
year 2012, a total request of $35.361 million:

                     FISCAL YEAR 2013 TOTAL REQUEST
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Construction............................................     $23,137,000
OMR.....................................................      12,224,000
                                                         ---------------
      Total.............................................      35,361,000
------------------------------------------------------------------------

    The construction request includes $0.960 million for Bureau of 
Reclamation oversight, and the OMR request includes $1.447 million for 
oversight.
                           construction funds
    Construction funds would be utilized as follows:

------------------------------------------------------------------------
                                                           Construction
                      Project area                        request fiscal
                                                             year 2013
------------------------------------------------------------------------
Oglala Sioux Rural Water Supply System:
    Core................................................         ( \1\ )
    Distribution........................................     $13,838,000
West River/Lyman-Jones RWS..............................       2,231,000
Rosebud RWS.............................................       7,068,000
                                                         ---------------
      Total.............................................      23,137,000
------------------------------------------------------------------------
\1\ Complete.

    As shown in the table below, the project will be 95-percent 
complete at the end of fiscal year 2012. Construction funds remaining 
after fiscal year 2012 will total $23.137 million within the current 
authorization (in October 2010 dollars). The funds will not be adequate 
to complete the project as originally planned.

------------------------------------------------------------------------------------------------------------------------------------------------
Total Federal Construction Funding (October 2011            $471,300,000
 dollars)...............................................
Estimated Federal spent through fiscal year 2012........    $448,163,000
Percent spent through fiscal year 2012..................          95.09%
Amount remaining after 2012 (estimated 2013 dollars)....     $23,137,000
Completion fiscal year (Statutory Fiscal Year 2013;                 2013
 Public Law 110-161)....................................
------------------------------------------------------------------------

    Cost indexing over the last 5 years has averaged 4.72 percent for 
pipelines and last year was 7.83 percent. Pipelines are the principal 
components yet to be completed (see following chart).
   rate of construction cost increase for annual and 5-year running 
               averages since 1992, bureau of reclamation


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    The extension of the project from 2008 to 2013 did not provide for 
budgeting of Reclamation oversight, administration and other 
``overhead'' costs, which will total $22.472 million by the end of 
2013. These costs have been and will continue to be incurred at the 
expense of construction elements. The slow pace of budgeting and 
appropriations has caused the diminishment of construction elements to 
cover non-construction overhead costs.
    The support of the administration to allocate adequate 
discretionary funds in fiscal year 2012 and budget adequately for 
fiscal year 2013 to enable the allocation of remaining authorized funds 
is recognized and greatly appreciated.
    The request will create an estimated 210 full-time equivalent (FTE) 
construction jobs and 94 OMR jobs in an area of the nation with the 
lowest per capita income and deepest poverty.
    Poverty is the harbinger of the severe healthcare crisis facing the 
Indian people in the Northern Great Plains. The present value of extra 
costs of healthcare during the lifetime of each 24,000 members of the 
Indian population in the Mni Wiconi Project is estimated at $1.12 to 
$2.25 billion (in 2010 dollars). The costs are based on extraordinarily 
high rates of mortality due to heart disease, cancer and diabetes. The 
Mni Wiconi Project has the direct effect of employing part of our 
unemployed and underemployed Indian population and creates the 
necessary infrastructure for more employment in indirect commercial and 
industrial development. This will reduce poverty, mortality, and the 
national cost burden of Indian healthcare.
                 oglala sioux rural water supply system
Core System
    The Oglala Sioux Tribe has completed the core system that serves 
all distribution systems of West River/Lyman-Jones, the Rosebud Sioux 
Tribe, the Lower Brule Sioux Tribe, and the Oglala Sioux Tribe.
Distribution System
    The Pine Ridge Indian Reservation will continue to receive more 
water from the Oglala Sioux Rural Water Supply System (OSRWSS) core 
system in fiscal year 2012. Major segments of the main transmission 
system will be completed across the Reservation and connect many of the 
larger communities with safe and adequate drinking water. OSRWSS 
pipelines now deliver water from the Missouri River to the communities 
of Georgetown, Wanblee, Crazy Horse School, Lakota Fund Housing, and 
Potato Creek Community and the large number of rural homes between the 
communities. The communities of Hisle, Kyle, Manderson, Red Shirt, 
Porcupine, and Wounded Knee can be served with Missouri River water by 
the end of 2012.
    Fiscal year 2013 will be another historic year, but considerable 
work remains to distribute the water supply throughout the Reservation. 
More than 40 percent of the project's population resides on the Pine 
Ridge Indian Reservation, and only 85 percent of the distribution 
system will be complete at the end of 2012. The Reservation public 
received its first Missouri River supply in 2009 after waiting 15 years 
for construction of core facilities to the Reservation.
    Project funds in fiscal year 2013 will continue building the on-
Reservation transmission system. Funding will be used for transmission 
and service line development east of Pine Ridge Village between 
Wakpamni, Batesland, and Allen and south toward the Nebraska State 
line. This area has been deferred in the past due to funding 
constraints. The supervisory control and data acquisition (SCADA) 
facilities will be installed with state-of-the-art electronic 
equipment.
    As set forth above, activity on the Pine Ridge Indian Reservation 
in fiscal year 2013 continues to focus on constructing the transmission 
system that serves as the ``backbone'' of the Project on the 
Reservation from the White River in the northeast corner of the 
Reservation to Pine Ridge Village. The Tribe will continue focus on the 
disinfection requirements to blend Missouri River water and high-
quality groundwater without creating harmful contaminants. State-of-
the-art designs are being implemented for water quality control.
    The Oglala Sioux Tribe is supportive of the funding request of 
other sponsors.
               west river/lyman-jones rural water system
    West River/Lyman-Jones (WR/LJ) RWS projects for fiscal year 2013 
include standby generation facilities, storage reservoirs, SCADA, and 
cold storage additions.
    The upper Midwest and specifically the Mni Wiconi project area 
regularly experience power outages as the result of winter weather 
conditions. Regulatory authorities in South Dakota have recommended 
standby generation as the result of statewide power outages experienced 
during the winters of 2005-2006 and 2009-2010. The Bureau of 
Reclamation has concurred in the addition of standby generation to the 
Mni Wiconi plan of work. WR/LJ has outlined a 3-year standby generation 
project schedule.
    Water storage needs include an elevated tower in the Reliance 
service area, a ground storage reservoir in Mellette County, and 
supplemental storage in the Elbon service area.
    SCADA capability provides accurate and efficient transmission of 
data and allows remote control of pumping and storage facilities. The 
WR/LJ SCADA system will be completed using the requested funding.
    Storage facilities at the Murdo and Philip operations centers will 
complete the building components of the WR/LJ project.
    Previous Federal appropriations to the Mni Wiconi project have made 
possible the delivery of much needed quality water to members of the 
West River/Lyman-Jones RWS and to the livestock industry in the project 
area. This would not have been possible without State and Federal 
assistance.
                    rosebud sioux rural water system
    The Rosebud Sioux Tribe is faced with difficult decisions on how 
best to use the remaining authorized construction ceiling for the 
Rosebud Sioux Rural Water System or Sicangu Mni Wiconi. It has been 
more than 20 years since the tribe completed its Needs Assessment and 
engineering plan. There have been significant changes in the tribe's 
development plans and their water resources since 1993. The use of the 
remaining $7.068 million in construction funding strikes a balance 
between recent developments and original plan developed 20 years ago.
    The majority of funds will go toward completion of the Sicangu 
Village Pipeline. This project extends the water system to the new 
housing area being developed in the southern portion of the Reservation 
near the Nebraska border. While potential demands for this area were 
included in the original plan a pipeline from the north was not 
envisioned because it was believed that the High Plains (also known as 
``Ogallala'') aquifer was capable of providing a reliable source of 
high-quality water. Development of local wells has proven otherwise and 
the increased demands have required bringing surface water south to the 
area.
    While lack of sufficient yield from the aquifer is the primary 
problem at Sicangu Village, the problem is exacerbated by high 
concentrations of nitrates at two schools north of the housing area. 
The tribe is attempting to leverage Mni Wiconi funding with Indian 
Health Service and Environmental Protection Agency funds to address the 
issue and provide water that meets primary safe drinking water 
standards for the schools.
    The last major project in fiscal year 2013 will be the replacement 
of the treatment facility for the Rosebud well field. This facility was 
constructed prior to Mni Wiconi and is ``showing its age''. While the 
facility has been used since 1997 as a core component of the Sicangu 
Mni Wiconi and even treated water that was exported to the WR/LJ 
service area, the Bureau's current policy does not allow for 
replacement under the replacement, additions, and extraordinary (RAX) 
maintenance program. The project completion plan proposed by the 
project sponsors would allow RAX funding under the OMR portion of the 
appropriations to be used to upgrade existing system components such as 
this and allow construction funds to be used for completion of the 
distribution system.
    The remainder of the authorized ceiling and fiscal year 2013 
appropriations will be used for small additions to the distribution 
system and service lines and connections, all of which are constructed 
through the Tribe's force account program.
                 operation, maintenance, and replacement
    The sponsors will continue to work with Reclamation to ensure that 
their budgets are adequate to properly operate, maintain, and replace 
respective portions of the core and distribution systems. The sponsors 
will also continue to manage OMR expenses. The administration's budget 
for fiscal year 2013 is virtually the same as requested by the 
sponsors.

        FISCAL YEAR 2013 OPERATION, MAINTENANCE, AND REPLACEMENT
------------------------------------------------------------------------
                      Project area                            Request
------------------------------------------------------------------------
Oglala Sioux Rural Water Supply System:
    Core................................................      $3,440,000
    Distribution........................................       3,400,000
Lower Brule.............................................       1,560,000
Rosebud RWS.............................................       2,377,000
Reclamation.............................................       1,447,000
                                                         ---------------
      Total.............................................      12,224,000
------------------------------------------------------------------------

    The project has been treating and delivering more water each year 
from the OSRWSS Water Treatment Plant near Fort Pierre as construction 
has advanced in the Rosebud, WR/LJ, and Oglala service areas. 
Completion of significant core and distribution pipelines has resulted 
in more deliveries to more communities and rural users. The need for 
sufficient funds to properly operate and maintain the functioning 
system throughout the project has grown as the project has now reached 
95-percent completion. The OMR budget must be adequate to keep pace 
with the system that is placed in operation.
    With completion of construction imminent in fiscal year 2013, 
emphasis will shift to operation, maintenance, and replacement as the 
primary budgeting need. Adherence to a proper level of operation, 
maintenance, and replacement funding is manifest. Budgeting by the 
United States to ensure that aging features of the constructed project 
are protected is not only sensible but properly executes the 
responsibilities of the United States as trustee to the Indian people. 
While the budgeting by the administration was adequate this year, 
budgeting has not been adequate in several of the past years. The 
concern is that aging components of critical project facilities will 
not be properly repaired and replaced due to budget limitations.
    The Lower Brule Rural Water System (LBRWS) is essentially complete 
with all major components such as the water treatment plant, booster 
stations, and tanks/reservoirs in full operation. As a result, LBRWS's 
operation and maintenance portion of the budget has reached a baseline 
amount to which only slight adjustments along with inflation should be 
made each year. The portion of the LBRWS OM&R budget that is somewhat 
variable is the RAX maintenance items. LBRWS will continue to work with 
the Bureau of Reclamation and the other sponsors to prioritize their 
needs and ensure that their system is operating to the standards that 
have been established over the past several years. With that in mind, 
the LBRWS request for OM&R for fiscal year 2013 is $1,560,000.
    The RSRWS expanded the areas served from surface water 
significantly in 2011 and 2012. In 2012 the connections to provide 
surface water to the town of Mission were completed. Early in fiscal 
year 2013 the pipeline and pumping station delivering surface water to 
Sicangu Village will be completed. The new pumping stations increase 
operational costs for energy, maintenance, and personnel. In addition, 
energy costs increases have significantly impacted Rosebud for 
electrical costs and vehicle expenses. With the oldest parts of the 
system in service for 15 years replacement costs covered under RAX are 
also becoming more significant. RAX funds must be included in the Mni 
Wiconi Project appropriations because they are not funded through the 
Bureau's RAX program.
    OSRWSS will incur costs of replacement and sludge removal at the 
water treatment plant in fiscal year 2013. The Reclamation budget does 
not provide for routine replacements, which threatens the capital 
investment in the project. OSRWSS needs to replace 12 flocculation 
drives, 8 effluent valves, 2 pump variable frequency drive pumps, 
chemical feed pumps, and numerous other parts that Reclamation only 
includes in its RAX account for extraordinary, not routine maintenance. 
The replacement costs in our request are $958,000, which will ensure 
that obsolete parts are traded out. The balance of the $3.440 million 
request is for normal operation and maintenance. Further, OSRWSS staff 
will anticipate a salary adjustment to accommodate competitive wages 
for South Dakota.
    The on-reservation OSRWSS OMR expenses will be substantially higher 
with higher pumping rates, unanticipated costs with pump houses repair 
and higher water consumption as new systems are built and communities 
are connected. On-reservation staff will anticipate a salary adjustment 
to accommodate competitive wages for South Dakota as their jobs have 
become more technical, which requires a higher base wage. On-
reservation has not received RAX money since fiscal year 2009 so there 
is a back log of items that fall in RAX maintenance.
    The Mni Wiconi Project tribal beneficiaries respectfully request 
appropriations for OMR in fiscal year 2013 in the amount of $12.224 
million, which is virtually the same as the President's budget.
                                 ______
                                 
              Prepared Statement of The Nature Conservancy
    Dear Chairwoman Feinstein and Senator Alexander: I request your 
support for an appropriation for fiscal year 2013 of $8,387,000 to the 
U.S. Bureau of Reclamation (Reclamation) within the budget line item 
entitled ``Endangered Species Recovery Implementation Program'' for the 
Upper Colorado Region, consistent with the President's recommended 
budget. Substantial non-Federal cost-sharing funding is occurring 
pursuant to Public Law 106-392, as amended. This appropriation will 
allow continued funding in fiscal year 2013 for the Upper Colorado 
River Endangered Fish Recovery Program and the San Juan River Recovery 
Implementation Program as authorized by Public Law 106-392. These two 
successful ongoing cooperative partnership programs involve the States 
of Colorado, New Mexico, Utah, and Wyoming; Indian tribes; Federal 
agencies; and water, power, and environmental interests.
    I thank you for the subcommittee's past support and request the 
subcommittee's assistance for fiscal year 2013 funding to ensure 
Reclamation's continuing financial participation in these vitally 
important programs.
                                 ______
                                 
 Prepared Statement of the Northern Colorado Water Conservancy District
    Dear Chairwoman Feinstein and Senator Alexander: I request your 
support for an appropriation for fiscal year 2013 of $8,387,000 to the 
Bureau of Reclamation within the budget line item entitled ``Endangered 
Species Recovery Implementation Program'' for the Upper Colorado 
Region, consistent with the President's recommended budget. Substantial 
non-Federal cost-share funding is occurring pursuant to Public Law 106-
392 as amended. This appropriation will allow continued funding in 
fiscal year 2013 for the Upper Colorado River Endangered Fish Recovery 
Program and the San Juan River Basin Recovery Implementation Program as 
authorized by Public Law 106-392. These two successful, ongoing, 
cooperative partnership programs involve the States of Colorado, New 
Mexico, Utah, and Wyoming; Indian tribes; Federal agencies; and water, 
power, and environmental interests.
    The requested Federal appropriations are critically important to 
these efforts moving forward. The past support of your subcommittee has 
greatly facilitated the success of these multistate, multiagency 
programs. I thank you for the subcommittee's past support and request 
the subcommittee's assistance for fiscal year 2013 funding to ensure 
the Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
          Prepared Statement of the San Juan Water Commission
    Dear Chairwoman Feinstein and Senator Alexander: I request your 
support for an appropriation for fiscal year 2013 of $8,387,000 to the 
Bureau of Reclamation within the budget line item entitled ``Endangered 
Species Recovery Implementation Program'' for the Upper Colorado 
Region, consistent with the President's recommended budget. Substantial 
non-Federal cost-sharing funding is occurring pursuant to Public Law 
106-392, as amended. This appropriation will allow continued funding in 
fiscal year 2013 for the Upper Colorado River Endangered Fish Recovery 
Program and the San Juan River Basin Recovery Implementation Program as 
authorized by Public Law 106-392. These two successful ongoing 
cooperative partnership programs involve the States of Colorado, New 
Mexico, Utah, and Wyoming; Indian tribes; Federal agencies; and water, 
power, and environmental interests.
    The requested Federal appropriations are critically important to 
these efforts moving forward. The past support of your subcommittee has 
greatly facilitated the success of these multistate, multiagency 
programs. I thank you for the subcommittee's past support and request 
the subcommittee's assistance for fiscal year 2013 funding to ensure 
the Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
          Prepared Statement of the Southern Ute Indian Tribe
    Dear Chairwoman Feinstein and Senator Alexander: On behalf of the 
Southern Ute Indian Tribe, I am writing to request your support for an 
appropriation for fiscal year 2013 of $8,387,000 to the Bureau of 
Reclamation within the budget line item entitled ``Endangered Species 
Recovery Implementation Program'' for the Upper Colorado Region, 
consistent with the President's recommended budget. Substantial non-
Federal cost-sharing funding is occurring pursuant to Public Law 106-
392, as amended. This appropriation will allow continued funding in 
fiscal year 2013 for the Upper Colorado River Endangered Fish Recovery 
Program and the San Juan River Basin Recovery Implementation Program as 
authorized by Public Law 106-392. These two successful, ongoing, 
cooperative partnership programs involve the States of Colorado, New 
Mexico, Utah, and Wyoming; the Southern Ute Indian Tribe; the Ute 
Mountain Ute Indian Tribe; the Navajo Nation; the Jicarilla Apache 
Nation; Federal agencies; and water, power, and environmental 
interests.
    The requested Federal appropriations are critically important to 
these efforts moving forward. The past support of your subcommittee has 
greatly facilitated the success of these multistate, multiagency 
programs. The Tribe thanks you for the subcommittee's past support and 
requests the subcommittee's assistance for fiscal year 2013 funding to 
ensure the Bureau of Reclamation's continuing financial participation 
in these vitally important programs.
                                 ______
                                 
   Prepared Statement of The Southwestern Water Conservation District
    Dear Chairwoman Feinstein and Senator Alexander: I request your 
support for an appropriation for fiscal year 2013 of $8,387,000 to the 
Bureau of Reclamation within the budget line item entitled ``Endangered 
Species Recovery Implementation Program'' for the Upper Colorado 
Region, consistent with the President's recommended budget. Substantial 
non-Federal cost-sharing funding is occurring pursuant to Public Law 
106-392, as amended. This appropriation will allow continued funding in 
fiscal year 2013 for the Upper Colorado River Endangered Fish Recovery 
Program and the San Juan River Basin Recovery Implementation Program as 
authorized by Public Law 106-392. These two successful ongoing 
cooperative partnership programs involve the States of Colorado, New 
Mexico, Utah, and Wyoming; Indian tribes; Federal agencies; and water, 
power, and environmental interests.
    The requested Federal appropriations are critically important to 
these efforts moving forward. The past support of your subcommittee has 
greatly facilitated the success of these multistate, multiagency 
programs. I thank you for the subcommittee's past support and request 
the subcommittee's assistance for fiscal year 2013 funding to ensure 
the Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
                Prepared Statement of the State of Utah
    Dear Chairwoman Feinstein and Senator Alexander: On behalf of the 
State of Utah and Utah's Colorado River water users, I respectfully 
request your support for the appropriation to the Bureau of Reclamation 
for the Upper Colorado River Endangered Fish Recovery Program and the 
San Juan River Basin Recovery Implementation Program. These two 
programs are provided for in the budget line item entitled ``Endangered 
Species Recovery Implementation Program''.
    The Upper Colorado and San Juan recovery programs are highly 
successful collaborative conservation partnerships working to recover 
the four species of endemic Colorado River fish on the Federal 
endangered species list; while at the same time water use and 
development have been able to continue in our growing western 
communities. These programs are unique efforts involving the States of 
New Mexico, Colorado, Utah, and Wyoming; Indian tribes; Federal 
agencies; and water, power, and environmental interests. They are 
achieving Endangered Species Act (ESA) compliance for water projects 
and fully complying the interstate river compacts and the participating 
States' water law.
    Since 1998, the two programs, collectively, have provided ESA 
section 7 compliance (without litigation) for more than 2,100 Federal, 
tribal, State, and privately managed water projects depleting more than 
3.7 million acre-feet of water per year. Substantial non-Federal cost-
sharing funding exceeding 50 percent is embodied in both programs.
    Each year in support of these two regionwide cooperative recovery 
programs, the State of Utah requests the subcommittee's assistance. It 
is absolutely essential that fiscal year 2013 funding be provided 
within the Bureau of Reclamation's budget appropriation to assure that 
agency's continued financial participation as directed by Public Law 
106-392, as amended.
    On behalf of the State of Utah, I thank you for the past support 
and assistance of your subcommittee; it has greatly facilitated the 
ongoing and continuing success of these multistate, multiagency 
programs vital to providing water for Utah.
                                 ______
                                 
               Prepared Statement of the State of Wyoming
    Dear Chairwoman Feinstein and Senator Alexander: I am requesting 
your support for fiscal year 2013 appropriations to the Bureau of 
Reclamation for the Upper Colorado River Endangered Fish Recovery 
Program and the San Juan River Basin Recovery Implementation Program. 
These two programs are provided for in the budget line-item entitled 
``Endangered Species Recovery Implementation Program''. The Upper 
Colorado and San Juan recovery programs are highly successful 
collaborative conservation partnerships working to recover the four 
species of endemic Colorado River fish such that they can each be 
removed from the Federal endangered species list. At the same time, 
these programs have provided the means for water use and development to 
continue in our growing western States.
    These two programs are unique efforts involving the States of 
Colorado, New Mexico, Utah, and Wyoming; Indian tribes; Federal 
agencies; and water, power, and environmental interests. They continue 
to achieve Endangered Species Act (ESA) compliance for Federal and non-
Federal water projects and are fully complying with interstate river 
compacts and the participating States' water law. Recognizing the need 
for fiscal responsibility, I must also point out that the participants 
would all be spending much more in ESA-related costs in the absence of 
these programs.
    Since 1988, these programs, collectively, have provided ESA section 
7 compliance (without litigation) for more than 2,300 Federal, tribal, 
State, and privately managed water projects that use more than 3.72 
million acre-feet of water per year. Substantial non-Federal cost-
sharing, which exceeds 50 percent, is embodied in both programs.
    The State of Wyoming requests the subcommittee's assistance in 
support of these two regionwide cooperative recovery programs each 
year. It is essential that fiscal year 2013 funding be provided within 
the Bureau of Reclamation's budget appropriation to assure that the 
agency can continue to meet its financial participation requirements, 
which were set forth in Public Law 106-392, as amended.
    On behalf of the State of Wyoming, I thank you for your 
consideration on my request. I also thank you for the past support and 
assistance of your subcommittee, which have greatly facilitated the 
ongoing and continuing success of these multistate, multiagency 
programs that are vital to the recovery of the endangered fish and 
providing necessary water supplies for the growing Intermountain West.
                                 ______
                                 
    Prepared Statement of the Tri-County Water Conservancy District
    Dear Chairwoman Feinstein and Senator Alexander: The Tri-County 
Water Conservancy District Board requests your support for an 
appropriation for fiscal year 2013 of $8,387,000 to the Bureau of 
Reclamation within the budget line item entitled ``Endangered Species 
Recovery Implementation Program'' for the Upper Colorado Region, 
consistent with the President's recommended budget. Substantial non-
Federal cost-sharing funding is occurring pursuant to Public Law 106-
392, as amended. This appropriation will allow continued funding in 
fiscal year 2013 for the Upper Colorado River Endangered Fish Recovery 
Program and the San Juan River Basin Recovery Implementation Program as 
authorized by Public Law 106-392. These two successful ongoing 
cooperative partnership programs involve the States of Colorado, New 
Mexico, Utah, and Wyoming; Indian tribes; Federal agencies; and water, 
power, and environmental interests.
    The requested Federal appropriations are critically important to 
these efforts moving forward. The past support of your subcommittee has 
greatly facilitated the success of these multistate, multiagency 
programs. We thank you for the subcommittee's past support and request 
the subcommittee's assistance for fiscal year 2013 funding to ensure 
the Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
   Prepared Statement of the Upper Gunnison River Water Conservancy 
                                District
    Dear Chairwoman Feinstein and Senator Alexander: I request your 
support for an appropriation for fiscal year 2013 of $8,387,000 to the 
Bureau of Reclamation within the budget line item entitled ``Endangered 
Species Recovery Implementation Program'' for the Upper Colorado 
Region, consistent with the President's recommended budget. Substantial 
non-Federal cost-sharing funding is occurring pursuant to Public Law 
106-392, as amended. This appropriation will allow continued funding in 
fiscal year 2013 for the Upper Colorado River Endangered Fish Recovery 
Program and the San Juan River Basin Recovery Implementation Program as 
authorized by Public Law 106-392. These two successful ongoing 
cooperative partnership programs involve the States of Colorado, New 
Mexico, Utah, and Wyoming; Indian tribes; Federal agencies; and water, 
power, and environmental interests.
    The requested Federal appropriations are critically important to 
these efforts moving forward. The past support of your subcommittee has 
greatly facilitated the success of these multistate, multiagency 
programs. I thank you for the subcommittee's past support and request 
the subcommittee's assistance for fiscal year 2013 funding to ensure 
the Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
            Prepared Statement of the Ute Mountain Ute Tribe
    Dear Chairwoman Feinstein and Senator Alexander: I request your 
support for an appropriation for fiscal year 2013 of $8,387,000 to the 
Bureau of Reclamation within the budget line item entitled ``Endangered 
Species Recovery Implementation Program'' for the Upper Colorado 
Region, consistent with the President's recommended budget. Substantial 
non-Federal cost-sharing funding is occurring pursuant to Public Law 
106-392, as amended. This appropriation will allow continued funding in 
fiscal year 2013 for the Upper Colorado River Endangered Fish Recovery 
Program and the San Juan River Basin Recovery Implementation Program as 
authorized by Public Law 106-392. These two successful ongoing 
cooperative partnership programs involve the States of Colorado, New 
Mexico, Utah, and Wyoming; Indian tribes; Federal agencies; and water, 
power, and environmental interests.
    The requested Federal appropriations are critically important to 
these efforts moving forward. The past support of your subcommittee has 
greatly facilitated the success of these multistate, multiagency 
programs. I thank you for the subcommittee's past support and request 
the subcommittee's assistance for fiscal year 2013 funding to ensure 
the Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
         Prepared Statement of the Utah Water Users Association
    Dear Chairwoman Feinstein and Senator Alexander: I request your 
support for an appropriation for fiscal year 2013 of $8,387,000 to the 
Bureau of Reclamation within the budget line item entitled ``Endangered 
Species Recovery Implementation Program'' for the Upper Colorado 
Region, consistent with the President's recommended budget. Substantial 
non-Federal cost-sharing funding is occurring pursuant to Public Law 
106-392, as amended. This appropriation will allow continued funding in 
fiscal year 2013 for the Upper Colorado River Endangered Fish Recovery 
Program and the San Juan River Basin Recovery Implementation Program as 
authorized by Public Law 106-392. These two successful ongoing 
cooperative partnership programs involve the States of Colorado, New 
Mexico, Utah, and Wyoming; Indian tribes; Federal agencies; and water, 
power, and environmental interests.
    The requested Federal appropriations are critically important to 
these efforts moving forward. The past support of your subcommittee has 
greatly facilitated the success of these multistate, multiagency 
programs. I thank you for the subcommittee's past support and request 
the subcommittee's assistance for fiscal year 2013 funding to ensure 
the Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
       Prepared Statement of the Wyoming State Engineer's Office
    Dear Chairwoman Feinstein and Ranking Member Alexander: This letter 
is sent in support of fiscal year 2013 funding for the Bureau of 
Reclamation's (BOR) Colorado River Basin Salinity Control Project--
Title II Program. A total of $14,500,000 is requested for BOR's fiscal 
year 2011 activities to implement BOR's Basinwide authorized Colorado 
River Basin salinity control program. Failure to appropriate these 
funds will directly result in significant economic damages being 
accrued by United States and Mexican water users.
    The State of Wyoming also supports funding for Salinity Control 
Program general investigations as requested within BOR's Colorado River 
Water Quality Improvement Program (CRWQIP) budget line-item. It is 
important that BOR has properly-funded planning and administration 
staff in place, so that the program's progress can be monitored, 
necessary coordination among Federal and State agencies can be 
accomplished, and future projects and opportunities to control salinity 
can be properly planned. Maintaining the Colorado River water quality 
standards for salinity is essential to allow users in the seven 
Colorado River Basin States to continue to develop Compact-apportioned 
waters.
    In addition to the funding identified above for the implementation 
of BOR's program, the State of Wyoming urges the Congress to 
appropriate funds, as requested by the administration, to maintain and 
operate completed salinity control facilities, including the Paradox 
Valley Unit. At facilities located within the Paradox Valley of 
Colorado subsurface saline brines are collected below the Delores River 
and are injected into a deep aquifer through an injection well. The 
continued operation of this project, and the Grand Valley Unit, are 
funded primarily through the Facility Operations activity.
    The Colorado River provides municipal and industrial water for 
nearly 33 million people and irrigation water to approximately 4 
million acres of land in the United States. The River is also the water 
source for some 3 million people and 500,000 acres in Mexico. The high 
concentration of total dissolved solids (e.g., the water's salinity 
concentration) in the water limits users' abilities to make the 
greatest use of this water supply. This remains a major issue and 
continuing concern in both the United States and Mexico. The water's 
salinity concentration especially affects agricultural, municipal, and 
industrial water users. BOR presently estimates direct and computable 
salinity-related damages in the United States amount to more than $300 
million per year.
    The Environmental Protection Agency's (EPA) interpretation of the 
1972 amendments to the Clean Water Act required the seven Basin States 
to adopt water quality standards for salinity levels in the Colorado 
River. In light of the EPA's regulation to require water quality 
standards for salinity in the Basin, the Governors of Arizona, 
California, Colorado, Nevada, New Mexico, Utah, and Wyoming created the 
Colorado River Basin Salinity Control Forum as an interstate 
coordination mechanism in 1973. To address these international and 
regionally important salinity problems, the Congress enacted the 
Colorado River Basin Salinity Control Act of 1974. Title I addressed 
the United States obligations to Mexico to control the River's salinity 
to ensure the United States water deliveries to Mexico are within the 
specified salinity concentration range. Title II of the act authorized 
control measures upstream of Imperial Dam and directed the Secretary of 
the Interior to construct several salinity control projects, most of 
which are located in Colorado, Utah, and Wyoming.
    Title II of the act was again amended in 1995 and 2000 to direct 
BOR to conduct a basinwide salinity control program. This program 
awards grants to non-Federal entities, on a competitive-bid basis, 
which initiate and carry out salinity control projects. The basinwide 
program has demonstrated significantly improved cost-effectiveness, as 
computed on $1 per ton of salt basis, as compared to the prior BOR-
initiated projects. The Forum was heavily involved in the development 
of the 1974 Act and its subsequent amendments, and continues to 
actively oversee the Federal agencies' salinity control program 
efforts.
    During the past 38 years, the seven-State Colorado River Basin 
Salinity Control Forum has actively assisted the Federal agencies, 
including BOR, in implementing this unique and important program. At 
its October 2012 meeting, the Forum recommended that BOR seek to have 
appropriated and should expend $14,500,000 through its Basinwide 
Program for Colorado River Basin salinity control in fiscal year 2013. 
We strongly believe the combined efforts of the salinity control 
efforts of BOR, Department of Agriculture, and the Bureau of Land 
Management constitute one of the most successful Federal/State 
cooperative non-point source pollution control programs in the United 
States.
    The State of Wyoming greatly appreciates the subcommittee's support 
of the Colorado River Salinity Control Program in past years. We 
strongly believe this important basinwide water quality improvement 
program merits continued funding and support by your subcommittee. 
Thank you in advance for inclusion of this letter in the formal hearing 
record concerning fiscal year 2013 appropriations.
                                 ______
                                 

                          DEPARTMENT OF ENERGY

  Prepared Statement of the American Council for an Energy-Efficient 
                                Economy
    Dear Chairwoman Feinstein and Ranking Member Alexander: We write 
today to encourage the subcommittee to continue funding for the 
Department of Energy's (DOE) Combined Heat and Power (CHP) activities 
within the Advanced Manufacturing Office of the Energy Efficiency and 
Renewable Energy Office. CHP has been funded at the $25 million level 
for several years, and we encourage that level of funding to continue 
in fiscal year 2013 for development and deployment activities. This is 
the only CHP funding in the entire Federal Government.
    CHP--sometimes called cogeneration--is an integrated application of 
technologies for the simultaneous, on-site production of electricity 
and heat. It represents a cost-effective, near-term opportunity to 
improve our Nation's energy, environmental, and economic future. 
Currently, two-thirds of U.S. power generation fuel energy is simply 
thrown away as waste heat. CHP can be deployed in all 50 States, is 
fuel flexible, comes in many sizes, and for many applications; 
therefore, some CHP technologies are ready-for-market transformation 
activities while others are still in the development stages. In total, 
according to an Oak Ridge National Laboratory Report, these 
technologies can save 5.3 gigawatts of energy by the year 2030, the 
equivalent of one-half of all residential energy use in the United 
States today.
    Secretary Chu described DOE as ``bullish on CHP'' in his February 
16 testimony to the Senate Energy and Natural Resources Committee. He 
talked about his recent visit to the new CHP system at the Texas 
Medical Center in Houston, which, like many medical centers, 
universities, and cities is served by a district energy system. With 
DOE's support, a highly efficient CHP system producing steam and 
chilled water was recently installed at the medical center that saved 
customers more than $9 million in the first year. In the fiscal year 
2013 budget request, DOE has significantly changed both the focus and 
the presentation of their budget. What was ``Industrial Technologies 
Program'' has now become ``Advanced Manufacturing Office'' and the 
structure provides maximum flexibility for funding. The budget 
justifications, therefore, contain no mention of continued work on CHP. 
We believe this is an oversight and urge continued funding for this 
important program to address development, demonstration, and market 
transformation activities in CHP. Given the efficiency, environmental 
and grid reliability benefits of CHP and district energy, it is 
important that DOE programs specifically address development, 
deployment, and market barriers related to these systems.
    Thank you for your attention to this request.

National Organizations
Alliance for Industrial Efficiency
American Council for an Energy-Efficient Economy
American Gas Association
Energy Solutions Center
International District Energy Association
Mechanical Contractors Association of America (MCAA)
Sheet Metal and Air Conditioning Contractor's National Association 
(SMACNA)
U.S. Clean Heat and Power Association

Alaska
University of Alaska, Fairbanks

Arizona
Affiliated Engineers, Inc.
NRG Energy Center Phoenix
NRG Energy Center Tucson

California
Affiliated Engineers, Inc.
Capstone Turbine Corporation
Chem-Aqua, Inc.
Goss Engineering, Inc.
Leva Energy
NRG Energy Center San Diego
NRG Energy Center San Francisco
Solar Turbines Incorporated
Syska Hennessy Group, Inc.
University of California, San Francisco
Vanderweil Engineers
Veolia Energy

Colorado
Colorado State University

Connecticut
COWI North America Energy
Fibrelite
The Hartford Steam Company

Delaware
ICETEC Energy Services
NRG Energy Center Dover

Florida
Affiliated Engineers, Inc.
Chem-Aqua, Inc.
ONICON Incorporated
Syska Hennessy Group, Inc.
TMEnergyLLC

Georgia
Chem-Aqua, Inc.
RMF Engineering, Inc.
Syska Hennessy Group, Inc.

Iowa
Statistics & Control, Inc.

Illinois
Affiliated Engineers, Inc.
Caterpillar
Eastern Illinois University
Energy Resources Center, University of Illinois at Chicago IL
Energy Solutions Center
Gas Technology Institute
Recycled Energy Development
Stoneham Consulting
Syska Hennessy Group, Inc.

Indiana
Applied Engineering Services
Chem-Aqua, Inc.
Citizens Energy Group

Massachusetts
Syska Hennessy Group, Inc.
UMass Medical School
Vanderweil Engineers
Veolia Energy

Maryland
Affiliated Engineers, Inc.
CPF Underground Utilities, Inc.
Evapco, Inc.
Piping & Corrosion Specialties, Inc.
RMF Engineering, Inc.
Veolia Energy

Michigan
Detroit Thermal
Veolia Energy

Minnesota
Cummins Power Generation
District Energy St. Paul
Ever-Green Energy
FVB Energy, Inc.
Kattner Associates LLC
NRG Energy Center Minneapolis
Uponor

Missouri
Burns & McDonnell Engineering Company, Inc.
Veolia Energy

North Carolina
Affiliated Engineers, Inc.
RMF Engineering, Inc.
SPX Flow Technology Systems
Syska Hennessy Group, Inc.

Nebraska
Energy Systems Company

New Hampshire
TVC Systems
Waldron Engineering & Construction, Inc.

New Jersey
Blue Sky Power
Chem-Aqua, Inc.
Concord Engineering
DCO Energy LLC
Energenic-US LLC
Integrated CHP Systems
Joseph Technology Corporation
Kessler Ellis Products
NRG Energy Center Princeton
Syska Hennessy Group, Inc.
Thermo Systems LLC
Veolia Energy

Nevada
Chem-Aqua, Inc.
Southwest Gas Corporation
Vanderweil Engineers

New York
Alstrom Energy Group
Cool Systems
GI Endurant LLC
Hudson Technologies
Tricon Piping Systems, Inc.
Vanderweil Engineers
Veolia Energy
Waldron Engineering of NY, P.C.

Ohio
Bahnfleth Group Advisors, LLC
The Medical Center Company
Youngstown Thermal

Oklahoma
Oklahoma Natural Gas Company
Veolia Energy

Oregon
Veolia Energy

Pennsylvania
Center for Building Performance & Diagnostics, Carnegie Mellon 
University
Elliott Group
NRG Energy Center Harrisburg
NRG Energy Center Pittsburgh
Philadelphia Gas Works
The Pennsylvania State University
Vanderweil Engineers
Veolia Energy

South Carolina
RMF Engineering, Inc.

Texas
Affiliated Engineers, Inc.
Chem-Aqua, Inc.
Siemens Energy, Inc.
Syska Hennessy Group, Inc.
Thermal Energy Corporation

Utah
Aquatherm, Inc

Virginia
APPA: Leadership in Educational Facilities
Resource Dynamics Corporation
Syska Hennessy Group, Inc.
Vanderweil Engineers

Washington
Affiliated Engineers, Inc.
Cascade Power Group
Infinia Corporation
VA:W

Washington, DC
Environmental and Energy Study Institute
Syska Hennessy Group, Inc.

Wisconsin
Affiliated Engineers, Inc.
Syska Hennessy Group, Inc.
      
                                 ______
                                 
        Prepared Statement of the American Geosciences Institute
    To the Chairwoman and members of the subcommittee: Thank you for 
this opportunity to provide the American Geosciences Institute's (AGI) 
perspective on fiscal year 2013 appropriations for geoscience programs 
within the subcommittee's jurisdiction. The President's budget request 
for the Department of Energy (DOE) research programs provides important 
and modest investments in research and development (R&D) that will help 
sustain energy resources for economic growth of resilient communities. 
AGI strongly supports the wise investments in the Office of Science ($5 
billion) and Energy Efficiency and Renewable Energy ($2.3 billion). AGI 
requests at least $5 million in additional funding for the Science 
Graduate Fellowship Program within the Office of Science's Workforce 
Development for Teachers and Scientists ($14.5 million fiscal year 2013 
request) which are zeroed out in the President's proposal.
    AGI is concerned about the limited investments in oil and natural 
gas R&D within the Office of Fossil Energy. Oil and natural gas supply 
62 percent of our Nation's energy (2010 consumption from Energy 
Information Administration) and will continue to play a major role in 
the future. These investments will drive innovation to support and 
improve safe and effective domestic development of cleaner fossil 
fuels. The bulk of DOE's oil and gas R&D investments go to institutions 
of higher education for training and research. The United States has a 
substantial workforce and significant investments in oil and natural 
gas research, development, exploration, and production. Steady, but 
modest Federal investments in fossil energy R&D with a longer-term 
strategic plan would benefit the academic, private, and public sectors.
    The Office of Fossil Energy suffers from an unbalanced portfolio 
that focuses primarily on coal, faces uncertainty about direction and 
investments, and receives inconsistent funding. We ask for the 
subcommittee's support for oil and gas, unconventional natural gas, 
methane hydrates, and carbon sequestration R&D so the Nation can 
develop a diverse portfolio of energy resources while enhancing carbon 
mitigation strategies to secure clean, affordable, and secure energy 
supplies for now and the future.
    AGI is a nonprofit federation of 50 geoscientific and professional 
societies representing more than 250,000 geologists, geophysicists, and 
other Earth scientists. Founded in 1948, AGI provides information 
services to geoscientists, serves as a voice for shared interests in 
our profession, plays a major role in strengthening geoscience 
education, and strives to increase public awareness of the vital role 
the geosciences play in society's use of resources, resilience to 
hazards, and the health of the environment.
                department of energy's office of science
    The DOE Office of Science is the single largest supporter of basic 
research in the physical sciences in the United States, providing more 
than 40 percent of total funding for this vital area of national 
importance. The Office of Science manages fundamental research programs 
in basic energy sciences, biological and environmental sciences, and 
computational science and, under the budget request, would receive $5 
billion in fiscal year 2013. AGI asks that you support this funding 
level.
    The President's request would provide $14.5 million for Workforce 
Development for Teachers and Scientists, a program to ensure that DOE 
and the Nation have a sustained pipeline of highly skilled and diverse 
science, technology, engineering, and mathematics (STEM) workers. AGI 
strongly supports investments in geoscience education, training and 
workforce development within DOE and other Federal agencies. We are 
concerned that the request is $5 million less than fiscal year 2012 
enacted and that DOE proposes no funding for the Science Graduate 
Fellowship program. We would encourage support for graduate student 
fellowships through DOE to allow students to complete advanced training 
and to ensure a skilled workforce in energy-related sciences.
     department of energy's energy efficiency and renewable energy
    Within Energy Efficiency and Renewable Energy, the President's 
fiscal year 2013 budget request would increase investments for R&D for 
many renewable energy resources. AGI applauds the $65 million requested 
for geothermal R&D and greatly appreciates previous support from the 
Congress for this key alternative energy resource. The geothermal 
research program within the Renewable Energy account, which funds 
Earth-science research in materials, geofluids, geochemistry, 
geophysics, rock properties, reservoir modeling, and seismic mapping, 
will provide the Nation with the best research to build a successful 
and competitive geothermal industry. AGI supports the Energy Innovation 
Hub focused on critical materials and hope this hub will consider ways 
to improve exploration, extraction and processing of necessary raw 
materials as well as replacement materials.
     department of energy's fossil energy research and development
    AGI urges the subcommittee to provide more balanced support for the 
Fossil Energy R&D portfolio in the fiscal year 2013 Energy and Water 
Development appropriations bill. Many Members of Congress have strongly 
emphasized the need for a responsible, diversified, and comprehensive 
energy policy for the Nation. The growing global competition for fossil 
fuels has led to a repeated and concerted request by the Congress to 
ensure the Nation's energy security. The President's proposal, which 
provides no funding for oil R&D or for unconventional fossil energy, is 
short sighted and inconsistent with congressional and public concerns. 
No funding for oil and unconventional fossil energy R&D will hinder our 
ability to achieve energy stability and security.
    The research dollars invested in petroleum R&D go primarily to 
universities, State geological surveys, and research consortia to 
address critical issues like enhanced recovery from known fields and 
unconventional sources that are the future of our natural gas supply. 
This money does not go into corporate coffers, but it helps American 
businesses remain competitive by giving them a technological edge over 
foreign companies. All major advances in oil and gas production can be 
tied to research and technology. AGI strongly encourages the 
subcommittee to ensure a balanced and diversified energy research 
portfolio that does not ignore the Nation's primary sources of energy 
for the near future, fossil fuels.
    Thank you for the opportunity to present this testimony to the 
subcommittee.
                                 ______
                                 
      Prepared Statement of the American Public Power Association
    The American Public Power Association (APPA) respectfully requests 
funding for the Renewable Energy Production Incentive, Power Marketing 
Administrations, storage for high-level nuclear waste, the Nuclear Loan 
Guarantee Program, the Department of Energy Water Power Program, energy 
conservation, weatherization, clean coal, fuel cells, fuel and powering 
systems, the Navajo Electrification and Demonstration Program, and the 
Federal Energy Regulatory Commission.
    APPA is the national service organization representing the 
interests of more than 2,000 municipal and other State and locally 
owned electric utilities in 49 States (all but Hawaii). Collectively, 
public power utilities deliver electricity to 1 of every 7 electric 
consumers (approximately 46 million people), serving some of the 
Nation's largest cities. However, the vast majority of APPA's members 
serve communities with populations of 10,000 people or less.
    We understand that the Congress is operating in a tight fiscal 
environment. APPA's priority is to support programmatic requests that 
bring down costs, conserve resources, or benefit our public power 
customers in other ways. We appreciate the opportunity to submit this 
statement outlining our fiscal year 2013 funding priorities within the 
jurisdiction of the Energy and Water Development, and Related Agencies 
subcommittee.
    Renewable Energy Production Incentive.--APPA is disappointed that 
the administration and the Congress have decided to stop funding the 
Renewable Energy Production Incentive (REPI). REPI was the first 
attempt by the Congress to provide comparable renewable incentives to 
the nonprofit electric utility industry, and we continue to seek 
comparability to this day. The elimination of funding for the REPI 
program was a step backward in this process. Defunding not only 
decreases incentives for new production, but utilities who had been 
receiving the funding are stranded mid-program. Five million dollars 
would restore funding to the program for fiscal year 2013, but any 
funding would help restore payments to those already approved for the 
incentive.
                    power marketing administrations
    Power Marketing Administration Proposals.--The President's National 
Commission on Fiscal Responsibility and Reform proposed a measure for 
all four Power Marketing Administrations (PMAs) that would have had the 
effect of raising the rates for PMA customers. We appreciate that the 
fiscal year 2013 request did not include this type of proposal.
    Purchase Power and Wheeling.--We urge the subcommittee to authorize 
appropriate levels for use of receipts so that the Western Area Power 
Administration (WAPA), the Southeastern Power Administration (SEPA), 
and the Southwestern Power Administration (SWPA) can continue to 
purchase and wheel electric power to their municipal and rural electric 
cooperative customers. Although appropriations are no longer needed to 
initiate the purchase power and wheeling (PP&W) process, the 
subcommittee continues to establish ceilings on the use of receipts for 
this important function. The PP&W arrangement is effective, has no 
impact on the Federal budget, and is supported by the PMA customers who 
pay the costs. We support an increase over the funding levels of the 
administration's budget for fiscal year 2013, which are as follows:
  --$243 million for Western Area Power Administration (WAPA);
  --$88 million for Southeastern Power Administration (SEPA); and
  --$41 million for Southwestern Power Administration (SWPA).
    Construction.--We urge the subcommittee to authorize appropriate 
levels of funding for the construction budgets of WAPA, SEPA, and SWPA. 
These budgets have continued to decrease over the years; however, this 
funding remains critical to the operation and maintenance of the PMAs.
    Storage for High-Level Nuclear Waste.--APPA is disappointed that 
the administration has provided little funding for nuclear waste 
disposal or storage in the budget request. We support the work and the 
findings of the Blue Ribbon Commission on America's Nuclear Future and 
hope that the administration and the Congress start working to 
implement the recommendations.
    Nuclear Loan Guarantees.--APPA is disappointed with the 
administration's cancellation of the Nuclear Loan Guarantee program and 
requests that the Committee restore funding to this important program.
    Department of Energy Waterpower Program.--APPA was extremely 
disappointed that funding for water power was decreased to $20 million 
(from $59 million in fiscal year 2012) while most other renewable 
resources were increased in the administration's fiscal year 2013 
request. APPA believes there should be parity among renewable resource 
funding. APPA requests $100 million for fiscal year 2013 for the DOE's 
Water Power Program. At a time when utilities around our country must 
focus on finding carbon-free sources of energy because of pending State 
and Environmental Protection Agency regulations, the importance of 
hydropower research and development is more important than ever before. 
Not only is hydropower a renewable resource, but it can be used as 
baseload generation to back up more intermittent renewables such as 
wind and solar power.
    Energy Conservation.--APPA appreciates the funding increases for 
energy efficiency programs provided in the President's budget. The 
budget funding levels for fiscal year 2013 are as follows:
  --Building technologies: $310 million;
  --Advanced manufacturing: $290 million;
  --Federal Energy Management Program: $32 million; and
  --Vehicle technologies: $420 million.
    We urge the subcommittee to maintain these funding levels. While 
these requests are all lower than the President's fiscal year 2012 
requests, they still represent increases over current funding levels.
    Weatherization and Intergovernmental Activities.--We are pleased 
that the administration has requested $139 million for the 
Weatherization program in fiscal year 2013, a significant increase from 
fiscal year 2012, and we encourage the subcommittee to maintain that 
level of funding.
    Clean Coal Power Initiative and FutureGen.--APPA is disappointed 
that the budget did not include funding for large scale commercial 
applications of carbon capture and sequestration technology. We 
encourage the subcommittee to include funding for Clean Coal Power 
Initiative (CCPI) and FutureGen. APPA strongly believes that, as the 
need for clean energy increases, the FutureGen project, or something 
similar, will be critical in nearing us to the goal of the world's 
first near-zero-emissions coal fired plant. We urge the subcommittee 
and the Congress to work with the administration on finding an 
appropriate role and funding level for the FutureGen project and CCPI.
    Fuel Cells.--APPA was disappointed that the administration 
requested zero funding for fuel cell related research and development. 
We urge the subcommittee to allocate additional funding for this 
program for fiscal year 2013.
    Fuels and Power Systems.--We recommend these funding levels for the 
following programs:
  --Innovations for existing plants: $84 million;
  --Advanced integrated gasification combined cycle: $80 million;
  --Turbines: $45 million;
  --Carbon sequestration: $150 million;
  --Fuels: $25 million; and
  --Advanced research: $48 million.
    Navajo Electrification Demonstration Program.--APPA supports full 
funding for the Navajo Electrification Demonstration Program at its 
full authorized funding level of $15 million. The purpose of the 
program is to provide electric power to the estimated 18,000 occupied 
structures in the Navajo Nation that lack electric power. This program 
has been consistently underfunded.
    Federal Energy Regulatory Commission (FERC).--The fiscal year 2013 
budget requests $305 million for FERC, the same level as current 
funding. APPA supports this funding level.
                                 ______
                                 
      Prepared Statement of the American Society for Microbiology
    The American Society for Microbiology (ASM) is pleased to submit 
the following statement on the fiscal year 2013 appropriation for 
science programs at the Department of Energy (DOE). ASM is the largest 
single life science organization in the world with more than 38,000 
members.
    The administration's fiscal year 2013 budget request of $5 billion 
for DOE's Office of Science (SC) is a minimal 2.4-percent increase more 
than the fiscal year 2012 enacted level. We urge the Congress to 
approve increased resources for the research and development (R&D) 
managed by the SC, one of three Federal agencies identified as crucial 
to the future of our Nation's global competitiveness in science and 
technology. The SC sponsors research by multidisciplinary teams from 
various government institutions, academia, and the private sector. It 
leads the Nation in energy and environmental research and is the 
largest Federal sponsor of basic research in the physical sciences. DOE 
SC contributes to sectors of the U.S. economy, such as biotechnology, 
alternative energy, and environmental sciences. DOE-funded researchers 
and programs discover innovative technologies, methods, and commercial 
products that serve national priorities like climate change, 
environment cleanup, and renewable energy.
    DOE research initiatives are producing results not possible in 
other research settings. Two examples are the 46 Energy Frontier 
Research Centers established by the SC in 2009 at universities, 
national laboratories, and other U.S. institutions to advance basic 
energy related research and the three Bioenergy Research Centers 
created in 2007 to focus on next-generation biofuels. DOE facilities 
also provide non-DOE researchers with invaluable tools that might 
otherwise be inaccessible like the advanced xray beam sources currently 
being used by industry to study the enzyme RNA polymerase II, a project 
based on Nobel prize winning DOE research with potential for stopping 
RNA viruses causing polio, hepatitis, and other infectious diseases.
    SC oversees high-impact projects divided among R&D programs focused 
on advancing physics, computing, biology, chemistry, environmental 
sciences and other disciplines. It manages 10 DOE national laboratories 
and promotes education programs to encourage future scientists and 
engineers. Extramural SC funding supports about 25,000 researchers at 
nearly 300 U.S. universities and colleges. In fiscal year 2013, an 
estimated 26,500 researchers from industry, national laboratories, 
universities, and other nations are expected to use SC lab facilities, 
accessing one-of-a-kind instruments for their own research.
    In addition, DOE technology transfer efforts yield exemplary 
successes of commercial products arising from federally funded 
inventions. DOE announced in February that eight of its national 
laboratories will participate in a pilot program expediting the 
transfer of DOE intellectual property rights to private companies. The 
newly designed Agreements for Commercializing Technology will make it 
easier for companies to partner with the laboratories and are expected 
to help U.S. businesses create new products and jobs in the science and 
technology sector.
  department of energy funding stimulates novel approaches to biology 
                             based research
    The Biological and Environmental Research (BER) program within the 
SC is a source of groundbreaking research in genomics, climate change, 
greenhouse gas emissions, biofuels, contaminants in the environment and 
the interfaces between physical and biological sciences. Under the 
current DOE Strategic Plan, BER is tasked with delivering new renewable 
energy technologies, utilizing basic biological research to create 
efficient biofuels processes. BER also is expected to add significantly 
to our understanding of the role of microbes in geochemical cycling of 
carbon, nitrogen, sulfur and metals, processes that are critical to 
understanding climate and environmental processes.
    The BER program receives about $625 million in the fiscal year 2013 
request, a small 2.6-percent increase over fiscal year 2012. We urge 
the Congress to approve the administration's DOE budget that includes 
the resources for essential BER research. The budget increase is marked 
for developing synthetic biology tools and technologies, analyzing 
experimental data sets, and conducting climate studies in the Arctic. 
In fiscal year 2013, 65 percent of the BER budget will support research 
projects, while the remaining 35 percent will fund scientific user 
facilities that include the Atmospheric Radiation Measurement (ARM) 
Climate Research Facility, the William R. Wiley Environmental Molecular 
Sciences Laboratory (EMSL), and the Joint Genome Institute (JGI).
    The fiscal year 2013 budget would support the diverse R&D 
portfolios of BER's two divisions: the Biological Systems Science 
Division and the Climate and Environmental Sciences Division, allocated 
about $310 million and $316 million, respectively. In fiscal year 2013, 
resources will be increased for research on climate change in arctic 
and tropical regions, as well as for a shift in emphasis from global 
climate modeling to smaller, regional models. The funding on systems 
sciences will increase investments in the development of synthetic 
biology tools, computational analyses of genomic datasets and biodesign 
technologies.
    BER contributions include the Human Genome Project initiated in the 
1980s and some of the Nation's earliest climate change models. BER has 
significantly shaped our understanding of technical fields like 
genomics and natural phenomena like microbial communities and their 
interactions with the environment. BER-funded projects also have 
elucidated the biogeochemical processes at work under the Earth's 
surface that are critical to advances in both energy and environmental 
research.
  department of energy funding advances research in genome sciences, 
                      biofuels, and biotechnology
    The BER programs biological systems sciences have a diverse R&D 
portfolio, focused on applying advances in systems biology research in 
support of DOE strategies in energy, climate, and the environment. BER 
supports the DOE Bioenergy Research Centers, which clearly are 
succeeding as innovation incubators for genetics based R&D and 
alternative energy development. The overarching goal of these research 
programs is a complete scientific portrait from the molecular to the 
community level of plants and microbes with potential to solve societal 
challenges like clean energy and pollutant decontamination. Another 
optimal outcome would be sufficiently detailed knowledge to develop 
predictive, computational models of these living systems necessary to 
enable synthetic biology approaches for biofuels production and 
understand roles of microbes in environmental and climate processes.
    Funding for BER research effectively combines interdisciplinary 
science with powerful new tools like bioinformatics and imaging 
technologies developed through past DOE appropriations. Microorganisms 
are frequently integral components in BER-funded projects that have 
implications for preserving healthy environments. One example is the 
DOE Joint Genome Institute project that recently identified previously 
unknown methane producing microbes in permafrost soils, which could 
become a major problem through their release of greenhouse gases as 
climate change thaws the Earth's arctic regions. Arctic permafrost, 
where these microbes are abundant, sequesters an estimated 1.6 trillion 
metric tons of carbon. BER-supported systems biology knowledgebase, 
which is community driven cyberinfrastructure for sharing and 
integrating data and analytical tools to accelerate predictive biology.
    Ongoing DOE research is aggressively seeking new biomass sources 
for biofuel production, to reduce demand on corn and other food plants 
considered too valuable for non-food purposes.
    In 2011, microbiology related results reported by DOE investigators 
included the following examples supported by BER genome science 
programs:
  --BER-funded researchers sequenced many fungal genomes, which contain 
        enzymes that break down cellulose and lignin, the two most 
        abundant biopolymers on Earth, in order to harness these 
        capabilities for industrial applications such as biofuels 
        production. Another application is biopulping for the paper 
        industry, which requires that the lignin be degraded while 
        leaving the cellulose untouched. Forest products such as pulp 
        and paper account for 5 percent of the Nation's gross domestic 
        product.
  --BER supported researchers have developed technologies that could be 
        used to rewrite the genetic code of a living cell. Such 
        technology could enable scientists to design cells that build 
        proteins not found in nature, or engineer bacteria that are 
        useful for bioenergy and environmental cleanups.
  --Researchers completed an advanced metabolic model of the alga 
        Chlamydomonas reinhardtii that should expedite development of 
        algae as a viable source of renewable bioenergy.
  --Genetically engineered E. coli have been manipulated to improve the 
        bacteria's synthesis of terpene, a precursor of several 
        biofuels, by 120 percent. Other scientists have modified E. 
        coli and yeasts to produce the terpene called bisabolane as a 
        promising biofuel precursor, one found to be relatively 
        nontoxic to the microbes; unlike other biofuels like ethanol 
        that can limit commercially viable biofuel production. 
        Alternatively, scientists also have inserted a novel fatty acid 
        synthesis enzyme into E. coli, a first step in biodiesel 
        production from fatty acids.
  --BER-funded researchers, using integrated genomics technologies, 
        discovered that microorganisms play crucial roles in regulating 
        soil carbon dynamics through several microbially mediated 
        feedback mechanisms. This demonstrated the importance of 
        microbial communities in projecting future climate warming. 
        Such studies are fundamental to understanding ecosystem 
        responses to climate change and provides a mechanistic basis 
        for carbon climate modeling.
    department of energy funding supports innovative studies of the 
                              environment
    BER also sponsors research that ranges widely from molecular to 
field scale studies of various threats to our environment. BER manages 
two scientific user facilities (ARM and EMSL) and supports three 
strategic research areas in environmental sciences: atmospheric 
systems, climate and earth system modeling, and environmental system 
science. BER-funded researchers investigate environmental challenges 
like increased levels of greenhouse gases and heavy metal soil 
contaminants.
    Several currently active CESD projects illustrate the division's 
unique expertise using microbial systems to protect and improve our 
environment:
  --BER-funded researchers found that the films from some bacteria and 
        pilin nanofilaments from bacteria have electronic 
        conductivities, which are comparable to those of synthetic 
        metallic nanostructures. They can also conduct over distances 
        on the centimetre scale. The property of allowing electron 
        transport across long distances could revolutionize 
        nanotechnology and bioelectronics.
  --Using EMSL equipment, a DOE university team was the first to 
        describe the molecular structure of proteins in Shewanella 
        oneidensis that allow the bacterium to transfer an electrical 
        charge. The proteins exist within small ``nanowires'' 
        constructed by the bacteria that extend through their cell 
        walls and trap minerals. The discovery is a step toward 
        potentially using microbes as a source of electricity, perhaps 
        as microbial fuel cells. The results also have possible 
        relevance to microbial cleanup of environmental contaminants.
  --BER supported researchers found that the dual role of dissolved 
        organic matter in mercury reduction and complexation in anoxic 
        environments where both bacterial methylation and DOM reduction 
        occur. Such studies, provide mechanistic insights into the 
        factors controlling mercury species transformation, geochemical 
        cycling and especially toxic methylmercury production, which 
        are critical to mercury remediation in groundwater.
                               conclusion
    ASM recommends that the Congress approve the proposed fiscal year 
2013 budget, in support of the DOE's SC. DOE science programs routinely 
generate discoveries of economic and societal impact that serve the DOE 
mission, often by collaborating with non-DOE partners or sponsoring 
multidisciplinary research teams. SC also maintains unique lab 
facilities and institutes with robust capabilities to solve difficult, 
large scale problems. We ask the Congress to recognize these invaluable 
contributors to the economy, environment and public health by 
supporting increased funding for the fiscal year 2013 DOE budget.
                                 ______
                                 
 Prepared Statement of the American Society of Agronomy, Crop Science 
      Society of America, and the Soil Science Society of America
    Dear Chairwoman Feinstein, Ranking Member Alexander, and members of 
the subcommittee: The American Society of Agronomy (ASA), Crop Science 
Society of America (CSSA), and the Soil Science Society of America 
(SSSA), are pleased to submit comments in strong support of enhanced 
public investment in the Department of Energy's (DOE) Office of Science 
for fiscal year 2013. Specifically, ASA, CSSA, and SSSA urge the 
subcommittee to support DOE's Office of Science at a level of $5 
billion for fiscal year 2013, as requested in the President's proposed 
budget (a 2.6-percent increase over the fiscal year 2012 level). A 
strong level of funding will enable the Office of Science to continue 
to deliver the scientific discoveries and major scientific tools that 
transform our understanding of nature and advance the energy, economic, 
and national security of the United States.
    ASA, CSSA, and SSSA represent more than 18,000 members in academia, 
industry, and government, as well as 13,000 Certified Crop Advisers. 
The largest coalition of professionals dedicated to the agronomic, 
crop, and soil science disciplines in the United States, ASA, CSSA, and 
SSSA are dedicated to utilizing science in order to meet our growing 
food, feed, fiber, and fuel needs. With an ever-expanding global 
population and increasing food demands, investment in food and 
agriculture research is essential to maintaining our Nation's food, 
economic and national security.
                department of energy's office of science
    ASA, CSSA, and SSSA understand the challenges the Senate Energy and 
Water Development Appropriations Subcommittee faces with the tight 
budget for fiscal year 2013. We also recognize that the Energy and 
Water Development Appropriations bill has many valuable and necessary 
components, and we applaud the subcommittee for the support provided to 
the DOE Office of Science. For fiscal year 2013, ASA, CSSA, and SSSA 
recommend a funding level of $5 billion.
    The Congress approved the America Creating Opportunities to 
Meaningfully Promote Excellence in Technology, Education, and Science 
(America COMPETES) Reauthorization Act of 2010 (Public Law 111-358), 
recognizing that an investment in basic (discovery) scientific research 
is essential to providing America with the brainpower necessary to 
maintain a competitive advantage in the global economy and keep U.S. 
jobs from moving overseas. Such an investment is necessary to keep U.S. 
science and engineering at the forefront of global research and 
development in the biological sciences and geosciences, computing, and 
many other critical scientific fields. The Office of Science supports 
graduate students and postdoctoral researchers early in their careers. 
Nearly one-third of the Office of Science's research funding goes to 
more than 300 colleges and universities nationwide. The Office of 
Science also reaches out to America's youth in grades K-12 to help 
improve student's knowledge of science, mathematics, and understanding 
of global energy and environmental challenges. The recommended funding 
level of $5 billion is critical to ensuring our energy self-sufficiency 
and addressing major environmental challenges. In addition, a funding 
level of $5 billion will allow the Office of Science to:
  --maintain and strengthen DOE's core research programs at both the 
        DOE national laboratories and universities;
  --provide support for Ph.D.'s, postdoctoral associates, and graduate 
        students;
  --ensure maximum utilization of DOE research facilities; and
  --allow the Office of Science to develop and construct the next-
        generation facilities necessary to maintain U.S. leadership in 
        scientific research.
                         basic energy sciences
    Within the DOE Office of Science, the Basic Energy Sciences (BES) 
program is a multipurpose, scientific research effort that fosters and 
supports fundamental research to expand the scientific foundations for 
new and improved energy technologies and for understanding and 
mitigating the environmental impacts of energy use. The research 
disciplines that the BES program supports include condensed matter and 
materials physics, chemistry, soil, mineralogical, and geosciences. 
These subjects influence virtually every aspect of energy production, 
conversion, transmission, storage, efficiency, and waste mitigation.
    ASA, CSSA, and ASSA support funding the subprogram of Chemical 
Sciences, Geosciences, and Biosciences within the BES at a level of 
$349.4 million in fiscal year 2013. The Geosciences Research program 
supports research focused on developing an understanding of fundamental 
Earth processes that are a foundation for improved advanced energy and 
environmental technologies. Specifically, we support the Geosciences 
program to expand geochemical research and computational analysis of 
complex subsurface fluids and solids.
                 biological and environmental research
    Also within the DOE Office of Science, the Biological and 
Environmental Research (BER) program has advanced environmental and 
biological knowledge that supports national security through improved 
energy production, international scientific leadership, and research 
that improves the quality-of-life for all Americans. BER supports these 
vital missions through competitive and peer-reviewed research at 
national laboratories, universities, and private institutions. ASA, 
CSSA, and SSSA support the funding of BER at the President's requested 
level of $625.3 million for fiscal year 2013. A variety of programs 
within BER are essential to continued biological systems science 
fundamental research, geochemical observations, and determining 
environmental sustainability of our energy production systems. A few of 
these programs are further highlighted below:
  --ASA, CSSA, and SSSA support funding the Office of Climate and 
        Environmental Sciences within BER at a level of $315.6 million. 
        This funding will support essential subsurface biogeochemical 
        research and basic research on the fate and transport of 
        contaminants in the subsurface.
  --ASA, CSSA, and SSSA support the increase included in the 
        President's budget for the Genomic Science Program at a level 
        of $188.1 million for fiscal year 2013. The Joint Genome 
        Institute (JGI) is an essential lab where synthetic molecular 
        toolkits are developed to predict, construct, and test new 
        biological systems for clean-energy solutions. It also uses 
        plant and microbial systems biology to pursue breakthroughs 
        needed to develop cellulosic biofuels.
    Thank you for your consideration of our requests.
                                 ______
                                 
       Prepared Statement of American Society of Plant Biologists
    On behalf of the American Society of Plant Biologists (ASPB), we 
submit this statement for the official record to support the requested 
level of $4.992 billion for the Department of Energy (DOE) Office of 
Science for fiscal year 2013. The testimony highlights the importance 
of biology--particularly plant biology--as the Nation seeks to address 
energy security and other vital issues.
    ASPB recognizes the difficult fiscal environment our Nation faces 
but believes investments in scientific research will be a critical step 
toward economic recovery. We would also like to thank the subcommittee 
for its consideration of this testimony and for its support for the 
basic research mission of the DOE Office of Science.
    ASPB is an organization of approximately 5,000 professional plant 
biology researchers, educators, graduate students, and postdoctoral 
scientists with members in all 50 States and throughout the world. A 
strong voice for the global plant science community, our mission--
achieved through work in the realms of research, education, and public 
policy--is to promote the growth and development of plant biology, to 
encourage and communicate research in plant biology, and to promote the 
interests and growth of plant scientists in general.
    fuel, food, environment, and health--plant biology research and 
                            america's future
    Plants are vital to our very existence. They harvest sunlight, 
converting it to chemical energy for food and feed; they take up carbon 
dioxide and produce oxygen; and they are the primary producers on which 
all life depends. Indeed, plant biology research is making many 
fundamental contributions in the areas of domestic fuel security and 
environmental stewardship; the continued and sustainable development of 
better foods, fabrics, pharmaceuticals, and building materials; and in 
the understanding of basic biological principles that underpin 
improvements in the health and nutrition of all Americans.
    In particular, plant biology is at the center of numerous 
scientific breakthroughs in the increasingly interdisciplinary world of 
alternative energy research. For example, interfaces among fundamental 
and applied plant biology, engineering, chemistry, and physics 
represent critical frontiers in both basic biofuels research and 
bioenergy production. Similarly, with the increase in plant genome 
sequencing and functional genomics, the interface of plant biology and 
computer science has become essential to our understanding of complex 
biological systems, ranging from single cells to entire ecosystems.
    Despite the fact that foundational plant biology research--the kind 
of research funded by agencies such as the DOE--underpins vital 
advances in practical applications in energy, agriculture, health, and 
the environment, the amount of money invested in understanding the 
basic function and mechanisms of plants is relatively small. This is 
especially true considering the significant positive impact crop plants 
have on the Nation's economy and in addressing some of our most urgent 
challenges like energy and food security.
    Understanding the importance of these areas and to address future 
challenges, ASPB organized the Plant Science Research Summit in 
September 2011. With support and funding from the National Science 
Foundation, U.S. Department of Agriculture, DOE, and the Howard Hughes 
Medical Institute, the Summit brought together representatives from 
across the full spectrum of plant science research to identify critical 
gaps in our understanding of plant biology that must be filled over the 
next 10 years or more to address the grand challenges facing our Nation 
and our planet. The grand challenges identified at the Summit include:
  --To fuel the Nation's future with clean energy, improvements are 
        needed in current biofuels technologies, including breeding, 
        crop-production methods, and processing.
  --To feed everyone well, now and in the future, advances in plant 
        science research will be needed for higher yielding, more 
        nutritious varieties able to withstand a variable climate.
  --Innovations leading to improvements in water use, nutrient use, and 
        disease and pest resistance that will reduce the burden on the 
        environment are needed to allow for increases in ecosystem 
        services such as clean air, clean water, fertile soil, and 
        biodiversity benefits like pest suppression and pollination.
  --For all the benefits that advances in plant science bestow--in food 
        and fiber production, ecosystem and landscape health, and 
        energy subsistence--to have lasting, permanent benefit they 
        must be economically, socially, and environmentally 
        sustainable.
    In spring 2012, a report from the Plant Science Research Summit 
will be published. This report will further detail priorities and needs 
to address the grand challenges.
                            recommendations
    Because of our membership's extensive expertise and participation 
in the academic, industry, and government sectors, ASPB is in an 
excellent position to articulate the Nation's plant science priorities 
as they relate to bioenergy and, specifically, with regard to 
recommendations for bioenergy research funding through the DOE's Office 
of Science.
    Within the Office of Science, the programs in Biological and 
Environmental Research (BER) and Basic Energy Sciences (BES) are 
crucial to understanding how basic biological processes work. For this 
reason ASPB is supportive of the fiscal year 2013 request to fund BER 
at $625.3 million and BES at $1.8 billion. Sustained funding for these 
programs is vital as the discoveries made in these areas will 
ultimately be the foundation for the next fuels and technologies we use 
in our daily lives.
    In addition:
  --We commend the DOE Office of Science, through their programs in BES 
        and BER for funding the Bioenergy Research Centers and the 
        Energy Frontier Research Centers. These centers provide a model 
        for collective science innovation that complements DOE's 
        essential investment in individual investigator and small group 
        science. ASPB strongly encourages funding for the DOE Office of 
        Science that would be specifically targeted to the funding of 
        individual or small group grants for bioenergy research.
  --Photosynthetic research is one clear example of an interface 
        between the physical sciences and biology. The DOE Office of 
        Science has been the major source of funding for fundamental 
        studies of photosynthesis, which is the primary source of 
        chemical energy on the planet. However, the current funding 
        available for photosynthetic research is not commensurate with 
        the central role that photosynthesis plays in energy capture 
        and carbon sequestration. Hence, ASPB calls for the Office of 
        Science to expand its research portfolio in the area of 
        photosynthesis and carbon capture.
  --Considerable research interest is now focused on the processing of 
        plant biomass for energy production. If biomass crops, 
        including woody plants, are to be used to their full potential, 
        extensive effort must be expended to improve our understanding 
        of their basic biology and development, as well as their 
        agronomic performance. Therefore, ASPB calls for DOE to support 
        research targeted at efforts to increase the utility and 
        agronomic performance of bioenergy feedstocks.
    Thank you for your consideration of our testimony on behalf of the 
American Society of Plant Biologists.
                                 ______
                                 
                       Prepared Statement of ASME
    Madam Chairwoman, ranking member, and members of the subcommittee: 
The Energy Committee (EnComm) of ASME's Technical Communities is 
pleased to provide this testimony on the fiscal year 2013 budget 
request for research and development (R&D) programs in the Department 
of Energy (DOE).
                              introduction
    ASME is a more than 120,000-member nonprofit, worldwide 
educational, and technical society. It conducts one of the world's 
largest technical publishing operations, holds more than 30 technical 
conferences and 200 professional development courses each year, and 
sets some 600 industrial and manufacturing standards, many of which 
have become de facto global technical standards. The Energy Committee 
of ASME's Technical Communities comprises 64 members from 10 ASME 
Divisions, 2 Institutes and Codes & Standards, representing 
approximately 40,000 of ASME's members.
    ASME has long advocated a balanced portfolio of energy supplies to 
meet the Nation's energy needs, including advanced clean coal, 
petroleum, nuclear, natural gas, waste-to-energy, biomass, solar, wind, 
and hydroelectric power. ASME also supports energy-efficient building 
and transportation technologies, as well as transmission and 
distribution infrastructure sufficient to satisfy demand under 
reasonably foreseeable contingencies. Only such a portfolio will allow 
the United States to maintain its quality of life while addressing 
future environmental and security challenges. Sustained growth in the 
energy systems on which the United States depends will also require 
stability in licensing and permitting processes not only for power 
generating stations but also for transmission and transportation 
systems.
                             fossil energy
    The fiscal year 2013 budget request of $650.7 million for fossil 
energy represents a $86.3 million, or 15.3 percent, increase compared 
to the fiscal year 2012 appropriation. Fossil Energy (FE) research and 
development (R&D) would rise by 21.3 percent, or $73.8 million to 
$420.6 million. After 3 years of substantial budget cuts for FE, the 
EnComm is pleased to see that the administration is seeking to finally 
build upon the $3.4 billion that was devoted to FE R&D as part of the 
American Recovery and Reinvestment Act (ARRA).
    After proposing the elimination of funding for Natural Gas 
Technologies in last year's budget request, this year the 
administration has requested a $2 million, or 13.4 percent increase for 
the program that would bring it to $17 million in fiscal year 2013. 
Unconventional Fossil Energy Technologies would again be targeted for 
elimination by the administration in fiscal year 2013, after receiving 
less than $5 million in funding for fiscal year 2012, and no funding in 
fiscal year 2011. The United States has access to significant 
unconventional gas resources with the potential to provide abundant, 
affordable, clean low-carbon energy source for years to come. Prior FE 
R&D has contributed to making this possible. However, this potential 
will not be realized unless this resource can be produced reliably, 
economically, safely, and with minimal environmental impact. 
Accomplishing this task and keeping the United States in the forefront 
of unconventional fossil energy technology will require an investment 
in basic research, technology development, and investments in advances 
in low-impact environmental technologies that will not be undertaken by 
industry in the current economic climate. The budget for these efforts 
should be maintained at least at the fiscal year 2010 level.
    The EnComm encourages a restoration of funding for coal research 
programs to at least the levels appropriated for fiscal year 2010. The 
EnComm is very disturbed by the lack of research in basic coal 
combustion and in research that is needed to support the next 
generation of coal-fired plants. The use of coal today and in the 
future is vital to providing for a sustainable energy future. The 
current funding levels significantly hinder the ability to keep the 
United States in the forefront of coal technology. Coal is and will 
remain a critical resource for our Nation and its economy; and we must 
continue to invest in technological advancements that will reduce 
environmental impacts for this energy. The use of more efficient 
processes for coal combustion, such as advanced integrated gasification 
combined cycle (IGCC) technology, combined with carbon sequestration 
will allow the United States to utilize its coal resources in a more 
environmentally sound and cost-effective manner. We encourage strong 
and consistent funding for these programs now and in future years.
                advanced research projects agency-energy
    The EnComm supports the $325 million budget request for the 
Advanced Research Projects Agency-Energy (ARPA-E), a $50 million or 
27.5 percent increase over the fiscal year 2012 appropriated amount. 
ARPA-E received its first funding as part of ARRA, but has stood out 
quickly among its fellow DOE programs. ARPA-E represents a significant 
opportunity for the United States to cultivate technological 
breakthroughs related to energy sources, and uses. A steady commitment 
to ARPA-E has begun to encourage new energy technology innovation, and 
the EnComm believes that this is a worthwhile endeavor for the DOE as 
we seek to accomplish technological breakthroughs in energy technology 
research.
                             nuclear energy
    The EnComm is discouraged to see a 10.3 percent, or $88.2 million 
reduction in the fiscal year 2013 DOE Office of Nuclear Energy budget 
request. Total funding for fiscal year 2013 would fall to $770 million. 
The EnComm remains convinced that nuclear energy will hold an important 
role in the Nation's energy future, and that programs like Reactor 
Concepts, and Fuel Cycle R&D need sustained funding to aid the Nation's 
transition to a low-carbon energy future. The current proposed lack of 
funding may adversely impact the ability of the current U.S. fleet to 
continue to operate past its 60-year life. The loss of funding may also 
contribute to the loss of the U.S. nuclear technology competitive edge 
to overseas concerns. The Energy Committee remains interested in how 
the proposed Reactor Concepts RD&D program distinguishes itself from 
the traditional R&D program under the Office of Nuclear Energy. The 
administration's invocation of an ``all-of-the-above'' energy strategy 
at this year's State of the Union Address should be reflected in this 
budget request. President Obama has again proposed the creation of a 
national ``clean energy standard'' of 80 percent by 2035 the EnComm 
believes very strongly that sustained increases in nuclear power 
research are justified in light of this goal.
                 energy efficiency and renewable energy
    The Office of Energy Efficiency and Renewable Energy (EERE) manages 
America's investments in research, development, and deployment of DOE's 
diverse energy efficiency and renewable energy applied science 
portfolio. The fiscal year 2013 request of $2.37 billion, which is a 
$527 million, or 29.1 percent increase over the fiscal year 2012 
appropriated amount of $1.81 billion, demonstrates that the 
administration would like to restore EERE to pre-Budget Act levels 
(Public Law 112-25). Most of the key EERE programs, including Biomass, 
Solar, Wind, Geothermal, Building Technologies, Vehicle Technologies, 
and Advanced Manufacturing technologies, would receive substantial 
increases in funding to support the growth of renewable energy and 
energy efficiency. The EnComm is particularly pleased to see large 
increases for both the Advanced Manufacturing program ($290 million, or 
a 150.9 percent increase), formerly known as the Industrial 
Technologies Program (ITP), as well as the Building Technologies 
Program ($310 million, or a 41.4 percent increase).
    The EnComm believes that the development of transportation fuel 
systems that are not petroleum-based is a critical part of our future 
national energy policy. The fiscal year 2013 budget for biomass and 
bio-refinery systems R&D is slated to receive a $70.7 million increase 
to $270 million for fiscal year 2013, 35.5 percent above the fiscal 
year 2012 appropriated amount. We are also pleased to see the $91 
million, or 27.7 percent increase in the effort related to vehicle 
technologies emphasizing plug-in hybrid electric vehicles. However, the 
EnComm is concerned about the current level of mandated use of ethanol-
based fuels.
    The integration of all cost-effective electric generating 
technologies into the operation of the electricity distribution system 
is critical to economic operation of the national electric grid. The 
EnComm believes that R&D related to the integration of the electric 
grid and its control as a truly national system is imperative for the 
growth of effective and economic energy generation technologies, and we 
encourage full funding for such research.
                                science
    The mission of the Office of Science (SC) is the delivery of 
scientific discoveries and major scientific user facilities and tools 
to transform our understanding of nature and to advance the energy, 
economic, and national security of the United States.
    During these difficult budget times, the EnComm is pleased with the 
request for the Office of Science. The fiscal year 2013 budget proposal 
of $5 billion is an increase of $118 million, or 2.4 percent, from the 
fiscal year 2012 appropriation. As successive budget cycles come and 
go, the Nation seems to be getting further away from the funding 
trajectory mandated in the ``America COMPETES Reauthorization Act of 
2007'' (Public Law 111-358). Science programs in high-energy physics, 
fusion energy sciences, biological and environmental research, basic 
energy sciences, and advanced scientific computing, serve, in some 
small way, every student in the country. These funds support not only 
research at the DOE laboratories, but also the work at a large number 
of universities and colleges. We believe that basic energy research 
will also improve U.S. energy security over the long term, through its 
support for R&D on cellulosic ethanol and other next-generation 
biofuels, advanced battery and energy storage systems, and fusion. 
Fusion Energy Sciences, High Energy Physics, and Nuclear Physics would 
receive decreases under this budget, with specific cuts to domestic 
fusion in favor of honoring the Nation's commitments to International 
Thermonuclear Experimental Reactor (ITER). The EnComm respects the 
Office of Science's goals related to microbiological sciences, computer 
science, and basic energy sciences but urges a restoration of funding 
for these reduced programs at fiscal year 2011 levels. The Energy 
Committee supports the budget request for the Office of Science in the 
amount of $5 billion.
                  other department of energy programs
    DOE is also very active in areas outside of R&D. The environmental 
remediation program that funds the decommissioning and decontamination 
of old DOE facilities is one such research area. The EnComm questions 
the advisability of flat funding for the Environmental Management 
program. The Yucca Mountain (YM) Waste Repository is a critical part of 
the future of nuclear energy and the use of uranium as a resource for 
energy usage in the present and foreseeable future. The EnComm is 
concerned that the cancellation of the YM repository program will 
result in a difficult, and more costly, search for a new repository 
that will likely encounter similar obstacles. DOE and the Congress 
should honor their commitments with regard to disposal of Spent Nuclear 
Fuel. The EnComm has read the Blue Ribbon Commission (BRC) on America's 
Nuclear Future report and will be closely monitoring any efforts in the 
Congress toward implementing the BRC's recommendations. The coming 
resurgence in the commercial nuclear arena is likely to deplete the 
trained professionals available for this program as engineers choose to 
move to the more stable commercial environment. The Congress should 
appropriate the funds to ensure that this work is accomplished in an 
expeditious manner.
                               conclusion
    Members of the EnComm consider the issues related to energy to be 
one of the most important issues facing our Nation. There is an urgent 
need for a strong and coherent energy policy. The EnComm is concerned 
that without a National Energy Policy the proposed and ongoing research 
will not be utilized to its full potential. We applaud the 
administration and the Congress for their understanding of the 
important role that scientific and engineering breakthroughs will play 
in meeting our energy challenges. In order to promote such innovation, 
strong support for energy research will be necessary across a broad 
range of technology options. DOE research can play a critical role in 
allowing the United States to use our current resources more 
effectively and to create more advanced energy technologies.
    Thank you for the opportunity to offer testimony regarding both the 
R&D and other parts of the proposed budget for the DOE. The EnComm is 
pleased to respond to requests for additional information or 
perspectives on other aspects of our Nation's energy programs.
                                 ______
                                 
             Prepared Statement of APS Technology, Inc.\1\
---------------------------------------------------------------------------
    \1\ 9 Laser Lane, Wallingford, Connecticut 06492. http://aps-
tech.com/.
---------------------------------------------------------------------------
    Madam Chairwoman and honorable Senators: Seven years ago, I 
submitted testimony \2\ regarding proposed cuts to the Department of 
Energy (DOE) budget for oil and gas exploration research. Much has 
happened since 2005, all of which reinforces the need for such funding. 
I wish to address, in particular, the cuts to the National Energy 
Technology Laboratories (NETL).
---------------------------------------------------------------------------
    \2\ Testimony to the House Committee on Appropriations Subcommittee 
on Energy and Water Development, submitted March 6, 2005.
---------------------------------------------------------------------------
    I wish to make perfectly clear that my company, APS Technology, 
Inc., has benefited from these programs. We have completed two cost-
sharing research contracts \3 4\ from the NETL, one Small Business 
Innovation Research (SBIR) \5\ and one Small Business Technology 
Transfer (STTR) \6\ grant. This support has been critical to the growth 
of APS and its introduction of new products for the industry.
---------------------------------------------------------------------------
    \3\ DE-FC26-02NT41664, ``Drilling Vibration Monitoring and Control 
System''.
    \4\ DE-FC26-04NT15501, ``Novel High-Speed Drilling Motor for Oil 
Exploration & Production''.
    \5\ DE-FG02-02ER83368, ``Rotary Steerable Motor System for Deep Gas 
Drilling''.
    \6\ DE-AC26-98FT40481, ``Downhole Fluid Analyzer''.
---------------------------------------------------------------------------
    I will not repeat the general justifications that you know so 
well--the necessity of our striving toward energy independence or near-
independence; the importance of new technologies to reaching this goal, 
while protecting the environment, et cetera. While these are clearly 
important considerations, I would rather focus on three particular 
aspects from my personal experience:
  --an outstanding success story;
  --the changes in the business environment for oil and gas 
        exploration; and
  --some reasons that DOE support for oil and gas research and 
        development is more important today than ever.
             a success story--teleco oilfield services inc.
    In his State of the Union Address,\7\ President Obama reminded us 
that ``it was public research dollars, over the course of 30 years, 
that helped develop the technologies to extract all this natural gas 
out of shale rock--reminding us that government support is critical in 
helping businesses get new energy ideas off the ground.'' One of these 
key enabling technologies was measurements-while-drilling (MWD) and the 
leader in MWD was my former company, Teleco Oilfield Services Inc.
---------------------------------------------------------------------------
    \7\ http://www.whitehouse.gov/photos-and-video/video/2012/01/25/
2012-state-union-address-
enhanced-version#transcript.
---------------------------------------------------------------------------
    In 1972, I began this new venture with the support of my then 
employer, Raymond Engineering \8\ and the European oil company, 
SNPA.\9\ The sole purpose of this new company was to develop and 
commercialize this new MWD technology. Even then, before there was a 
commercial tool, the industry recognized MWD as a transformative 
technology. By transmitting data to the surface in real time from the 
bottom of a well as it was being drilled, it would open the door to 
directional and horizontal drilling, real-time analysis of the oil and 
gas content of a well, steering the well within a pay zone, things 
unheard of then that are now standard operating procedure in oilfields 
around the world.
---------------------------------------------------------------------------
    \8\ Now a part of Kaman Corporation.
    \9\ Societe Nationale des Petroles d'Aquitaine, now a part of 
Total.
---------------------------------------------------------------------------
    In 1978, dozens of companies were trying to develop these 
systems,\10\ including large corporations within the oil industry and 
without. Most, however, were unsuccessfully trying to adapt existing 
wireline technology to the much more severe environment within a well 
during drilling. Teleco took the opposite approach;\11\ it adapted the 
proven reliable military and space technology of Raymond Engineering 
and applied it to the new environment in a effort to attain the 
reliability needed for such service.
---------------------------------------------------------------------------
    \10\ cf., ``MWD: State of the Art'', series of articles in the Oil 
& Gas Journal, 1978.
    \11\ R.F. Spinnler & F.A. Stone, ``MWD: State of the Art--4; MWD 
Program nearing commerciality'', Oil & Gas Journal, May 1, 1978.
---------------------------------------------------------------------------
    In 1975, after several years of intense and expensive self-funded 
development, Teleco was ready to build and field test its first 
prototype tools. The combination of their complexity and the 
requirement that they work in an extreme environment made this a 
prohibitive task. The oil companies were unwilling to invest in this 
technology without a successful field test. It was at this time that 
the company applied for, and received, $2 million in development 
funding from the DOE. With these funds, the field testing could proceed 
and proved successful.
    At this point, six major oil companies \12\ provided an additional 
$0.9 million funding in return for future repayment through the 
company's sales. These funds allowed the commercial launch of MWD in 
1978.
---------------------------------------------------------------------------
    \12\ Exxon, Shell, Chevron, Conoco, Amoco, and Placid.
---------------------------------------------------------------------------
    As anticipated, the commercial introduction of MWD by Teleco 
revolutionized oil and gas exploration, first primarily offshore, but 
now on land as well. What was the role of the DOE in this success? MWD 
would have certainly been developed in time, but it took more than 2 
years for other companies to enter the market. The Teleco system 
remained the leader in reliability over its entire existence. The 
support of the DOE was critical to making the leap from a laboratory 
demonstration to fully commercial systems in use worldwide. Thus, the 
small investment by the DOE led directly to the development of a 
company and an industry that served to improve the efficiency and 
safety of oil and gas exploration, led to many advances that help 
restrain the price of oil including such innovations as horizontal 
drilling, and created thousands of jobs in the United States.
     changes in the oil and gas industry over the past four decades
    In the past four decades, the oil and gas industry has undergone 
dramatic changes. In the 1970s the major production companies were the 
principal sources of new technology for the industry. Exxon, Mobil, 
Texaco, and ARCO, to name a few, maintained research facilities staffed 
by the most experienced experts in their fields. These companies 
developed many of the key innovations in the drilling and well logging 
industry despite their recognition that, as commodity producers, they 
were neither equipped to market, nor particularly interested in, 
technology per se. This was the province of the oil service companies, 
to whom the producers licensed their use, often giving nonexclusive, 
royalty-free licenses to any company that requested them.
    In the ensuing decades, the industry has consolidated. For example, 
all of the companies mentioned above have either merged or been 
acquired since then, also consolidating their research programs. In the 
volatile oil and gas industry, it difficult to justify to shareholders 
investments in long-term programs that will not produce any direct 
revenues or competitive advantage. Thus, companies have striven to 
``right size'' their organizations, often at the expense of research.
    A similar contraction has taken place in the oilfield services 
business. New technologies were once transferred from the producers, 
developed by the major service companies, or introduced by small, 
specialized companies (such as Numar \13\ or Landmark Graphics \14\). 
Many of the researchers laid off in the consolidation of the producers' 
research labs found their way to service companies. The service 
companies also acquired many of the smaller companies, such as those 
listed above. Now, after significant consolidation and downsizing on 
the part of the service companies, and under the continuous, short-term 
scrutiny of the market, even they are cutting the costs associated with 
long-term development.
---------------------------------------------------------------------------
    \13\ Now a part of Halliburton Corp, see: http://
www.halliburton.com/news/archive/1997/corpnws_093097.jsp.
    \14\ Now a subsidiary of Halliburton Corp, see: http://www.lgc.com.
---------------------------------------------------------------------------
    To cite one example, Schlumberger has closed its world-renowned 
Schlumberger-Doll Research Center in Ridgefield, Connecticut, and 
relocated to Cambridge, Massachusetts. They have transferred much of 
the work previously done by industry experts to university professors, 
research associates, and students. The service companies are also 
outsourcing many high-risk projects to small companies such as APS.
    In this environment, the growth and success of a Teleco would be 
impossible. The large companies have become more risk-averse and 
oriented toward current revenues. Small companies lack the resources to 
pursue high-risk, long-term developments. The government, through the 
DOE, is the backer of last resort for these efforts.
           current necessity for department of energy support
    The U.S. oil and gas province is quite mature. Production of oil 
peaked in the 1970s and gas production is nearly at its peak. To 
produce additional reserves, technical progress is needed in two areas:
  --drilling safely in deeper waters offshore requires new methods for 
        dealing with the increased temperatures and pressures in the 
        formations; and
  --producing oil and gas from the prolific shale deposits we possess 
        requires sophisticated horizontal drilling \5\ and monitoring 
        \3\ equipment.
    Some of the technology for these areas is being supported by the 
Research Partnership to Secure Energy for America (RPSEA), of which we 
are a member. These programs, however, tend to be on a larger scale and 
less suited for small businesses.
    DOE R&D support, through NETL, which requires cost-sharing by the 
applicant and outside sources, is an ideal model for a stimulant to 
small business and technological growth. To cite one example, consider 
our Drilling Vibration Monitor and Control System,\3\ currently 
entering commercial service. In 2002, NETL launched the Deep Trek 
initiative, aimed at developing new technologies to reduce the cost of 
deep gas drilling. After review by outside experts of both a pre-
application and application, APS was granted a Cooperative Agreement to 
develop this new tool, with the DOE paying 75 percent of the first 
phase.
    During this period we designed and modeled this tool, which senses 
the vibration of the bit and drillstring, and continually adjusts the 
stiffness of an active vibration damper located above the bit. As a 
result, the bit does not bounce off bottom, and applies the optimal 
force to enhance the rate of drilling.
    Phase II drilling tests have shown\15\ that use of this tool can 
increase the drilling speed by 10-50 percent, and significantly extend 
the life of drill bits and other downhole components. None of this 
development would have been possible without DOE support. APS was not 
in a position to fund it; the major service companies were not 
interested until there was an indication of value to the end user and 
the production companies needed something more concrete before 
investing in the technology.
---------------------------------------------------------------------------
    \15\ M.E. Wassell et al. ``Active vibration damper improves 
performance and reduces drilling costs'', World Oil, September 2008.
---------------------------------------------------------------------------
    Now, with the help of these tests made possible by DOE support, 
there is considerable customer interest. This product should lead to 
major improvements in efficiency for the oil and gas drilling industry, 
and growth for our company. For example, APS has been recognized as one 
of the fastest-growing technology companies in Connecticut for the past 
9 years. We are in the midst of a hiring boom and plan to increase our 
U.S. employees by 60 during 2012.
    In summary, DOE research initiatives are essential to ``prime the 
pump'' of new technology development. This is even more important in 
these times of high fuel prices, ``lean'' corporations and increased 
dependence on foreign oil sources. I urge you, in the strongest 
possible terms, to maintain or increase the funding for these programs. 
Thank you.
                                 ______
                                 
            Prepared Statement of Carnegie Mellon University
    Madam Chairwoman, ranking member, and members of the subcommittee: 
My name is Timothy McNulty, and I am the Associate Vice President for 
Government Relations at Carnegie Mellon University. The great progress 
being made in America's pursuit of energy independence is a product of 
the synergy between the entrepreneurial strength of our energy sector 
and strategic research investments that have fundamentally changed the 
very nature of production. As our pursuit of energy independence gains 
momentum, it is critical to continue funding the programs that best 
foster this dynamic. A prime example of such a program is section 999, 
the Ultra-Deepwater and Natural Gas Supply Research and Development 
Program created by the Energy Policy Act (EPAct) of 2005.
    The section 999 program supports the dynamic research of the 
Strategic Center for Natural Gas and Oil at the National Energy 
Technology Laboratory (NETL SCNGO), as well as a consortium of U.S. 
energy research universities, industry, and independent research 
organizations under the Research Partnership to Secure Energy for 
America (RPSEA). This approach ensures that the program engages 
partners from across the United States and fully utilizes the 
capabilities of the Nation's fossil energy lab, which has a long 
history of strong collaboration with industry and a proven track record 
of moving technology from discovery to commercialization. The RPSEA 
partnership brings the best of highly competitive research to bear on 
the fundamental industry challenges that the United States must address 
in order to realize the full potential of new energy sources safely and 
effectively.
    At NETL, research is underway to address the central technological 
and basic scientific questions that will support continued expansion of 
shale production. These include novel techniques for water quality and 
treatment, research on well distribution and optimization, modeling to 
predict induced seismicity, and pre-competitive research on new end-use 
products and markets for natural gas.
    This research program also benefits from a unique collaboration 
between the National Lab and five universities--Carnegie Mellon 
University, Penn State University, Virginia Tech University, the 
University of Pittsburgh, and West Virginia University. Working with 
the Lab, these institutions comprise the NETL Regional University 
Alliance (NETL RUA), a ``virtual'' laboratory that taps leading 
capabilities in hydrology, water systems, drilling technologies, and 
risk assessment from across the region.
    The NETL research builds upon recent breakthroughs such as the 
development of potential new nanoparticles supporting enhanced oil 
recovery and new ways to model and image multiphase, multifluid flow in 
shale core. Other major research accomplishments include the 
development of remote sensing techniques to monitor shallow groundwater 
salinity, the effective utilization of airborne magnetic surveys to 
detect the location of unknown wells in an active enhanced oil recovery 
well in the western United States, and the assemblage of a 3-D geologic 
framework for the Marcellus Shale using commercially available 
software.
    In addition to aiding the pursuit of energy independence, the 
section 999 program is also vital to maintaining America's global 
leadership in energy-related technologies. As the discovery of shale 
sources continues across the world--on virtually every continent--one 
aspect of the energy race for the future will clearly be to develop the 
production-related technologies and expertise that will become a major 
source of export-related business and job growth.
    The question is whether American companies, workers and communities 
will benefit from leading this development. By bringing together the 
best of American industry, university and national lab research on 
practical problem-solving and opportunity-seizing innovation, the 
section 999 program funding is vital to laying the foundation for 
American leadership in what will be a major export market of the next 
two decades.
    In essence, the research NETL is leading as part of the section 999 
program spans breakthroughs that both extend the boundaries of 
discovery and production and strive to ensure that this production is 
undertaken in an environmentally safe manner. This program is critical 
to advance productivity, to establish the foundation for scientifically 
based, environmentally sound extraction, and to catalyze new industries 
related to new energy extraction.
    The Congress's support for restoring funding of section 999 in 
fiscal year 2012 was greatly appreciated and needed. It is enabling 
practical results that make a difference in both production and 
scientifically based environmental protection. Continued support of the 
section 999 program by restoring the full $50 million in funding for 
fiscal year 2013 is respectfully urged as an investment in emerging 
American energy innovation and continued progress toward 
environmentally safe energy independence.
                                 ______
                                 
      Prepared Statement of the Coal Utilization Research Council
                              introduction
    This statement is submitted on behalf of the membership of the Coal 
Utilization Research Council (CURC), an organization of coal-using 
utilities, coal producers, equipment suppliers, universities and 
institutions of higher learning, and several State government entities 
interested and involved in the use of coal resources and the 
development of coal-based technologies (see www.coal.org). Members of 
CURC, together with the Electric Power Research Institute (EPRI), have 
developed a Technology Roadmap (Roadmap) that defines the research, 
development, and demonstration (RD&D) necessary to insure the enhanced 
utilization of coal in the United States. The recommendations for 
fiscal year 2013 appropriations discussed in this testimony are keyed 
directly to the 2012 update of the Roadmap.
       coal utilization research council fiscal year 2013 budget 
                             recommendation
    The President has requested $241 million for the coal RD&D program 
in fiscal year 2013, which is $93 million below the fiscal year 2012 
enacted level of $333 million. This fiscal year 2013 request is nearly 
40 percent below the $389 million fiscal year 2011 appropriated levels. 
The budget request being made for Fossil Energy represents the only 
area in Department of Energy's (DOE) budget for which less funding is 
being requested than the prior year. CURC recommends that the fiscal 
year 2013 coal research and development (R&D) program be funded at $372 
million (see chart below). Recommended increases in funding would be 
targeted to specific areas as well as new programs, all of which are 
keyed to the Roadmap (details below). This recommendation represents an 
increase of $131 million over the President's fiscal year 2013 request 
and $39 million above the funding level of $333 million (exclusive of 
the National Energy Technology Laboratory (NETL) in-house R&D program) 
that the Congress provided in fiscal year 2012.\1\
---------------------------------------------------------------------------
    \1\ The CURC figures are exclusive of the NETL coal research and 
development (in-house R&D) program budget of $35 million. While an 
important program, this funding supports salaries for research 
conducted by NETL in-house and is not a cost-shared program with 
industry. The Roadmap identifies programs that are undertaken in 
partnership between industry and government, and therefore, CURC's 
recommendations are focused on the competitive programs funded in the 
coal RD&D program.
---------------------------------------------------------------------------
importance of coal and the department of energy fossil energy research 
                        and development program
    Coal is essential to the U.S. energy economy. In 2010, coal 
provided 21 percent of total U.S. energy consumption and 48 percent of 
U.S. electric power.\2\ The U.S. Energy Information Administration 
(EIA) projects that coal will continue to provide nearly 40 percent of 
our Nation's electricity through 2035. Technology has enabled coal to 
address environmental and economic challenges in the past. The proven 
formula for success has been the collaborative, cost-sharing efforts of 
the Government and the private sector. This public and private sector 
partnership has provided great value to the taxpayer yielding a return 
of $13 for every $1 of Federal funding spent for coal RD&D.\3\ The 
National Academies of Science estimated that between 1986 and 2000, the 
DOE Fossil Energy Program generated $7.4 billion in economic benefits 
to this country.\4\ Today, 3 out of every 4 coal plants in United 
States are equipped with technologies that trace their origins to DOE's 
program, allowing coal use to increase by more than 63 percent in the 
United States over the last 30 years while the emissions of 
SO<INF>2</INF> and NO<INF>X</INF> have decreased on the order of 70 
percent.\5\
---------------------------------------------------------------------------
    \2\ Coal plays a similar role in the global energy economy. Between 
2000 and 2010, coal accounted for nearly one-half the increase in 
global energy use, OECD/IEA 2011.
    \3\ Fossil Energy Research Benefits, Clean Coal Technology Program, 
USDOE/NETL.
    \4\ ``Energy Research at DOE, Was it Worth It?'', Energy Efficiency 
and Fossil Energy Research 1978 to 2000, National Academy of Sciences, 
2001 Report, pg. 6.
    \5\ EIA Annual Energy Review 2010, EPA National Air Pollutant 
Emissions Trends: 1900-1998.
---------------------------------------------------------------------------
                              the roadmap
    The Roadmap represents a plan for developing technologies that 
convert coal to electricity and other useful forms of energy and 
manufacturing feedstocks. The Roadmap describes coal technology 
advancements that will achieve specific cost, performance, and 
environmental goals and in doing so, will benefit the Nation's 
environment, economy, and energy security. A significant conclusion of 
the Roadmap is that, with the combination of technology development and 
enhanced oil recovery (EOR), coal-based power plants designed and 
constructed in 2025 can provide electricity at a price competitive with 
natural gas and other fuels, and with 75 percent less CO<INF>2</INF> 
than today's new natural gas-based power plant. Other additional 
benefits of successfully implementing the Roadmap include aggressive 
reduction of traditional air pollutants and water use/discharge; and 
enhanced energy and economic security via production of low-cost power 
using the largest U.S. domestic energy resource. The key to successful 
technology development is:
  --adequate public support;
  --enhanced levels of funding targeted to specific technology areas; 
        and
  --a regulatory and public policy framework that supports coal use.
                funding needs to accomplish the roadmap
    Below is a chart that outlines CURC's proposed funding 
recommendations compared to the fiscal year 2013 proposed budget for 
Fossil Energy R&D. These CURC recommendations are targeted to achieving 
the Roadmap goals by directing funds to specific programmatic 
activities, including new activities not currently funded by DOE.
Advanced Energy Systems
      Advanced Combustion.--CURC recommends a total of $65 million for 
        the Advanced Combustion program in fiscal year 2013 to develop 
        technologies for advanced combustion platforms, including 
        focused work on waste heat recovery and integration, advanced 
        power cycles, and alternative process configurations. The 
        Roadmap envisions a pathway for the integration of these 
        advanced ultra supercritical (AUSC) materials technologies into 
        new, highly efficient advanced coal systems. CURC recommends 
        $10 million in fiscal year 2013 for DOE to build upon the 
        successes of the AUSC program and to develop a roadmap that 
        identifies a pathway for moving the AUSC materials work forward 
        and support industry efforts in commercializing AUSC 
        technologies. CURC also recommends $10 million for DOE to 
        initiate a mercury control technology program to develop 
        technologies to allow new combustion plants to meet the mercury 
        emissions standard imposed by Environmental Protection Agency 
        (EPA) on new plants.
      Gasification.--CURC recommends $55 million in fiscal year 2013 to 
        support dry feed system integration and scale up, advanced 
        sensors work, simulation of fast ramp improvements, and 
        refractory testing, as well as focus on the integration of ion 
        transport membrane (ITM) technologies into the power generation 
        process, which is important for overall cost reductions of 
        gasification technologies.
      Turbines.--CURC recommends $24 million for the turbine program in 
        fiscal year 2013 to validate advanced hydrogen turbine 
        technology and components in full turbine test stand 
        demonstrations, and to expand the program to development of 
        components compatible with ITM integration.
    Cross-Cutting Research.--In addition to supporting university 
training and research and computational modeling through the National 
Risk Assessment Partnership (NRAP) and the Carbon Capture Simulation 
Initiative (CCSI), CURC recommends $12.4 million for DOE to initiate a 
water management program. The Roadmap defines a program to survey the 
industry's water management practices in order to model water use and 
management for a variety of coals, process steps and emission limits, 
and to develop technologies that reduce water withdrawal and 
consumption. CURC also recommends $16 million to fund research on 
breakthrough technologies. The Roadmap characterizes these technologies 
as ``out-of-the-box'' thinking, or fundamentally new approaches to 
solving coal's challenges.
    Carbon Capture.--CURC believes that it is a wise public investment 
to determine how to cost-effectively capture and use/store 
CO<INF>2</INF> so that we do not eliminate any options for coal in the 
future, and sees a dual role for continued development of 
CO<INF>2</INF> capture technology. The first role is the benefit for 
meeting current and future climate mitigation regulations. States have 
adopted CO<INF>2</INF> regulatory requirements and on March 27, the EPA 
has proposed regulatory requirements for CO<INF>2</INF> emissions from 
new coal-fueled power plants which would require the application of 
carbon controls. The second role is driven by energy security benefits. 
If the price of captured CO<INF>2</INF> can be reduced through RD&D, 
the CO<INF>2</INF> can be used to augment production of domestic crude 
oil through EOR, thereby increasing the potential to domestically 
produce trillions of dollars of oil over the next several decades, 
which would reduce reliance on imported oil and improve the U.S. 
balance of trade.
      Post-Combustion.--For both new and existing power plants, 
        postcombustion capture technology must be made more efficient 
        and cost-effective by reducing parasitic power and capital cost 
        requirements. CURC recommends $60 million in fiscal year 2013 
        to develop novel capture process improvements that can support 
        coal power plant retrofits and natural gas combined cycle 
        (NGCC) retrofits equally.
      Pre-Combustion.--CO<INF>2</INF> capture for gasification is 
        focused on improved capture processes in order to reduce costs. 
        CURC recommends $17.4 million for pre-combustion capture work 
        in fiscal year 2013 specifically to pilot new shift catalysts 
        and reactor designs, accelerate hydrogen membrane pilot 
        projects, address CO<INF>2</INF> slurry feed integration, 
        evaluate alternates to warm gas capture, and acquire data and 
        design guidance from current demonstrations.
    Carbon Storage.--CURC supports the Regional Carbon Sequestration 
Partnerships (RCSP), and recommends a follow-on program that builds 
upon the success of the RCSPs. In our judgment this follow-on program 
will support the development of a commercial industry necessary for 
deployment of carbon storage. CURC recommends $40 million in fiscal 
year 2013 to initiate a ``carbon storage site certification'' program 
intended to characterize and qualify 5 regionally diverse sites that 
can each accept 50 million tons of CO<INF>2</INF> at a rate of 5 
million tons per year.
                         loan guarantee program
    Demonstration of first-generation technology, as reflected in the 
projects currently supported by the DOE Clean Coal Power Initiative 
(CCPI) program and the DOE Loan Guarantee program, are critically 
important in proving the integration of these technologies. The success 
of these projects is necessary to support the development of second-
generation technologies contemplated in the Roadmap. CURC supports the 
$8 billion authorization for DOE to provide loan guarantees to selected 
fossil energy projects.
              department of energy practice of mortgaging
    The practice of partial funding of multiyear projects contingent on 
future appropriations has been a fundamental aspect of DOE's research 
program for many years and is embodied in DOE's Financial Assistance 
Regulations. Mortgaging provides DOE the flexibility to fund several 
projects, to discontinue projects that are not meeting objectives and 
redirect funds to other meritorious projects that are successfully 
achieving development targets. Any restriction on the DOE practice of 
mortgaging will reduce the portfolio of technologies emerging from the 
program and create public and private investment risks. CURC recommends 
that the current approach to funding projects be maintained at DOE.

                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                       Enacted            Request        CURC
                                                             ---------------------------------------------------
     Carbon Capture and Sequestration and Power Systems       Fiscal year  Fiscal year  Fiscal year  Fiscal year
                                                                  2011         2012         2013         2013
----------------------------------------------------------------------------------------------------------------
Carbon capture:
    Postcombustion..........................................       41,299       55,495       49,035       60,000
    Pre-combustion..........................................       17,404       13,403       11,403       17,600Carbon storage:
    Regional Carbon Sequestration Partnerships..............       77,160       83,190       66,980       56,600
    Geological storage......................................       24,946       14,978       11,255  ...........
    MVAA....................................................        8,122        6,738        6,738  ...........
    Carbon Use/Reuse........................................          967          778          778  ...........
    Sequestration Science focus area........................        9,717        9,726        9,726  ...........
    Carbon storage site certification \1\...................  ...........  ...........  ...........       40,000
    Advanced Compressor \1\.................................  ...........  ...........  ...........          960Advanced Energy Systems:
    Advanced Combustion Research, including:................       30,724       15,942       10,699       65,000
        --Advanced Ultra SuperCritical (High Temperature)     ...........  ...........  ...........       10,000
         materials \1\......................................
        --Mercury capture for new plants \1\................  ...........  ...........  ...........       10,000
    Gasification Research, including:.......................       47,614       39,000       31,905       55,200
        --Air Separation and Oxygen Production..............  ...........  ...........  ...........        4,800
    Hydrogen turbines.......................................       30,106       15,000       12,589       24,800
    Hydrogen from coal......................................       11,661  ...........  ...........  ...........
    Coal and coal biomass to liquids........................  ...........        5,000  ...........  ...........
    Solid oxide fuel cell...................................       48,522       25,000  ...........  ...........Cross-cutting research:
    Plant optimization (sensors, controls, NC, materials)...        7,789       13,663        7,000  ...........
    Coal utilization science:
        --Computational system dynamics--National Risk             12,462       11,800        7,800       10,000
         Assessment Partnership.............................
        --Computational Energy science--Carbon Capture             11,844       13,371        9,400       10,000
         Simulation Initiative..............................
    Energy Analyses.........................................        4,837        4,950          950  ...........
    University training and research........................        3,164        4,000        3,250        4,000
    International activities................................        1,350        1,350        1,350  ...........
    Water management \1\....................................  ...........  ...........  ...........       12,400
    Breakthrough technology research \1\....................  ...........  ...........  ...........       16,000
                                                             ---------------------------------------------------
      Coal R&D subtotal without in-house R&D................      389,688      333,384      240,858      371,960National Energy Technology Laboratory Coal Research and       ...........       35,011       35,011       35,011
 Development (in-house R&D).................................
                                                             ---------------------------------------------------
      Coal R&D subtotal with in-house R&D...................      389,688      368,395      275,869      406,971
----------------------------------------------------------------------------------------------------------------
\1\ Program is CURC-EPRI Roadmap Program and does not have a comparable program in the DOE budget.

                                 ______
                                 
     Prepared Statement of the Coalition of Northeastern Governors
    The Coalition of Northeastern Governors (CONEG) is pleased to share 
with the subcommittee on Energy and Water Development this testimony on 
fiscal year 2013 appropriations for the Department of Energy's energy 
efficiency programs, the Energy Information Administration, and the 
Northeast Home Heating Oil Reserve. The governors request fiscal year 
2013 funding of no less than the fiscal year 2012 levels for the 
following Energy Efficiency and Renewable Energy Programs: $50 million 
for the State Energy Program and $220 million for the Building 
Technologies Program. The governors also ask that you provide at least 
historic funding levels for the Weatherization Assistance Program. In 
addition, the governors request at least $105 million for the Energy 
Information Administration, and sufficient funding for maintenance and 
operation of the Northeast Home Heating Oil Reserve.
    We recognize that this year the subcommittee faces a very difficult 
set of choices in this environment of severe fiscal constraints. 
Continued, adequate Federal funding for these energy programs is a 
vital step in helping businesses and households across the Nation 
manage their energy costs, and moving the Nation toward increased 
energy independence.
                          state energy program
    The CONEG governors request at least $50 million for the State 
Energy Program (SEP) in fiscal year 2013 with these funds provided as 
base SEP formula funding. This level of base funding is critical for 
the SEP to continue the successful State-Federal-private sector 
partnerships for many energy efficiency and conservation programs. The 
base SEP program is particularly important to smaller States since it 
allows them to dramatically enhance program delivery and leverage non-
Federal resources with Federal funds.
    The 56 State and territory energy offices use SEP funds, along with 
leveraged State and private sector funds, to implement vital energy 
efficiency, renewable energy, and alternative energy demonstration in 
energy end-use sectors such as buildings, industry, agriculture, 
transportation, and power generation. In addition, States use SEP funds 
to prepare for natural disasters and increase the security of critical 
energy infrastructure.
    States use SEP funds to carry out a wide variety of activities most 
appropriate for the energy profiles of a State. These may include 
energy efficiency retrofits and installation of solar systems on State 
buildings that save taxpayers thousands of dollars in energy costs and 
reduce carbon emissions. These funds also support public outreach and 
education to local residents, small businesses, farmers, and others to 
make them aware of opportunities to reduce energy consumption and 
energy bills. Using SEP funds, States also work with the private sector 
to showcase new clean technologies and to invest in renewable energy 
projects.
    The SEP program yields proven energy and economic benefits. The 
most recent Oak Ridge National Laboratory cost-benefit analysis of the 
program found that every $1 in SEP funding yields $7.22 in annual 
energy cost savings, $10.71 in leveraged funding, and annual energy 
savings of 1.03 million source BTUs. The Department of Energy (DOE) 
estimates that, based on recent appropriations levels, the SEP program 
results in an annual energy cost savings of $300 million.
                   weatherization assistance program
    The CONEG governors request at least historic funding levels in 
fiscal year 2013 for the Weatherization Assistance Program (WAP). 
Weatherization is an immediate and effective tool to alleviate the 
energy burden of low-income households by making their homes more 
energy efficient. The fiscal year 2010 funding level of $210 million is 
the minimum level needed to ensure that States across the country can 
continue the program's successful efforts to reduce the costs of home 
energy and increase the safety of these vulnerable households.
    Low-income households pay a disproportionate share of their income 
on energy bills, often spending more than 19 percent of their annual 
income on home energy compared to just 4 percent for all other 
households. Through a State-managed network of more than 900 local 
weatherization providers, WAP makes cost-effective improvements to 
about 100,000 low-income households annually, permanently reducing 
energy costs for these vulnerable families.
    Cost-effective weatherization measures are tailored to specific 
homes and climates. Many of these measures are inexpensive yet 
effective services, such as installing insulation, sealing ducts, and 
tuning and repairing heating and cooling systems. The program uses the 
most advanced technologies and diagnostic equipment to develop a 
comprehensive cost-effective strategy to reduce household energy use. 
In fall 2011, DOE estimated that these measures save families an 
average of $437 annually in heating and cooling costs alone.
    In addition to the considerable energy benefits, weatherization 
services increase the health and safety of low-income homes by 
detecting carbon monoxide and gas leaks in tested equipment, replacing 
unsafe equipment, and checking for moisture damage. The program also 
fosters significant investments in local economies by creating jobs, 
offering professional training, and making housing more affordable in 
communities across the Nation. For every $1 invested, WAP returns $2.51 
in benefits, including $1.80 in energy savings, according to DOE.
                     building technologies program
    The CONEG governors request at least $220 million for the Building 
Technologies Program (BTP) in fiscal year 2013. According to DOE, the 
buildings sector consumes more energy than any other sector in the 
United States including transportation and industry. The potential 
energy savings are great. Through partnerships with State and local 
governments, national laboratories and universities, BTP supports 
research, demonstration and deployment of technologies and practices to 
make new and existing buildings less energy intensive. These RD&D 
partnership activities are a vital complement to other public policy 
incentives that encourage private sector investments in smart energy 
use.
    In the millions of existing buildings, BTP works to decrease energy 
consumption through retrofits or replacements that decrease energy use 
and improve safety and comfort. In new construction, BTP works to make 
improvements in technologies and techniques for the design, 
construction and operation of more energy efficient, productive, and 
affordable buildings.
                   energy information administration
    The governors request at least $105 million in fiscal year 2013 
funding for the Energy Information Administration (EIA). As the 
independent statistical arm of the DOE, EIA is a leader is providing 
reliable independent information, analyses and forecasts on U.S. energy 
production, demand, consumption, imports and prices. The information 
and analyses provided by EIA are vital to State and Federal 
policymakers as they develop critical energy and environmental 
strategies. Consumers rely on EIA's widely-available information and 
forecasts to make a variety of energy and household-related decisions.
    Increasingly complex global energy factors have greatly increased 
EIA's workload. Continued adequate appropriations in fiscal year 2013 
will ensure that EIA can provide the most accurate reliable information 
at the level of detail needed by policymakers and consumers to make 
informed decisions.
                   northeast home heating oil reserve
    The CONEG governors request sufficient fiscal year 2013 funding for 
maintenance and operation of the Northeast Home Heating Oil Reserve. 
The Northeast is uniquely dependent on home heating oil. More than 25 
percent of northeast homes use fuel oil for heating. These homes 
account for more than 80 percent of residential heating oil use 
nationwide, making the region particularly vulnerable to the effects of 
supply disruptions and price volatility.
    In the event of a supply disruption, the Reserve provides a buffer 
that allows additional time for supplies to reach the region. Reserve 
locations are strategically placed throughout the region to respond 
rapidly and efficiently to any emergency supply interruption.
                                summary
    In summary, the CONEG governors request that the subcommittee 
provide at least $50 million for the State Energy Program for the base 
SEP formula program, $220 million for the Building Technologies 
Program, at least historic funding levels for the Weatherization 
Assistance Program, at least $105 million for the Energy Information 
Administration, and sufficient funding for maintenance and operation of 
the Northeast Home Heating Oil Reserve.
                                 ______
                                 
                   Prepared Statement of Cummins Inc.
            office of energy efficiency and renewable energy
Office of Vehicle Technologies
            Advanced Combustion Engine Research and Development
    Advanced Technology Powertrain--Light Duty.--Increase the 
administration's request of $55.2 million by $5 million to bring the 
program total to $60.2 million in fiscal year 2013. $58.02 million was 
appropriated in fiscal year 2012. The Advanced Combustion Engine 
research and development (R&D) program includes important research 
areas for diesel and gasoline engines to develop more energy efficient 
and environmentally friendly technologies. The Department of Energy 
(DOE) has launched the ``Supertruck'' Initiative which includes the 
Advanced Technology Powertrain--Light Duty (ATP-LD) program. The goals 
of ATP-LD program are to deliver a standard light-duty pickup truck 
which can achieve at least 40 percent improvement in fuel economy over 
the state-of-the-art gasoline engines while meeting Tier 2 Bin 2 
tailpipe emissions (the same emissions standard required for gasoline 
powered vehicles). Diesel engine R&D is critically important to improve 
energy-efficiency and environmentally friendly technologies. This is 
accomplished through a better understanding of combustion processes 
which enable the use of significantly less petroleum while meeting or 
exceeding customer value. When this technology has fully penetrated the 
market, 40-percent fuel economy enhancement in light-duty trucks and 
SUVs would reduce U.S. petroleum consumption by more than 1.5 million 
oil barrels/day and greenhouse gas (GHG) emissions by more than 0.5 
million metric tons/day with energy security and trade balance 
benefits. Innovative high-risk technologies, such as low-temperature 
combustion, variable-valve actuation, closed-loop selective catalytic 
reduction (SCR) controls, lightweight structural and advanced materials 
are planned. The funding increase will help address significant 
technology hurdles in the areas of on-board diagnostics, parasitic loss 
reduction, aftertreatment requirements, minimizing fuel penalty due to 
the aftertreatment, and the use of renewable fuels. Without the 
increased funding, research activities would be significantly limited.
Advanced Manufacturing Office (Formerly Industrial Technologies 
        Program)
            Next Generation Manufacturing Processes
    Combined Heat and Power Generation--Advanced Reciprocating Engine 
Systems.--Support administration's request of $198.7 million for fiscal 
year 2013. $62.1 million was appropriated in fiscal year 2012. Next 
Generation Manufacturing Processes are cross-cutting activities which 
focus on energy efficient processes and reduce energy intensity of 
manufactured products. The Combined Heat and Power Generation 
initiative within the Advanced Manufacturing Office includes the 
important Advanced Reciprocating Engine Systems (ARES) program, a 
component of distributed generation. The objective of the ARES program 
is to develop high efficiency, low emissions and cost-effective 
technologies for stationary engine systems (500-6500 kW) that can use 
natural gas or domestic renewable resources such as ``opportunity'' 
fuels. Natural gas-fueled reciprocating engine power plants are 
preferred for reliability, low-operating costs, and point-of-use power 
generation. Opportunity fuels can be renewable fuels (e.g., landfill 
gases) which exhibit low BTU, lower methane number and varying gas 
composition. Their use reduces the dependence on high-quality pipe-line 
natural gas. The technologies goals sponsored by the ARES program are 
being readied to demonstrate 47-percent engine efficiency (20-40-
percent increase from the baseline), higher power densities than 
current products, with an expected reduction in life-cycle costs and 
GHG emissions. The administration's fiscal year 2013 budget will 
support advanced technological challenges including higher-base engine 
efficiency, combustion enhancements with low BTU and methane gases, 
nitrogen oxides (NO<INF>X</INF>) reduction, advanced sensors and 
controls, hardware durability and lower life-cycle costs. The 
development of distributed power generation supports lower life-cycle 
energy consumption of manufactured products, national energy security 
needs, improves protection of critical infrastructure and decreases 
dependence on the national electrical grid system through point-of-use 
energy production.
    Combined Heat and Power Generation--330kw Packaged Combined Heat 
and Power System.--Support administration's request of $198.7 million 
for fiscal year 2013. $62.1 million was appropriated in fiscal year 
2012. Next Generation Manufacturing Processes are cross-cutting 
activities which focus on energy-efficient processes and reduce the 
energy intensity of manufactured products. The 330kw Packaged CHP 
System project entails the development of a flexible CHP system that 
can be deployed to commercial and light industrial (100-500kw) 
applications at a lower total cost of ownership than current CHP 
solutions. This project will result in a CHP system that is easy to use 
and inexpensive to install, offering world class customer support while 
providing a high efficiency internal combustion engine for a CHP system 
of this size. CHP systems offer higher system energy-efficiency, lower 
emissions and overall economic benefits. Modern engine designs operate 
at significantly lower regulated exhaust emissions. Combined heat and 
power systems use internal combustion engines to produce electricity at 
point of use and recover waste heat for heating or cooling purposes. 
Energy intensity of the CHP customer can be reduced in excess of 35 
percent due primarily to more efficient electrical generation and 
recovered waste heat. The fiscal year 2013 budget will support 
prototype CHP system development and field testing.
                           office of science
Basic Energy Sciences
            Fundamental Interactions Research
    Predictive Simulation for Internal Combustion Engines.--Support 
administration's request of $71.5 million for fiscal year 2013. $67.5 
million was appropriated in fiscal year 2012. Fundamental Interactions 
Research builds the fundamental science basis essential for 
technological advances in diverse range of energy processes. In support 
of the clean energy agenda, Predictive Simulation for Internal 
Combustion Engines (PreSICE) program is a simulation and diagnostics 
study addressing the interplay between combustion chemistry and 
turbulent flows in combustion systems. This will lead to the 
development of robust engineering design tools for computational 
analysis capability. This large-scale computational simulation 
initiative is targeted at achieving cost-effective means for even 
greater fuel efficiency. Models will be developed for advanced chemical 
kinetics, computational fluid dynamics (CFD) and large eddy 
simulations. These models will simulate advanced combustion regimes, 
transient events and cycle-to-cycle variability. Development of better 
solver algorithms will minimize cycle-to-cycle variations and more 
rapid optimization of overall engine design. The administration's 
fiscal year 2013 budget will accelerate the predictive simulation of 
internal combustion engines.
                                 ______
                                 
           Prepared Statement of the Diesel Technology Forum
    The Diesel Technology Forum (DTF) is a not-for-profit organization 
representing diesel engine and equipment makers, fuel suppliers, and 
emissions control technology companies. We appreciate the opportunity 
to submit outside witness testimony regarding certain aspects of the 
fiscal year 2013 proposed budget of the Department of Energy (DOE), 
particularly its Vehicle Technologies Program (VTP) and its various 
budget activities for commercial vehicles such as Advanced Combustion 
Engine R&D (ACE R&D), batteries and electric drive technologies, 
vehicle and systems simulation, fuels technology, and materials 
research.
    Diesel engines play a key role in the global economy. A 2011 
economic study commissioned by the DTF and completed by Aspen 
Environmental Group reported that more than 80 percent of all freight 
is moved throughout the United States by diesel trucks, ships, trains, 
and intermodal systems. Worldwide, 94 percent of all global trade is 
powered by diesel engines and equipment. In addition, the diesel 
industry contributes more than $480 billion annually to the U.S. 
economy and provides more than 1.25 million jobs.
    Medium- and heavy-duty trucks--the majority of which are powered by 
diesel engines--consume roughly one-fifth of transportation fuels in 
the United States. Petroleum consumption for heavy-duty vehicles is 
expected to increase 40 percent between 2010 and 2035. Increasing the 
efficiency of these vehicles can lower the costs of land-based freight 
and the industries that depend on it, while greatly reducing the 
Nation's dependence on imported oil.
    Last year, we expressed our concern with this subcommittee over the 
Department's fiscal year 2012 budget request that would have terminated 
or delayed commitments under the SuperTruck program, which focuses on 
improving heavy-duty truck efficiency. Today, we commend the Department 
for moving forward to meet commitments to prior awards within the 
SuperTruck program. We are pleased that the fiscal year 2013 Energy 
Efficiency and Renewable Energy (EERE) budget request proposes to 
retain the contracted investments in several key budget activity areas 
that impact heavy-duty diesel engines, commercial vehicles, and truck 
efficiency programs.
Because of Well-Established Future Need, Proven Past Performance, and 
        Extended Societal Benefits, Funding for VTPs Including ACE R&D, 
        Fuels, Vehicle and Systems Simulation, Batteries and Electric 
        Drive Technology, and Materials Technologies, and SuperTruck 
        Activities Should Be Retained
    The subcommittee again faces a difficult task of setting priorities 
among many competing programs with limited resources. The subcommittee 
should seek to assure a proper balance between fully funding programs 
that are known to improve efficiency of existing energy-intensive 
sectors on a medium-term basis as well as more future-oriented, but 
uncertain other technologies. The current fiscal year 2013 budget 
request from DOE EERE properly funds those key heavy-duty vehicle 
programs and projects that bring a proven track record of real-world 
fuel savings, and we urge that it be retained.
    The commercial vehicle research activities have been cross-cutting 
in scope and shared risk and benefits between DOE, private industry, 
the Department of Defense (DOD), Department of Transportation and 
Environmental Protection Agency (EPA). This suite of programs to make 
commercial vehicles more energy efficient--the 21st Century Truck 
Partnership and diesel engine and fuel research--have been among DOE 
EERE's most successful investments. They are proven to have helped meet 
important societal goals of economic growth and small business 
development (economics of more energy efficient commercial truck 
acquisition and ownership); cleaner air (reducing diesel engine 
emissions), reduced reliance on imported oil (increasing truck energy 
efficiency).
    They have also enhanced our national security, through contributing 
to fuel savings of DOD military vehicles. Fuel accounts for 70 percent 
of the bulk tonnage transported to the battlefield and reducing 
consumption by 1 percent leads to 6,500 fewer soldier trips, which has 
been identified with saving lives on the battlefield through reduced 
risk in transporting fuel.\1\
---------------------------------------------------------------------------
    \1\ Bochenek, Grace. U.S. Army Tank Automotive Research Development 
and Engineering Center, 2010.
---------------------------------------------------------------------------
The Need To Reduce Energy Consumption From Commercial Vehicles is 
        Significant
    In August 2011, President Obama announced the finalization of the 
first-ever fuel economy and greenhouse gas (GHG) reduction standards 
for medium- and heavy-duty commercial vehicles. This new regulation 
requires vehicle and engine manufacturers to improve efficiency by 
anywhere from 7 to 25 percent for model years 2014-2017, with the 
potential for further reductions beyond 2017.
    Reaching these challenging goals will require substantial 
manufacturer investment in the next several years at a time when 
economic recovery and market potential for heavy-duty commercial trucks 
has shown some recent positive signs but still remains tentative. More 
than ever, the combined collaborative approach of the DOE program of 
shared research toward common energy-saving objectives is needed and 
necessary to assure continued progress and increase the speed of 
development, deployment of technologies, and societal benefits.
    While manufacturers are already well at work to meet these 
aggressive and brand new regulatory requirements, continued 
collaboration and partnership within truck research programs that are 
funded at the committed levels will enable more rapid development and 
deployment of these advanced technologies than could have been 
accomplished without the collaborative government and industry 
partnership. This translates into greater reductions in energy use and 
savings to the economy and reduced emissions occuring earlier than 
predicted as well.
The 21st Century Truck Partnership and Related Research Programs Have 
        Been Recently Reviewed and Found To Be of Significant Value and 
        High Performance
    The prestigious National Research Council of the National Academy 
of Sciences recently conducted an exhaustive review of the government 
industry partnership program for commercial truck efficiency. In a 2011 
pre-publication report,\2\ the independent NAS review panel noted that:
---------------------------------------------------------------------------
    \2\ Review of the 21st Century Truck Partnership, Second Report, 
2012. National Academy of Sciences, National Research Council Pre-
publication copy accessed from National Academies Web site March 22, 
2012. http://www.nap.edu/catalog.php?record_id=13288 ISBN-10: 0-309-
22247-8; ISBN-13: 978-0-309-22247-1.

    ``Given the Federal regulatory requirements to reduce emissions and 
fuel consumption, it seems the sharing of research and development 
(R&D) costs between the government and U.S. manufacturers of trucks and 
buses or heavy-duty vehicle components are appropriate to develop new 
technologies. Thus, the 21CTP is providing access to the extraordinary 
expertise and equipment in Federal laboratories, in addition to seed 
funding that draws financial commitment from the companies to push 
---------------------------------------------------------------------------
forward in new technology areas.'' (Page S-3)

    ``The 21CTP should be continued to help meet the nation's goal of 
reduced fuel consumption in the transportation sector.'' (Page S-3)

    ``The three (see note) SuperTruck projects will be the flagship 
projects under the 21CTP for fiscal year 2011 through fiscal year 2014; 
the goals are in concert with recommendations made in the 2008 NRC 
Phase 1 report.'' (Page S-12)

(Note: After the NAS report was drafted, one additional project was 
added (for a total of four) which falls into the same category as the 
projects mentioned.)

    The existing DOE EERE Commercial Vehicle and Engine Programs have 
delivered substantial and proven economic, environmental and energy 
saving benefits: For every $1 invested, advanced combustion research 
delivered $53 in benefits. According to a May 2010 study \3\ previous 
advanced combustion research for laser and optical diagnostics along 
with combustion modeling undertaken by DOE and now in commercial 
vehicles on the road today saved 17.6 billion gallons of diesel fuel 
over a 12-year period (1995-2007); a 4.5-percent savings in fuel 
consumption over what would have occurred without the program 
investments. This translates into a monetized saving of $34.5 billion 
in 2008 dollars, and reduction of more than 177 million tons of 
CO<INF>2</INF> prevented.
---------------------------------------------------------------------------
    \3\ Link, Albert N. Retrospective Benefit-Cost Evaluation of U.S. 
DOE Vehicle Combustion Engine R&D Investments, Department of Economics, 
University of North Carolina at Greensboro; May 2010.
---------------------------------------------------------------------------
    The established goal of improving fuel economy by 20 percent for 
commercial vehicles in the ACE R&D has the potential to save more 
energy than the electrification of 1 million cars. Past investments 
have contributed to diesel engine manufacturers being able to meet the 
most stringent emissions standards on record, resulting in today's 
clean diesel technology with near zero emissions of ozone forming 
compounds (nitrogen oxides) and particulate matter. The total health 
and environmental benefits in terms of savings in air pollution and 
energy savings exceed $70 billion according to the previously 
referenced May 2010 study.
Fully Funding Commercial Vehicle Research Budgets Assures Continued 
        Gains and That Will Help Expedite Fuel-Saving Technology 
        Development and Deployment
    Given the substantial progress made in the 21st Century Truck 
Program, a framework of continuous progress has been developed over 
time that is a predictive indicator of potential future success. 
Adequate DOE program funding can assure that the commercial vehicle, 
engine, and SuperTruck program goals of 50 percent increase in freight 
efficiency (ton-miles per gallon) will be more likely to be met. Truck 
and engine manufacturers face the unique challenge of competing 
societal demands of improved efficiency and near-zero emissions while 
meeting customer demands for lowest cost of operation. Significant 
investments in research are required but there are diminishing 
opportunities to recoup the substantial investments needed to meet 
these goals with only an average 200,000-250,000 heavy-duty trucks sold 
annually. Federal research investment in high-risk research is vital to 
the industry. DOE R&D programs are usually a 50-50 cost share between 
government and industry and this Federal match encourages companies to 
spend their R&D dollars in the United States. A fully funded SuperTruck 
program can assure these goals are more likely to be accomplished 
earlier than if companies alone shoulder larger research demands.
                              conclusions
    There is an incontrovertible and established need to improve energy 
efficiency of the Nation's commercial vehicles. Commercial diesel-
powered trucks are the backbone of the U.S. economy and the prime 
movers of the Nation's goods movement system, and will be for the 
foreseeable future. Fuel consumption in this sector is projected to 
continue to grow with the economy. Past EERE engine and vehicle 
efficiency programs have delivered substantial and well-documented 
economic, energy and environmental benefits to society. To assure 
uninterrupted progress of these efforts, we urge that the subcommittee 
retain the proposed fiscal year 2013 budget request for the committed 
levels of SuperTruck and related program funding.
    An adequate Government funding stream for the suite of VTPs like 
SuperTruck and the ACE R&D, Fuels Technologies, Batteries and Electric 
Drive Technologies, Vehicle and Systems Simulation, and Materials must 
be retained at DOE requested levels to assure continued progress and 
accelerate development and deployment of energy saving technologies. 
Any reductions to the fiscal year 2013 EERE proposed funding will 
jeopardize continued progress at an especially critical time as the 
industry moves to meet new GHG emissions and fuel efficiency goals, 
near-zero emissions levels along with competing customer demands with 
the backdrop of a weakened and recovering economy.
    The diesel engine is the prime mover of America's transportation, 
infrastructure, and goods movement today and for the foreseeable 
future. The 21st CTP has made substantial contributions to the new 
near-zero emissions performance of diesel engines in commercial trucks 
and with the continued investments will assure further efficiency gains 
to meet future societal goals.
    We appreciate the opportunity to file these comments.
                                 ______
                                 
          Prepared Statement of the Edison Electric Institute
    The Edison Electric Institute (EEI) respectfully submits this 
written testimony for the record to the Senate Appropriations 
Subcommittee on Energy and Water Development. We appreciate this 
opportunity to share our views on some of the Department of Energy's 
(DOE) programs for the fiscal year 2013.
    EEI is the association of U.S. shareholder-owned electric 
companies. Our members serve 95 percent of ultimate electricity 
customers in the shareholder-owned segment of the industry and 
represent approximately 70 percent of the U.S. electric power industry.
    EEI has long advocated for an ``all-of-the-above'' energy strategy. 
Different regions of the country use different fuel mixes to generate 
electricity. Embracing a diverse and balanced energy portfolio is 
crucial to reliable, affordable electricity. Therefore, we respectfully 
ask the subcommittee to direct sufficient resources toward these 
critically important activities.
                             fossil energy
    As the administration notes in its Office of Fossil Energy budget 
request, ``the United States has 25 percent of the world's coal 
resources, and fossil fuels currently supply over 90 percent of the 
Nation's energy''. Accordingly, EEI urges the subcommittee to ensure 
that fossil energy research, development, and demonstration (RD&D) 
receive as much funding as possible under the tight budget constraints 
of the subcommittee's allocation. We further urge the preservation and 
funding of fossil fuel loan guarantee authorities pending completion of 
the Section 1703 Program review by the U.S. Department of Treasury.
    EEI urges strong support for carbon capture and storage (CCS) and 
advanced coal technology programs. Just this week, the Environmental 
Protection Agency (EPA) issued a proposal that effectively would 
require CCS on new coal-fired power plants, even though the technology 
is not commercially viable. CCS commercialization is still in the 
future, but demonstration technologies hold great promise, and we are 
working with the Congress and the administration to develop policies 
that will accelerate commercial availability and deployment. Coal is an 
important domestic energy resource; given this recent EPA rulemaking, 
commercially available CCS technologies are essential for coal to be a 
viable part of a diverse and balanced electric generation portfolio.
    In addition to coal, EEI strongly advocates for adequate funding of 
policies that allow the ready access to affordable natural gas for 
electric generation, including environmentally responsible development 
of shale resources by the gas industry throughout the United States. 
Natural gas is an increasingly important source for electric 
generation, especially given its availability and low prices. As a 
result, our industry is a strong proponent of developing our natural 
gas resources.
                             nuclear energy
    Given that nuclear energy is the Nation's largest source of carbon-
free electricity production, and that construction of new plants will 
create tens of thousands of jobs, EEI urges strong support for the 
nuclear power loan guarantee program. Under DOE's implementation, 
participating borrowers pay the entire credit subsidy costs, making 
this program different from other loan programs administered by the 
Department.
    EEI respectfully requests the subcommittee to oppose DOE's 
imposition of its decontamination and decommissioning tax on electric 
utilities for the cleanup of uranium enrichment facilities. As in past 
years, the administration is seeking this tax under a program in which 
the industry has already met its financial obligations while the 
Federal Government failed to pay its required share of the cleanup 
funds.
    EEI strongly supports nuclear R&D, including funding for the Energy 
Innovation Hub on modeling and simulation of advanced nuclear reactor 
operations. In addition to this essential investment, we urge funding 
for the acceleration of technology development and commercialization of 
small modular nuclear reactors (SMRs). EEI supports DOE's announced 
cost-shared program with private industry to support SMR design and 
licensing.
                        electric transportation
    The need for fuel diversity carriers over into the transportation 
sector, where plug-in electric vehicles (PEVs) give Americans the 
choice to fill up at the pump or recharge their battery at home. Using 
domestically produced electricity to fuel a range of both on-road and 
off-road transportation uses has the potential to transform our 
Nation's transportation fleet. Electric transportation funding will 
help our country reduce its dependence on foreign oil, thereby 
increasing our Nation's energy security.
    EEI supports the DOE's Clean Cities program, which has brought 
together thousands of stakeholders in States across the Nation to 
support the deployment of alternative fuel vehicles and infrastructure. 
We are also supportive of the recently announced EV-Everywhere program, 
which will bring down the cost of batteries, charging infrastructure 
and electric vehicles so they are affordable for more families.
    In 2011, according to the Oil Price Information Service, Americans 
spent more than $480 billion on gasoline, paying an average of more 
than $3.50-per-gallon, both record amounts. Already this year, gas 
prices are more than $4-per-gallon in many cities. Electrifying the 
Nation's light-duty vehicle fleet, which accounts for roughly 45 
percent of total U.S. oil consumption, would reduce oil imports by more 
than 3 million barrels per day in 2030.
    Another benefit of electric transportation is that real electricity 
prices historically have been more stable than real prices for both 
gasoline and natural gas. Electricity is produced domestically, using a 
wide variety of energy resources, which contributes to its greater 
price stability. Unlike oil and gas, electricity does not experience 
price volatility due to political instability or changes in the global 
markets.
                               smart grid
    EEI urges robust funding of DOE's efforts to continue the 
deployment and commercialization of smart grid technologies. Research 
and development are also keys to accelerating America's shift to an 
information-enabled electricity grid. Modernizing the grid will 
increase operational efficiency, improve reliability, and provide more 
control and situational awareness both for utilities and their 
customers.
    More than 90 percent of EEI's members are involved in grid 
modernization activity. As of September 1, 2011, electric utilities in 
more than 43 States have installed 27 million digital smart meters. 
Sixty-five million smart meters--covering 54 percent of U.S. 
households--are expected to be deployed by 2015.
    DOE's smart grid program is a public-private partnership. To date, 
DOE funding has been matched by contributions of more than $5.5 billion 
from the private sector. In a time of large budget deficits, the 
subcommittee must ensure that funds are used to the greatest effect. We 
respectfully request that the subcommittee continue its support of 
these investments to achieve substantial cost savings and security in 
the Nation's grid.
                         energy innovation hubs
    EEI supports essential funding for DOE's Energy Innovation Hubs. 
Each of these Hubs will speed research and shorten the path from 
technological development to commercial deployment of highly promising 
energy-related technologies. Specifically, we support the Cyber 
Security Energy Delivery Systems Hub that conducts R&D activities 
addressing vulnerabilities within the Nation's electricity delivery 
system to reduce risk of energy disruptions due to cyber attacks. In 
addition, we support the Energy Efficient Building Systems Design Hub 
and the Battery/Energy Storage Hub, which will develop utility-sited 
energy storage as well as new batteries with improved lifetimes and 
strong capacities for expanding the range of electric vehicles while 
decreasing manufacturing cost.
    For fiscal year 2013, in particular, we support funding for DOE's 
proposed Electricity Systems Hub. This new Hub would bring together a 
multidisciplinary team of researchers to address barriers to 
modernization, both short-term and long-term, at critical points in the 
various regions. Establishing this Energy Innovation Hub is important 
to facilitating and accelerating the process of integrating power 
flows, information flows, markets, and regulation in a way that 
complements grid modernization and other ongoing efforts. More 
importantly, the Hub approach will promote technological innovation 
and, ultimately, lower electricity costs through better utilization of 
utility assets.
                   transmission and renewable energy
    New transmission lines are increasingly needed to maintain 
reliability and relieve congestion. However, obtaining regulatory 
approvals for new facilities is a complex process, and often leads to 
costly delays, particularly when siting involves Federal lands.
    EEI supports the administration's efforts to improve Federal 
coordination and ensure timely review of proposed renewable energy 
projects and transmission lines though the formation of two interagency 
Rapid Respond Teams, one for transmission and one for renewables.
    The Rapid Respond Team for Transmission would accelerate the 
permitting review of seven proposed transmission lines that cut through 
12 States. These projects will help increase electric reliability, 
integrate renewable energy projects and create thousands of jobs. In 
Pennsylvania and New Jersey, for example, PPL Electric Utilities (PPL) 
and Public Service Electric and Gas Company (PSE&G) have proposed a 
power line project which includes an approximately 145-mile long 500-kV 
transmission line from the Susquehanna Substation in Pennsylvania to 
the Roseland Substation in New Jersey, and several substations in both 
Pennsylvania and New Jersey. The project is expected to be in service 
in the spring of 2015, creating more than 2,000 new jobs in these two 
States alone.
                                 ______
                                 
  Prepared Statement of the Electric Drive Transportation Association
    The Electric Drive Transportation Association (EDTA) is the cross-
industry trade association promoting the advancement of electric drive 
technology and electrified transportation, and we are writing regarding 
the fiscal year 2013 request for the Department of Energy's (DOE) 
Vehicle Technologies and other electric drive programs.
    Our members represent the entire value chain of electric drive, 
including vehicle manufacturers, battery and component manufacturers, 
utilities and energy companies, and smart grid and charging 
infrastructure developers. Collectively, we are committed to realizing 
the economic, national security, and environmental benefits of 
displacing oil with hybrid, plug-in hybrid, battery, and fuel cell 
electric vehicles.
    Since we import nearly 50 percent of the oil used in the 
transportation sector--at a cost of more than $1 billion per day--there 
is a strategic and economic imperative to move toward domestically 
generated electricity as an alternative to oil. The need is already 
clear to families and businesses paying almost $4 gallon (and in some 
places more) for gasoline and diesel fuel today. Energy Information 
Administration (EIA) projects barrel prices more than $100 through 
2013. Over the longer term, increasing global demand will put even 
great upward pressure on prices. The implications for the economy are 
also clear: every $10 per barrel increase costs the economy 
approximately $75 billion.
    Electric drive vehicles are being introduced into the market place 
in numerous configurations, including passenger cars, commercial 
trucks, buses, tractors, and ground support equipment. For instance, 
more than a dozen plug-in electric drive vehicles will be on sale by 
the end of 2012. These vehicles can provide substantial fuel savings 
and reduced emissions while contributing to our energy and economic 
security. Federal support for research, development and deployment can 
accelerate achievement of those benefits.
    The American Energy Innovation Council, a group of U.S. industry 
leaders working to ``foster strong economic growth, create jobs in new 
industries and re-establish America's energy leadership'' concluded in 
their 2011 report that Federal participation in energy innovation was 
imperative because ``ready access to reliable affordable forms of 
energy is not only vital for the functioning of the larger economy, it 
is vital to people's everyday lives and significantly impacts the 
country's national security and environmental well-being''.
    The Department's Vehicle Technologies program promotes innovation 
in transportation through public/private partnerships and it leverages 
private sector investments. Working with the diverse stakeholders of 
the electric drive industry, DOE is helping to accelerate technology 
breakthroughs, promoting investment in manufacturing capacity and 
speeding deployment of electric drive vehicles and infrastructure.
    We support the goals of the proposed EV Everywhere grand challenge 
to bring down electric vehicle costs and increase electric range and 
fast charging capability through expanded research in batteries and 
power electronics, electric drive motors and components, and advanced 
charging technologies. Specifically, we support the requested increase 
for Batteries and Electric Drive Technology and Vehicle and Systems 
Simulation and Testing activities that are advancing next generation 
charging, systems integration, and codes and standards for vehicle to 
grid communication.
    The Vehicle Technologies program also conducts critical research 
and development activities to advance electrification of the medium- 
and heavy-duty fleet, including hybrid, plug-in hybrid, battery, and 
fuel cell electric trucks and buses. Electric drive in the commercial 
and transit fleet has great potential for fuel savings and emissions 
reductions: putting just 10,000 hybrid electric trucks to work would 
reduce diesel fuel use by 7.2 million gallons per year and reduce air 
pollutants and carbon dioxide emissions by 83,000 tons. We ask that the 
subcommittee direct meaningful resources toward program activities, 
including work with industry partners, to reduce component costs and 
further enhance performance.
    Fuel cell vehicles are also critical assets in the advanced vehicle 
portfolio. Fuel cell cars, trucks and nonroad vehicles will provide 
``zero emission/zero petroleum'' options that are integral to meeting 
national goals for energy security and reduced pollution. The budget 
request points out that foreign industries are growing rapidly and that 
``sustained support of the [Hydrogen and Fuel Cell] program and 
continued progress toward its goals help enable the U.S. to maintain 
leadership in fuel cell manufacturing and hydrogen production 
technology. Success of the program will also support domestic 
employment and economic growth as well as increase our options for 
clean power''.
    The industry is meeting aggressive cost, performance and deployment 
milestones as it pushes toward commercialization in 2015. The ongoing 
partnership with DOE has already yielded substantial component cost 
reductions including reducing the cost of automotive fuel cells by more 
than 30 percent and doubling their durability. The industry is pushing 
vigorously toward commercialization in 2015. Specifically, we ask that 
funding for fuel cell electric vehicles and infrastructure deployment 
activities in Technology Validation and in early market development, 
including education and other testing and enabling activities, be 
provided at levels sufficient to enable the industry to build on 
technology and market achievements to meet 2015 commercialization 
targets.
    Finally, we strongly support the Department's deployment programs, 
including Clean Cities' work with local and regional coalitions to 
expand deployment of electric drive vehicles (hybrid, plug-in hybrid, 
battery, and fuel cell electric vehicles), other alternative fuel 
vehicles, and recharging/fueling infrastructure as a path to increased 
energy security. These efforts have a demonstrated record of success 
and we support expansion of these partnerships and allocation of 
additional resources for communities deploying electric drive vehicles 
and recharging infrastructure.
    Acknowledging the material budgetary constraints that the 
subcommittee faces, we respectfully request that the Committee direct 
the resources to the DOE's electric drive programs that are 
proportionate to the cost of our foreign oil dependence and that will 
enable the Department to build on its success, in partnership with the 
private sector, in accelerating the achievement of a secure and 
sustainable transportation sector.
    We thank you for your consideration.
                                 ______
                                 
    Prepared Statement of the Federation of American Societies for 
                          Experimental Biology
    The Federation of American Societies for Experimental Biology 
(FASEB) respectfully requests a fiscal year 2013 appropriation of $5.1 
billion for the Department of Energy Office of Science (DOE SC). As you 
know, DOE SC funding in recent years has failed to reach the levels 
authorized in the America COMPETES Acts of 2007 and 2010. FASEB's 
broader goal is to support sustainable growth and a return to a funding 
trajectory reflective of the COMPETES reauthorization.
    As a federation of 26 scientific societies, FASEB represents more 
than 100,000 life scientists and engineers, making it the largest 
coalition of biomedical research associations in the United States. 
FASEB's mission is to advance health and welfare by promoting progress 
and education in biological and biomedical sciences through service to 
its member societies and collaborative advocacy. FASEB enhances the 
ability of scientists and engineers to improve--through their 
research--the health, well-being, and productivity of all people.
    DOE SC is the lead Federal agency supporting fundamental energy 
research and the Nation's largest supporter of basic research in the 
physical sciences. In addition to supporting research at more than 300 
universities and institutions in all 50 States, DOE SC funds and 
manages 10 world-class national laboratories. Research and development 
user facilities located at these national laboratories provide more 
than 26,000 researchers with access to particle accelerators, advanced 
light sources, supercomputers, and other state-of-the-art 
instrumentation. The large-scale scientific tools at DOE SC facilities 
serve as invaluable resources to academic and government scientists, 
and they are also critical to the research and development capabilities 
of more than 40 Fortune 500 companies, including Exxon Mobil, Ford 
Motor, Boeing, and Pfizer.
    A source of abundant, safe, and sustainable energy is essential for 
the Nation's future, and fundamental research supported by DOE SC 
provides the basis for discovering new energy technologies that can 
replace fossil fuels and reduce U.S. dependency on foreign oil. DOE SC-
funded scientists and engineers are also making extraordinary 
discoveries in other areas of energy research that improve health, 
protect the environment, create economic opportunities, and strengthen 
national security. For example, a team of DOE SC-funded scientists have 
determined that certain bacteria can help facilitate the cleanup of 
toxic uranium particles by converting them to forms easily collected 
from the environment. Understanding the process by which these bacteria 
interact with materials is important for increasing and improving their 
use in contamination removal techniques. Other researchers supported by 
DOE SC have identified the gene that controls ethanol production in a 
well-studied microorganism, a breakthrough that could expand the 
availability of biofuels and reduce reliance on imported energy 
sources. Discovery of a single gene responsible for ethanol production 
allows scientists to begin engineering more efficient biomass crops and 
microorganisms capable of generating higher ethanol yields at reduced 
costs.
    In addition to its strong research programs, DOE SC supports user 
facilities that benefit the entire research community by providing 
unparalleled scientific and technological capabilities. For example, 
powerful xray light sources at DOE SC-supported national laboratories 
were used by the pharmaceutical company Plexxikon to develop a new drug 
treatment for malignant melanoma, the deadliest form of skin cancer. In 
this instance, scientists used the bright light sources to determine 
the molecular structure of a mutated protein, enabling the design and 
optimization of a drug to prevent the uncontrollable spread of cancer 
cells. Researchers from the life sciences community account for almost 
40 percent of all researchers using the DOE SC Basic Energy Sciences 
light source facilities, many of which are studying proteins involved 
in other diseases such as Alzheimer's disease, bird flu, and hepatitis. 
The number of researchers using DOE SC facilities grew from 20,241 in 
fiscal year 2007 to 25,876 in fiscal year 2010, an increase of 27.8 
percent. In recent years, the agency's funding has failed to keep pace 
with the growing demand for user facility access.
    DOE SC instrumentation and technical expertise make efficient use 
of precious research resources, bringing researchers across the Nation 
access to cutting-edge technologies without duplication or prohibitive 
cost to institutions. The agency's national lab system advances 
strategic national goals and creates a research infrastructure unlike 
any other in the world. With its crucial mission, national labs, and 
unique scientific facilities, investment in DOE SC programs should be 
one of our highest research priorities. Now is the time to provide 
robust Federal funding for DOE SC to support the fundamental energy 
research required to overcome the Nation's most pressing challenges.
    Thank you for the opportunity to offer FASEB's support for DOE SC.
                                 ______
                                 
    Prepared Statement of the Fermi National Accelerator Laboratory
    We are the Executive Committee of the Users Organization of the 
Fermi National Accelerator Laboratory (Fermilab), located outside of 
Chicago, Illinois. We represent the approximately 3,000 scientists who 
perform research at Fermilab--our country's premier particle-physics 
laboratory. Also known as high-energy physics (HEP), our field is the 
study of the fundamental particles that are the building blocks of the 
universe, as well as their role in astrophysics, and the accelerators 
used in their study.
    Eight U.S. national laboratories are actively engaged in HEP 
research. They operate facilities used by scientists and students from 
hundreds of U.S. universities, from other national laboratories, and 
from dozens of foreign institutions. Of these laboratories, Fermilab is 
the only one that is dedicated exclusively to HEP.
    The Department of Energy (DOE) Office of Science supports HEP 
research at U.S. national laboratories and universities. More than 160 
U.S. institutions in 43 States host physicists, astrophysicists, 
engineers, and accelerator scientists who work in HEP. More than one-
half of these institutions are funded through the DOE Office of 
Science.
    We urge the Senate to support sustained funding for fundamental 
science within the DOE Office of Science. We request that the portfolio 
of funding for fundamental research be balanced. HEP research is a key 
part of these programs and yields valuable benefits to our Nation as 
described below.
    Our field is undergoing a transition, Fermilab's Tevatron 
accelerator program having come to a conclusion in 2011 after an 
extremely successful three decades. New programs are underway or just 
beginning that will provide the basis for vibrant, world-class research 
at Fermilab for the next several decades. This transition is a critical 
time for our field in the United States and requires sustained funding 
in order to maintain our role in world HEP research.
                         impact of budget cuts
    Continued funding of science research is critical to our Nation. 
Severe budgetary cuts will have devastating effects that will be felt 
for decades. Science opportunities will be delayed or lost to other 
nations. Our reputation as the place to be for the best and brightest 
will be damaged.
    We are therefore pleased that the administration's request for 
fiscal year 2013 includes a modest increase for the DOE Office of 
Science. However, we are concerned about the cuts for Fermilab included 
in that request: $30 million, or approximately 8 percent. This will 
require layoffs or furloughs. A large Fermilab project that will be key 
to sustaining our field in the United States over the next decade, the 
Long-Baseline Neutrino Experiment (LBNE), will be delayed. Such 
projects are critical to the near- and medium-term future of the 
laboratory and the U.S. HEP program.
    The proposed cuts come at a time when Fermilab has closed the 
Tevatron program, resulting in cuts in fiscal year 2012 as well. This 
was done in order to consolidate resources so as to focus on new 
projects, especially LBNE. The resulting savings ought to be reinvested 
at Fermilab, in order to maintain the United States' preeminent HEP 
facility at the forefront of world HEP.
    The largest and longest-lasting impact will be in our training of 
the next generation of scientists. Significant cuts will force us to 
train fewer students. They will demoralize our current students and 
post-docs, and some will quit. And we will no longer attract the best 
students. It will take a long time to recover from even a short-term 
cut to funding. These young people will be the foundation on which our 
economic growth depends. Without the advanced training offered by 
fields such as HEP, they will lack the skills to develop the next 
technology or the next new industry. Or they will be trained in other 
countries, and that innovation will occur overseas. It is critical that 
we remain attractive to United States and foreign students now and in 
the future.
                 value of high-energy physics research
    In our modern economy, science and technology (S&T) drive growth, 
as detailed in the National Academies' report, ``Rising Above the 
Gathering Storm: Energizing and Employing America for a Brighter 
Economic Future'', its 2010 update, Rising Above the Gathering Storm 
Revisited, the recent book, Knowledge and the Wealth of Nations, and 
many other publications. Continued leadership in S&T fields is critical 
to our economic growth, national security, and position vis-a-vis the 
rest of the world. Innovation by a highly trained workforce is key.
    Without new technological developments within the United States, 
our economy will not grow and other countries will surpass us. But the 
most revolutionary technologies often require revolutions in our 
fundamental knowledge and understanding, or are invented in the 
research struggle of our most talented minds in pursuit of testing, 
measuring, and understanding new ideas and concepts. As an example, no 
one could have predicted the nature of our current society from the 
first studies of the electron at the dawn of the 20th century; however, 
we would not be communicating via email, fax, cellphone, or text 
messages without them. It has also famously been said that the light 
bulb could not have been invented by incremental improvements to the 
candle! Revolutionary technologies arise from new ways of thinking 
about society's problems--often derived from new experiments that ask 
new questions that cannot be answered using existing technology.
    HEP strives to understand the most fundamental aspects of nature. 
While we can rarely predict the outcome, the quest for such knowledge 
has always led to numerous technological advances, a few of which are 
described below. What is predictable, is that we will educate and train 
some of the best and brightest students, who will contribute to our 
Nation in many different arenas.
                    value of technology development
    While the primary purpose of HEP research is not the creation or 
development of new technology, our work often requires it in order to 
accomplish our goals. Many of our experiments require technology that 
does not exist before the project is undertaken. Therefore, many of our 
researchers spend a significant part of their careers advancing high-
tech particle detectors, developing complex computing algorithms, 
inventing new kinds of particle accelerators, or pushing the limits of 
high-speed electronics. Without continuous innovation, we would not be 
able to complete our experiments. And once these advances are made, 
they are often used in fields as diverse as medicine, materials 
research, and manufacturing.
    An example is the construction of the Fermilab Tevatron 
accelerator, which reigned as the world's most powerful device of its 
kind for nearly three decades. It required more than 1,000 
superconducting magnets, placed around a 4-mile ring. Creating 
superconducting magnets requires superconducting wire. At the start of 
the project in the 1970s, it was known how to make such wire, but the 
industry needed in order to make it on a large scale did not exist. 
Fermilab researchers helped to build up that industry and advance its 
production techniques through a very successful joint government/
business venture. Once the accelerator was complete in 1983, these 
businesses looked around to see what other projects could use 
superconducting wire. MRI machines that are now commonly used for 
medical imaging are an example. Because of the work of Fermilab in 
building the Tevatron, starting in the 1980s, commercial MRI scanners 
have now become widespread.
    A current experiment led by Fermilab scientists is the Dark Energy 
Survey (DES). This requires a digital camera larger than any ever 
built. Its technological developments will ultimately influence the 
digital cameras available at your local electronics store as well as 
devices no one has yet dreamed up. A current research and development 
(R&D) effort by a university/national laboratory collaboration is 
inventing new, cost-effective particle detectors with unique power to 
resolve events on the picosecond (trillionth-of-a-second) time-scale. 
These will also doubtless lead to new industrial, research, and medical 
applications.
    High-energy physicists have invented particle accelerators and 
continue to steward their development. Our work requires the most 
powerful particle accelerators that can be built. However, thousands of 
smaller accelerators are now used in many areas of technology. Of more 
than 30,000 particle accelerators throughout the world, only a small 
fraction are dedicated to HEP. Most are used by industry or for medical 
treatment and diagnosis. The tire industry, for example, now uses 
particle accelerators to treat their tires, reducing both the amount of 
rubber needed (by 3 pounds per tire) and the amounts of chemicals used 
in the production process. This industry is both more efficient and 
better for our environment because of the application of particle 
accelerators. This success was unanticipated in the early days of 
accelerator development. Industrial accelerator applications now range 
from the manufacture of shrink-wrap plastic to the processing of 
industrial coatings and automobile parts.
                       value of science education
    The United States has long been the destination of choice for the 
best science students from around the world. Our universities provide 
an education that is second to none. Our national laboratories provide 
research opportunities that are unavailable elsewhere. Fermilab is an 
excellent example of this. Numerous students from foreign institutions 
travel to Fermilab to complete their research. Many of these students 
then choose to stay in the United States after completing their 
degrees.
    Our students learn a variety of skills that are applicable in 
numerous fields. They learn to work on problems to which the answer is 
unknown and to adapt to unforeseen challenges. They learn skills in 
computer programming, data analysis, simulation of complex problems, 
and electronics development, among others. They learn to work in teams 
as members of international collaborations, finding innovative 
solutions to challenging problems. They learn how to take a project 
from start to finish, write a document detailing it, and present it to 
an audience. The complex analytical thinking necessary to solve 
problems in fundamental science can't be taught in a classroom, but is 
nonetheless crucial for solving problems in business and industry in 
the 21st century.
    Many of our students choose to continue their immediate careers as 
postdoctoral associates. This provides a postgraduate education that 
further develops their skills. , docs generally take on more complex 
projects and develop leadership and management skills. Most HEP 
experiments involve 20 to 2,000 scientists and face challenges that are 
similar to those in many businesses.
    Scientists trained in HEP work in telecommunications, software 
development, aerospace, education, medicine, government, and finance, 
to name a few. About 90 percent of our Ph.D. students enter new fields. 
Private businesses are the largest and most diverse employers of 
scientists trained in high-energy physics. Several former HEP 
researchers have founded or led small and large companies, including 
Richard Wellner, chief scientist at Univa UD, a cloud management 
software company; Francisco Vaca, CEO of Vaca Capital Management LLC; 
George Coutrakon, former director of operations at Loma Linda 
University Medical Center and now technical director of the Northern 
Illinois Proton Treatment and Research Center; Homaira Akbair, CEO of 
SkyBitz, a satellite-based tracking company; Rolland Johnson, founder 
and president of Muons, Inc., an accelerator R&D company; and Nagesh 
Kulkarni, CEO of Quarkonics Applied Research Corp., a business and 
technology consulting company.
    Our researchers are engaged in education at all levels and 
understand the importance of scientific literacy in our society. For 
example, hundreds to thousands of public lectures are given around the 
country by high-energy physicists each year. Our scientists visit local 
schools to share the excitement of science through physics 
demonstrations or presentations of their work. The QuarkNet program, 
funded through the National Science Foundation, trains K-12 teachers in 
28 States in cutting-edge research that they can take into the 
classroom. More than 38,000 students attend Fermilab education 
activities each year.
                                summary
    Scientific research in general, and HEP in particular, provides 
value to our Nation that will be lost without sustained funding from 
the U.S. Government. The knowledge that is gained will lead to future 
innovation that will maintain our world-class scientific capabilities. 
The path to that knowledge will lead to advances in technology that 
will help sustain our economic recovery. And the education of students 
from the United States and abroad will provide the knowledgeable 
workforce that will carry us through the next half-century.
    It is critically important to maintain our world-class position in 
scientific research. The repercussions of severe cuts will be felt for 
a long time. We urge the Senate Appropriations Committee to support the 
President's request to maintain our scientific research program for the 
long-term health of the Nation, and to restore funding to HEP and 
priority projects at Fermilab in order to reinvest in this core 
discovery scientific discipline.
                                 ______
                                 
           Prepared Statement of the Gas Turbine Association
    The Gas Turbine Association (GTA) appreciates the opportunity to 
provide the United States Senate Committee on Appropriations 
Subcommittee on Energy and Water Development with our industry's 
statement recommending fiscal year 2013 funding levels for the 
Department of Energy (DOE).
    GTA respectfully recommends that the fiscal year 2013 appropriation 
for DOE Office of Fossil Energy include $20 million for the Hydrogen 
Turbines Program to meet critical national goals of job creation, fuel 
conservation, greenhouse gas reduction, fuel flexibility (including 
syngas and hydrogen), and criteria pollutant reduction. A spending 
level of $20 million is more appropriate than the administration's 
recommendation $12.6 million considering that the fiscal year 2012 
spending level was $14.6 and years of under-funding for Gas Turbine 
Technologies is resulting in our Nation's loss of leadership in this 
important industry. A spending level of $12.6 million will result in 
pushing out the timeline for the development and deployment of 
environmentally advanced gas turbines by several years.
    Federal investment in research and technology development for 
advanced gas turbines that are more efficient, versatile, cleaner, and 
have the ability to burn hydrogen-bearing reduced carbon synthetic 
fuels and carbon-neutral alternative fuels is needed to ensure the 
reliable supply of electricity in the next several decades. Japan and 
China are quickly moving into leadership positions in this industry 
which in the United States has been responsible for hundreds of 
thousands of research and development (R&D), engineering, manufacturing 
and field service jobs for the past 75 years. Japan is consistently 
investing more than $80 million per year, and China has recently 
announced an indigenous F class gas turbine (F class represents 50 
percent of the gas turbine market). If our Nation continues to 
underfund research and development efforts in gas turbine technology, 
the resulting loss of jobs and U.S. technology will be long-term and 
possibly permanent.
    We believe that a modest Federal investment in future gas turbine 
technologies will be repaid many times over in reduced electricity 
costs, increased flexibility and increased reliability for our Nation's 
consumers. In addition, we believe that additional funding should be 
directed at encouraging university based research that will ``jump-
start'' the careers of future engineering graduates in the gas turbine 
industry.
    The gas turbine industry's R&D partnership with the Federal 
Government has steadily increased powerplant efficiency to the point 
where natural gas fired turbines can reach combined cycle efficiencies 
of 60 percent, and quick-start simple cycle peaking units can reach 46 
percent. The gas turbine's clean exhaust can be used to create hot 
water, steam, or even chilled water. In such combined heat and power 
applications, overall system efficiency levels can reach 60 to 85 
percent lower heating value (LHV).
                        CO<INF>2</INF> Emissions


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    Gas turbines are both more efficient and typically burn lower 
carbon fuels compared to other types of combustion-based power 
generation and mechanical drive applications. The Nation needs to 
reinvigorate the gas turbine industry/government partnership in order 
to develop new, low-carbon powerplant solutions. This can be done by 
funding research to make gas turbines both efficient and more capable 
of utilizing hydrogen and synthetic fuels as well as increasing the 
efficiency, durability and emissions capability of natural gas fired 
turbines. If the Congress provides adequate funding to DOE's turbine 
R&D efforts, we believe technology development and deployment will be 
accelerated to a pace that will allow the United States to achieve its 
emissions and energy security goals.
    GTA respectfully requests $20 million in fiscal year 2013 
appropriations for the Fossil Energy Hydrogen Turbines Program to meet 
critical national goals of job growth, fuel conservation, fuel 
flexibility (including natural gas, syngas and hydrogen), greenhouse 
gas reduction, and criteria pollutant reduction.
                                 ______
                                 
                    Prepared Statement of GE Energy
                                overview
    The following testimony is submitted on behalf of GE Energy (GE) 
for the consideration of the subcommittee during its deliberations 
regarding the fiscal year 2013 budget requests for the Department of 
Energy (DOE). GE recognizes that particularly difficult choices must be 
made in fiscal year 2013. These budget pressures make it essential that 
the subcommittee prioritize those programs that will contribute to 
economic growth and jobs creation and support core technology 
development. GE recommends:
  --in the Fossil Energy program, increased investment in pre-
        combustion carbon capture and gasification systems;
  --in Energy Efficiency and Renewable Energy, full funding of the 
        budget requests for solar and wind technologies;
  --in Electricity Delivery and Energy Reliability, full funding of the 
        budget request for research and development; and
  --in Nuclear Energy, full funding for the Small Modular Reactor 
        Licensing Technical Support program and additional amounts for 
        research and development (R&D) in Advanced Reactors Concepts 
        and Small Modular Reactor Advanced Concepts.
                             fossil energy
Coal Program: Carbon Capture, Pre-Combustion Capture
    GE is concerned that the funding reductions proposed in 
gasification systems and pre-combustion carbon capture will negatively 
affect programs that are critically important to the future of power 
generation from coal. These programs are on the path to improve the 
cost and performance of Integrated Gasification Combined Cycle (IGCC) 
technology to enable IGCC to be a cost-competitive option for low-
carbon power generation.
    IGCC is capable today of achieving the emissions standards of the 
Environmental Protection Agency (EPA) mercury and air toxics standards 
and new source performance standards for new coal plants without 
additional R&D. Compared with conventional coal plants, IGCC consumes 
less water, produces useful coal byproducts, and can co-produce 
valuable transportation fuels and chemicals that reduce oil imports. 
With its proven, pre-combustion carbon capture, IGCC also provides 
CO<INF>2</INF> useful for enhanced oil recovery (EOR) at lower cost 
compared to combustion coal technology.
    GE therefore recommends that fiscal year 2013 funding for Carbon 
Capture: Pre-combustion Capture be increased by $6 million to $17.4 
million. This increased funding is needed to:
  --continue key programs that have met their early goals;
  --develop alternative capture processes; and
  --provide for new competitive solicitations.
GE also recommends that fiscal year 2013 funding for Advanced Energy 
Systems: Gasification Systems be increased by $5.7 million to $37.6 
million. This increased funding is needed to support the next phase of 
R&D focused on reducing IGCC cost, increasing performance and improving 
availability.
Clean Coal Power Initiative
    The Clean Coal Power Initiative (CCPI) is the key vehicle for 
commercial validation of technology emerging from the DOE R&D programs 
and from industry. Current CCPI projects are supporting first 
generation gasification and IGCC technology. DOE has not announced 
plans for a future CCPI solicitation. GE recommends that DOE move 
forward with the development of a CCPI-4 solicitation in preparation 
for the commercial demonstration of second-generation technologies, and 
that a modest level of funding for this solicitation be provided in 
fiscal year 2013. A CCPI-4 solicitation should focus on demonstration 
of technology that is specifically optimized for EOR so as to provide a 
revenue stream that will reduce the operating cost impact that could be 
a deterrent to cost-share participation by industry.
Advanced Energy Systems, Hydrogen Turbines
    According to the DOE's 2011 performance report, the advanced 
turbine program has made consistent progress toward fully mitigating 
the cost and performance penalty associated with carbon capture. The 
funding reductions proposed in the fiscal year 2013 budget request 
will:
  --delay completion of Phase II development;
  --curtail Phase III implementation and prototype validation; and
  --significantly scale back important university research.
    GE, therefore, recommends that fiscal year 2013 funding for 
Advanced Energy Systems: Hydrogen Turbines be increased to $20 million. 
This amount would still represent a 33 percent reduction from the 
fiscal year 2011 funding level, but would better balance program needs 
and accomplishments.
Water Management
    Large amounts of water are needed to produce or extract energy, and 
large amounts of energy are needed to treat or transport water. EPA is 
preparing to finalize its proposed rules for cooling water intake 
structures under section 316(b) of the Clean Water Act, which 
underscores the important linkage between water use and energy 
generation. In addition, CO<INF>2</INF> capture can increase raw water 
usage by up to 125 percent, depending on the underlying technology. DOE 
has set aggressive goals of reducing freshwater withdrawals and 
consumption 50 percent by 2015 and 70 percent by 2020. Federal support 
for water-related R&D is necessary if these goals are to be reached. 
Unfortunately, the fiscal year 2013 budget does not contain any new 
funding for Water Management activities within the fossil energy 
program.
    GE believes that Federal investment in R&D for innovative water 
reuse technologies and demonstration projects is warranted. In addition 
to R&D focused on cooling tower blowdown water reuse, Flue Gas 
Desulphurization wastewater reuse and recovery, and ash pond solids 
reduction, treatment and reuse of source water for and flowback/
produced water from unconventional oil and natural gas production would 
further reduce environmental impacts and operational costs of upstream 
energy processes. Advancement of reuse/treatment technologies for the 
conversion of impaired wastewater streams into renewable water sources 
in areas of water scarcity could reduce the need to use energy to 
transport water over long distances and to support electricity 
generation.
                 energy efficiency and renewable energy
Wind
    GE supports full funding of the DOE's fiscal year 2013 request for 
wind energy. The cost of wind energy has declined significantly in 
recent years due to technological advances and manufacturing scale, 
both of which have benefited from past DOE R&D support. However, the 
decline in the price of natural gas generation accentuates the need for 
continued technological advances to support wind affordability and 
reliability. DOE funding support is critical for catalyzing next-
generation innovations in both onshore and offshore wind. Related work 
in wind resource assessment and system integration will further enable 
higher levels of wind deployment and penetration.
Solar
    GE supports full funding of the DOE's fiscal year 2013 request for 
solar energy. DOE research programs have been central to recent cost 
declines in solar electricity, and the SunShot Initiative to achieve 
cost-competitiveness with other electricity sources is both ambitious 
and necessary. While solar cost-competitiveness will not be 
accomplished through DOE funding support alone, the Government can play 
an essential role in leveraging additional industry and university 
research. GE also welcomes the PV Program's focus on lowering costs 
through conversion efficiency and manufacturing process improvements, 
as well as the overall program's investigation of balance-of-system 
issues.
Fuel Cells
    R&D is required to develop advanced fuel cell technologies to drive 
efficiency to make this technology more commercially viable. Research 
into combined cycle technologies using fuel cell and aero derivatives 
or natural gas reciprocating engines is needed to achieve efficiency 
goals of 90 percent or greater.
              electricity delivery and energy reliability
Research and Development
    GE supports the fiscal year 2013 budget request for OE Research and 
Development. R&D on grid modernization technologies will advance 
reliable, affordable, efficient, and secure delivery of electric power 
to industrial, commercial, and residential customers, while at the same 
time preparing the grid to support greater quantities of renewable 
energy. Integration of traditional electric grid infrastructures with 
modern IT computer and communications systems will be necessary, and GE 
continues to work closely with national and international standards 
development organizations in the development of grid interoperability 
standards. Cybersecurity remains a fundamental design principle of this 
effort.
    In order to reduce risk and accelerate the adoption of new advanced 
grid modernization technologies, R&D funding will be required for the 
development of modeling, simulation, and visualization of both the 
transmission and distribution networks. Advanced modeling capabilities 
will serve as a critical tool in the modernization of the electric grid 
by assisting grid operators in identifying the technical limits of 
conventional grid technologies, and facilitating development of new 
technologies and solutions to respond to a changing energy mix and an 
increasingly responsive consumer base. In addition, advanced modeling 
capabilities can enable grid operators and power systems planners to 
aggregate, analyze, and act upon the vast quantities of data collected 
by grid modernization technologies. DOE should expand industry 
participation in programs to develop modeling and computational 
capabilities for grid applications to fully leverage work already 
underway.
    In conjunction with modeling and simulation research, R&D is 
required to develop advanced grid analytics software to optimize grid 
efficiency and reliability, including ``Big Data'' storage and real 
time analysis and exascale computing. Research into broadband wireless 
technologies will be required to collect the field data required in 
``real time.'' Research into low costs sensors will be needed to 
monitor the status of a modern grid.
Energy Storage
    GE endorses the requested funding for further research into energy 
storage technologies. The fiscal year 2013 budget request appropriately 
broadens the scope of interest to include innovations in new battery 
chemistries. This could lead to radical improvements in energy storage 
performance. Electricity storage is a critical technology to enable 
both deployment of electric vehicles and improvements in grid stability 
and efficiency through utility-scale storage.
    Equal attention should be given to both electric vehicles and 
storage. The requirements of utility-scale storage are quite different 
from those of electric vehicles. GE recommends inclusion of research 
into large-scale energy storage into this line item. This includes all 
potential storage modalities such as compressed air, pumped hydro, and 
flywheel technologies.
    In addition, investment should be made in research into broader 
applications of storage technologies such as ancillary services, 
including frequency regulation service to balance supply and demand on 
the transmission system as addressed in Order No. 755 issued by the 
Federal Energy Regulatory Commission in October 2011, energy arbitrage, 
and peak shaving.
                             nuclear energy
Next Generation of Nuclear
    GE Hitachi Nuclear Energy (GEH) wholeheartedly supports the efforts 
of DOE's Office of Nuclear Energy to research and develop the next 
generation of nuclear technologies for carbon free electricity 
generation and for the management of used nuclear fuel. In support of 
both of these goals, the Congress should provide the requested $65 
million for the cost-shared, industry partnership Small Modular Reactor 
Licensing Technical Support program (``SMR program'') for fiscal year 
2013. At the direction of the Congress, DOE opened the SMR program 
competition to all advanced reactor technologies providing 300 MW or 
less of power. GEH concurs with the Congress that a fleet of advanced 
reactor SMRs will play a key role in meeting the country's energy 
security, economic, and carbon-free, baseload generation goals. 
Recognizing the high cost and extreme importance associated with the 
design certification and licensing of first-of-a-kind SMR designs, GEH 
recommends that the SMR program, in which industry is providing a 
minimum 50-percent contribution, be funded at the requested amount.
    Advanced reactors, like GEH's PRISM reactor, can provide secure and 
clean baseload electricity while benefitting the back end of the fuel 
cycle. For this reason, it is important that the Reactor Concepts 
research, development, and demonstration program be provided sufficient 
funding. In particular, the Advanced Reactors Concepts and Small 
Modular Reactor Advanced Concepts R&D subprograms, which are facing 43-
percent and 34-percent funding cuts, respectively, should be expanded. 
Both of these subprograms focus on high-value research to address near 
term challenges such as demonstration, simulation and training 
programs, and the application of advanced modularization and 
construction techniques to help reduce new plant capital costs.
    GEH further supports the funding of National Nuclear Security 
Administration's Nonproliferation Policy and International Security 
program. International civil nuclear cooperation is fundamental to 
implement our nonproliferation policy goals and to keep viable our 
domestic commercial nuclear capabilities. Recognizing the importance of 
U.S. commercial nuclear exports in achieving our nonproliferation 
objectives, GEH supports increasing the fiscal year 2013 budget for the 
Nonproliferation Policy subprogram.
                                 ______
                                 
    Prepared Statement of the National Association of State Energy 
                               Officials
    Chairperson Feinstein and members of the subcommittee: I am Malcolm 
Woolf of Maryland and chair of the National Association of State Energy 
Officials (NASEO). NASEO is submitting this testimony in support of 
funding for a variety of Department of Energy (DOE) programs. 
Specifically, we are testifying in support of no less than $50 million 
for the base, formula State Energy Program (SEP). We urge the 
subcommittee to strive for the $125 million figure, which is equal to 
the fiscal year 2012 authorization. SEP is the most successful program 
supported by the Congress and DOE in this area. This should be base 
program funding, with no competitive portion, which focuses primarily 
on DOE's internal priorities. SEP is focused on working with private 
business to help facilitate direct energy project development, where 
most of the resources are expended. SEP has set a standard for State-
Federal cooperation and matching funds to achieve critical Federal and 
State energy goals. The base SEP funds are the critical linchpin to 
help States in building on these activities and expanding energy-
related economic development, much as SEP has done for 30 years. We 
also support the $210 million level for the Weatherization Assistance 
Program (WAP). These programs are successful and have a strong record 
of delivering savings to low-income Americans, homeowners, businesses, 
and industry. We also support the budget request for the Energy 
Information Administration (EIA) of $116.4 million. EIA's State-by-
State data is very helpful. EIA funding is a critical piece of energy 
emergency preparedness and response, and there are significant EIA 
responsibilities under the Energy Independence and Security Act (EISA). 
NASEO continues to support funding for a variety of critical buildings 
programs, including Building Codes Training and Assistance, ENERGY 
STAR, and residential energy efficiency at least at the fiscal year 
2012 level, and Building Codes at a $15 million funding level. NASEO 
also supports funding for the Office of Electricity Delivery and Energy 
Reliability (OE) at the level of the fiscal year 2013 budget request. 
Specific funding should be provided for the Division of Infrastructure 
Security and Energy Restoration of no less than $18 million, which 
funds critical energy assurance activities. We also strongly support 
the research and development (R&D) function and Operations and Analysis 
function within OE. The industries program (now renamed the Advanced 
Manufacturing program) should be funded at least at the fiscal year 
2012 level, to promote efficiency efforts and to maintain U.S. 
manufacturing jobs.
    Formula SEP funding provides a basis for States to share best 
practices among themselves. These best practices (even without stimulus 
funds) allow States to get a great deal accomplished. These types of 
activities include energy financing programs, revolving loans, utility-
based programs, energy service performance contracts, et cetera. We 
greatly appreciate the support of the subcommittee for SEP in the past.
    In January 2003 (and updated in 2005), Oak Ridge National 
Laboratory (ORNL) completed a study and concluded, ``The impressive 
savings and emissions reductions numbers, ratios of savings to funding, 
and payback periods . . . indicate that the State Energy Program is 
operating effectively and is having a substantial positive impact on 
the nation's energy situation''. ORNL found that $1 in SEP funding 
yields:
  --$7.22 in annual energy cost savings;
  --$10.71 in leveraged funding from the States and private sector in 
        18 types of project areas;
  --annual energy savings of 47,593,409 million source BTUs; and
  --annual cost savings of $333,623,619.
    Energy price volatility makes the program more essential as 
businesses and States work together to maintain our competitive edge.
                    stimulus funding implementation
    We have been working closely with DOE to implement the American 
Recovery and Reinvestment Act (ARRA) programs as quickly as possible. 
We have had regular calls with all the State energy officials to 
address implementation questions. We have also had a series of regional 
conference calls among the States, and we have seven regional 
coordinators helping to share best practices among the States. NASEO is 
sharing best practices and providing information to officials at all 
levels of government in order to more effectively coordinate this 
effort. We are convinced that these funds are helping to assist the 
private sector to implement major positive changes in the U.S. economy 
that will improve all sectors of the economy. NASEO believes it is 
important to maintain base levels of appropriations for critical 
programs, such as SEP and Weatherization, in order to avoid a huge 
decrease in funding after a rapid stimulus increase.
    With respect to ARRA spending for SEP, of the $3.1 billion 
appropriated, all the work is being implemented quickly. The deadlines 
set forth in the statute will be satisfied. We and DOE have worked 
through the barriers that slowed spending, including National 
Environmental Policy Act (NEPA) compliance, Davis-Bacon wage rates, 
Buy-American clauses, historic preservation, lead paint requirements, 
and general procurement issues. It is important to stress that the key 
figures are the ``commitment'' and ``contracted'' amounts, because that 
is when people get hired and work commences. States generally do not 
pay until projects are actually completed and milestones are met. We do 
not pay-up front in most cases. In economics jargon, the Federal 
spending figure is actually a lagging indicator. Of the ARRA funds 
dedicated to SEP and Energy Efficiency and Conservation Block Grant 
(EECBG), approximately $1 billion has been dedicated to energy 
financing programs in cooperation with the private sector. This has the 
greatest long-term potential.
    Examples of Successful State Energy Program Activities.--The States 
have implemented thousands of projects. We have previously supplied to 
subcommittee staff examples of programs and projects implemented. Here 
are a few representative examples.
    Alabama's SEP funds are being used to support the purchase and 
installation of energy efficient equipment in 118 Alabama K-12 schools. 
The energy improvements have generated cost-savings exceeding $1 
million a year. The Talladega County Board of Education replaced 31 
heating, ventilation, and air conditioning (HVAC) units in 17 schools. 
The new efficient units are saving the district more than $75,000 
annually. Winston County Board of Education replaced 14 HVAC units in 
two of its schools with new efficient units which are saving the school 
more than 20 percent on electricity costs a year.
    Alaska collected benchmarking data on 1,300 public facilities in 
order to identify high-energy using buildings. A total of 351 public 
buildings with a high Energy Use Index were identified and are 
undergoing Investment Grade Audits, which will pinpoint specific energy 
improvement projects. These energy measures will be funded through a 
loan program where the project's debt service will be paid entirely 
through the energy cost savings.
    California is improving energy efficiency in State-owned buildings 
through the State Property Revolving Loan Fund Program. This 
sustainable loan program is supporting energy upgrades in more than 60 
buildings located throughout the State--including energy retrofit 
projects in 18 California Highway Patrol Offices. As a result, a field 
office in Oakland now has energy efficient lights that are saving 
nearly $21,000 a year in energy costs. The Oakland lighting project 
will pay for itself in cost savings in just more than 2 years.
    Illinois is promoting the development of renewable energy and 
energy efficiency manufacturers and supply-chain businesses in the 
State. Since 2010, the Green Business Development Grant Program has 
awarded grants to 25 Illinois manufacturers that have expanded into the 
green technology sector by retrofitting their manufacturing processes. 
Ingersoll Machine Tools, Inc., a Rockford-based manufacturer of 
aviation components, used a Green Business grant to purchase and 
retrofit equipment so it can also produce wind turbine components. The 
retooling effort created 87 new jobs at Ingersoll. Funk Linko has been 
producing light poles at its Chicago Heights facility since 1925. With 
a Green Business grant the company retooled its existing steel mill 
equipment to produce components for wind power generation.
    The Iowa State Energy Office provided a $1.7 million matching grant 
funded by SEP to support the Sun Prairie Vista Court Apartments in 
reducing energy use by implementing and documenting the performance of 
new, energy-efficient technologies that include, for example, variable 
speed pumps, thermal solar collectors for hot water, and induction 
exterior lighting. To measure the benefits of the efficiency upgrades, 
the apartment complex will monitor before and after results, including 
real-life information on energy use. Tenants are benefiting from the 
energy efficiency improvement. The demonstration project employed 
approximately 21 individuals and produces projected annual energy 
savings of $111,417.
    In Kentucky $14 million has been dedicated to the Green Bank of 
Kentucky for energy efficiency financing for public buildings. To date, 
11 Green Bank loans have funded energy upgrades in 61 public buildings. 
The Kentucky Department of Veterans Affairs used a Green Bank loan for 
energy upgrades in three of its facilities--Thomas-Hood, and the East 
and West Kentucky Veterans Centers. These facility improvements are 
generating annual energy cost savings of $195,000, and $23,000 annually 
in water savings. The savings will repay the Green Bank loan in less 
than 12 years and after that all further savings will directly benefit 
the taxpayers of Kentucky.
    Louisiana's Transportation Efficiency and Alternative Fuels Program 
awarded a grant to Bossier City for two publicly accessible Compressed 
Natural Gas fueling stations and the purchase of 10 heavy duty 
compressed natural gas (CNG) vehicles for the city's fleet. The Bossier 
City project has resulted in the displacement of approximately 270,000 
gallons of diesel or gasoline per year and created 10 new jobs.
    Maine's Home Energy Savings Program, which launched in 2010, has to 
date resulted in approximately 5,000 residential energy audits with 
more than 3,000 of these homeowners receiving rebates for whole house 
energy upgrades. More than 100 licensed construction companies have 
been certified to participate in the program, which has resulted in 
excess of $27 million worth of residential energy retrofit projects. 
These energy improvements are saving homeowners an average of 40 
percent in energy costs, or approximately $1,454 per year, amounting to 
savings of approximately 405 gallons of heating oil per year.
    Mississippi's public buildings program is helping to finance 
energy-saving upgrades through performance contracting in 10 public 
institutions. The participating public sector partners include the 
Biloxi School District, Cleveland School District, Desoto County, 
Jefferson County, Lawrence County School District, Mississippi State 
Hospital, Monroe County School District, Claiborne County, Alcorn 
County School District and Hollandale School District. Under the 
program, 149 public buildings, representing more than 3 million square 
feet of space, have been completed. The Biloxi Public Schools project 
was completed in October 2011 and is expected to save more than 
$275,000 a year in utility costs.
    Montana improved its recycling infrastructure in communities 
throughout the State with the purchase of equipment to collect, store, 
and transport recyclables to market and assist local businesses use the 
materials collected. A total of 19 recycling projects were funded 
through the Montana Recycling Infrastructure Grants program, including 
recycling collection bins in Libby, Troy, Colstrip, St. Ignatius, 
Ronan, Polson, Bozeman, Havre, Shelby and at sporting events, 
performances and tradeshows held on the campus of Montana State 
University.
    New Jersey supported the development of six combined heat and power 
(CHP) projects at commercial and industrial customers. Results include 
a 3.2 megawatt (MW) CHP project at the National Gypsum Company facility 
in Burlington. Other projects include a 9.5 MW cogeneration unit at the 
DSM Nutritional Products facility in Belvidere, a 1.1 MW gas engine 
generator at Ocean City College, and a 4.6 MW cogeneration plant for 
the new University Medical Center at Princeton. All totaled, nearly 35 
MW of clean-energy production has resulted from this SEP-funded 
program.
    Rhode Island's Deliverable Fuels Program provides incentives and 
rebates for energy retrofits to customers who heat their homes and 
businesses with oil, propane, or other deliverable fuels. The program 
launched in August 2010, and in the first 6 months 1,431 audits had 
been conducted statewide. Of these audits, 546 customers implemented 
recommended heating system replacements or other energy saving 
measures. These initial retrofits will reduce heating oil consumption 
by 2 million gallons over the next 20 years, saving these customers a 
combined $7 million through lower heating bills.
    South Carolina's public building energy retrofit program has 
resulted in energy efficiency improvements in 579 buildings statewide. 
The buildings represent nearly 21 million square feet of public 
building space and include 32 2- and 4-year colleges, 22 State agencies 
and 85 school districts. Williamsburg Technical College used a grant 
from this program to upgrade lighting and replace outdated HVAC units. 
These upgrades will pay for themselves in energy costs savings in less 
than 2 years and will help the college save more than $30,000 annually 
going forward.
    South Dakota conducted energy audits of all State-owned buildings. 
Based on the audit's data, grants, and loans were executed to implement 
cost-effective projects in 55 public buildings. A boiler replacement in 
the 100-year-old State capitol building complex is among the completed 
projects. The boiler replacement is projected to save taxpayers more 
than $2 million in energy costs over the life of the new equipment.
    Tennessee's Volunteer State Solar Initiative's grant programs have 
awarded a total of 236 grants to date and more than $40 million of 
private funds have been leveraged. The grant-funded projects have added 
approximately 6.5 MW of solar power to the grid.
    Texas' Transportation Efficiency Program awarded 16 grants for the 
synchronization of traffic signals and/or the replacement of traffic 
signal lights with LEDs. A major traffic synchronization project in 
Missouri City retimed and synchronized traffic signals at 44 
intersections on 120 lane miles of six major roads. This one project is 
saving an estimated 47,000 hours annually for people traveling those 
roads during weekday rush hour.
    The Washington Community Energy Efficiency Pilot Program has to-
date retrofitted 1,154 commercial buildings representing nearly 1.2 
million square feet, and more than 8,000 residential structures 
throughout the State. In addition, it created the foundation for a 
sustainable residential and non-residential energy retrofit industry 
and workforce in the State of Washington.
                                 ______
                                 
  Prepared Statement of the National Association for State Community 
                           Services Programs
    The National Association for State Community Services Programs 
(NASCSP), urges the U.S. Senate Committee on Appropriations 
Subcommittee on Energy and Water Development to fund the Department of 
Energy's (DOE) Weatherization Assistance Program (WAP) at $210 million. 
In these difficult budgetary times, we understand that tough decisions 
have to be made. However, WAP is proven, cost-effective, measurably 
successful, and vital to the Nation's energy security and energy 
efficiency movements, delivering savings to low-income Americans, 
businesses, and industry. WAP faces an uphill battle in the immediate 
future do to a reduction in funding and leading to the loss of jobs and 
capacity to assist low-income Americans. It is necessary to fund WAP at 
this level in order to sustain its historic infrastructure in and 
widespread impact on all States and local communities as well as the 
expanded training and technical assistance expertise and activities 
enabled with the funding provided by the American Recovery and 
Reinvestment Act of 2009 (ARRA). This funding level is essential to 
continue and improve this outstanding program for our citizens. Due to 
the close of ARRA funding in March 2012 and the severely limited 2012 
funding, continued funding is even more critical to allow the WAP 
Network to fulfill its mandate duties and ensure continued quality and 
success at pre-Recovery Act levels.
    Some examples of the program's accomplishments include:
  --Creation and support of more than 13,000 full-time, highly skilled 
        jobs within the service delivery network due to ARRA funds, the 
        second highest in the Nation, with 8,000-10,000 additional jobs 
        from annual grant funding, and many more in related businesses, 
        such as materials suppliers;
  --Weatherization of an additional 700,000 homes occupied by low-
        income families, more than 100,000 homes above projected 
        numbers, due to the ARRA and tens of thousands of more homes 
        through annual appropriations, thereby reducing energy use and 
        associated energy bills;
  --Served more than 7.1 million low-income homes since the program's 
        inception, with an additional 38.3 million eligible;
  --Saves an estimated 35 percent of consumption for the typical home, 
        with savings continuing year-after-year and actual $1 savings 
        increasing as fuel prices increase;
  --Saves $437 in first year energy savings for households weatherized;
  --Returns $2.51 for every $1 spent in energy and nonenergy benefits 
        over the life of the weatherized home;
  --Serves as a foundation for residential energy efficiency retrofit 
        standards, technical skills, and workforce training for the 
        emerging broader market;
  --Supports communities through local purchasing and jobs created 
        nationwide;
  --Reduces residential and power plant emissions of carbon dioxide by 
        2.65 metric tons/year per home; and
  --Decreases national energy consumption by the equivalent of 24.1 
        million barrels of oil annually.
    WAP is the largest residential energy conservation program in the 
Nation and serves an essential function by helping low-income families 
reduce their energy use. The program was developed in the late-1970s as 
a response to rapidly rising energy costs associated with oil shortages 
created by oil embargoes. The Congress acknowledged that low-income 
families were particularly vulnerable to increased energy price 
fluctuations and created the program to assist those families by 
reducing the cost to heat their homes. WAP was institutionalized within 
the Department of Energy in 1979 and today operates in all 50 States, 
the District of Columbia, five U.S. territories, and several Native 
American Tribes. Approximately 1,000 local agencies provide services in 
every political jurisdiction of the country using direct hire crews and 
local contractors to do the work, thus investing in local businesses 
and communities. These network providers use program funds to improve 
the energy efficiency of low-income dwellings, utilizing the most 
advanced technologies and testing protocols available in the housing 
industry. Since the Program's inception, more than 7.1 million homes 
have been weatherized using Federal, State, utility, and other monies.
    WAP is still as relevant now as it was when it was formed in 
response to the energy crisis 30 years ago. The savings to America's 
most vulnerable citizens are significant and make a huge, immediate 
difference in their lives. These families have an average energy 
burden--the percentage of their income needed to pay residential energy 
bills--around 15 percent of their income as compared to around 3 
percent for non-low income households, or five times greater. And the 
poorest families have a much higher energy burden than that. For 
example, in the State of California, Subcommittee Chair Dianne 
Feinstein's home State, there are more than 718,000 households below 50 
percent of the Federal poverty level, making less than $12,000 per year 
for a family of four. Those families have an energy burden of 36.5 
percent--more than one-third of their income. With lower energy bills, 
these families can increase their usable income and buy other 
essentials like food, shelter, clothing, medicine, and healthcare and 
thus investing in local businesses and communities. WAP provides a 
positive return on investment to meet its primary objectives of making 
homes warmer in winter and cooler in summer and creating safer and 
healthier indoor environments.
    Because of the advanced diagnostics and technology developed in 
WAP, the program is the foundation for the emerging green energy 
efficiency retrofit workforce. There are approximately 25,000 jobs in 
the Weatherization network, with many more supported in related 
businesses, such as material suppliers. These jobs are good, living 
wage jobs, which are more important than ever due to the economic 
downturn in the housing and construction industries. Workers are highly 
trained and receive on-going instruction to further develop their 
skills. WAP is at the core of the larger energy-efficiency retrofit 
market, and its training curricula, methods, and centers play an 
integral role in developing tools and techniques and a workforce. WAP 
managers, trainers, and technical experts figure prominently in the 
Recovery through Retrofit initiative, contributing their expertise to 
the Workforce Guidelines for Residential Energy Efficiency Workers and 
playing a key role in the development of standardized training 
curricula, worker certifications, and training facility accreditations.
    In order to sustain the program, it is critical that the WAP 
maintain adequate funding so the network can continue to provide jobs 
and support local economies as well as promote energy efficiency 
nationwide. The fiscal year 2012 level of $68 million is not enough to 
continue nationwide coverage of the program and continued low funding 
will result in the loss of jobs, investment of local business, and 
energy efficiency services that ensure the health and safety of 
families across the country.
    NASCSP urges the subcommittee to fund WAP at $210 million for 
fiscal year 2013. The WAP remains a crucial component of our Nation's 
energy future. WAP is a clearly proven investment, has provided 
significant energy savings, and has helped more than 7.1 million 
families live in safer, more comfortable living conditions. This is a 
program that has proved its worth and effectiveness for more than 30 
years. NASCSP looks forward to working with subcommittee members in the 
future as we attempt to create energy self-sufficiency and good jobs 
for millions of American families through these invaluable national 
programs.
                                 ______
                                 
        Prepared Statement of the National Carbon Capture Center
    Madam Chairwoman and members of the subcommittee: Southern Company 
operates the Department of Energy's (DOE) National Carbon Capture 
Center (NCCC) (http://nationalcarboncapturecenter.com) at the Power 
Systems Development Facility (PSDF) in Wilsonville, Alabama for DOE's 
National Energy Technology Laboratory (NETL). The NCCC is the world's 
premier research and development (R&D) facility for cost-effective 
carbon dioxide (CO<INF>2</INF>) capture technologies for use at coal 
and natural gas fired power generation and industrial facilities. With 
the completion of its construction in 2011, research is now underway to 
screen the more than 300 capture technologies already identified and to 
ensure development of those concepts most likely to be commercially 
successful. To accomplish this, the NCCC is collaborating with 
technology developers world-wide as well as industrial, utility, and 
fuel co-funding partners \1\ and is bringing to the Nation a proven 
technology development business model at a scale that is more cost-
effective than large demonstrations of single technologies. As the NCCC 
begins its first full year of operation in 2012, this partnership 
respectfully requests the support of the Congress for the fiscal year 
2013 DOE budget request at the fiscal year 2012 enacted levels for the 
annual operating costs of its NCCC.
---------------------------------------------------------------------------
    \1\ Current NCCC participants include Southern Company; the 
Electric Power Research Institute (EPRI); American Electric Power; 
Luminant; NRG; Peabody Energy; Arch Coal, Inc.; and Rio Tinto.
---------------------------------------------------------------------------
    I would like to thank the Senate for its past support of the NCCC 
and request the subcommittee's continued support of the DOE's Fossil 
Energy R&D core budget. At a time when our country's economy is 
recovering, we need to assure continued utilization of domestically 
produced, low-cost, coal and natural gas based power generation. DOE's 
Fossil Energy R&D efforts have already produced significant results to 
advance coal-based power. DOE's core R&D budgets, combined with 
investments by the private sector assure a sustainable technology base 
on which to address the environmental and economic challenges facing 
coal and natural gas use in the future. Operation of the NCCC in 
partnership with DOE will benefit the Nation by developing cost-
effective CO<INF>2</INF> capture technology for fossil-fueled power 
generation by teaming with technology developers and accelerating 
commercial deployment of viable technologies.
    The NCCC's CO<INF>2</INF> capture efforts address all three areas 
of DOE's CO<INF>2</INF> capture goals concerning postcombustion capture 
for conventional plants, pre-combustion capture for coal gasification 
power plants, and advanced oxy-combustion processes which produce a 
more CO<INF>2</INF>-rich flue gas than conventional combustion for 
easier CO<INF>2</INF> capture. Southern Company also supports the goals 
of the Clean Coal Technology Roadmaps developed by the Electric Power 
Research Institute (EPRI) and the Coal Utilization Research Council 
(CURC). These Roadmaps identify the technical, economic, and 
environmental performance that advanced clean coal technologies can 
achieve over the next 25 years.
    The NCCC offers a flexible applied R&D test facility which provides 
commercially representative flue gas and syngas and the necessary 
infrastructure in which developers' technologies are installed and 
tested to generate data for performance verification under industrially 
realistic operating conditions. This effort is a less costly way to 
bridge the gaps between fundamental R&D and more costly large-scale 
commercial demonstrations. By operating a unique, but central R&D test 
facility, available to all CO<INF>2</INF> technology developers, 
redundancy in testing sites and equipment is minimized and cost-
effective use of R&D funds is achieved.
                                summary
    The United States has historically been a leader in energy 
research. Adequate funding for fossil energy R&D programs, including 
environmental and climate change technologies, will provide our country 
with secure and reliable energy from domestic resources while 
protecting our environment. Current DOE Fossil Energy Research and 
Development programs, if adequately funded, will assure that a wide 
range of electric generation options are available for future needs. 
The Congress faces difficult choices when examining near-term effects 
on the Federal budget of funding energy research. However, EIA projects 
that coal will continue to fuel our country well into the future, and 
continued support for coal-based energy research will be essential to 
the long-term environmental and economic well being of the United 
States. Prior DOE clean coal technology research has already provided 
the basis for a 25-fold return in consumer benefits over research 
costs. To realize potentially even greater consumer benefits, the 
critically important R&D program in the CURC-EPRI Clean Coal Technology 
Roadmap must be implemented.
    One of the key national assets for achieving these benefits is the 
NCCC. The fiscal year 2013 funding for the NCCC will provide 
operations, maintenance, and modification of the facilities to test 
technologies that are critical to the development of cost-effective 
climate change technologies that will enable the continued use of 
fossil fuels to supply a share of the Nation's energy needs. Any budget 
cuts in the DOE Fossil Energy Core R&D budget from the fiscal year 2012 
enacted levels could proportionately impact the necessary work that 
will be conducted at the NCCC. A key NCCC feature is its flexibility to 
test new carbon capture technologies for power generation systems in an 
integrated fashion and under realistic industrial conditions. The NCCC 
can evaluate CO<INF>2</INF> capture technologies as they are integrated 
into actual syngas (from gasification) or flue gas from actual power 
plant operations. Integrated operation allows the effects of system 
interactions, typically missed in un-integrated, laboratory-based, 
component development programs, to be understood. This integration 
provided by the NCCC is the key to ensuring component technologies are 
validated before they can be designed into large scale industrial 
applications. Furthermore, the NCCC is large enough to produce data to 
support commercial scale designs, yet small enough to be cost-effective 
(compared to typical large-scale demonstrations) and adaptable to a 
variety of technology research needs. The major accomplishments at the 
NCCC/PSDF to date and the current test program planned by DOE and the 
NCCC's industrial participants are summarized below.
                         prior accomplishments
    The PSDF test-bed has operated successfully for many years in 
support of DOE's advanced coal program. The two significant 
achievements are:
  --a new gasifier design (Transport Integrated Gasification 
        (TRIG<SUP>TM</SUP>)) suitable for use with low-rank fuels, 
        which represent more than one-half of the total coal reserves 
        in the United States and the world; and
  --hot gas filtration to improve energy efficiency.
    These two technologies have progressed to commercialization with 
integrated gasification combined cycle (IGCC) power plants being built 
at Kemper County, Mississippi, and Dong Guan, China. Other highlights 
of the test program included development of novel pressurized coal feed 
and ash removal systems, and sensors and controls automation 
improvements. In some instances, testing has eliminated technologies 
from further consideration. Such screening is valuable in that it 
concentrates R&D efforts on those technologies most likely to succeed 
and is an essential part of managing the U.S. DOE's financial 
resources.
          national carbon capture center current test program
    Building on success with TRIG<SUP>TM</SUP>, the NCCC/PSDF facility 
has refocused its mission on supporting the development and scale-up of 
cost-effective, commercially viable carbon capture technologies for 
fossil-fueled power plants through collaboration with the DOE and 
third-party technology developers. Most of the current CO<INF>2</INF> 
capture technologies are being developed at laboratory- or bench-scale 
under ideal conditions. Continued R&D under realistic field conditions 
are needed to validate laboratory results and identify technical issues 
that are not present under ideal conditions. In collaboration with 
technology developers, the NCCC makes available coal-derived syngas gas 
and flue gas to carry out applied R&D on components or small pilot-
scale systems to bridge gaps between fundamental R&D and large-scale 
commercial demonstration. This provides for a cost effective, seamless 
transition for promising technologies to migrate from laboratory into 
commercial demonstrations. And importantly, NCCC postcombustion test 
results are applicable to both coal and natural gas applications, new 
and existing.
    The NCCC is a unique applied R&D test facility containing two major 
sets of infrastructure to support CO<INF>2</INF> capture technology 
development:
  --an existing pilot-scale coal gasification facility that produces 
        syngas for pre-combustion CO<INF>2</INF> capture technology 
        evaluation; and
  --a Post-Combustion Carbon Capture Center (PC4) which enables testing 
        of capture technologies on flue gas from an adjacent fossil-
        fueled power plant.
    Both are readily adaptable to test a variety of technologies at 
multiple scales and using different coals, providing data for scale-up 
to commercial applications. This flexibility, in conjunction with real-
world operating conditions, allows the NCCC to support developers in 
advancing the CO<INF>2</INF> capture technologies that are critical to 
continued use of fossil fuels for power generation. Jointly with the 
DOE, NCCC has developed a Technology Screening Process which is a key 
evaluation tool to assess and prioritize technologies for testing at 
the facility. Currently more than 300 carbon capture technologies have 
been identified as screening candidates.
    Postcombustion.--Today's postcombustion capture technology has been 
estimated to increase the cost of electricity (COE) by up to 80 
percent.\2\ For both new and existing power plants, postcombustion 
capture technology must be made more efficient and cost-effective by 
reducing parasitic power and capital cost requirements. In 
postcombustion capture, CO<INF>2</INF> is separated from the flue gas 
in a conventional powerplant downstream of the boiler. Many 
postcombustion capture technologies need to be proven and integrated in 
an industrial powerplant setting. The PC4 test facility (completed in 
2011) was built to accommodate tests of a wide-range of capture 
technologies from flue gas and includes three major test areas:
---------------------------------------------------------------------------
    \2\ ``Cost and Performance Baseline for Fossil Energy Plants, 
Volume 1: Bituminous Coal and Natural Gas to Electricity, Final 
Report''; NETL, May 2007.
---------------------------------------------------------------------------
  --a pilot solvent test unit (PSTU) to test developers' next 
        generation CO<INF>2</INF> absorption solvents;
  --a second test bay to support evaluation of fully integrated test 
        systems supplied by technology developers; and
  --a bench-scale test area to accommodate small tests of emerging, 
        advanced technologies such as sorbents or membrane systems.
    Initial testing at the PC4 began in 2011 when researchers conducted 
trials with monoethanolamine (MEA) solvent to be used as a baseline to 
evaluate the performance of advanced CO<INF>2</INF> capture 
technologies. Solvents being developed by Aker Clean Carbon and Babcock 
& Wilcox, as well as Membrane Technology Research's membrane-based 
technology, were also tested. Commitments are in place for the NCCC to 
provide other advanced technologies a scaled-up testing platform as 
development progress warrants.
    Precombustion.--In precombustion capture, CO<INF>2</INF> is 
separated from the syngas produced by a coal gasification process, 
prior to the combustion of the syngas in gas turbine for power 
generation. CO<INF>2</INF> capture is estimated to increase the COE 
from an IGCC facility by more than 35 percent.\2\ Reductions in both 
capital cost and power requirements of CO<INF>2</INF> capture processes 
are needed for development of efficient and cost-effective pre-
combustion technology, and the NCCC is focused on achieving those 
goals. R&D activities at NCCC for pre-combustion capture include:
      Advanced CO<INF>2</INF> Capture Systems.--New solvents, sorbents, 
        and gas separation membrane technologies are being assessed on 
        syngas and are being scaled-up and tested based on fundamental 
        R&D progress by third-party developers.
      Water Gas Shift Enhancements.--Water gas shift (WGS) catalyst 
        test results have been conducted which reveal that parasitic 
        steam consumption can be reduced, which in turn increases the 
        net power output of an IGCC plant and reduces COE with 
        CO<INF>2</INF> capture. Results have been supplied to catalyst 
        suppliers and findings are being implemented at a commercial 
        IGCC plant currently under construction. Testing of various WGS 
        catalysts continues.
      Advanced Syngas Cleanup.--New advanced syngas cleanup systems are 
        being tested for reducing hydrogen sulfide, hydrochloric acid, 
        ammonia, and mercury to near-zero levels.
    Oxy-Combustion.--The NCCC is also evaluating the potential benefits 
of oxy-combustion CO<INF>2</INF> capture using the pressurized 
transport reactor operating in oxygen combustion mode. Preliminary 
screening studies have produced favorable results. Detailed system 
studies, modeling and additional economic analysis are being conducted 
to evaluate the commercial feasibility of this technology.
    Gasification.--In developing a cost-effective advanced coal power 
plant with CO<INF>2</INF> capture, the NCCC also evaluates 
opportunities to reduce cost for the entire plant in order to optimize 
the plant processes with the integration of the CO<INF>2</INF> capture 
processes. Some of these cost reduction opportunities include 
technology development for syngas cleanup, particulate control, fuel 
cells, sensors and controls, materials, and feeders.
                               conclusion
    The collaboration among DOE, technology developers, and private 
industry is allowing the National Carbon Capture Center to make 
significant strides toward the next generation of CO<INF>2</INF> 
capture technologies. These technologies hold the promise of reducing 
the costs of CO<INF>2</INF> capture to levels necessary to assure that 
affordable, reliable coal-based electric power can be produced for 
America's economy, while also meeting all of the environmental 
challenges associated with fossil fuel use. The Congress should sustain 
the DOE Fossil Energy R&D budgets at the fiscal year 2012 enacted 
levels.
                                 ______
                                 
     Prepared Statement of the National Community Action Foundation
    The National Community Action Foundation (NCAF) represents the 900 
local Community Action Agencies and their partner organizations that 
deliver the investments funded by the Department of Energy (DOE) 
Weatherization Assistance Program (WAP) in low-income homes. We urge 
the subcommittee to reject the President's fiscal year 2013 budget 
request for WAP in the Energy Efficiency and Renewable Energy (EERE) 
budget and, instead, provide $227.2 million for the fiscal year 2013 
program. We also hope the regulation regarding the process for formula 
allocations will not be set aside as requested.
    This figure, $227.2 million, is equal to the 2008 level; 2008 was 
the last program year before the massive, one-time expansion to create 
American Recovery and Reinvestment Act (ARRA) jobs was implemented. Our 
local members tell us that this is the minimum funding level for 
delivering a responsible and effective low-income residential 
efficiency program.
    WAP should also continue to play its role as the ``incubator'' of 
effective practices for the gradually developing conventional 
residential efficiency upgrade market; although the administration and 
many in the Congress have encouraged new demand for conventionally 
financed home energy upgrades by those with credit and assets, that 
market and the practices of the firms serving it has not yet matured. 
To deliver a high-impact, well-managed, low-income program, and set 
benchmarks for performance, energy savings, and transparent oversight, 
Weatherization must maintain the worker training, cutting-edge 
equipment and software, and the skilled managers and monitors. DOE 
Weatherization remains a valuable national resource because it serves 
as a model for quantifying investments, verifying performance, and 
provides the benchmark energy audit tools, testing, and verification 
protocols
    Energy Efficiency and Renewable Energy Budget Priorities.--First, 
we would like to address the issue of priorities in the EERE budget 
request. The request reflects a preponderance of research and 
development (R&D), of incentives and of some commercialization 
activities that, together, are intended to promote a ``market 
transformation'' in the near future and a technological transformation 
in the distant future. We believe the priorities demonstrated are 
impractical in general and unfair to a large part of the population. 
The lower priority which the budget gives to testing the results of 
building efficiency research as well as other research is a mistake. 
The results of the R&D that past years' appropriations have produced 
should be verified and moved to general use through deployment by real 
workers in real-world buildings. Further, offering taxpayer-financed 
incentives for consumers who can afford to invest in new homes and 
industry with credit to buy efficient equipment are only appropriate if 
a robust program can be maintained for the most inefficient of the 
millions of homes whose occupants lack the cash and credit to invest on 
their own.
    Energy Efficiency and Renewable Energy Claims About Lower-Income 
Consumers' Borrowing.--Secretary Chu's testimony before this 
subcommittee on March 14 suggests that the DOE's request erroneously 
assumes that large numbers of low-wage working families and retirees 
will be served by the minimal program requested because new types of 
lending will be available to such consumers so that they may buy their 
own improvements. Madam Chairman, the Department analysts are poorly 
informed about the financial situation of the WAP-eligible households, 
all of whom have incomes far below the median income of their State. 
The problem is not that they lack credit, which most do; the problem is 
that they lack adequate resources and income flow to purchase even 
immediate necessities.
    Minimum Program Capacity.--There is size and capacity threshold 
below which WAP can no longer function as an effective national 
program. It takes funding at least the level size of the 2008 pre-ARRA 
program to run a WAP that has trained, skilled, and well-equipped 
workers, with even more experienced energy auditors and with local and 
State inspectors checking and directing their work.
    As the subcommittee is well aware, the 2008 funding level we are 
requesting represented a drop from the program's resources a few years 
earlier. For some States, it meant less than a full-time monitor for 
the entire State and is still inadequate; however, our local members 
want you to know that. Given a similar core program, they are committed 
to finding enough additional partners with resources to serve every 
county in the Nation; however, with less to build on, they will not be 
able to offer utilities, building owners, and other investors the 
certainty of a well-trained, well-equipped workforce whose work will be 
backed by both local and State quality assurance. With the foundation 
of funding at the pre-ARRA period level, $227.2 million, community 
action will expand or develop partnerships with States; housing, 
economic development and public health organizations; utilities; and 
all manner of other local partners to create a robust and diversified 
portfolio of resources delivered as single, customized packaged to the 
dilapidated older homes on their waiting list.
    Maintaining a Nationwide Program and Formula.--At the proposed 
funding level, some States' formula allotments are particularly 
inadequate. Moreover, the administration requested a renewal of the 
one-time authority the subcommittee provided for 2012 which allows the 
Secretary to establish a formula without benefit of public regulatory 
process as required by law. We believe the subcommittee was wise to 
allow it in 2012 when information about uncosted balances was relevant 
and remained closely held by the Department. However, we believe it 
would be a major mistake to set aside the statute a second year in a 
row. It has turned out that the Department's information flow from 
States about uncosted balances was flawed at both ends. High-performing 
States now face imminent close-out of services, while other States are 
still catching up to large balances but received 2012 funds. More 
important, States must plan far ahead to match legislative and 
budgetary requirements; more instability in the WAP system will not 
contribute to good performance.
    Significant Private Partnerships Depend on the Programs' Competence 
and Transparency.--In 2008, the leveraged resources, including Low-
Income Home Energy Assistance Program (LIHEAP) dedicated funds and 
nearly as much from private utility partnerships, amounted to almost 
three times the Department of Energy Weatherization Assistance funding 
the Congress provided. The reason partners turned funds over to 
Weatherizers to deliver on low-income communities was the robust 
Federal program foundation that gave local and private investors the 
confidence to allow their resources to be combined with Weatherization 
delivery. Federal standards, training, procedures, and oversight 
requirements, including financial, assure our partners that their funds 
go where they intend, that homes will not receive two or three 
different kinds of evaluations and measures, that their jobs will be 
inspected, and that there will be transparent accounting of each kind 
of funding at the end.
    Proven Capacity Should Not Be Wasted.--As Secretary Chu testified 
to this subcommittee, the program delivered investments and ARRA jobs 
at a dramatically higher scale than predicted, surpassing its total 
production goal last year, coming in under budget and ahead of the 
schedule planned. Weatherization ranked second in job creation last 
quarter. Now our production is at about 100,000 more homes than planned 
for delivery--700,000--and a number of States are still delivering 
homes.
    NCAF is certainly aware of the delivery problems that affected a 
few of the recipients of the ARRA Weatherization expansion in a few of 
the States represented on the subcommittee. Our organization worked 
closely with DOE to raise quality and performance among our members. We 
are confident these efforts worked, and we stand behind the Secretary 
of Energy's testimony to several committees, including most recently 
the Committee on Oversight and Government Reform (3/20/2012) that 
serious problems existed in only 3 percent of the homes that have been 
weatherized since 2010. All of these cases are being resolved, at no 
further taxpayer expense, by the responsible parties.
    Worker Skills and Standards.--Community Action is exceptionally 
proud of the training it provided and the meaningful jobs organizations 
filled with more than 20,000 construction industry workers, all of 
which added up to between 14,000 and 16,000 full-time jobs per quarter 
until major layoffs began this past winter as ARRA funds were 
exhausted. There is still considerable work to do using prior year 
funds or ARRA in many States for at least the next 6 months. After 
that, fewer and fewer States will be able to sustain their workforce, 
their quality control, and their State oversight through the end of the 
2012 fiscal year.
    The Weatherization Program leaders and field experts have worked 
for 2 years with to develop definition of retrofit worker jobs skills, 
the training required to achieve such DOE skills, and formal work 
specifications for all key tasks involved in retrofitting residential 
buildings of all types. Together with others in the emerging industry, 
we have developed a yet-to-be implemented credentialing hierarchy which 
could transform the sector of the building trades that has been 
delivering energy retrofits in conjunction with housing upgrades 
without benefit of common definitions and skill specifications.
    Industry Training Capacity Is Built With Weatherization Assistance 
Program Funds.--Weatherization has a network of tested of training 
centers which serve not only the public sector program but also the 
utility industry. Among the most distinguished is Montana State 
University. NCAF was fortunate to be able to contribute funding (which 
the Exxon-Mobil Corporation generously donated to us) to underwrite a 
unique initiative in Montana that produced hours of video and other 
online training built by these legacy centers and several partners in 
higher education. These videos are now available nationwide to 
introduce the industry to potential workers and to train those in the 
field in a number of the required skills. It also resulted in models of 
developing new small businesses to provide high-quality energy audits 
in rural America in Oregon and in Virginia. Many of the others have 
others have recently contributed to the intellectual capital and 
training tools for the entire industry.
    Worker and Contractor Access to Opportunity and Training.--It is a 
great accomplishment that tens of thousands of newly unemployed workers 
have left the program with skills and credentials they would never have 
gained were it not for their experience with the ARRA Weatherization 
program. The Weatherization program has served as an employment 
``gateway'' to future opportunity for homebuilding industry workers who 
came in with only conventional skills, including many workers who were 
considered ``nontraditional'' in the construction field. The 
administration's inadequate request means this door slams shut.
                               conclusion
    We urge you not to accept the administration's request; it 
represents the end-stage of access to Weatherization assistance for 
lower-income families; within a very short period such low funding 
would also spell the end of utility-community partnerships that assure 
skillful delivery of coordinated investments.
    We hope the subcommittee will take a different direction and 
continue to build on the firm foundation that already exists for WAP by 
allocating $227.2 million in fiscal year 2013. Thank you for 
considering our concerns.
                                 ______
                                 
         Prepared Statement of the National Consumer Law Center
    The National Consumer Law Center (NCLC) is a nonprofit organization 
which, during its 35 years of existence, has advocated for policies 
that assist low-income families and seniors who struggle to pay their 
energy bills. NCLC strongly recommends that the Senate approve a 
funding level for the low-income Weatherization Assistance Program 
(WAP) of $250 million for fiscal year 2013.
    Because low-income families often live in older and poorly 
weatherized homes,\1\ they tend to consume more energy than absolutely 
necessary. Living in poorly weatherized houses leads to higher energy 
bills and places these families at much greater risk of having their 
utility services terminated for non-payment.\2\ Families can find 
themselves without adequate heat in the winter, without lights, or 
without the ability to prepare food, simply because their energy bills 
are exorbitantly high.\3\ At the extreme, house fires can result when 
families lose access to gas, electricity, or delivered heating fuels 
and instead resort, out of desperation, to unsafe heating sources and 
the use of candles.\4\
---------------------------------------------------------------------------
    \1\ According to data from the U.S. Energy Information 
Administration, 2005 Residential Energy Consumption Survey, 40 percent 
of households at or below 100 percent of the Federal poverty level 
lived in housing units constructed before 1960. Less than 30 percent of 
households living above the poverty level lived in housing constructed 
prior to 1960. Housing constructed before 1960 was not subject to the 
stricter energy codes that apply to more recently constructed housing. 
In addition, newer construction is more likely to use newer, more 
energy-efficient heating, cooling, lighting, and refrigeration 
equipment.
    \2\ Electric and natural gas service disconnection rates are much 
higher in low-income households than middle- or high-income households. 
In California, for example, the low-income disconnection rate in 2010 
was 5.5 percent, compared with 2.9 percent for non-low-income 
households. (CA Division of Ratepayer Advocate, ``Status of Energy 
Utility Service Disconnections in California'', March 2011, p. 2.)
    \3\ 2011 National Energy Assistance Survey Summary Report, National 
Energy Assistance Directors' Association, Nov. 2011. Available at 
www.neada.org.
    \4\ John R. Hall, Jr., Home Fires Involving Heating Equipment 
(January 2010) at ix and 33. Also, 40 percent of home space heater 
fires involve devices coded as stoves.
---------------------------------------------------------------------------
    Over the past 3 years, WAP has helped 860,000 households to reduce 
their energy bills,\5\ while also increasing the comfort and health of 
those living in those homes.\6\ Weatherization generally decreases 
energy usage--and energy bills--an average of 25 percent (with a wide 
variation above and below that average).\7\ DOE estimates that the 
average household's annual heating bill will be reduced by $437 as a 
result of receiving weatherization.\8\
---------------------------------------------------------------------------
    \5\ Testimony of DOE Secretary Steven Chu Before the Committee on 
Oversight and Government Reform, U.S. House of Representatives, March 
20, 2012, p. 3.
    \6\ Various studies have shown that weatherization can result in 
reductions in a range of health problems, including asthma and 
bronchitis. See, e.g. National Center for Healthy Housing/Enterprise 
Community Partners, Inc., ``Case Study: Creating Green and Healthy 
Affordable Homes for Families Living at Viking Terrace, Worthington, 
Minn.'' (2010). That study showed significant declines in bronchitis, 
sinusitis, and asthma (in adults) and respiratory allergies and ear 
infections (in children) following renovations that employed ``green 
and healthy'' principles.
    \7\ L. Berry & M. Schweitzer, ``Metaevaluation of National 
Weatherization Assistance Program Based on State Studies, 1993-2002'' 
(Oak Ridge National Lab, RNL/CON-488). Ex. Summ., p. x. The authors 
found that WAP achieved energy savings in gas-heated households of 21.9 
percent of the average pre-weatherization consumption of natural gas 
for all end uses and 30.8 percent of pre-weatherization space heating 
consumption.
    \8\ U.S. Department of Energy, Weatherization Assistance Program, 
http://www1.eere.energy.gov/wip/wap.html (last updated January 30, 
2012).
---------------------------------------------------------------------------
    Over those same 3 years, many States across the country have built 
up the infrastructure to reach far more low-income homes each year than 
before ARRA appropriated $5 billion for WAP.\9\ Under ARRA, States 
received approximately $1.6 billion per year over a 3-year period. 
Prior to that, annual funding for the program was between $224 million 
and $243 million in all but 1 year since fiscal year 2002. States not 
only increased the number of households served several fold, but also 
had to bring on new contractors and make sure new employees were 
properly trained.
---------------------------------------------------------------------------
    \9\ The American Reinvestment and Recovery Act (ARRA), Public Law 
111-5, section 2, division A, title IV, 123 Stat. 138.
---------------------------------------------------------------------------
    Choosing Massachusetts as one example, the State received 
approximately $5 million annually in the years immediately prior to 
ARRA. Under ARRA, the State will spend out its entire $125 million 
grant from DOE. Spending has increased eight fold on an annual basis. 
While the initial production goal was to weatherize approximately 
17,000 units, the State will actually weatherize 20,000 units. The 
quality of the weatherization work has been closely monitored by the 
local nonprofits that retain the weatherization contractors and by the 
State Department of Housing and Urban Development. In addition, 
auditors from the Massachusetts Office of the Inspector General, from 
the Federal Department of Energy, and from the Massachusetts Recovery 
and Reinvestment Office have all monitored the program more closely 
than in any year prior to ARRA, and found no instances of shoddy 
workmanship or financial fraud or mismanagement.\10\ Massachusetts has 
also helped develop a training pipeline for those interested in working 
within WAP and, more broadly, in the green energy field.\11\
---------------------------------------------------------------------------
    \10\ According to the Massachusetts Department of Housing and 
Community Development (DHCD), the State grantee of the Federal WAP 
funds, DHCD has met with the State Office of Inspector General (OIG) 
twice for formal interviews and with DOE WAP monitors four times during 
ARRA. The State OIG has also visited all of the State's WAP 
subgrantees. Despite this close monitoring, no instance of fraud has 
been identified nor have any ``significant findings'' been made. 
Rather, the Massachusetts WAP network has been praised by its DOE 
monitoring team for ``operat[ing] as a strong cohesive unit with good 
internal and external support.'' DHCD has also been cited for taking a 
``measured, prudent approach to preparing for the ARRA Weatherization 
Program''.
    \11\ The Bureau of Labor Statistics (BLS) recently issued a report, 
``Green Goods and Services Summary'' noting that in 2010, ``3.1 million 
jobs in the United States were associated with the production of green 
goods and services,'' comprising ``2.4 percent of total employment in 
2010.'' Green jobs (including ``weatherizing and retrofitting projects 
that reduce household energy'') now make up 6.8 percent of construction 
jobs, according to the BLS report, available at: http://www.bls.gov/
news.release/ggqcew.htm.
---------------------------------------------------------------------------
    While no one expects that the Congress will fund WAP in fiscal year 
2013 near the ARRA level of approximately $1.6 billion per year, NCLC 
calls upon the Senate to recommend a funding level that will ensure 
that the funding is adequate to maintain a network of agencies that can 
deliver high-quality weatherization services and achieve substantial 
energy savings in each home served. We believe that funding below $227 
million, the level in fiscal year 2008, would completely fail to meet 
that goal. We urge the Senate to appropriate no less than that amount, 
and strongly recommend an appropriation of $250 million. Even at a $250 
million level, virtually all States will have to substantially 
dismantle the infrastructure that they successfully built up over the 
past 3 years. State agencies across the country will be serving far 
fewer households than in any of the past 3 years, leaving many needy 
and eligible households literally and figuratively in the cold. The 
network of contractors and workers who now possess the skills this 
country needs to help us move towards a cleaner and greener energy 
future will find itself without work.
    The Congress must recognize that below the pre-ARRA funding level, 
funding for WAP can be so low that States will not have the minimum 
amount necessary to adequately oversee and deliver weatherization 
services. There is a threshold below which States will not have the 
resources to provide the financial oversight and training that is 
needed to run a high-quality program, as well as actually providing the 
funding local agencies need to carry out the weatherization work. 
Moreover, as funding levels fall, States will likely reduce not only 
the number of households served, but also the number or level of energy 
efficiency measures delivered to each home, leaving the full 
weatherization work that the house needs incomplete.\12\
---------------------------------------------------------------------------
    \12\ This has been true historically: many homes weatherized pre-
ARRA were only partially weatherized due to lack of funding; most 
States chose to reach more households rather than fully weatherize a 
smaller number of homes. For this reason, the Congress allows homes 
partially weatherized before 1994 to receive additional weatherization 
services. 42 U.S.C. 6865(c)(2). Post-ARRA, it is likely that a large 
percentage of households served by WAP will once again be only 
partially weatherized.
---------------------------------------------------------------------------
    This country is still in the grips of a serious economic downturn 
that leaves fully 1 in 12 Americans unemployed.\13\ Moreover, the 
nominal unemployment rate (8.3 percent) excludes the more than 1 
million workers who the Bureau of Labor Statistics counts as having 
given up looking because they are convinced the jobs just are not out 
there,\14\ well more than double the number of discouraged workers in 
2008. According to a Pew Fiscal Analysis Initiatives report, 4 million 
workers (more than the entire population of Oregon) were unemployed for 
1 year or longer, as of December 2011.\15\ Hard-working families who 
have been trying their hardest but are still unable to get work need 
the assistance of the Federal Government to get their energy bills down 
to more affordable levels. This is precisely the wrong moment to cut 
back too far on this much-needed program. Cutting back too deeply on 
WAP will also lead to substantial layoffs among the weatherization 
workforce at a moment when this country needs to build the green 
workforce. In the last quarter of 2011, as reported in January 2012, 
WAP ranked second among 200 Federal ARRA-funded programs in terms of 
job creation.\16\ WAP not only reduces energy bills for low-income 
households, but creates good jobs and helps build local economies.
---------------------------------------------------------------------------
    \13\ Bureau of Labor Statistics, ``Unemployment Rate'', available 
at: http://data.bls.gov/cgi-bin/surveymost (accessed March 22, 2012).
    \14\ Bureau of Labor Statistics, ``Not in Labor Force'', available 
at: http://data.bls.gov/cgi-bin/surveymost (accessed March 22, 2012)
    \15\ Pew Economic Policy Group Fiscal Analysis Initiative, ``Five 
Long-Term Unemployment Questions'' (February 1, 2012), question 1.
    \16\ Recovery.Gov, ``Track the Money'', available at: http://
www.recovery.gov/Pages/
TextView.aspx?data=jobSummaryProgram&topnumber=200&qtr=2011Q4 (accessed 
March 22, 2012).
---------------------------------------------------------------------------
    In summary, NCLC strongly recommends that the Senate approve a 
funding level for WAP of $250 million for fiscal year 2013.
                                 ______
                                 
       Prepared Statement of the National Hydropower Association
    The National Hydropower Association (NHA) \1\ appreciates the 
opportunity to submit this statement on the Association's priority 
programs within the Energy and Water Development Appropriations bill. 
The statement focuses on NHA's support of $59 million for the 
Department of Energy's (DOE) Water Power Program and its research and 
development (R&D) fiscal year 2013 initiatives. The Water Power Program 
dedicates its efforts to research, test, and develop breakthrough 
technologies and other sector innovations to increase generation of 
renewable, reliable, and affordable electricity from water resources.
---------------------------------------------------------------------------
    \1\ NHA is a nonprofit, national trade association dedicated to 
promoting the Nation's largest renewable electricity resource and 
advancing the interests of the hydropower, pumped storage and new 
ocean, tidal, conduit and in-stream hydrokinetics industries.
---------------------------------------------------------------------------
    This statement also provides support for two other areas:
  --additional funding to increase hydropower generation on the Federal 
        system (Army Corps of Engineers and Bureau of Reclamation 
        facilities); and
  --funding for the Energy Policy Act of 2005 (EPAct 2005) hydropower 
        incentives.
  national hydropower association requests $59 million in fiscal year 
     2013 funding for the department of energy water power program
    Funds should be directed with continued support of initiatives 
across all hydropower technology sectors. The types of technologies 
covered--conventional hydropower, pumped storage, marine and 
hydrokinetic (MHK), and conduit technologies--unlock clean energy from 
our country's rivers, oceans, tides, and water conveyances.
    In recognition of the tremendous constraints on the Federal budget, 
NHA's proposed fiscal year 2013 level of $59 million represents no 
increase over the congressionally adopted fiscal year 2012 level and is 
a significant reduction from recent NHA requests. The Association also 
supports the fiscal year 2012 funding breakdown of $25 million directed 
to hydropower and $34 million directed to MHK.
      making the case for federal research and development support
    Over the last 30 years, the Department of Energy's R&D budget for 
all energy technologies (renewable, fossil, and nuclear) has declined 
precipitously.\2\ For the Water Power Program, the numbers are even 
more discouraging. Always one of the smallest of the Office of Energy 
Efficiency and Renewable Energy programs, in 2007-2008 the Water Power 
Program was zeroed out. The administration's fiscal year 2013 budget 
request would now cut funding by 66 percent.
---------------------------------------------------------------------------
    \2\ 2006 GAO Report: ``Key Challenges Remain for Developing and 
Deploying Advanced Energy Technologies to Meet Future Needs'' (GAO-07-
106).
---------------------------------------------------------------------------
    Federal Government R&D support is needed to promote hydropower 
development nationwide. Conducting business as usual will not provide 
the opportunity to fully realize the untapped potential available 
throughout the country.
    For MHK technologies, the R&D need is easy to demonstrate. The 
United States lags far behind Europe in its investment to harness ocean 
energy potential. While strides are being made, there are few actual 
U.S. MHK projects, and those in existence are at early-stage 
commercialization and deployment.
    However, for conventional hydropower technologies, the R&D case is 
no less strong and the need no less urgent. Some argue hydropower is a 
``mature'' technology and not a candidate for R&D support particularly 
in a constrained budgetary environment. This is a false choice.
    Though a proven, reliable technology, hydropower owners, and 
operators are always seeking ways to increase generating efficiencies, 
improve water use, enhance environmental performance, and develop 
better operating regimes. And now the industry looks to address new 
issues resulting from the ever-changing electricity market and the 
challenges posed by integration issues and grid reliability concerns.
    Hydropower, like the automobile, is a technology that has 
transformed over the course of a century. No one argues that the 
government should stop investing in auto R&D--improving fuel efficiency 
and economy, safety, incorporating new materials, et cetera. The same 
holds true for continuing advancements in the hydropower sector. Since 
the re-establishment of the Water Power Program in 2008, the Department 
of Energy has begun several initiatives across the sector. These 
include:
  --Assessing resource potential (MHK, nonpowered dams, conduits);
  --Reducing the cost of energy;
  --Advancing technology readiness (new turbine designs for 
        conventional, MHK and conduit applications, as well as other 
        equipment and operational improvements);
  --Ensuring environmental responsibility (technology advancement to 
        analyze and mitigate potential impacts);
  --Quantifying hydropower's value to the grid (determining how to 
        increase the use of wind and solar through greater grid 
        flexibility and stability utilizing hydropower for 
        integration); and
  --Advancing hydropower upgrades (analyze, assess and maximize 
        generation at existing facilities).
    It is these types of initiatives and strategies that will propel 
the hydropower and MHK industries forward, enhancing their contribution 
to the Nation's electricity portfolio.
     department of energy water power program goal: 15 percent of 
                    electricity from water resources
    NHA commends and supports the DOE Water Power Program's new vision 
for water power technologies to provide 15 percent of the Nation's 
energy by 2030.\3\ Like the goal established to support increased wind 
generation, this is a fitting goal and one that recognizes hydropower's 
role in achieving our country's push to substantially increase clean-
energy generation over the next 20 to 30 years.
---------------------------------------------------------------------------
    \3\ DOE Wind and Water Power program brochure: ``Water Power for a 
Clean Energy Future'' (p. 2) http://www1.eere.energy.gov/water/pdfs/
wp_accomplishments_brochure.pdf.
---------------------------------------------------------------------------
    Ultimately, for clean-energy policies to succeed, support for 
increasing generation from all water power resources, conventional, 
pumped storage, and MHK, is critical.
    Not only does increasing hydropower generation provide more clean 
energy megawatts to the grid, but it also increases the amount of grid 
reliability, stability, and integrations services that hydropower 
provides in order to enhance the penetration of variable energy 
resources.
    This is yet another area where Europe leads the United States. 
Experience on the continent has clearly shown that increasing variable 
energy generation requires access to energy storage. And that demand in 
Europe is being met with storage from both conventional hydropower and 
pumped storage projects.
    NHA believes the hydropower industry is primed for growth to 
provide these services; and this leads to an important R&D discussion. 
While hydropower and pumped storage projects can provide regional and 
grid-scale energy storage and other ancillary services, doing so will 
require projects to operate in new ways and modes, and in some cases, 
utilize new technologies.
    As such, several R&D questions (ones that the DOE is positioned to 
help answer) include:
  --What is the impact of wear and tear on existing technologies due to 
        new operational regimes to provide the needed ramping rates and 
        other integration services?
  --Does the United States have the technology in place to meet this 
        challenge?
  --Is there new technology better suited for this purpose? If so, 
        where? If not, what innovations are needed in components, 
        equipment, facilities to improve performance?
    As more is asked of the hydropower system to provide the ancillary 
services needed to meet clean-energy goals, more questions and R&D 
needs are sure to come into focus. The DOE Water Power Program will 
fulfill a crucial role in collaborating with the industry to make this 
transformation a reality.
             other specific research and development needs
    Over the last several years, NHA, the Electric Power Research 
Institute (EPRI), and individual industry members have provided many 
recommendations for needed data, analyses, research initiatives, and 
other activities that would help to realize the full potential of the 
water power sector.
    While the following section briefly touches on some of those 
recommendations, the larger point is that a robust DOE Water Power R&D 
program is needed. With an industry consisting of facilities owned by: 
Federal agencies; investor-owned utilities; municipalities and other 
public power entities; independent power producers; along with new 
technology developers; the DOE plays an important role in gathering 
national baseline industry data and serving as a clearinghouse for this 
information.
    Past R&D recommendations included, but are not limited to:
  --Advanced materials testing/science for turbines, generators, and 
        other components;
  --Meteorological forecasting and optimal dispatch of energy/water 
        systems;
  --New turbine designs (including distributed generation applications) 
        and operational regimes;
  --Enhanced water quality mitigation technology; fish passage 
        bioengineering and mitigation;
  --Study on potential effects of climate change on operations; and
  --Updated resource assessments.
   support for increased hydropower development at federal facilities
    NHA also supports funding efforts within the Army Corps of 
Engineers Civil Works Programs as well as at the Bureau of Reclamation 
to operate, maintain, and upgrade their existing hydropower projects 
and build on their existing non-powered infrastructure.
    NHA specifically supports the work of the Corps on its Hydropower 
Modernization Initiative (HMI) to develop a long-term capital 
investment strategy. NHA also hopes that both Federal agencies will 
continue to dedicate resources and staff time to standardize and 
streamline their permitting responsibilities. Projects that can be 
developed on Federal facilities are often too-longed delayed to realize 
the significant energy potential due to the inconsistent support of 
hydropower development and approaches to working with industry members 
by agency staff at the local level.
support for the federal hydropower incentives of the energy policy act 
                                of 2005
    In EPAct 2005, the Congress established incentive payments--subject 
to congressional appropriations--for the development of new hydropower 
at existing dams or conduits as well as to increase efficiency of 
existing hydropower facilities. To date these provisions have not 
received funding.
    NHA supports the provisions, and notes that at the time of passage, 
new projects in the hydropower industry were rare. Since EPAct 2005, 
the industry has seen a dramatic increase in interest and support for 
new development. In 2011 alone, the Federal Energy Regulatory 
Commission (FERC) issued 135 MW of project approvals and saw more than 
1,600 MW of projects file for approval.\4\ These incentives could help 
bring projects like these online in the coming years.
---------------------------------------------------------------------------
    \4\ http://hydro.org/wp-content/uploads/2012/01/OEP-Energy-
Infrastructure-Update-Dec-2011.pdf.
---------------------------------------------------------------------------
  hydropower's role in america's energy portfolio and growth potential
    Hydropower is America's leading source of domestic renewable 
electricity, providing clean, affordable generation in every region of 
the country. This reliable and underutilized resource accounted for 
about 8 percent of total electricity generation and two-thirds of 
renewable electricity generation in 2011.
    Hydropower generation avoids approximately 200 million metric tons 
of carbon emissions each year. In fact, regions that rely on hydropower 
as a primary energy source reap the benefits of significantly cleaner 
air as well as the lowest electricity prices.
    While a proven renewable energy resource, hydropower is also an 
energy resource for our future with tremendous growth potential. One of 
the many myths about hydropower is that there are no new opportunities 
for growth in our industry. In fact, the opposite is the case. In 
addition to the numbers cited above, there are proposed projects 
totaling more than 82,000 MW before FERC today across all technologies 
in the waterpower sector.\5\
---------------------------------------------------------------------------
    \5\ http://www.ferc.gov/industries/hydropower/gen-info/
licensing.asp.
---------------------------------------------------------------------------
                               conclusion
    Unlocking the vast hydropower potential of our rivers, oceans, 
tides, and conduits requires Federal R&D initiatives that make 
innovative ideas a reality. Continued investment in the DOE Water Power 
Program will ensure that innovative new technologies and operational 
advancements come to market, increasing America's clean-energy 
portfolio and providing the economic benefits and jobs the country 
needs. With the potential to develop new projects on hundreds of 
potential sites, hundreds of thousands of jobs will be created through 
the manufacturing and installation of these projects.
    NHA appreciates and strongly supports the work of the Water Power 
Program and opposes the proposed 66 percent reduction in funding in the 
fiscal year 2013 budget request. NHA calls upon the Congress to 
champion R&D investment in hydropower--the Nation's most widely used 
renewable energy resource that, if properly supported, can provide the 
foundation of America's clean-energy future.
                                 ______
                                 
Prepared Statement of National Insulation Association and International 
      Association of Heat and Frost Insulators and Allied Workers
 federal funding for mechanical insulation will create immediate green 
     energy jobs while saving energy and protecting the environment
    Chairwoman Feinstein, Ranking Member Alexander, and members of the 
Subcommittee on Energy and Water Development: on behalf of the National 
Insulation Association (NIA) and the International Association of Heat 
and Frost Insulators and Allied Workers (International Union), we are 
writing in support of a programmatic increase of $500,000 in fiscal 
year 2013 for the Department of Energy's (DOE) Advanced Manufacturing 
Program specifically to continue and expand their a national mechanical 
insulation education and awareness program.
    NIA represents 95 percent of the products utilized in the 
mechanical insulation industry, with members across the country at 800 
corporate locations, and the International Union represents more than 
25,000 workers and families employed in the mechanical insulation 
sector across the country. Together, our members, of which the vast 
majority are small businesses, have more than a century-long track 
record of providing large- and small-scale, long-term energy 
efficiency, emissions reductions, cost savings, and safety benefits at 
manufacturing facilities, power plants, refineries, hospitals, 
universities, and government buildings across the country.
    We have joined together to advocate for a national comprehensive 
advocacy program for increased use, maintenance, and retrofits of 
mechanical insulation in the commercial and industrial sectors because 
of its potential to create tens of thousands of jobs now, reduce carbon 
emissions, increase energy savings, and provide a safer working 
environment.
    Buildings are responsible for 40 percent of U.S. energy demand and 
40 percent of all greenhouse gas emissions, making efficiency gains in 
this area crucial if we are to markedly reduce America's energy 
consumption and effectively combat climate change. The industrial 
sector is similar in energy efficiency opportunities. At the 
residential level, insulation is well publicized for its efficiency 
benefits. However, the same cannot be said in the commercial and 
industrial sectors, which together consume 2\1/2\ times more energy 
than homes, according to the Energy Information Administration (EIA). 
Commercial and industrial insulation--collectively known as mechanical 
insulation--has the potential to slash the energy demand for the 
building and industrial sector.
    The Congress has already signaled its support for a mechanical 
education and awareness program through both the appropriations and 
authorization process. The Congress directed $500,000 be allocated in 
DOE's budget for a mechanical insulation education and awareness 
campaign in the fiscal year 2010 Energy and Water Development 
Appropriations bill (Public Law 111-85). This funding was a critical 
start, and we thank members of the Appropriations Committee for 
recognizing the value of this program, but more is needed to carry out 
a successful campaign. Further evidence of the Congress's support for 
such a program is the inclusion of language to authorize a 5-year, $3.5 
million a year national industrial energy efficiency education and 
training initiative focused on mechanical insulation in H.R. 2454, the 
American Clean Energy and Security Act of 2009 (section 275, page 521).
    By increasing awareness and use of this energy-saving technology, 
the Congress will both create jobs now and reduce carbon emissions. 
Creating jobs, particularly green jobs, is a top priority for the 
Congress and the administration. Using government data, NIA 
conservatively estimates that maintenance of insulation at 
manufacturing facilities and going beyond minimum levels in new 
construction can generate $4.8 billion in energy savings per year, 
reduce 43 million metric tons of carbon dioxide and other greenhouse 
gas emissions, and create 89,000 jobs annually.
    Best of all, these jobs don't require additional research and 
development. Mechanical insulation opportunities can be easily 
identified, with potential energy savings and emissions reduction 
determined with proven DOE-utilized software technology, and in many 
applications implemented in weeks, making projects truly shovel-ready.
    For facility owners and operators, the savings are swift and 
sustainable; the return on investment from mechanical insulation is 
typically less than 2 years (and sometimes as little as 6 months). 
Mechanical insulation also improves infrastructure in the public, 
educational, and healthcare sectors, among others.
    Fiscal year 2013 funding for mechanical insulation education 
programs is insufficient to make an economic impact in the industrial 
and commercial sector through energy savings, emissions reduction, and 
job creation. Increased funding from the Congress in fiscal year 2013 
would enable Federal agencies and industry partners to gather more 
data, work with engineering schools, and reach out to facility managers 
and owners, engineering and design professionals, and others to educate 
them about the benefits of increasing their focus on the benefits of 
mechanical insulation technology. Congressional funding would also 
ensure the promotion of the most energy-efficient uses of mechanical 
insulation in new construction, increased education about the energy 
savings that can be realized through proper maintenance and a renewed 
focus on retrofitting mechanical insulation in older buildings and 
manufacturing facilities that together will generate substantial carbon 
emissions reductions and sustainable jobs.
    NIA and the International Union have cumulatively contributed $3 
million in developing and beginning the implementation of the campaign 
and are full partners with the Energy Department in carrying out 
meaningful elements to prove and encourage the greater use of 
mechanical insulation made possible by $500,000 in fiscal year 2011 
funding appropriated by this subcommittee and enacted into law. As 
such, we have outlined proposed program elements to continue our 
comprehensive, persuasive awareness campaign to engage and motivate 
industrial and commercial decisionmakers to take action.
    Elements of the program would include:
Education and Awareness
Mechanical Insulation Basics and Energy Assessment Process:
  --DOE Industrial Assessment Centers.
  --Engineering, HVAC, and Mechanical Design Schools.
  --Inspection and Code Officials.
DOE and Other Tool Utilization (Facility Management and Design 
Professionals):
  --Simple Calculators.
  --E-Learning Modules.
  --3E Plus.
Tool Development
Mechanical Insulation and Energy Modeling Programs.
Building Simulation Programs--The Role of Mechanical Insulation.
Mechanical Insulation--HVAC Energy Calculator.
App development of simple calculators.
Data Development
Energy, Environment and Cost Reduction Impact Analysis of Mechanical 
Insulation:
  --Federal agency facilities.
  --Armed force facilities.
  --Manufacturing sectors.
  --Healthcare facilities (hospitals and medical facilities).
  --Education (schools and universities--colleges).
  --Underground--District heating applications.
Energy and water conservation i.e., Energy--Water nexus.
Research
Materials--Systems:
  --New technologies.
  --Energy impact comparison on an equivalent basis (including aging) 
        Inclusive of All Mechanical Insulation Type Applications.
  --Lifecycle analysis by product group.
  --Impact of duct liners and exterior duct wrap on air leakage--Energy 
        efficiency.
    NIA, its members, and the International Union are committed to 
working with the Congress, DOE, other Federal agencies, and key 
stakeholder groups on these and other initiatives that will lead to 
greater energy efficiency nationwide. We have formed alliances with 
engineering and other industry trade organizations and have offered to 
work with DOE to bring together a coalition to help develop, implement, 
and provide educational awareness programs established and funded by 
the Congress.
    Thank you for the opportunity to submit testimony in support of a 
program that is critical to job creation, economic growth, energy 
savings, and emissions reductions.
                                 ______
                                 
 Prepared Statement of the National Research Center for Coal and Energy
    Dear Chairwoman Feinstein and Ranking Member Alexander: Thank you 
for the opportunity to submit our testimony in support of the programs 
of the Office of Fossil Energy, Department of Energy (DOE) for fiscal 
year 2013.
                         introductory comments
    The Office of Fossil Energy programs address two of our Nation's 
key energy needs:
  --Technologies for meeting our current demands for electricity; and
  --Ensuring our supplies of petroleum and coal-derived fuels for our 
        transportation, industrial, and residential sectors.
    Coal technologies provide more than 40 percent of our electricity 
generation and are prominent in industrial applications for generating 
process heat. The control of criteria pollutants and technologies for 
the management of carbon emissions are important coal programs for 
protecting our environment, a challenge that becomes increasing complex 
as our Nation has legislated tighter limits on our energy-generating 
processes. Electricity generation based on natural gas fuels, currently 
providing 26 percent of our electricity generation, relies on 
components such as gas turbines and fuel cells and on emissions control 
technologies that were developed under the Fossil Energy program.
    However, despite the prominence of fossil fuels in our national 
energy mix for the present and for the foreseeable future, funding for 
Fossil Energy programs has been reduced dramatically over the past 
several years. Based on the fiscal year 2013 recommendations of the 
administration, overall funding for civilian energy programs would 
increase by 6 percent compared to fiscal year 2011 enacted funding. 
However, Fossil Energy, which impacts the vast majority of our energy 
extraction and utilization activities, would suffer a program reduction 
of 31 percent. Given our national goal of being more efficient in using 
our energy resources and being less dependent on imported energy, we 
recommend that Fossil Energy should be funded at $634 million for 
fiscal year 2013. Specific recommendations are provided in the Funding 
Recommendations section.
            benefits of investment in fossil energy research
    Our Nation has benefitted from investments in fossil energy 
research. In a study conducted by the National Research Council (NRC) 
covering the period from 2000-2020, the NRC concluded that investments 
in coal research, estimated to be around $9 billion in 2010 constant 
dollars, would return around $14 billion in Federal tax revenues, a 
ratio of 1.6:1. Related, but incomplete, studies for natural gas show 
that our cumulative investment of $352 million from 1978-1999 in coal 
bed methane, tight gas, and shale gas research have returned cumulative 
benefits of $13.13 billion by 2010, a ratio of 37:1. We recommend that 
the Congress conduct a more thorough study for natural gas as was done 
by the NRC for clean coal technology programs.
    In addition to the financial benefits to the U.S. Treasury, our 
economy benefits from reduced costs for energy. Programmatic funding 
supports jobs distributed over every State in our Nation. Research done 
by our university sector provides workforce training for our current 
and future fossil energy technology needs.
                        funding recommendations
Core Coal Research Programs
    The core coal research program consists of a suite of projects in 
carbon management, the development of advanced energy systems, and 
cross-cutting research that provides new ideas for both making 
meaningful evolutionary improvements to present technologies and for 
developing new, revolutionary technologies that can be game-changers in 
our energy portfolio. These programs cover the environmental, economic, 
and efficiency aspects of energy.
    We recommend that funding for the core coal research program be 
maintained at or above $404 million, a level of funding that has been 
supported in the past (fiscal year 2010) and is both achievable and 
necessary for an effective fossil energy research program. Subprogram 
elements would be distributed as follows:
      Carbon Capture ($85 Million).--Most of the increase ($16 million) 
        should be directed to existing plants (postcombustion capture) 
        since existing plants will contribute the major portion of 
        electricity generated from coal-based units for the next 20 
        years. Funds should also be increased for developing advanced 
        (revolutionary) technologies to reduce the cost of capture and 
        for large pilot scale testing to validate the effectiveness of 
        proposed capture technologies.
      Carbon Storage ($114 Million).--Most of the increase in this 
        subprogram should be directed to carbon reuse technologies to 
        use captured CO<INF>2</INF> from power plants for enhanced oil 
        recovery (EOR), a cost-effective way of storing CO<INF>2</INF> 
        in depleted oil reservoirs while simultaneously increasing our 
        production of petroleum to reduce our imports of foreign oil.
      Advanced Energy Systems ($145 Million).--Funding increases should 
        be directed toward advanced combustion systems (+$25 million), 
        advanced gasification systems (+$10 million), hydrogen turbines 
        (+$19 million), coal and biomass to fuels and chemicals (+$10 
        million), and fuel cells (+$25 million).
      Cross-Cutting Research ($60 Million).--Increases are recommended 
        for plant optimization (+$16 million), computational modeling 
        (+$5 million), and technical and economic analyses of new 
        plants (+$7 million). Particular emphasis is recommended for 
        polygeneration applications and advanced design plants.
Natural Gas, Oil, and Unconventional Fossil Energy Technologies
    We recommend an increase of $23 million for the natural gas program 
and $10 million for the oil/unconventional fossil energy technologies 
program. Funding would be allocated as follows:
      Natural Gas Technologies ($25 Million).--Focal areas are shale 
        gas, including resource characterization, drilling technology, 
        and environmental protection.
      Gas Hydrates ($15 Million).--Continue research on the development 
        of this major resource that exceeds our other reserves of 
        natural gas.
      Unconventional Fossil Energy Technologies ($10 Million).--Focal 
        areas would include oil shale resources and enhanced 
        environmental safety, especially for off-shore operations.
    In addition, we recommend retention of the Ultra Deepwater and 
Unconventional Technologies program funded under section 999 of EPAct 
2005, which the administration has recommended for rescission. This 
program supports competitive, cost-shared research jointly conducted by 
academic, nonprofit, State government (geological surveys) and industry 
which serve the needs of small oil and natural gas producers.
Other Programs
    Program direction funds support salaries of research and program 
staff in the headquarters offices and the field offices of the Office 
of Fossil Energy. We recommend that all program direction funds be 
allocated under the Program Direction sub-element. The level of funding 
for fiscal year 2013 should be in excess of $155 million.
    Administration recommendations for Plant and Capital Equipment 
should be increased to $17 million and Environmental Restoration should 
be funded at $8 million.
                            closing comments
    The funding requested by the administration for fiscal year 2013 is 
only 59 percent of the value of the equivalent program in fiscal year 
2010. This low level of funding is insufficient to support the fossil 
energy R&D program the Nation needs to maintain our ability to generate 
inexpensive electricity or to enhance our ability to produce 
transportation fuels from our own resources. America's ability to sell 
its energy technology abroad is also being severely restricted because 
of insufficient funding to develop revolutionary new research ideas or 
to successfully demonstrate viable technologies to reduce the financial 
risk concerns of Wall Street and other financiers. The recommendations 
for allocating $634 million in the program elements illustrated above 
would return funding to 95 percent of fiscal year 2010 levels. We 
strongly recommend restoration of a robust program of fossil energy 
research.
    We further recommend that the Congress also establish a mechanism 
to allocate funding on annual basis for the support of demonstration 
projects necessary to prove out promising fossil energy technologies 
for commercial development. In the past, $100 million has been 
allocated each year until a sufficiently large pool of funds was 
accumulated to offer a request for proposals for demonstration 
projects. We request congressional support for establishing a clean 
coal power initiative account for demonstration programs.
    Thank you for your support for fossil energy research and 
development to maintain America's energy, economic, and environmental 
strengths.
                                 ______
                                 
           Prepared Statement of the Nuclear Energy Institute
    The Nuclear Energy Institute \1\ (NEI) supports the 
administration's request for fiscal year 2013 funding for the Nuclear 
Regulatory Commission (NRC) ($1.053 billion), the Department of Energy 
(DOE) National Nuclear Security Administration (NNSA) Fissile Materials 
Disposition program ($921 million), and the DOE Office of Environmental 
Management ($5.7 billion). NEI recommends $117 million more for the DOE 
Office of Nuclear Energy ($792 million), and an increase of $1 million 
to restore the NNSA Export Control Review and Compliance program to 
$12.5 million.
---------------------------------------------------------------------------
    \1\ The Nuclear Energy Institute is the industry's policy 
organization, whose broad mission is to foster the beneficial uses of 
nuclear technology in its many commercial forms. Its membership, more 
than 350 corporate members in 17 countries, includes every U.S. utility 
that operates a nuclear power plant as well as international utilities, 
plant designers, architect and engineering firms, uranium mining and 
milling companies, nuclear service providers, universities, 
manufacturers of radiopharmaceuticals, universities, labor unions, and 
law firms.
---------------------------------------------------------------------------
adopting the recommendations of the blue ribbon commission on america's 
                             nuclear future
    NEI supports the general policy recommendations of the Blue Ribbon 
Commission (BRC) on managing used nuclear fuel and high-level 
radioactive waste. A DOE task force is scheduled to provide a plan on 
implementing the recommendations to the Congress by the end of July, 
and industry believes that report should provide a basis for the fiscal 
year 2013 budget. The following programs deserve support and represent 
the highest priorities for the nuclear energy industry:
  --Fuel Cycle Research and Development--$191 million (an increase of 
        $16 million);
    --Used Nuclear Fuel Disposition (the BRC recommendations)--$60 
            million; and
    --Advanced Fuel Research and Development--$60 million (+$20 
            million).
    NEI also supports the request of $10 million derived from the 
Nuclear Waste Fund to use on used fuel storage and disposal programs at 
DOE. NEI urges the subcommittee to support the following initiatives 
using $10 million from the Nuclear Waste Fund in fiscal year 2013. DOE 
should:
  --Work closely with utilities, and based on work performed by the 
        Department in fiscal year 2012, develop timelines, 
        specifications and costs for the development, licensing, 
        construction, and operation of a consolidated storage facility 
        for spent nuclear fuel and high-level waste;
  --Work closely with affected States, Indian tribes, and utilities to 
        develop detailed transportation plans for moving spent nuclear 
        fuel from the sites of nuclear power plants that have ceased 
        operation to a consolidated storage facility;
  --Work closely with affected States, Indian tribes, and utilities, to 
        develop and implement a plan for training first responders in 
        preparation for transportation under section 180c of the 
        Nuclear Waste Policy Act of 1982 (42 U.S.C. 10101); and
  --Identify communities potentially interested in hosting a 
        consolidated storage facility; and
  --Forward to the appropriate committees of the Senate and House of 
        Representatives a budget and authorizing legislation for 
        recommendations from DOE.
    Within the DOE Fuel Cycle R&D program, $5 million should be used in 
fiscal year 2013 to collect data on the aging characteristics of used 
nuclear fuel in dry cask storage systems, to support the extended use 
of these systems, and ensure their transportability after periods of 
extended storage. The Advanced Fuel R&D program includes the Accident 
Tolerant Fuel Initiative which is important to long-term light water 
reactor fuel development and should receive $60 million in fiscal year 
2013.
    The nuclear industry remains concerned about the termination of the 
Yucca Mountain project. The project should proceed and be funded so the 
technical review of the license application can be completed. Numerous 
State and local governments and the National Association of Regulatory 
Utility Commissioners are actively opposing DOE's withdrawal of the 
application for the Yucca Mountain repository at the NRC and in the 
courts. We urge the subcommittee to request a specific plan, including 
the resources required for completing the Yucca Mountain licensing 
process, assuming the courts rule the application cannot be withdrawn.
 uranium enrichment decontamination and decommissioning fund tax undue 
                    burden on electricity consumers
    The administration's fiscal year 2013 budget proposes to reinstate 
the uranium enrichment decontamination and decommissioning fund, with a 
tax on electric consumers of $200 million a year until 2022. Electric 
utilities have already paid twice for decontamination and 
decommissioning at uranium enrichment plants that were originally 
operated by DOE--first as part of the price for uranium enrichment 
services from the facilities and again under the Energy Policy Act of 
1992. Under the 1992 law, the tax on utilities was to end after 15 
years or the collection of $2.25 billion, adjusted for inflation. The 
utilities paid this amount in full. Because the industry has fully met 
its obligation for the cleanup of the government facilities twice 
already, NEI strongly opposes the administration's proposal. The 
industry appreciates the support of the subcommittee in rejecting this 
proposal in prior years and encourages you to continue to oppose this 
proposal.
            ensuring a strong nuclear regulatory commission
    An independent, credible regulatory agency is required for public 
confidence in commercial nuclear energy facilities. During the next 
couple of years, the NRC must continue its inspection and licensing 
activities at America's nuclear energy facilities while implementing 
safety recommendations of the agency's task force based on lessons 
learned from the Fukushima Daiichi accident. Effectiveness of the five-
member commission is essential to ensure NRC staff and licensees alike 
have clear policy guidance. The commission functions most effectively 
when it has a full complement of five commissioners, and the nuclear 
energy industry believes the Congress's highest priority should be 
ensuring that vacancies on the commission do not occur.
    The industry supports fiscal year 2013 funding at the NRC's 
requested level of $1.053 billion, an increase of $15 million above its 
fiscal year 2012 funding levels. The industry remains concerned, 
however, at the steep escalation in agency budgets and staffing levels 
over the last decade, from 2,763 staff in fiscal year 2001 to 3,927 
staff proposed in fiscal year 2013, and from $487 million in fiscal 
year 2001 to more than $1 billion proposed in fiscal year 2013. The 
industry is aware that the agency has $32 million in unobligated 
balances from prior years' appropriations. The NRC chairman has 
suggested that the additional Fukushima-related work would amount to 
nearly $30 million in new spending. If the agency does not plan to 
allocate these funds in this manner, the industry believes that the 
unobligated balances should be used to reduce licensee fees in future 
years.
    The industry applauds the oversight of the NRC by the Congress to 
ensure the agency effectively prioritizes its activities and achieves 
closure on open issues in a timely and appropriate manner. The agency 
should continue to achieve greater transparency in its budgeting to 
reveal planned staffing and resource needs by individual divisions. 
This is particularly true concerning the defense and national interest 
programs funded by taxpayers in appropriated funds. In any 1 year, the 
NRC should ensure that these programs are funded at the entire 10 
percent of available funds. A firewall should exist between fee-based 
sources of funds so the user fee is not used as an additional source of 
funding for appropriated programs. This would demonstrate to the 
Congress, the public and the industry (which pays 90 percent of the 
NRC's budget) that the budget fairly reflects industry-specific 
activities.
    Once again, the administration has proposed terminating the 
Integrated University Program, which supports the Nation's universities 
and community colleges. This program supports important nuclear science 
and engineering research and workforce training. Given that more than 
one-half of America's green jobs in the electric sector are at nuclear 
energy facilities, it is vital that the Congress provide financial 
support for students and junior faculty. The NRC program is managed 
jointly with DOE's Office of Nuclear Energy and DOE's National Nuclear 
Security Administration and has been authorized by the Congress. NEI 
supports $15 million for NRC to continue its participation in the 
program in fiscal year 2013 and recommends that NRC fund the program at 
that level.
         development of advanced reactor and fuel technologies
    The DOE Office of Nuclear Energy fiscal year 2013 budget is 12 
percent lower than fiscal year 2012 while other DOE non-nuclear 
programs are funded at much higher levels. Funding was reduced by 17 
percent in R&D programs that are vital to the Nation's interest in 
nuclear energy, science and technology. The cuts in DOE programs hinder 
the Nation's ability to manage used nuclear fuel and promote key 
research in innovative reactor concepts. The following programs deserve 
support and represent the highest priorities for the nuclear energy 
industry:
  --Small Modular Reactor Licensing Technical Support--$95 million 
        (+$30 million);
  --Light Water Reactor Sustainability Program--$25 million (+$4 
        million);
  --Energy Innovation Hub for Modeling and Simulation--$25 million;
  --Integrated University Program--$5 million (+$5 million); and
  --Next Generation Nuclear Plant--$41.5 million (+$20 million).
    The Secretary of Energy strongly supports the small modular reactor 
licensing program and has proposed a 5-year, $452-million program. 
Unfortunately, the DOE fiscal year 2013 request of $65 million falls 
well short of that obligation, and the industry requests that funding 
be increased to $95 million. DOE made a similar 5-year $250 million 
commitment for the Modeling and Simulation Hub and it is vitally 
important that this program receive the funding necessary to succeed. 
In addition, the Light Water Reactor Sustainability program that is 
cost-shared with industry should receive $4 million more than the DOE 
fiscal year 2013 request to implement research to extend the licenses 
of the Nation's operating reactors.
industry supports the department of energy innovative technologies loan 
                           guarantee program
    The nuclear industry appreciates the support provided by the 
subcommittee for the DOE loan guarantee program for nuclear energy 
plants and uranium fuel cycle facilities. NEI urges the subcommittee to 
maintain the appropriated funds for projects under development for 
fiscal year 2013.
    There is no cost to taxpayers for nuclear energy project loan 
guarantees, but there is significant benefit to consumers. The use of 
loan guarantees will lower the overall cost of nuclear energy projects, 
ultimately reducing the cost of electricity to consumers. Companies 
granted loan guarantees by DOE for nuclear energy projects must pay a 
premium for use of the program, plus cover all administrative costs. 
However, the clean energy loan guarantee program, although essential, 
is not yet a workable financing platform. NEI urges the subcommittee to 
exercise its oversight responsibilities on implementation by the 
executive branch, particularly on the issues of the credit subsidy cost 
that project sponsors are expected to pay.
              environmental cleanup and national security
    DOE's budget for the Environmental Management Office should be kept 
at level funding to ensure DOE meets its fiscal year 2013 enforceable 
environmental compliance milestones. NEI remains concerned about NNSA's 
part 810 export control rulemaking. The industry has identified several 
issues that will impact the implementation of the program in fiscal 
year 2013. The NEI urges the subcommittee to consider the impact to the 
U.S. industry as a result of the inadequate funding of $11.4 million 
proposed for fiscal year 2013 for review of export licenses, about $1 
million less than last year. NEI supports the administration's request 
of $921 million for the Fissile Materials Disposition program.
                                 ______
                                 
    Prepared Statement of the Nuclear Engineering Department Heads 
                              Organization
    Chairwoman Feinstein, Ranking Member Alexander, and members of the 
subcommittee: on behalf of the faculty and students comprising the 
nuclear education system in the United States we wish to provide 
testimony on fiscal year 2013 appropriations for the Department of 
Energy (DOE) and other relevant agencies under the subcommittee's 
jurisdiction.
    As you begin to develop fiscal year 2013 appropriations 
legislation, we strongly urge you to reject the administration's 
request to enact a 10-percent reduction in the research and development 
(R&D) budget of DOE's Office of Nuclear Energy, and maintain funding 
for the Integrated University Program at fiscal year 2012 appropriated 
levels.
    The Nuclear Engineering Department Heads Organization (NEDHO) is an 
alliance of heads and chairs of academic programs emphasizing nuclear 
and radiological science, engineering, and technology across the United 
States. NEDHO provides a forum for discussion, coordination, and 
collaboration on issues such as academic accreditation, funding for 
scholarships, fellowships, and research, and funding for training and 
research reactors. NEDHO collaborates with the American Nuclear 
Society, the Nuclear Energy Institute, the Test, Research, and Training 
Reactors (TRTR) organization, ABET, and other similar societies and 
organizations that have a stake in nuclear education. We also have 
strong interactions with industry and government both of which hire our 
students and utilize our research results. At present NEDHO's 
membership includes 43 U.S. academic institutions in 29 States, plus 2 
military academies.
    NEDHO seeks to inform national decisionmakers on nuclear policy, 
science and technology, and related education through Hill visits and 
by providing testimony at various subcommittee hearings. NEDHO's 
ultimate goal is to preserve our Nation's historic leadership in the 
nuclear field, and to sharpen our competitive edge in the future by 
maintaining a tradition of excellence in nuclear academia that is the 
envy of the world. For decades we have sustained the nuclear enterprise 
with a highly qualified human resource that led the development of 
nuclear power as a viable, safe, and environmentally sound source of 
energy. Our graduates have also contributed to advances in nuclear 
medicine and a multitude of industrial applications, for example oil-
well logging, and have engaged in international activities in the 
nuclear security and safeguards arena.
    In recent years interest in the nuclear science and engineering 
education enterprise has been on the rise in the United States driven 
by three primary factors:
  --U.S. economic and energy security;
  --global competitiveness; and
  --national nuclear security.
    First, with regards to U.S. economic and energy security we note 
that nuclear energy today accounts for 20 percent of the U.S. total 
electricity supply and more than 70 percent of non-carbon-emitting 
electricity sources. The U.S. nuclear power industry, under a rigorous 
yet robust regulatory regime administered by the U.S. Nuclear 
Regulatory Commission (NRC), has established itself as a safe, 
environmentally responsible, economic, and highly reliable (about 90 
percent capacity factors) provider of electric energy. Available 
forecasts for uranium ore indicate ample, reliable, and inexpensive 
supplies for the foreseeable future. The U.S. NRC's recent approval of 
two new AP 1000 reactors at the Vogtle site in Georgia, and their 
approval last week of two similar reactors in South Carolina, plus 
rising interest in Small Modular Reactors (SMR), ushers a new nuclear 
era in this country after a 30-year hiatus. The improving public 
perception of the safety of America's nuclear fleet will be sustained 
by the improved features in new designs and by incorporating lessons 
learned from Fukushima. Also the prospect of closing the backend of the 
fuel cycle that has been resuscitated by the Blue Ribbon Commission's 
report will hopefully kick into high gear to resolve this urgent issue 
once and for all.
    Second, on the global scale many developing and underdeveloped 
nations are ambitiously seeking to build up their nuclear power 
capacity, most notably in the two most populated countries in the 
world, China and India, whose economies are undergoing aggressive 
growth. A recent presentation by DOE personnel reported on the 
magnitude of the global market for nuclear power in the foreseeable 
future as follows: there are more than 430 reactors operating in 30 
countries, producing 370 GWe, or about 14 percent of the global 
electricity supply. There are currently 65 reactors under construction 
in 15 countries, with 26 of these in China alone. These operating and 
soon-to-operate reactors comprise a substantial global market for 
equipment (e.g., turbines, generators, instrumentation), fuel, and 
services. DOE also notes 154 power reactors planned in 27 countries for 
the next 8-10 years costing more than $740 billion, and a total of 331 
reactors proposed in 37 countries over the next 15 years at a projected 
cost of $1.6 trillion. Not only are the economic rewards of U.S. 
engagement in this growing global market necessary for providing highly 
paying jobs for Americans involved in the design, analysis, and 
potentially construction of new reactors, it is an essential means of 
spreading high U.S. technical standards in this sensitive industry 
across the globe. A safety culture that transcends national boundaries 
and that is based on a solid scientific foundation and supported by 
decades of excellent American experience is the best guarantee that 
nuclear power will remain an agent for improving the global 
environment.
    Third, the growing number of nuclear-hopeful nations and the 
widening footprint of nuclear power raises concerns about nuclear 
proliferation to historic highs and makes a strong case for developing 
novel and better detectors and methods for verifying that nuclear 
materials are only being employed for peaceful purposes. These concerns 
cannot be addressed solely by controlling the flow of scientific 
knowledge and underlying technologies and requires a revamped structure 
that better integrates the technical and policy aspects of this issue. 
In addition, the continued threat of nuclear terrorism is not likely to 
abate any time soon and demands the continuous and untiring vigilance 
of relevant agencies within the U.S. Government.
    Common to all these factors is the need for a highly educated 
nuclear workforce that is aware of national needs and that is well 
equipped to tackle them. The magnitude of this immense challenge was 
wisely recognized by the U.S. Congress and two administrations since 
2009 when two programs designed to reinvigorate nuclear education in 
the U.S. were inaugurated: The Integrated University Programs (IUP) and 
the DOE Nuclear Energy University Programs (NEUP). The Blue Ribbon 
Commission likewise recognized the importance of U.S. leadership in the 
nuclear area, and highlighted continued innovation in nuclear 
technology and workforce development as one of its eight major 
recommendations.
    A decade ago Federal investment in R&D and nuclear education 
infrastructure was administered by DOE's Office of Nuclear Energy (DOE-
NE). Support through scholarships, fellowships, equipment grants, 
research reactor upgrades, et cetera was crucial to stemming the 
precipitous decline in the 1990s of nuclear academic programs and 
university research reactors. In 2008, foreseeing an impending nuclear 
human resource crisis fueled by an aging workforce and the rising 
prospect of mass retirements DOE-NE created NEUP that directed 
approximately 20 percent of NE's R&D funding towards universities in 
support of DOE-NE's research mission. And in 2009 the IUP was instated 
by the Congress to instill some degree of stability in the funding 
stream of nuclear education by diversifying sponsorship across three 
Federal agencies: DOE's NE, DOE's National Nuclear Security 
Administration (NNSA), and the US NRC. The three arms of IUP were 
directed to support broad educational objectives via programmatic and 
non-programmatic awards, and to coordinate their support mechanisms in 
order to minimize duplication.
    In the ensuing years these support schemes have succeeded in 
reviving nuclear academia, and expanded interest in nuclear research 
topics into other disciplines, e.g., material science, mechanical 
engineering, radiochemistry, leading to a fertile interdisciplinary 
research environment in support of the Nation's research agenda. All 
awards made via NEUP and IUP are competitive and have seen broad 
participation from across the Nation. To be specific, the NRC invested 
its share of IUP in curriculum development ($5 million), Junior Faculty 
Development, scholarships and fellowships awarded to selected 
universities, and support of community colleges (a total of $10 
million). NNSA now dedicates $5 million in support of the Nuclear 
Science and Security Consortium led by the University of California, 
Berkeley, and awards $10 million in programmatic support of basic 
research projects relevant to nuclear security.
    DOE-NE administers IUP through NEUP in two separate funding 
streams. First, NEUP spends $5 million in direct IUP funding on 
scholarships and fellowships awarded directly to student applicants. 
This program is distinct in its objectives from NRC's scholarship and 
fellowship program in that it is designed to attract top talent to the 
field without regard to the university where they seek their respective 
degree. While this type of recruitment is likely to raise the overall 
quality of students in the nuclear field, it is expected to concentrate 
these students in highly ranked schools creating severe discrepancy 
among the remaining nuclear academic programs. In contrast, NRC's 
program empowers awarded departments to use the funds in recruitment of 
high-quality students that will promote the reputation of the awarded 
department and ensure a diverse educational foundation that improves 
the chances of innovative breakthroughs. In addition, DOE-NE has 
committed up to 20 percent of its R&D funds to support university 
research via competitive awards of varying levels of programmatic 
relevance. Some of these funds have been awarded in support of nuclear 
infrastructure in U.S. universities.
    To appreciate the importance of IUP for the revival of nuclear 
engineering academia in the United States we note that the elements of 
IUP cover the three primary missions of a research intensive 
university:
  --education (undergraduate and graduate);
  --research; and
  --service.
In the 3 years since its inception IUP has succeeded in reversing 
enrollment decline that all but dominated the 1990s, with enrollments 
continuing to climb even after the Fukushima event, and in revitalizing 
existing academic programs with several universities starting new 
nuclear engineering programs from scratch. Sustaining support of IUP 
sends a clear and loud message to university administrators who need to 
support nuclear programs and to prospective students that their career 
investment in this field is desirable and will be rewarded. In 
contrast, reducing DOE-NE's R&D budget, and eliminating support for IUP 
sends a confusing message to the same administrators and target 
students and steers them away from a field that we believe, and we hope 
you agree, is of prime national interest.
    In closing we hope that your subcommittee will reverse this 
damaging development. Continued funding for NEUP and IUP will protect 
the great progress achieved in nuclear academic programs in support of 
our Nation's ability to compete in the global nuclear marketplace and 
to enhance the safe and secure utilization of nuclear technology for 
the benefit of humanity.
    Thank you.
                                 ______
                                 
    Prepared Statement of the Sacramento Municipal Utility District
    Dear Chairwoman Feinstein: On behalf the Sacramento Municipal 
Utility District (SMUD), I want to thank you again for supporting the 
Department of Energy's (DOE) Water Power Program and your staff's 
excellent work in securing $59 million for the program in fiscal year 
2012. I am writing to respectfully request that the Senate 
Appropriations Committee fund the Water Power Program at the same level 
of $59 million for fiscal year 2013. This amount should be directed to 
support hydropower research and development including projects 
classified as ``conventional hydropower''.
    Investments during the past few years in what is labeled 
``conventional'' hydropower technologies have resulted in the 
development of more efficient and environmentally friendly turbines, 
reduced costs in state-of-the-art small hydropower technology, and 
advances in technologies to integrate intermittent renewable energy 
resources into the electric grid. These advances could be lost if the 
administration's fiscal year 2013 budget request, which proposes 
cutting the Water Power Program's funding level to $20 million, is 
enacted and if no R&D funds are designated for conventional hydropower 
projects.
    Northern California electricity customers have benefitted directly 
from investments made by the Water Power Program. In 2011, SMUD was 
awarded two multiyear grants, including a $4.96 million award to assist 
with initial geotechnical studies for the proposed 400 MW Iowa Hill 
pumped storage project. While pumped storage technology has existed for 
some time, SMUD is researching advanced plant control systems featuring 
variable speed pump generators that have yet to be applied in the 
United States. Use of this new technology would enhance SMUD's ability 
to integrate high levels of intermittent renewable resources such as 
wind and solar power into our electrical system while maintaining 
electric reliability.
    The DOE also awarded SMUD $1.49 million to help implement a new 
low-head modular hydropower unit at the Slab Creek Powerhouse project 
featuring inward flow reaction turbine technology allowing creative use 
of existing tunnels to generate power from minimum releases of the 
existing reservoir.
    Each of these grants was awarded based on their ability to 
contribute to the development of new technologies that produce 
conventional hydropower more efficiently, reduce costs, and increase 
sustainable hydropower generation. Both projects will advance 
innovation in a traditional, carbon-free resource.
    Because SMUD's grants depend on future appropriations, including 
fiscal year 2013 funding, and to ensure continued Federal investment in 
these valuable and innovative initiatives, SMUD believes the current 
level of $59 million in funding for the Water Power program should be 
maintained.
    Thank you for your attention and support on these issues.
                                 ______
                                 
     Prepared Statement of the Society for Industrial and Applied 
                              Mathematics
                                summary
    This written testimony is submitted on behalf of the Society for 
Industrial and Applied Mathematics (SIAM) to ask you to continue your 
support of the Department of Energy (DOE) Office of Science by 
providing $4.99 billion in fiscal year 2013. In particular, we urge you 
to provide significant support for the Applied Mathematics Program 
within the Office of Advanced Scientific Computing Research (ASCR) 
within the Office of Science. We also emphasize the importance of 
support for graduate students, postdoctoral fellows, and early career 
researchers.
                           written testimony
    We are Dr. Lloyd Nicholas Trefethen, President, and Dr. Reinhard 
Laubenbacher, Vice President for Science Policy, of the Society for 
Industrial and Applied Mathematics (SIAM). On behalf of SIAM, we are 
submitting this written testimony for the record to the Subcommittee on 
Energy and Water Development of the Committee on Appropriations of the 
U.S. Senate.
    SIAM has approximately 13,000 members, including applied and 
computational mathematicians, computer scientists, numerical analysts, 
engineers, statisticians, and mathematics educators. They work in 
industrial and service organizations, universities, colleges, and 
government agencies and laboratories all over the world. In addition, 
SIAM has more than 500 institutional members--colleges, universities, 
corporations, and research organizations. SIAM members come from many 
different disciplines, but have a common interest in applying 
mathematics in partnership with computational science towards solving 
real-world problems.
    First, we would like to emphasize how much SIAM appreciates your 
subcommittee's continued leadership on and recognition of the critical 
role of the DOE Office of Science and its support for mathematics, 
science, and engineering in enabling a strong U.S. economy, workforce, 
and society. DOE was one of the first Federal agencies to champion 
computational science as one of the three pillars of science, along 
with theory and experiment, and SIAM deeply appreciates and values DOE 
activities.
    Today, we submit this testimony to ask you to continue your support 
of the DOE Office of Science in fiscal year 2013 and beyond. In 
particular, we request that you provide the Office of Science with 
$4.99 billion, the level requested in the fiscal year 2013 budget 
request. SIAM is aware of the significant fiscal constraints facing the 
administration and the Congress this year, but we note that, in the 
face of economic peril, Federal investments in mathematics, science, 
and engineering remain crucial as they help to maintain U.S. pre-
eminence in innovation, upon which our economy and fiscal health 
depend.
          the role of mathematics in meeting energy challenges
    The Nation faces critical challenges in energy, including in energy 
efficiency, renewable energy, improved use of fossil fuels and nuclear 
energy, future energy sources, and reduced environmental impacts of 
energy production and use. As DOE and the research community design a 
long-term strategy to tackle these issues, the tools of mathematics and 
computational science (theory, modeling, and simulation) have emerged 
as a central element in designing new materials, predicting the impact 
of new systems and technologies, and better managing existing 
resources. Already, mathematical and computing researchers in 
universities, national laboratories, and industry are providing 
insights that propel advances in such fields as nanotechnology, 
biofuels, genomics, climate modeling, and materials fabrication.
    To tackle many of these challenges, DOE must be able to understand 
complex systems such as the U.S. power grid, the dispersion of nuclear 
radiation after a disaster, and the Earth's climate system. These and 
other complex systems have high levels of uncertainty, lack master 
plans, and are susceptible to breakdowns that could have catastrophic 
consequences. Understanding complex systems helps mitigate these risks 
and facilitate the development of controls and strategies to make 
systems more efficient.
                 department of energy office of science
    Activities within ASCR play a key role in supporting research that 
begins to fulfill the needs described above. Particularly critical 
programs include:
  --the Applied Mathematics program;
  --the Scientific Discovery through Advanced Computing (SciDAC) 
        program; and
  --programs to maintain the pipeline of the mathematical workforce.
    SIAM supports the $455.6 million requested for ASCR for fiscal year 
2013. SIAM appreciates that the requested increase for fiscal year 2013 
would be directed to the Mathematical, Computational, and Computer 
Sciences Research activity programs, helping to restore balance between 
research activities and facility investments.
    SIAM supports Office of Science plans to fund research to manage 
ever-growing data volumes in science. The explosion in data available 
to scientists from advances in experimental equipment, simulation 
techniques, and computer power is well known, and applied mathematics 
has an important role to play in developing the methods and tools to 
translate this shower of numbers into new knowledge.
    SIAM also supports funding for research to develop exascale 
computing and notes that investments in algorithm research and software 
development are essential to developing the next generation of high-
performance computers, realizing the full benefits of these new 
machines, and transferring those capabilities to industry for broad 
economic benefit.
        supporting the pipeline of mathematicians and scientists
    Investing in the education and development of young scientists and 
engineers is a major step that the Federal Government can take to 
ensure the future prosperity and welfare of the United States. 
Currently, the economic situation is negatively affecting the job 
opportunities for young mathematicians--at universities, companies, and 
other research organizations. It is not only the young mathematicians 
who are not being hired who will suffer from these cutbacks. The 
research community at large will suffer from the loss of ideas and 
energy that these graduate students, postdoctoral fellows, and early 
career researchers bring to the field, and the country will suffer from 
the lost innovation.
    Maintaining the pipeline of the mathematical workforce with 
programs that fund research and students is especially important 
because of the foundational and cross-cutting role that mathematics and 
computational science play in sustaining the Nation's economic 
competitiveness and national security, and in making substantial 
advances on societal challenges such as energy. DOE programs support 
the educational and professional development of the researchers at 
universities, companies, and the national laboratories who will tackle 
the research problems needed to change energy usage in this country.
    Within the Office of Advanced Scientific Computing Research, the 
Computational Science Graduate Fellowship program is a highly 
successful and model program that enables students to receive robust 
training in mathematics and also learn to interface with a wide variety 
of other fields. We request that strong support for this program 
continue, as well as ongoing support for postdoctoral fellows at DOE 
national laboratories and universities.
                               conclusion
    The programs in the Office of Science, particularly those discussed 
above, are important elements of DOE's efforts to fulfill its mission. 
They contribute to the goals of dramatically transforming our current 
capabilities to develop new sources for renewable and low-carbon energy 
supplies and improve energy efficiency to ensure energy independence 
and facilitate DOE's effort to increase U.S. competitiveness by 
training and attracting the best scientific talent into DOE 
headquarters and laboratories, the American research enterprise, and 
the clean-energy economy.
    We would like to conclude by thanking you again for your ongoing 
support of the DOE Office of Science and the actions you have already 
taken to enable DOE and the research and education communities it 
supports, including thousands of SIAM members, to undertake the 
activities that contribute to the health, security, and economic 
strength of the United States. The DOE Office of Science needs 
sustained annual funding to maintain our competitive edge in science 
and technology, and therefore we respectfully ask that you continue 
your support of these critical programs.
    We appreciate the opportunity to provide testimony to the Committee 
on behalf of SIAM and look forward to providing any additional 
information or assistance you may ask of us during the fiscal year 2013 
appropriations process.
                                 ______
                                 
 Prepared Statement of the State Teachers' Retirement System, State of 
                               California
                                summary
    Acting pursuant to congressional mandate, and in order to maximize 
the revenues for the Federal taxpayer from the sale of the Elk Hills 
Naval Petroleum Reserve to private industry by removing the cloud of 
the State of California's claims, the Federal Government reached a 
settlement with the State in advance of the sale.
    The State waived its rights to the Reserve in exchange for fair 
compensation in installments stretched out over an extended period of 
time.
    In its fiscal year 2013 budget, the administration has requested 
the appropriation of $15,579,815 for the final installment of Elk Hills 
compensation to fulfill the Federal Government's obligations to the 
State under the Settlement Agreement. The State respectfully requests 
the appropriation by the Congress of $15,579,815 of the final Elk Hills 
compensation payment due to the State.
                               background
    Upon admission to the Union, States beginning with Ohio and those 
westward were granted by the Congress certain sections of public land 
located within the State's borders. This was done to compensate these 
States having large amounts of public lands within their borders for 
revenues lost from the inability to tax public lands as well as to 
support public education. Two of the tracts of State school lands 
granted by the Congress to California at the time of its admission to 
the Union were located in what later became the Elk Hills Naval 
Petroleum Reserve.
    The State of California applies the revenues from its State school 
lands to assist retired teachers whose pensions have been most 
seriously eroded by inflation. California teachers are ineligible for 
Social Security and often must rely on this State pension as the 
principal source of retirement income. Typically the retirees receiving 
these State school lands revenues are single women more than 75 years 
old whose relatively modest pensions have lost as much as one-half or 
more of their original value to inflation.
          state's claims settled, as the congress had directed
    In the National Defense Authorization Act for fiscal year 1996 
(Public Law 104-106) that mandated the sale of the Elk Hills Reserve to 
private industry, the Congress reserved 9 percent of the net sales 
proceeds in an escrow fund to provide compensation to California for 
its claims to the State school lands located in the Reserve.
    In addition, in the act, the Congress directed the Secretary of 
Energy on behalf of the Federal Government to ``offer to settle all 
claims of the State of California . . . in order to provide proper 
compensation for the State's claims.'' (Public Law 104-106, section 
3415). The Secretary was required by the Congress to ``base the amount 
of the offered settlement payment from the contingent fund on the fair 
value for the State's claims, including the mineral estate, not to 
exceed the amount reserved in the contingent fund''. (Id.)
    Over the year that followed enactment of the National Defense 
Authorization Act mandating the sale of Elk Hills, the Federal 
Government, and the State engaged in vigorous and extended negotiations 
over a possible settlement. Finally, on October 10, 1996, a settlement 
was reached, and a written Settlement Agreement was entered into 
between the United States and the State, signed by the Secretary of 
Energy and the Governor of California, under which the State would 
receive 9 percent of the sales proceeds in annual installments over an 
extended period.
    The Settlement Agreement is fair to both sides, providing proper 
compensation to the State and its teachers for their State school lands 
and enabling the Federal Government to maximize the sales revenues 
realized for the Federal taxpayer by removing the threat of the State's 
claims in advance of the sale.
   federal revenues maximized by removing cloud of state's claim in 
                          advance of the sale
    The State entered into a binding waiver of rights against the 
purchaser in advance of the bidding for Elk Hills by private 
purchasers, thereby removing the cloud over title being offered to the 
purchaser, prohibiting the State from enjoining or otherwise 
interfering with the sale and removing the purchaser's exposure to 
treble damages for conversion under State law. In addition, the State 
waived equitable claims to revenues from production for periods prior 
to the sale. The Reserve thereafter was sold for a winning bid of $3.53 
billion in cash, a sales price that substantially exceeded earlier 
estimates.
 the congress should appropriate $15,579,815 for fiscal year 2013 for 
    the final installment of elk hills compensation due to the state
    The State's 9-percent share of the adjusted Elk Hills sales price 
of $3.53 billion is $315,099,815 (after deducting the State's share of 
the sales expenses). As the Congress had directed in the 1996 Act that 
mandated the sale of Elk Hills, 9 percent of the net proceeds were 
reserved in a contingent fund in the Treasury for payment to the State. 
To date, the Congress has appropriated seven installments of $36 
million and one installment of $48 million that was reduced to $47.52 
million by the 1 percent across-the-board rescission under the fiscal 
year 2006 Defense Appropriations Act, for total appropriations to date 
of $299.52 million of Elk Hills compensation owed to the State.
    The administration's budget for fiscal year 2013 requests the 
appropriation of $15,579,815 for the Elk Hills School Lands Fund to pay 
the final installment of Elk Hills compensation due to the State. 
(Budget of the United States Government, fiscal year 2013--Appendix, at 
p. 446, Account No. 89-5428-0-2-271). Thus, the provision for Elk Hills 
compensation is a line item in the Federal budget; it is not an 
earmark.
    The State respectfully requests the appropriation by the Congress 
of $15,579,815 to fulfill the Federal Government's obligation to the 
State under the Settlement Agreement.
                                 ______
                                 
   Prepared Statement of the University Corporation for Atmospheric 
                                Research
    On behalf of the University Corporation for Atmospheric Research 
(UCAR) and the university communities engaged in Earth systems research 
and education, I submit this written testimony for the record of the 
Senate Committee on Appropriations, Subcommittee on Energy and Water 
Development. UCAR is a consortium of 77 research universities that 
manages and operates the National Center for Atmospheric Research 
(NCAR) on behalf of the National Science Foundation (NSF) and the 
university community. I urge the subcommittee to fund the fiscal year 
2013 budget request of $4.992 billion for the Department of Energy 
(DOE) Office of Science, including $625.3 million for Biological and 
Environmental Research, and $2.337 billion for the DOE Office of Energy 
Efficiency and Renewable Energy (EERE).
    With the following, I highlight several science research and 
development programs that represent DOE's critical contributions to 
American leadership in science and technology:
                 department of energy office of science
    The DOE Office of Science directly supports university and 
laboratory research, increasing the Nation's capacity to understand and 
advance numerous fields of science, including the atmospheric sciences. 
More broadly, the DOE's world-class laboratories, the research 
conducted at the labs, and the scientific facilities accessible to the 
larger research community through the labs, are centerpieces of the 
robust innovation ecosystem that keeps the United States an 
international leader in science and technology and that stimulates the 
economy through technology development.
    Biological and Environmental Research.--The Biological and 
Environmental Research (BER) program within DOE Science makes 
fundamental contributions to the Nation's premier Earth system models 
and data analysis infrastructure that provide the scientific foundation 
for future decisionmaking on environmental change. Without BER-
supported work, we would not know the level of risk that cities, 
states, and businesses face from long-term weather trends and what 
societal preparation and adaptation might be needed.
    In particular, the Climate and Environmental Sciences program 
within BER provides indispensable support to the Community Earth System 
Model (CESM), a comprehensive computer model supported by DOE and NSF 
to analyze Earth's past, present, and project future climate. CESM is a 
major contributor to national and international assessments of 
environmental change. And while CESM is housed and managed at NCAR, it 
is an open-source climate model, involving contributions and 
improvements from scientists across the Nation and around the world.
    Thanks in part to BER support, CESM is incorporating more complex 
and realistic representations of the natural and human processes that 
shape the global climate. For example, the model now has a dynamically 
coupled carbon and nitrogen cycle component that allows representation 
of realistic exchanges of CO<INF>2</INF> between the atmosphere, the 
oceans, and the land surface. This new capability will allow realistic 
studies of the role of the ocean in absorbing and releasing 
CO<INF>2</INF> to the atmosphere, thereby obtaining more accurate 
predictions of future CO<INF>2</INF> concentrations that are 
fundamental to understanding the nature and magnitude of future changes 
in global climate. Carbon and nitrogen cycling in CESM provides the 
means to study in detail the contributions of land use change and 
vegetation disturbance to local, regional and global climate change. 
These new capabilities will allow the climate science community to 
address societally relevant questions in a way that has not been 
possible in the past.
    CESM performs exceptionally well on DOE's modern supercomputers, 
having been run at high resolutions in one experiment on more than 
100,000 processors of the Cray Jaguar-PE system at Oak Ridge National 
Laboratory. CESM scenario runs are now underway on this and other 
supercomputers to make projections for the U.N. Intergovernmental Panel 
on Climate Change's Fifth Assessment Report, expected to be released in 
2014.
    New in fiscal year 2013, climate and Earth system modeling research 
at DOE will develop an enhanced validation and verification capability 
to compare models and measurements against a unified framework using 
sophisticated software tools. This initiative promises to improve the 
efficiency of data management and analysis in the field. As in fiscal 
year 2012, atmospheric scientists will continue to receive grant 
funding for cutting-edge research on aerosols, clouds, and aerosol-
cloud interactions, in order to improve estimates of how these 
feedbacks impact climate, an area of atmospheric research that can be 
better understood.
    In order to develop more accurate, increasingly realistic, and 
higher resolution Earth system models, with better environmental 
predictive capabilities for businesses, stakeholders such as water 
resource managers, and communities, I urge you to fund the Office of 
Biological and Environmental Research within the DOE Office of Science 
at the requested $625.3 million for fiscal year 2013, including $315.6 
million for Climate and Environmental Sciences within BER.
                 advanced scientific computing research
    According to a 2011 National Research Council report The Future of 
Computing Performance, Game Over or Next Level?, ``Virtually every 
sector of society--manufacturing, financial services, education, 
science government, the military, entertainment, and so on--has become 
dependent on continued growth in computing performance to drive new 
efficiencies and innovation.'' Within the atmospheric sciences, the 
advancement of our science rests on the continued growth of computing 
performance and capabilities. DOE Science's Advanced Scientific 
Computing Research (ASCR) delivers needed leading edge computational 
and networking capabilities to scientists nationwide, enabling the 
Office of Science and the larger university community to address and 
answer major scientific questions.
    In particular, the atmospheric sciences community depends on the 
ASCR Leadership Computing Facilities (LCFs), which are available to all 
researchers for scientific discovery and to address critical 
engineering challenges. The continued support of these programs is of 
particular importance to Earth system model development. Representing 
the complex processes and feedbacks of the Earth's systems, while 
efficiently harnessing the enormous amount of computing power 
necessary, requires very advanced software engineering, computer 
science, and numerical techniques. Because the climate simulations 
using the CESM (described above) are too computationally intensive to 
be run at NCAR alone, many computational experiments are run at the 
LCF's.
    At the Oak Ridge National Laboratory Leadership Computing Facility 
(OLCF), for example, a new 2.33-petaflop Cray XT5 system is already 
available to the scientific community, and OLCF plans to upgrade it to 
a 10-petaflop Cray XK6 system in upcoming years. The Argonne National 
Laboratory Leadership Computing Facility (ALCF) plans to upgrade its 
IBM Blue Gene/Q supercomputer to a 10-petaflop system this year. 
Alongside the NCAR-Wyoming Supercomputing Center and its 1.6-petaflop 
Yellowstone system soon to be delivered to this new facility, these DOE 
supercomputers will empower atmospheric scientists to push the 
boundaries of Earth systems modeling science.
    In the same way that more powerful telescopes enable new 
discoveries in astronomy, each major supercomputer upgrade enables new 
numerical experiences that reveal more details regarding how the Earth 
system works. This information is critical to efforts to understand and 
predict regional climate, as well as to develop and assess mitigation 
and adaptation strategies. A failure to maintain and continue to 
upgrade these LCFs would seriously undermine the steady progress in 
this and many other areas of science.
    Another important cross-cutting computing program that operates in 
partnership with ACSR and other programs within DOE Science is the 
Scientific Discovery through Advanced Computing (SciDAC) program. 
SciDAC accelerates scientific progress by breaking down the barriers 
between disciplines and fostering more dynamic partnerships between 
basic researchers and computational science applications. A SciDAC 
effort in partnership with BER, for example, is quantifying the 
uncertainty in next-generation integrated Earth system models in order 
to dramatically improve our ability to characterize the drivers of 
global climate and quantify the impact of energy production and use on 
the environment and human health.
    I urge you to fund the Advanced Scientific Computing Research 
within the DOE Office of Science at the fiscal year 2013 requested 
level of $455.6 million and to support SciDAC program throughout the 
Office of Science budget.
    energy efficiency and renewable energy research and development
    Renewable energy research, development, and technology transfer are 
among the most important investments we can make to ensure long run 
economic and environmental sustainability. Renewable energy technology 
contributes numerous cross-cutting benefits to society, including 
reducing our dependence on foreign oil and providing energy security, 
driving innovation and job creation in the energy economy, 
decentralizing the energy market, providing new high-tech jobs, 
reducing the human toll on the environment, and improving air quality 
and public health outcomes. DOE's Energy Efficiency and Renewable 
Energy (EERE) is at the heart of this transformation.
    Our national research universities, in collaboration with DOE 
laboratories and the private sector, are driving the country's 
innovation in renewable energy and energy efficiency. One example of 
such collaboration includes a partnership between NCAR, DOE's National 
Renewable Energy Laboratory (NREL), and Xcel Energy, Colorado's largest 
utility company, to develop sophisticated wind forecasts for 
operational use. These forecasts provide critical information to 
utilities to:
  --help them predict how much wind power will be generated over the 
        next 24 to 72 hours;
  --enhance their ability to better integrate wind-generated 
        electricity into the grid; and
  --assist with decisionmaking processes regarding whether to power 
        down coal- and natural gas-fired plants when sufficient winds 
        are predicted. To reduce the costs of integrating wind and 
        solar energy into the electrical grid and make renewable energy 
        more cost effective, significant improvements in weather 
        forecasting technologies will be required, and additional 
        weather observations in the lower atmosphere will be needed.
    Given the critical importance to the Nation of developing 
economically and environmentally sustainable technologies for energy 
production, I urge the subcommittee to fund the fiscal year 2013 
request of $2.337 billion for the Office of Energy Efficiency and 
Renewable Energy.
    I want to thank the members of the subcommittee in advance for 
supporting, through DOE, basic and applied scientific research in the 
environmental and other Earth sciences. By doing so, you advance the 
Nation's economic recovery, help stakeholders manage irreplaceable 
natural resources, and sustain the Nation's global scientific 
leadership.
                                 ______
                                 
               Prepared Statement of the URS Corporation
    Mr. Chairwoman and members of the subcommittee: My name is Dr. 
Douglas Everett Wyatt, Jr.,\1\ and in my capacity as Director of 
Science Research for URS Corporation supporting the Department of 
Energy (DOE), Office of Fossil Energy, National Energy Technology 
Laboratory, I provide this testimony. Specifically, I will address the 
essential support of the Strategic Center for Natural Gas and Oil, a 
Program Office within the National Energy Technology Laboratory (NETL) 
for the Office of Fossil Energy.
---------------------------------------------------------------------------
    \1\ Douglas E. Wyatt works for the URS Corporation, a global 
Fortune 500 company and major support contractor to the U.S. 
Government. URS employs 57,000 people working in program management, 
engineering, design and construction, in site maintenance and 
operations, and in decommissioning and decontamination. URS has been 
named as the largest global environmental company and is consistently 
in the top ten in engineering and architecture, power, design, 
construction, transportation, and industrial processes. Wyatt holds a 
Ph.D. in geological sciences from the University of South Carolina, an 
MS in geology and geophysics from Vanderbilt University, a BA in 
physical geography, and BA in zoology from the University of Tennessee. 
He has more than 140 publications, papers, and presentations. Wyatt has 
30 years of experience including oil and gas exploration and 
production, nuclear energy, geothermal and renewable energy, 
environmental characterization and in creating and managing large 
multidisciplinary research programs. He lives in Aiken, South Carolina.
---------------------------------------------------------------------------
    The abundant availability of energy, in all of its various forms, 
has been a primary catalyst for the development of advanced 
civilization. While this is somewhat a philosophical thought I believe 
it to be as true today as it was for any time in the past. Simply put, 
there is no conceivable advanced future for the Nation without 
increasingly abundant energy. As a scientist for the past 30 years, I 
am keenly aware that energy can be produced cleanly and utilized 
efficiently as the following testimony will describe.
    No scientist or engineer believes that a single energy source is a 
viable solution for our national energy needs. We understand the energy 
systems of the past and present, and can reasonably predict the energy 
systems of the near future. However, because of the dynamics of 
discovery and imagination, our ability to predict energy needs and 
sources beyond six to eight decades is limited but the scientific 
community can predict energy utilization and resources for the next 30 
to 40 years. Oil and natural gas will continue to be a primary energy 
resource during this time and the research initiatives of the Strategic 
Center for Natural Gas and Oil strongly supports our Nation's ability 
to efficiently and cleanly use this resource as part of our global 
energy mix over the next several decades.
    Oil and natural gas exploration, development and production is 
well-understood by hundreds of oil and gas companies in the U.S. 
market. Yet only a few of the largest companies, i.e., ExxonMobil, 
ConocoPhillips, Chevron, have active self-funded research programs 
addressing new technology and science associated with oil and natural 
gas production, expansion, and efficiency. These companies, along with 
the larger industry support companies, i.e., Schlumberger, Halliburton, 
Weatherford, often support academic research in expanded and efficient 
oil and gas development, but the vast majority of their research is to 
develop a competitive advantage in the market; therefore, the knowledge 
gained is proprietary. Only when partnered with a Federal agency will 
the research become public. The Strategic Center for Natural Gas and 
Oil is unique in that it leverages Federal funding to integrate 
Federal, academic, and commercial research so that new science and 
technology, supporting national policy and energy needs, is performed 
with data available to the public. Therefore, I believe that it is 
critically important for the programs of the Strategic Center for 
Natural Gas and Oil to be more fully funded and expanded.
    In my capacity as a scientist, with a finger on the pulse of the 
state of the industry, I believe there are three critical areas in 
fossil energy oil and gas where a Federal research presence, through 
the Strategic Center for Natural Gas and Oil, is essential so that:
  --technologies are investigated under a variety of conditions and 
        potential impacts are better understood;
  --technologies or concepts that may not seem immediately useful or 
        marketable to industry in the short term are evaluated; and
  --the broadest distribution of knowledge and data is guaranteed.
    The three areas of Federal research with proposed budgets and 
rationale are:
    CO<INF>2</INF> Enhanced Oil and Gas Recovery--The Use of 
CO<INF>2</INF>  in Enhanced Oil Recovery and Residual Oil Zone 
Production From Historic, Diminished and Depleted Oil Reservoirs.--
Enhanced Oil Recovery (EOR) is common practice in the oil industry and 
CO<INF>2</INF> is currently used for this purpose. However, there are 
known limits to the capability of the existing technology and 
utilization issues due to the limited availability of clean 
CO<INF>2</INF>. Current research suggests that there are a variety of 
high-technology options to improve the effectiveness of CO<INF>2</INF> 
in the oil reservoir such as chemically altering nanoparticles and 
enhanced geophysical monitoring of the CO<INF>2</INF>-oil interaction. 
In addition, there is a probability that CO<INF>2</INF> can be 
beneficially reused as a replacement for water in the hydraulic 
fracturing of shale and other gas producing geological formations. The 
utilization of CO<INF>2</INF> in ``fracking'' operations would 
eliminate many of the current environmental concerns associated with 
shale gas production. Other examples of CO<INF>2</INF> use are 
available. Many new enhanced oil recovery concepts using CO<INF>2</INF> 
as the working fluid are subject to scientific analysis. I strongly 
recommend you fund this research program at $150 million over a 5-year 
period with $30 million annually. A $30 million annual budget would 
allow for 10 to 20 university research efforts to be completed, a 
robust extramural research competitive program to be completed, 
continuation of NETL intramural research, and for a joint industry, 
academic, Federal partnership to be formed to market and commercialize 
technologies developed from this program. The U.S. produces 
approximately 280,000 barrels of oil per day from 114 active fields 
from CO<INF>2</INF> EOR. Considering the current price of oil, if only 
2 extra days' of oil production were generated from this research, then 
the value of the new CO<INF>2</INF> EOR oil added to the national daily 
total would cover the cost of this critical research. However, new 
research into CO<INF>2</INF> EOR might be expected to produce new 
efficiencies of 5 to 15 percent and more, above current production. I 
strongly urge you to fund the Strategic Center for CO<INF>2</INF> 
Enhanced Oil and Gas recovery research.
    Environmentally Safe Development, Production and Utilization of 
Natural Gas and Oil/Liquids From Unconventional Source Rocks.--The 
production of massive quantities of natural gas from organic-rich shale 
source rocks provides our Nation a path to energy independence. The 
effective use of shale gas has the ability to shift global energy 
markets to our Nation's substantial favor. In effect, a vision of our 
Nation no longer coupled to the global oil market can be realized. The 
oil and gas industry understands this possibility and is proceeding 
with the development and production of abundant natural gas. Research 
into best practices for shale gas reservoir development, new 
technologies for reservoir stimulation, water disposal, near surface 
environmental protection, and in the overall utilization of the gas are 
but a few of the issues that demand attention. All of these research 
missions are important but two deserve special attention.
    Current shale gas reservoir development by hydraulic stimulation, 
``fracking'', only stimulates a portion of the total shale volume 
intersected by a horizontal well. It is probable that well bores might 
be drilled on a closer spacing increasing the volume of rock penetrated 
and the overall availability of gas. This possibility implies that the 
current recoverable volumes of natural gas from shale, or other organic 
rich gas-producing source rocks, might be doubled, or even tripled. 
Additionally, if wells can be drilled on a denser spacing then it 
becomes possible to strategically locate wells so that surface and 
human impacts could be maximized or minimized, depending on the need. 
Research to validate this concept and to develop best methodologies is 
required.
    New gas utilization concepts and technologies are also particularly 
important. Natural gas is a very clean and versatile fuel that can be 
used in fuel cells, chemical looping reactors, or directly burned in 
internal combustion engines. There are other advanced concepts which 
could be directly applied to the well-head and production area for 
electricity and industrial heat generation, converted to useful goods 
and merchandise such as plastics, among other probabilities. The wide-
spread distribution of shale gas reservoirs and the abundant gas 
produced from a typical shale well implies that it might be possible to 
use shale gas derived energy in the form of heat and electricity in 
small-scale localized transmission grids and funneled into the overall 
national SmartGrid technology program.
    Possibly more important is the use of natural gas as a bridge fuel. 
Natural gas is a clean burning and abundant fossil fuel that can be 
used in a variety of existing and new applications, including 
transportation, to form a bridge from our current fossil energy mix to 
a future electrified energy mix that is projected over the next several 
decades. Not only can the gas be burned for heat for internal 
combustion engines or electrical generators it can be used directly in 
fuel cell applications to generate electricity. Since natural gas can 
be compressed, liquefied, and adsorbed it can be used in almost any 
system requiring electrical or heat energy. It is a natural bridge fuel 
for our Nation that requires your attention.
    There are many recent research successes in the development of 
environmentally safe natural gas. These include the recent DOE data and 
support to the Environmental Protection Agency for ``fracking'' related 
groundwater issues, the development of potential new nanoparticles 
supporting gas and oil EOR, and the development of new approaches to 
modeling and imaging multiphase, multifluid flow in shale and 
sandstones. However, new research into the utilization of natural gas 
for new and expanded markets is needed. I recommend that $300 million 
funding allocation over a 5-year period be authorized to complete 
research in this area. A $60 million annual allocation will allow for a 
variety of university collaborations consisting of 20 to 40 university 
research efforts covering a broad spectrum of research needs. A 
competitive extramural research program of joint industry and joint 
industry and academia can be completed to insure for the best market 
and technology applications. Additionally, a small-business industry 
program to develop, market, and deploy new technologies will insure 
wide-spread use throughout the industry. Finally, ongoing intramural 
research at the NETL will insure the brokering of environmental data 
necessary to insure safe gas development.
    Natural Gas Hydrates.--Gas hydrates are the largest source of 
natural gas, methane, on Earth. Hydrates are ubiquitous on the 
continental shelves of all major continents and are, therefore, a 
globally distributed fuel resource. Hydrates are also abundant in 
arctic sediments. Much research has been done for hydrates and their 
character and distribution is well known. However, there is still 
research necessary in hydrate stability, the environmental systems in 
which they exist, and in the best, most efficient, most environmentally 
safe method of production. The United States has led global hydrate 
research, but the world is beginning to develop hydrates for energy. It 
is important for our Nation to maintain a key role in overall hydrates 
research. I recommend a $15 million 5-year program, $3 million 
annually, to continue extramural university research and intramural 
National Energy Technology Laboratory research programs.
                                 ______
                                 
       Prepared Statement of the Worcester Polytechnic Institute
    We have been working with the Department of Energy (DOE) National 
Energy Technology Laboratory (NETL) for several years developing 
technology which is efficient and economical for simultaneous hydrogen 
production and carbon dioxide sequestration. The project has been very 
successful and is in the final stage of development and 
commercialization. The project has provided employment opportunity for 
8-10 people. The most recent two projects are DE-FC26-07NT43058 
(Project title: Composite Pd and Pd Alloy Porous Stainless Steel 
Membranes for Hydrogen Production and Process Intensification) and 
Phase I of DE-FE0004895 (Project title: Engineering Design of Advanced 
H<INF>2</INF>-CO<INF>2</INF> Pd and Pd/Alloy Composite Membrane 
Separations and Process Intensification). We have achieved amazing 
success for the Phase I project and is ready to move into Phase II to 
construct pilot scale unit for the production of 100 pounds hydrogen 
per day and eventually to Phase III to design a plant for the 
production of 5 tons hydrogen per day. Unfortunately, the funding for 
Phase II and Phase III was cut and the project will be terminated. This 
untimely termination of the project not only causes people to lose 
their employment but also the United States to miss the opportunity to 
be a leader in simultaneous hydrogen production and carbon dioxide 
sequestration technology. In addition, it is sad that the technology is 
so successful due to the successful investment made by the DOE in the 
past several years has to be discontinued and set us back for several 
years. Therefore, I would like to urge the subcommittee to restore the 
appropriation to allow the project to continue and to provide the much 
needed employment. Moreover, the continuation of the project not only 
make good use of the U.S. investment already made in the past but also 
allow the technology to be commercialized to strengthen our prospect of 
stabilizing the fuel cost and energy independence.
    Thank you for your attention and please feel contact me for more 
information.

</pre></body></html>
